Audit Report




OIG-10-023
Audit of the Department of the Treasury’s Fiscal Years 2009 and
2008 Financial Statements
December 16, 2009




Office of
Inspector General
Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
Contents


Memorandum for the Secretary


Section I – Independent Auditors’ Report and Management’s Response


Section II - Department of the Treasury Fiscal Year 2009
             Agency Financial Report
THIS PAGE INTENTIONALLY LEFT BLANK
                                          DEPARTMENT OF THE TREASURY
                                                  W ASHINGTON, D.C. 20220




     OFFICE OF                                      December 16, 2009
INSPECTOR GENERAL




            INFORMATION MEMORANDUM FOR SECRETARY GEITHNER

            FROM:                      Eric M. Thorson
                                       Inspector General

            SUBJECT:                   Audit of the Department of the Treasury’s Financial Statements for
                                       Fiscal Years 2009 and 2008


            INTRODUCTION

            I am pleased to transmit KPMG LLP’s report on the Department of the Treasury’s (the
            Department) financial statements as of and for the fiscal years (FY) ending September 30, 2009
            and 2008.

            The Department of the Treasury Office of Inspector General is responsible for ensuring that the
            financial statement audit of the Department of the Treasury is conducted in accordance with the
            Chief Financial Officers’ Act of 1990, as amended by the Government Management Reform Act
            of 1994.

            The Department was granted a reporting extension from the Director of the Office of
            Management and Budget to complete its Agency Financial Report (AFR) by December 15, 2009.
            This extension was provided due to the unprecedented challenges that the Department faced in
            FY 2009 with the establishment of the Office of Financial Stability. However, since the AFR
            was not completed timely, this report could not be issued until December 16, 2009.

            RESULTS OF INDEPENDENT AUDIT

            Under a contract monitored by my office, KPMG LLP, an independent certified public
            accounting firm, performed an audit of the Department’s FY 2009 and 2008 financial statements.
            Among other things, the contract required that the audit be performed in accordance with
            generally accepted government auditing standards issued by the Comptroller General of the
            United States; Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
            Federal Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            In its audit of the Department, KPMG LLP

                •   found that the financial statements were fairly presented, in all material respects, in
                    conformity with U.S. generally accepted accounting principles;

                •   reported that weaknesses related to 1) financial management practices at the
                    Departmental level, and 2) financial systems and reporting at the Internal Revenue
                    Service represent material weaknesses for the Department as a whole;
Page 2


   •     reported that weaknesses related to 1) financial accounting and reporting at the Office of
         Financial Stability, and 2) information system controls at the Financial Management
         Service represent significant deficiencies for the Department as a whole;

   •     reported an instance of noncompliance with laws and regulations related to the Internal
         Revenue Code Section 6325; and

   •     reported that the Department’s financial management systems did not substantially
         comply with the requirements of the Federal Financial Management Improvement Act of
         1996

EVALUATION OF AUDITORS’ PERFORMANCE

To ensure the quality of the audit work performed, we reviewed KPMG LLP’s approach and
planning of the audit, evaluated the qualifications and independence of the auditors, monitored
the progress of the audit at key points, reviewed and accepted KPMG LLP’s audit report, and
performed other procedures that we deemed necessary. Additionally, we provide oversight of the
audits of financial statements and certain accounts and activities conducted at 13 component
entities of the Department. Our review, as differentiated from an audit performed in accordance
with generally accepted government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or on whether the Department’s financial management systems
substantially complied with the Federal Financial Management Improvement Act of 1996 or
conclusions on compliance with laws and regulations. KPMG LLP is responsible for the attached
auditors’ report dated December 15, 2009, and the conclusions expressed in that report.
However, our review disclosed no instances where KPMG LLP did not comply, in all material
respects, with generally accepted government auditing standards.

I appreciate the courtesies and cooperation extended to KPMG LLP and my staff during the
audit. Should you or your staff have questions, you may contact me at (202) 622-1090 or
Marla A. Freedman, Assistant Inspector General for Audit, at (202) 927-5400.

Attachment

cc: Daniel Tangherlini
    Assistant Secretary for Management
       and Chief Financial Officer
         SECTION I –

INDEPENDENT AUDITORS’ REPORT
 AND MANAGEMENT’S RESPONSE
THIS PAGE INTENTIONALLY LEFT BLANK
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                           Independent Auditors’ Report


Inspector General
U.S. Department of the Treasury:

We have audited the accompanying consolidated balance sheets of the U.S. Department of the Treasury
(Treasury Department) as of September 30, 2009 and 2008, and the related consolidated statements of net
cost, and changes in net position, combined statements of budgetary resources, and the statements of
custodial activity (hereinafter referred to as “consolidated financial statements”) for the years then ended.
The objective of our audits was to express an opinion on the fair presentation of these consolidated
financial statements. These consolidated financial statements are incorporated in the accompanying U.S.
Department of the Treasury Fiscal Year 2009 Agency Financial Report (AFR).

We did not audit the amounts included in the consolidated financial statements related to the Internal
Revenue Service (IRS) and the Office of Financial Stability (OFS), component entities of the Treasury
Department. The financial statements of the IRS and the OFS were audited by another auditor whose
reports thereon have been provided to us. Our opinions, insofar as they relate to the amounts included for
the IRS and the OFS, are based solely on the reports of the other auditor.

In connection with our fiscal year 2009 audit, we, and the other auditor, also considered the Treasury
Department’s internal control over financial reporting and tested the Treasury Department’s compliance
with certain provisions of applicable laws, regulations, contracts, and grant agreements that could have a
direct and material effect on these consolidated financial statements. Our conclusions on internal control
over financial reporting and compliance and other matters, insofar as they relate to the IRS and the OFS,
are based solely on the reports of the other auditor.

Summary

As stated in our opinion on the consolidated financial statements, based on our audits and the reports of the
other auditor, we concluded that the Treasury Department’s consolidated financial statements as of and for
the years ended September 30, 2009 and 2008, are presented fairly, in all material respects, in conformity
with U.S. generally accepted accounting principles.

As discussed in Note 29, the Treasury Department is a participant in significant legislation and transactions
whose purpose is to assist in stabilizing the financial markets.

Notes 1A, 8, 9, and 12, respectively, discuss the following matters:

•   Treasury Department’s consolidated financial statements do not include the assets, liabilities, or results
    of operations of commercial entities in which the Treasury Department has a significant equity interest
    as the Treasury Department has determined that none of these entities meet the criteria of a federal
    entity and are therefore not included in the Treasury Department’s consolidated financial statements.
•   The valuation of certain Treasury Department’s investments, loans, and asset guarantees is based on
    estimates. These estimates are inherently subject to substantial uncertainty arising from the likelihood
    of future changes in general economic, regulatory, and market conditions. As such, there will be
    differences between the net estimated value of these investments, loans, and asset guarantees at


                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
U.S. Department of the Treasury
December 15, 2009
Page 2 of 14


    September 30, 2009, and the amounts that the Treasury Department will ultimately realize from these
    assets. Such differences may be material and will also affect the ultimate cost of the programs to the
    Treasury Department.

Our, and the other auditor’s, consideration of internal control over financial reporting identified significant
deficiencies in the following areas:

•   Financial Management Practices at the Departmental Level (Repeat Condition)
•   Financial Systems and Reporting at the IRS (Repeat Condition)
•   Financial Accounting and Reporting at the Office of Financial Stability (OFS)
•   Information System Controls at the Financial Management Service (FMS)

We consider the significant deficiencies related to Financial Management Practices at the Departmental
Level, and Financial Systems and Reporting at the IRS noted above to be material weaknesses.

The results of our tests, and the tests performed by the other auditor, of compliance with certain provisions
of laws, regulations, contracts, and grant agreements disclosed an instance of noncompliance with Internal
Revenue Code (IRC) Section 6325, that is required to be reported under Government Auditing Standards,
issued by the Comptroller General of the United States, and Office of Management and Budget (OMB)
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended. In addition, the
Treasury Department’s financial management systems did not substantially comply with the Federal
Financial Management Improvement Act of 1996 (FFMIA) requirements related to compliance with
Federal financial management system requirements (FFMSR), applicable Federal accounting standards,
and the U.S. Government Standard General Ledger (SGL) at the transaction level.

The following sections discuss our opinion on the Treasury Department’s consolidated financial
statements; our, and the other auditor’s, consideration of the Treasury Department’s internal controls over
financial reporting; our, and the other auditor’s tests of the Treasury Department’s compliance with certain
provisions of applicable laws, regulations, contracts, and grant agreements; and management’s and our
responsibilities.

Opinion on the Financial Statements

We have audited the accompanying consolidated balance sheets of the Department of the Treasury as of
September 30, 2009 and 2008, and the related consolidated statements of net cost, changes in net position,
the combined statements of budgetary resources, and the statements of custodial activity, for the years then
ended.

We did not audit the amounts included in the consolidated financial statements related to the IRS, a
component entity of the Treasury Department, which reflect total assets of $36.8 billion and $35.6 billion,
net costs of operations of $12.5 billion and $12.2 billion, budgetary resources of $12.8 billion and $12.2
billion, and custodial revenues of $2.3 trillion and $2.7 trillion, before applicable eliminating entries, as of
and for the years ended September 30, 2009 and 2008, respectively. The financial statements of the IRS as
of and for the years ended September 30, 2009 and 2008, were audited by another auditor whose report
dated November 5, 2009, has been provided to us, and our opinion, insofar as it relates to the amounts
included for the IRS, is based solely on the report of the other auditor.
U.S. Department of the Treasury
December 15, 2009
Page 3 of 14


We did not audit the amounts included in the consolidated financial statements related to the OFS, a
component entity of the Treasury Department, which reflect total assets of $337.4 billion, net costs of
operations of $41.6 billion and budgetary resources of $699.4 billion, before applicable eliminating entries,
as of and for the year ended September 30, 2009. The financial statements of the OFS as of and for the
year ended September 30, 2009, were audited by another auditor whose report dated December 4, 2009,
has been provided to us, and our opinion, insofar as it relates to the amounts included for the OFS, is based
solely on the report of the other auditor.

In our opinion, based on our audits, and the reports of the other auditor, the consolidated financial
statements referred to above present fairly, in all material respects, the financial position of the Department
of the Treasury as of September 30, 2009 and 2008, and its net costs, changes in net position, budgetary
resources, and custodial activity for the years then ended, in conformity with U.S. generally accepted
accounting principles.

As discussed in Note 29, the Treasury Department is a participant in significant legislation and transactions
whose purpose is to assist in stabilizing the financial markets.

Notes 1A, 8, 9, and 12, respectively, discuss the following matters:

•   Treasury Department’s consolidated financial statements do not include the assets, liabilities, or results
    of operations of commercial entities in which the Treasury Department has a significant equity interest
    as the Treasury Department has determined that none of these entities meet the criteria of a federal
    entity and are therefore not included in the Treasury Department’s consolidated financial statements.
•   The valuation of certain Treasury Department’s investments, loans, and asset guarantees is based on
    estimates. These estimates are inherently subject to substantial uncertainty arising from the likelihood
    of future changes in general economic, regulatory, and market conditions. As such, there will be
    differences between the net estimated value of these investments, loans, and asset guarantees at
    September 30, 2009, and the amounts that the Treasury Department will ultimately realize from these
    assets. Such differences may be material and will also affect the ultimate cost of the programs to the
    Treasury Department.

The information in the AFR in Part 1: Management’s Discussion and Analysis (MD&A), and the Required
Supplemental Information in Part 2: Annual Financial Report, is not a required part of the consolidated
financial statements, but is supplementary information required by U.S. generally accepted accounting
principles. We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information. However, we did
not audit this information and, accordingly, we express no opinion on it.

Our audits, and the audits of the other auditor, were conducted for the purpose of forming an opinion on
the consolidated financial statements taken as a whole. The information in the Message from the Secretary
of the Treasury, the Message from the Assistant Secretary for Management and Chief Financial Officer in
Part 2, and Other Accompanying Information in Part 3 is presented for purposes of additional analysis and
is not required as part of the consolidated financial statements. This information has not been subjected to
auditing procedures and, accordingly, we express no opinion on it.
U.S. Department of the Treasury
December 15, 2009
Page 4 of 14


Internal Control Over Financial Reporting

Our, and the other auditor’s, consideration of the internal control over financial reporting was for a limited
purpose described in the Responsibilities section of this report, and was not designed to identify all
deficiencies in the internal control over financial reporting that might be deficiencies, significant
deficiencies, or material weaknesses. This report also includes our consideration of the results of the other
auditor’s testing of internal control over financial reporting that is reported on separately by the other
auditor. The other auditor performed an examination of internal control over financial reporting for the
purpose of providing an opinion on the effectiveness of IRS’s and OFS’s internal controls. This report,
insofar as it relates to the results of the other auditor, is based solely on the reports of the other auditor.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of the Treasury Department’s financial statements will not be prevented or detected and
corrected on a timely basis.

In our fiscal year 2009 audit, we, and the other auditor, identified the significant deficiencies in internal
control over financial reporting, discussed below. The significant deficiencies related to Financial
Management Practices at the Departmental Level and Financial Systems and Reporting at the IRS are
considered to be material weaknesses. Because of the IRS material weakness in internal controls discussed
below, the other auditor’s opinion on IRS’ internal control stated that the IRS did not maintain effective
internal control over financial reporting as of September 30, 2009.

Material Weaknesses

Financial Management Practices at the Departmental Level (Repeat Condition)

We identified the following two significant deficiencies that we collectively consider to be a material
weakness at the Departmental level. Both are repeat conditions related to Department-wide control
environment weaknesses.

Department-wide Entity Level Controls Affecting Financial Reporting

The Office of Accounting and Internal Control (AIC) within the Office of the Deputy Chief Financial
Officer (ODCFO), and the Office of Performance Budgeting and Strategic Planning (OPBSP) are
responsible for establishing and maintaining financial policies that guide financial reporting throughout the
Treasury Department, and ensure the overall integrity of financial data reported at the consolidated level.
The Treasury Department’s financial management offices are understaffed and have not grown
proportionally in relation to the Treasury Department’s rapid growth in new programs and operations in
fiscal year 2009. Specifically, the Department lacked sufficient personnel in key accounting and
managerial functions, who had the experience and core technical competencies to ensure that the
Department’s financial statements were prepared accurately, and in compliance with generally accepted
accounting principles on a consistent basis.
U.S. Department of the Treasury
December 15, 2009
Page 5 of 14


For example, we noted the following:
•   Two senior key accounting positions with responsibility for supervisory review and management of the
    Department’s consolidation process were vacant from April 2009 through July 2009 creating a gap in
    continuity and technical knowledge. Specifically, one key senior staff accounting position and one key
    supervisory accounting position went unfilled for a period of one month and four months, respectively.
•   A key position within OPBSP that has significant responsibilities for review and oversight of
    departmental budget activities was vacant for two months;
•   Staffing shortages continue to exist within AIC and the Treasury Department’s Office of Financial
    Management (OFM). These offices have significant program management and accounting
    responsibilities; and
•   A comprehensive, formalized succession plan has not been prepared for key personnel in AIC and
    other OFM officials who have significant institutional knowledge of the Treasury Department’s
    accounting and reporting processes that are at or near retirement eligibility status and bear excessive
    workloads.
These conditions occurred during a period when the Treasury Department was undergoing significant
program changes as well as addressing unique accounting and reporting issues related to new programs.
We identified several material financial reporting errors resulting from a lack of experienced and qualified
senior staff to support the Departmental financial accounting and reporting consolidation effort. The lack
of adequate experienced senior accounting staff within AIC and OFM, including the lack of capable
support staff with sufficient knowledge and experience led to significant delays in preparing supporting
accounting documentation and information as well as communication of issues when addressing critical
accounting matters.

In previous years, we reported a significant deficiency in this area, and although steps have been taken
towards filling key open positions, the Treasury Department has not addressed long-term human capital
needs in the area of financial management. The risk of material misstatement in the consolidated financial
statements increases without sufficient personnel who have the requisite financial accounting background,
knowledge, and expertise to perform these functions at the Department level.

Financial Accounting and Reporting

The Departmental level accounting and financial reporting infrastructure, including policies, procedures,
processes and internal controls, need improvement. We identified the following weaknesses that had a
pervasive impact on the effectiveness of internal controls over the Treasury Department’s consolidated
financial reporting.

•   Supervisory and monitoring control procedures were not consistently performed over certain financial
    data and other information transmitted by Treasury Department components. Monitoring control
    procedures to examine and resolve differences between subsidiary records and the general ledger,
    misclassified assets, and various over and understatements of proprietary and budgetary account
    balances were not performed timely.
U.S. Department of the Treasury
December 15, 2009
Page 6 of 14


•   Written policies and procedures to account for and report various non-routine, complex, and unique
    transactions, such as accounting and reporting of General Fund transactions, U.S. Mint’s Seigniorage,
    accrued interest and discount on debt, transfers to the General Fund, and non-entity transactions were
    either not documented or required further improvement.

•   AIC has not developed adequate written procedures for the consolidation process nor procedures for
    performing certain key financial statements analyses such as that for proprietary and budgetary
    relationships, and cumulative results of operations.

•   As a result of the Housing and Economic Recovery Act of 2008, the Treasury Department is involved
    in various unique financial transactions that are to be accounted for under the Federal Credit Reform
    Act of 1990, as amended (FCRA). FCRA has significant documentation requirements and the Treasury
    Department did not have documentation in place for a majority of the year.

•   AIC procedures for monitoring compliance with existing, as well as new laws and regulations that
    apply to the Treasury Department need improvement. Specifically, we noted a lack of communication
    during the year between the Treasury Department’s Office of General Counsel (OGC) and AIC on
    matters related to new legislation, the assessment of compliance requirements, if any, and subsequent
    actions to be taken by the Treasury Department. We noted an instance where legislation impacting the
    Treasury Department’s financial reporting had not been identified or communicated to AIC and the
    legislation, the Supplemental Appropriation Act of 2009 (PL 111-32 Section 14), was also not
    identified in OGC’s listing of laws and regulations provided at year-end.

•   Our review of Department-wide testing and reporting on internal control over financial reporting, in
    accordance with OMB Circular No. A-123, Management’s Responsibility for Internal Control (A-123),
    identified implementation issues similar to the prior year. The Treasury Department established an
    implementation plan (Plan) to assess, document, test, and report on internal control over financial
    reporting. However, this Plan was not updated timely for new events and transactions. Specifically,
    procedures and controls identified in the Plan for testing various transactions, information technology,
    and assessing compliance with laws and regulations need further improvement. In addition,
    implementation of A-123 requirements including the preparation of supporting documentation for work
    conducted at Treasury components should be improved.

These conditions resulted in material financial statement account balance variances that remained
unexplained, and account balances without adequate supporting documentation. In addition, material
adjustments were recorded without proper analysis and documentation. We also noted several instances
where the reviews conducted were not effective, allowing errors to remain undetected until discovered
during audit procedures.

The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requires that agencies establish internal
controls according to standards prescribed by the Comptroller General and specified in the Government
Accountability Office’s (GAO) Standards for Internal Control in the Federal Government (Standards).
The GAO defines “internal control” as an integral component of an organization’s management that
provides reasonable assurance that the following objectives are achieved: effectiveness and efficiency of
operations, reliability of financial reporting, and compliance with applicable laws and regulations. The
GAO Standards identify the control environment as one of the five key elements of control, which
U.S. Department of the Treasury
December 15, 2009
Page 7 of 14


emphasizes the importance of control conscientiousness in management’s operating philosophy and
commitment to internal control. These standards cover controls such as human capital practices,
supervisory reviews, and segregation of duties, policies, procedures, and monitoring.

A-123 states that monitoring the effectiveness of internal control should occur in the normal course of
business. In addition, periodic reviews, reconciliations or comparisons of data should be included as part of
the regular assigned duties of personnel. Periodic assessments should be integrated as part of
management’s continuous monitoring of internal control, which should be ingrained in the agency’s
operations. An effective, continuous monitoring program can level the resources needed to maintain
effective internal controls throughout the year.

Recommendations

We recommend that the Assistant Secretary for Management and Chief Financial Officer (ASM/CFO):

Department-wide Entity Level Controls Affecting Financial Reporting

1. Conduct a review of the current status of staffing, skill competencies, contract support, and training,
   within the AIC, OPBSP, and OFM to identify gaps between existing skills sets and those needed to
   fully perform the daily operations of AIC, OPBSP, and OFM as well as to establish or refine policy
   and procedures, where necessary.
    The review should be conducted either internally or by an independent specialist, and should identify
    the additional managerial skill sets needed, such as financial accounting background, knowledge, and
    expertise required to strengthen the financial accounting and reporting infrastructure, and, once
    strengthened, to effectively manage the processes necessary to be conducted throughout the year.
2. Once the review is completed (per recommendation 1 above), hire staff, or consider transferring
   suitable staff from other offices within the Treasury Department to meet these needs. In addition,
   provide training and guidance to staff as necessary to enhance the quality and timeliness of work
   products in light of the increased responsibilities discussed above.

Financial Accounting and Reporting

3. Conduct a detailed review of the existing processes to analyze and review the consolidated financial
   reporting process.

4. Establish new policies or improve existing policies and procedures to ensure that:

   a. Quality control reviews are performed on the consolidated financial reporting process as well as on
      the consolidated financial statements by responsible officials to ensure that all errors and
      inconsistencies are identified and corrected in a timely manner;
   b. Effective reviews are conducted by senior AIC officials on documentation prepared to support
      consolidated financial statement amounts to ensure that the supporting documents and information
      are accurate and complete, and such review is documented; and
   c. Key consolidation accounting and reporting activities are captured in a manner that is easily
      followed by staff not familiar with the consolidation process.
U.S. Department of the Treasury
December 15, 2009
Page 8 of 14



5. Require that documentation is developed to support all new and/or unique accounting and reporting
   requirements as well as non-routine or complex accounting and reporting matters, and periodically
   updated (at least annually). For example, any new financial statement footnote disclosures that are
   developed should include a policy memo, financial statement footnote disclosure format, as well as
   evidence of review by responsible officials within AIC of both the policy and the format to be
   followed.

6. Require periodic monitoring by senior management of the implementation of policy and procedures.
   For example, policies and procedures related to FCRA transactions should require periodic
   examination of the performance of the credit programs to re-estimate cash flow projections and
   assumptions.

7. Require that communication is initiated on a periodic basis with OGC, to obtain information and
   documentation of any laws and regulations that apply at the Treasury Department/component level,
   including documentation of OGC’s assessment of compliance requirements especially those having a
   financial impact. Such communication should be documented and referred to by management in
   monitoring the population of laws and regulations that are material to the financial statements.

8. Update the Treasury Department’s A-123 Plan annually to incorporate new events and transactions,
   and require components to fully comply with the requirements of the Plan. Further, implement a more
   robust monitoring process of the A-123 work being conducted by components to ensure that the
   Treasury Department’s A-123 guidance is fully implemented and complied with, and supports
   components’ assurance statements on internal control.

Financial Systems and Reporting at the IRS (Repeat Condition)

The IRS continued to make strides in addressing its internal control deficiencies. However, internal control
and financial management system deficiencies continued to make it necessary for IRS to use resource-
intensive compensating processes to prepare its financial statements.

The challenges the IRS faces as a result of these remaining deficiencies adversely affect IRS’s ability to
(1) produce reliable financial statements without significant compensating procedures, and (2) obtain
current, complete, and accurate information needed to make well-informed decisions. As the IRS continues
to progress towards increasingly automated financial management processes, the continued material
weakness in internal control over information security that jeopardizes the reliability of the financial
information that IRS processes, could have serious implications in determining whether IRS’s financial
statements are fairly stated. This weakness also continues to increase the risk that sensitive taxpayer
information may be compromised.

The material weaknesses in internal control over financial reporting identified by the auditors of the IRS’s
financial statements, which are repeat conditions and collectively considered a material weakness for the
Treasury Department as a whole, are summarized as follows:

•   Weaknesses in internal control over unpaid tax assessments resulted in the IRS’s inability to effectively
    manage unpaid tax assessments on an ongoing basis and in errors in taxpayer accounts leading to
    increased taxpayer burden. Specifically, systems limitations and weaknesses in processing controls
U.S. Department of the Treasury
December 15, 2009
Page 9 of 14


    resulted in the following issues: (1) IRS’s reported balances for taxes receivable and other unpaid
    assessments were not supported by its core general ledger system for tax administration-related
    transactions, (2) IRS lacked a subsidiary ledger for unpaid tax assessments that would allow it to
    produce reliable, useful, and timely information with which to manage and report externally, and
    (3) IRS experienced errors and delays in recording taxpayer information, payments, and other
    activities.

•   New and previously identified weaknesses in internal control over information security continue to
    place IRS systems at risk. Specifically, controls over information systems are not effectively
    established and maintained. Further, during the fiscal year 2009 audit, additional significant
    weaknesses in internal control over information security, along with previously identified weaknesses,
    continued to jeopardize the confidentiality, availability, and integrity of information processed by
    IRS’s key systems, increasing the risk of material misstatement for financial reporting.

The material weaknesses in internal control noted above may adversely affect decisions by IRS’s
management that are based, in whole or in part, on information that is inaccurate because of these
deficiencies.

Additional details related to the material weakness identified above have been provided to IRS
management by the auditors of the IRS’s financial statements in their report dated November 5, 2009.

Recommendations

Recommendations to address prior year issues that encompass the material weakness discussed above have
previously been provided to IRS management by the auditors of the IRS’s financial statements. New
recommendations to address issues identified in the fiscal year 2009 IRS financial statement audit that
comprise the material weakness discussed above will be provided to IRS management by the auditors of
IRS’s financial statements in separate reports. We recommend that the ASM/CFO provide effective
oversight to ensure that corrective actions are taken by the IRS to fully address this material weakness.

SIGNIFICANT DEFICIENCIES

Financial Accounting and Reporting at the OFS

The OFS has made progress in building a financial reporting structure, including developing an internal
control system over Troubled Assets Recovery Program (TARP) activities and transactions and addressing
key accounting and financial reporting issues necessary to enable it to prepare financial statements.
However, OFS’s financial reporting structure continued to evolve throughout the year as new TARP
programs were implemented, which posed a challenge to OFS’s ability to establish a comprehensive
system of internal control while simultaneously reacting to market events and implementing TARP
initiatives. This challenge contributed to the significant deficiencies in OFS’s internal control that the other
auditor identified. These OFS deficiencies collectively constitute a significant deficiency for the Treasury
Department as a whole and are summarized as follows.

•   Control deficiencies were identified related to accounting and financial reporting processes. OFS did
    not effectively implement its review and approval process for preparing its financial statements and
    related disclosures for TARP. The other auditor identified incorrect amounts and inaccurate,
U.S. Department of the Treasury
December 15, 2009
Page 10 of 14


    inconsistent, and incomplete disclosures in OFS’s draft financial statements, footnotes, and MD&A for
    TARP that are significant, but not material, and that were not detected by OFS. OFS had not finalized
    its procedures related to its processes for accounting for certain program transactions, preparing its
    financial statements, and its oversight and monitoring of financial-related services provided to OFS by
    asset managers and certain financial agents. OFS did not have proper segregation of duties over a
    significant accounting database it uses in valuing its assets in that the same individual was responsible
    for performing both the data entry and the reconciliation of the data output.

•   OFS did not effectively implement its verification procedures for certain assumptions and related data
    that were input into the economic and financial credit subsidy models used for the valuation of OFS’s
    loans, equity investments, and asset guarantees. Specifically, the other auditor identified data input
    errors to the estimation models, such as incorrect dividend rates and maturity dates that were not
    detected by OFS’s verification procedures.

Additional details related to the significant deficiency identified above have been provided to OFS
management by the auditors of the OFS’s financial statements in their report dated December 4, 2009.

Recommendations

We recommend that the ASM/CFO provide effective oversight to ensure that corrective actions are taken
by the OFS to fully address this significant deficiency.

Information System Controls at the FMS

Information controls and security programs managed by the FMS need improvement. Current year tests
conducted over IT general controls revealed that the necessary policies and procedures to detect and correct
control and functionality weaknesses have not been consistently documented, implemented, or enforced.
Specifically, issues were identified in the areas of (1) security management; (2) access; (3) change
configuration; (4) segregation of duties; and (5) contingency planning. Individually or collectively, the
conditions identified could compromise FMS’s ability to ensure security over sensitive financial data and
reliability of key systems.

The above weaknesses collectively serve to weaken the IT general control environment at FMS.

Recommendations

The detailed findings and related recommendations have been provided to FMS management in a separate
report. We recommend that the ASM/CFO provide effective oversight and the resources necessary to
ensure that information security requirements over financial systems are implemented at FMS.

Compliance

The results of certain of our tests, and the tests performed by the other auditor, of compliance as described
in the Responsibilities section of this report, exclusive of those referred to in FFMIA, disclosed the
following instance of noncompliance that is required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04.
U.S. Department of the Treasury
December 15, 2009
Page 11 of 14


•   Noncompliance with IRC Section 6325 - The IRC grants the IRS the power to file a lien against the
    property of any taxpayer who neglects or refuses to pay all assessed Federal taxes. Under IRC Section
    6325, the IRS is required to release a Federal tax lien within 30 days after the date the tax liability is
    satisfied, or has become legally unenforceable, or the Secretary of the Treasury has accepted a bond for
    the assessed tax. Despite actions the IRS has taken to date to improve its lien release process, instances
    continued to be identified where the IRS did not timely release the applicable Federal tax lien within
    30 days of the tax liability being either paid off or abated as required by the IRC (Repeat Condition).

The results of our other tests, and the tests performed by the other auditor, of compliance as described in
the Responsibilities section of this report, exclusive of those referred to in FFMIA, disclosed no instances
of noncompliance or other matters that are required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA, and the tests performed by the other auditor, disclosed instances where
the Department’s financial management systems did not substantially comply with FFMIA Section 803(a)
requirements (Repeat Condition) related to compliance with (1) FFMSR, (2) applicable Federal accounting
standards, and (3) the SGL at the transaction level, as described below.

Instances of noncompliance with FFMSR are summarized below:

•   IRS’s core general ledger system does not conform to the requirements of FFMSR, contained in OMB
    Circular A-127, Financial Management Systems.

•   Material weaknesses in IRS’s internal control over information security continue to threaten
    (1) integrity of the financial statements and the accuracy and availability of financial information
    needed to support day-to-day decision making, and (2) confidentiality of proprietary information.

An instance of noncompliance with Federal accounting standards is summarized below:

•   IRS’s automated systems for tax related transactions did not support the net taxes receivable amount on
    IRS’s balance sheet and other required supplemental information related to uncollected taxes -
    compliance assessments and tax write-offs - in accordance with Statement of Federal Financial
    Accounting Standards No. 7, Accounting for Revenue and Other Financing Sources and Concepts for
    Reconciling Budgetary and Financial Accounting.

An instance of noncompliance with the SGL at the transaction level is summarized below:

•   IRS’s core general ledger system for tax-related activities does not comply with the SGL at the
    transaction level and also does not post transactions in conformance with SGL posting models.

The Secretary of the Treasury also stated in his Letter of Assurance, included in Part 1: Management’s
Discussion and Analysis, of the accompanying AFR that the Treasury Department cannot provide
assurance that its financial management systems are in substantial compliance with FFMIA. The IRS has
established a remediation plan to address the conditions that lead to its systems’ substantial noncompliance
with the requirements of FFMIA. This plan outlines the actions to be taken to resolve these issues, many of
which are long-term in nature and are tied to IRS’s system modernization efforts. The Treasury
U.S. Department of the Treasury
December 15, 2009
Page 12 of 14


Department’s remedial actions and related timeframes are presented in Appendix D: Material Weaknesses,
Audit Follow-up, Financial Systems, and Recovery Act Risk Management of the AFR.

Recommendation

We recommend that the ASM/CFO provide effective oversight to ensure that (1) IRS implements
appropriate controls so that Federal tax liens are released in accordance with Section 6325 of the IRC; and
(2) IRS implements its plan of action to solve financial management problems so as to enable resolving the
identified instances of financial management systems’ noncompliance with the requirements of FFMIA.
Detailed recommendations to address the noncompliance findings discussed above have been provided to
IRS management by the auditors of the IRS’s financial statements.

Management’s Response to Internal Control and Compliance Findings

The Department’s management has indicated, in a separate letter immediately following this report, that it
concurs with the findings presented in this section of our report. Further, it has responded that it will take
corrective action, as necessary, to ensure the matters presented are addressed by the respective component
management within the Treasury Department. We did not audit the Treasury Department’s response and,
accordingly, we express no opinion on it.

                                                 * * * * *

We noted certain additional matters involving internal control over financial reporting and its operation
that we will report to the Treasury Department’s management in a separate letter.

Responsibilities

Management’s Responsibilities. Management is responsible for the consolidated financial statements;
establishing and maintaining effective internal control; and complying with laws, regulations, contracts,
and grant agreements applicable to the Treasury Department.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2009 and 2008
consolidated financial statements of the Treasury Department based on our audits and the reports of the
other auditor. We, and the other auditor, conducted our audits in accordance with the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States. Also, we conducted our audit in accordance with auditing standards generally accepted in
the United States of America and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04
require that we plan and perform the audits to obtain reasonable assurance about whether the consolidated
financial statements are free of material misstatement. An audit includes consideration of internal control
over financial reporting as a basis for designing audit procedures that are appropriate in the circumstances,
but not for the purpose of expressing an opinion on the effectiveness of the Treasury Department’s internal
control over financial reporting. Accordingly, we express no such opinion.
U.S. Department of the Treasury
December 15, 2009
Page 13 of 14


An audit also includes:

•   Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
    financial statements;

•   Assessing the accounting principles used and significant estimates made by management; and

•   Evaluating the overall consolidated financial statement presentation.

We believe that our audits, and the reports of the other auditor, related to the amounts included for the IRS
and OFS, provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2009 audit, we considered the Treasury Department’s internal
control over financial reporting, exclusive of the internal control over financial reporting related to the IRS
and OFS, by obtaining an understanding of the design effectiveness of the Treasury Department’s internal
control, determining whether internal controls had been placed in operation, assessing control risk, and
performing tests of controls as a basis for designing our auditing procedures for the purpose of expressing
our opinion on the consolidated financial statements. Internal control over financial reporting related to the
IRS and the OFS was considered by the other auditor whose reports thereon dated November 5, 2009, and
December 4, 2009 respectively, have been provided to us. We, and the other auditor, did not test all
internal controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982. The objective of our audit was not to express an opinion on the effectiveness of the
Treasury Department’s internal control over financial reporting. Accordingly, we do not express an opinion
on the effectiveness of the Treasury Department’s internal control over financial reporting. The objective
of the other auditor’s audits was to express an opinion on the effectiveness of the IRS’s and the OFS’s
internal control over financial reporting. Because of the IRS material weakness in internal controls
discussed above, the other auditor’s opinion on the IRS’ internal control stated that the IRS did not
maintain effective internal control over financial reporting as of September 30, 2009.

As part of obtaining reasonable assurance about whether the Treasury Department’s fiscal year 2009
consolidated financial statements are free of material misstatement, we, and the other auditor, performed
tests of the Treasury Department’s compliance with certain provisions of laws, regulations, contracts, and
grant agreements, noncompliance with which could have a direct and material effect on the determination
of the consolidated financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 07-04, including the provisions referred to in Section 803(a) of FFMIA.
We, and the other auditor, limited our tests of compliance to the provisions described in the preceding
sentence, and we, and the other auditor, did not test compliance with all laws, regulations, contracts, and
grant agreements applicable to the Treasury Department. However, providing an opinion on compliance
with laws, regulations, contracts, and grant agreements was not an objective of our audits and, accordingly,
we, and the other auditor, do not express such an opinion.

                                    ______________________________
U.S. Department of the Treasury
December 15, 2009
Page 14 of 14


This report is intended solely for the information and use of the Treasury Department’s management, the
Treasury Department’s Office of Inspector General, OMB, the GAO, and the U.S. Congress and is not
intended to be and should not be used by anyone other than these specified parties.




December 15, 2009
THIS PAGE INTENTIONALLY LEFT BLANK
        SECTION II –

DEPARTMENT OF THE TREASURY
     FISCAL YEAR 2009
  AGENCY FINANCIAL REPORT
THIS PAGE INTENTIONALLY LEFT BLANK
D E PA RT M E N T   OF   THE   TREASURY




Agency Financial Report
                          F I S C A L
                              Y E A R   2009




                    DECEMBER 15, 2009
                    The United States
                Department of the Treasury
                                       Our Vision
               Set the global standard in financial and economic leadership



                                      Our Mission
      Serve the American people and strengthen national security by managing the
  U.S. Government’s finances effectively, promoting economic growth and stability, and
ensuring the safety, soundness, and security of the U.S. and international financial systems



                                       Our Values
                                       SERVICE
                       Work for the benefit of the American people

                                          INTEGRITY
Aspire to the highest levels ethical standards of honesty, trustworthiness, and dependability

                                        EXCELLENCE
             Strive to be the best, continuously improve, innovate, and adapt

                                     OBJECTIVITY
                               Encourage independent views

                                  ACCOUNTABILITY
                          Responsible for our conduct and work

                                      COMMUNITY
                  Dedicated to excellent customer service, collaboration,
                       and teamwork while promoting diversity
D E PA RT M E N T   OF   THE   TREASURY




Agency Financial Report
                          F I S C A L
                              Y E A R   2009




                    DECEMBER 15, 2009
ii
                                          D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




     This page left intentionally blank
                                                                                                  TABLE OF CONTENTS
Table of Contents
   Message from the Secretary of the Treasury                                                 v
   About this Report                                                                      vii


 Part 1: Management’s Discussion and Analysis
   Introduction                                                                               3
   Organization                                                                               4
   The Treasury Department’s 2007-2012 Strategic Framework                                    7
   Fiscal Year 2009 Summary of Performance by Strategic Goal                                  8
   How Well is Treasury Performing?                                                       10
   Financial Highlights                                                                   12
   Fiscal Year 2009 Performance by Strategic Goal                                         13
       U S and World Economies Perform at Full Economic Potential                         13
       Effectively Managed U S Government Finances                                        35
       Prevented Terrorism and Promoted the Nation’s Security through
       Strengthened International Financial Systems                                       38
       Management and Organizational Excellence                                           41

   Department of the Treasury Key Performance Measures for 2009                           44
   Summary of Management and Performance Challenges and High-Risk Areas                   47
   Analysis of Financial Statements                                                       52
   Improper Payments Information Act and Recovery Auditing Act                            57
   Management Assurances                                                                  59
   Material Weaknesses, Audit Follow-up, and Financial Systems                            60




                                                                          TABLE OF CONTENTS            iii
                                                                                  RT •• F I S C A L Y E A R 2 0 0 9




                                                                                                                      Part 2: Annual Financial Report
                                                                                                                        Message from the Assistant Secretary for Management and Chief Financial Officer   67
                                                                                                                        Inspector General’s Transmittal Letter                                             69
                                                                               PORT




                                                                                                                        Auditors’ Report on the Department’s Financial Statements                         71
                                                                            EPEO




                                                                                                                        Management’s Response to Auditor’s Report                                          85
                                                                       L LR R




                                                                                                                        Financial Statements                                                               86
                                                                  I AI A
                                                                 CC




                                                                                                                        Notes to the Financial Statements                                                  94
                                                               NN
                                                              AA




                                                                                                                        Required Supplemental Information (Unaudited)                                     206
                                                            IN
                                                     Y YF IFN




                                                                                                                      Part 3: Other Accompanying Information
                                                  EN
                                                 EN CC




                                                                                                                        APPENDICES
                                               AG
                                           • •AG




                                                                                                                           Appendix A: Other Accompanying Information (Unaudited)                         213
                                        U RY




                                                                                                                           Appendix B: Improper Payments Information Act and Recovery Auditing Act        217
                                    A SRY




                                                                                                                           Appendix C: Management and Performance Challenges and Responses                225
                                A SEU




                                                                                                                           Appendix D: Material Weaknesses, Audit Follow-up, Financial Systems,
                              ER
            NETNOTFOTFHTEHTER T




                                                                                                                                     and Recovery Act Risk Management                                     265
                                                                                                                           Appendix E: Glossary of Acronyms                                               277


                                                                                                                        Website Information                                                               283
   PAERT
D ED     M EM
      PA RT




iv                                                                                                                     TABLE OF CONTENTS
                                                                                                                           MESSAGE FROM THE SECRETARY OF THE TREASURY
Message from the Secretary of the Treasury
                                 December 15, 2009

                                 The Treasury Department has spent the past fiscal year confronting the worst
                                 economic and financial crisis in generations.

                                 While policy interventions at the end of 2008 succeeded in achieving the vital,
                                 but narrow, objective of preventing a catastrophic systemic meltdown, by the time
                                 President Obama took office, the financial system remained extremely fragile and
                                 the Administration faced a rapidly evolving set of challenges.

                                 In the financial sector the flow of credit to businesses and families had frozen; the
                                 issuance of new asset-backed securities had essentially come to a halt; and liquidity
                                 in a broader range of securities markets had fallen sharply.

 In addition, the broader economy was in a free fall. In January we lost 741,000 nonfarm jobs, the largest single
 monthly decline in 60 years. Our Gross Domestic Product was contracting at rates not seen in decades. American
 families had lost $11 trillion in household wealth since 2007. And there was genuine concern we were headed
 toward a second Great Depression.

 The Obama Administration responded with a comprehensive strategy unprecedented in size and scope.

 First, we worked with Congress to enact the most sweeping economic recovery package in our nation’s history.
 The Recovery Act included a program of immediate tax incentives for businesses and households, support for
 state and local governments, and investments in critical economic priorities, from infrastructure and energy to
 health care and education. More than 110 million families – 95 percent of working families – received hundreds
 of dollars in the Making Work Pay tax benefit.

 Second, we moved quickly to stabilize our financial system with as much private capital as possible. Following the
 release of the “stress test” results, our nation’s largest banks were able to raise over $80 billion in private capital
 and, as of September 30, 2009, have paid roughly $70 billion back to the government for previous investments.
 More broadly, last December, 70 percent of corporate bond issuance was supported by the government. In
 September of this year, corporations raised over $100 billion in debt, 82 percent of which was issued without a
 government guarantee.

 Third, we jumpstarted channels of credit that are critical for American families and businesses. Our Term Asset-
 Backed Securities Loan Facility (TALF) has helped to improve conditions substantially. Issuance of securities
 backed by consumer and business loans has averaged $14 billion per month since the government launched TALF
 in March, compared to about $1.6 billion per month in the six months prior to the program’s launch.

 Fourth, we created a public-private investment program to purchase legacy assets to help clean up the balance
 sheets of major financial institutions and re-liquefy key markets. Program announcements helped improve prices
 for these assets in advance of actual purchases. And due to continued improvements in financial market condi-
 tions, we are able to proceed with the program at a scale smaller than initially envisioned.




                                                              MESSAGE FROM THE SECRETARY OF THE TREASURY                                           v
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Fifth, we worked to ease the housing crisis by helping to bring mortgage rates to historic lows and establishing
                                                                                                                     new programs to allow responsible homeowners to refinance into affordable mortgages or modify at-risk loans to
                                                                                                                     lower monthly mortgage payments.

                                                                                                                     And finally, we worked with the major economies of the world on a coordinated program of macroeconomic
                                                                                                                     stimulus and financial stabilization, alongside regulatory reform.

                                                                                                                     Because of these steps, an economy that was in free-fall in January is now on the road to recovery. It grew at an
                                                                                                                     annual rate of 2.8 percent in the third quarter, and private economists generally expect moderate growth over the
                                                                                                                     next year. Business and consumer confidence has started to improve. The housing market is showing some signs
                                                                                                                     of stabilizing. Home prices have increased modestly over the past six months, reversing consistent declines since
                                                                                                                     2006, and sales of existing single-family homes have increased by 20 percent over the past year. The cost of credit
                                                                                                                     in securities markets has fallen substantially for businesses, and credit is flowing again in these markets.

                                                                                                                     These early signs of progress have allowed us to begin evolving our strategy from rescuing the economy to repair-
                                                                                                                     ing and rebuilding the foundation for future growth.

                                                                                                                     As we enter this new phase we are winding down some of the extraordinary support put in place for the financial
                                                                                                                     system. But we are also mindful that unemployment is still too high and that small businesses, an important
                                                                                                                     engine of job growth in America, still face enormous difficulty accessing credit.

                                                                                                                     Going forward we must continue to reinforce recovery until it is self-sustaining and led by private demand.
                                                                                                                     That is our primary objective. And we are working to achieve it by using our resources in the most effective and
                                                                                                                     efficient manner possible.

                                                                                                                     We quickly established the Office of Financial Stability (OFS) and implemented strong program and financial
                                                                                                                     reporting internal controls. The Department received an unqualified opinion on both our OFS/Troubled Asset
                                                                                                                     Relief Program and Treasury-wide fiscal year 2009 financial statements—a remarkable achievement.

                                                                                                                     This year, the Department met or exceeded 67 percent of its performance targets, a reduction of three percentage
                                                                                                                     points compared to last year, reflecting the challenges the Department faced in confronting the financial and
                                                                                                                     economic crisis. While the percentage of unmet targets increased over last year, on average performance targets
                                                                                                                     were within 10 percent of desired results. Discretionary budget resources increased 4.8 percent over 2008.

                                                                                                                     While we continue to resolve major challenges in some areas, overall we are making progress in addressing
                                                                                                                     management and control weaknesses and in meeting federal financial systems requirements. The Department
                                                                                                                     has validated the accuracy, completeness, and reliability of the financial and performance data contained in this
                                                                                                                     report.




                                                                                                                     Timothy F. Geithner
                                                                                                                     Secretary of the Treasury




vi                                                                                                                     MESSAGE FROM THE SECRETARY OF THE TREASURY
                                                                                                                         ABOUT THIS REPORT
About this Report
 The fiscal year 2009 Treasury Agency Financial Report      The fiscal year 2009 Management’s Discussion and
 provides information that enables Congress, the            Analysis is focused on the contributions Treasury has
 President, and the public to assess the Department’s       made on behalf of the American people to restore
 performance relative to its mission and stewardship of     confidence in the financial system and enable eco­
 the resources entrusted to it.                             nomic recovery. The implementation of efforts aimed
                                                            at financial stability, easing the housing crisis, and the
 For fiscal year 2009, the Department participated in       Recovery Act are included, as well as activities related
 the Office of Management and Budget’s alterna­tive         to financial regulatory reform.
 Performance and Accountability Report option for re-
 porting annual results. In this process, the Performance   Similar to last year, agency–wide performance re­
 and Accountability Report is divided into two              sults are summarized in the “How Well is Treasury
 reports, an Agency Financial Report and an Annual          Performing?” section. Results by strategic goal, along
 Performance Report. The Agency Financial Report            with trends in performance, budget, and cost are also
 is produced prior to the end of the calendar year and      included. A key performance measure table is included
 includes a Management’s Discussion and Analysis            along with a discussion of results. Management
 with a high level discussion of key agency accomplish­     challenges are summarized and assessed for progress
 ments, and performance and financial results. Financial    and status, and improvements to high-risk areas are
 statements and analysis are also included in the Agency    discussed. Consolidated financial statements, analysis,
 Financial Report. The Annual Performance Report will       and footnote disclosures are presented to provide a
 be generated and submitted with the Congressional          comprehensive picture of the Department’s financial
 Budget Justification in February 2010. The Annual          position. Hyperlinks are used throughout the report
 Performance Report will contain detailed information       providing an option to obtain additional detail.
 on performance for agency outcomes.




                                                                                             ABOUT THIS REPORT             vii
                                            D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




viii
       This page left intentionally blank
Part 1
Management’s Discussion & Analysis
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                                                          PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
Introduction
 Fiscal year 2009 began with the passage of historic          In June 2009, the President announced a comprehen-
 legislation to support a tenuous financial system.           sive plan to reform the United States’ outdated and
 Following the placement of Fannie Mae and Freddie            ineffective financial regulatory system. The goals of the
 Mac into conservatorship, failures of Lehman Brothers        plan are simple: to protect responsible consumers and
 and Washington Mutual, and significant troubles at           investors; to lay the foundation for a safer, more stable
 American International Group (AIG) and other firms,          financial system that is less prone to panic and crisis;
 Congress enacted the Emergency Economic Stabilization        and to safeguard American taxpayers from bearing risks
 Act of 2008 (EESA), providing $700 billion in spend-         that ought to be borne by shareholders and creditors.
 ing authority to support financial markets. In the           Treasury submitted proposed legislative text to imple-
 months that followed, Treasury played a key role in          ment the plan in August 2009 and is actively working
 stabilizing the financial system and limiting damage in      with Congress to pass this critical legislation.
 the broader economy.
                                                              Treasury has initiated the next phase of the strategy to
 In February 2009, with the economy contracting at            stabilize and rehabilitate financial markets. As the need
 the fastest speed in the last quarter century, Congress      for the emergency programs that were put in place
 passed the American Recovery and Reinvestment Act            during the most acute phase of the crisis declines, those
 of 2009 (Recovery Act) to provide economic stimu-            programs will wind down. At the same time, the use
 lus. Implementation of tax and other provisions by           of those programs, by design, continues to decline as
 Treasury under the Recovery Act limited the fallout          the financial system recovers. But the financial system
 from the financial crisis and encouraged investment in       is still fragile, and some of the improvements that
 renewable energy projects and low-income communi-            have been realized in many financial markets are still
 ties. Programs implemented by Treasury under the             largely dependent on the support of extraordinary
 Recovery Act, Housing and Economic Recovery Act of           policies. Going forward, the U.S. Government must
 2008 (HERA), and EESA provided support for hom-              work to promote the public trust, use taxpayer money
 eowners and helped avoid unnecessary foreclosures.           prudently to repair the financial system, and reassure
                                                              market participants so that they have the confidence to
 In February 2009, Treasury issued the Financial              get credit flowing again to families and businesses.
 Stability Plan, helping boost confidence in the stability
 of financial institutions and unlock frozen securitiza-      Treasury will continue to implement the programs set
 tion markets. Since then, Treasury has put in place a        in place to restore essential balance in the U.S. and
 series of financial initiatives to help lay the foundation   global economies. In implementing these programs,
 for economic recovery: 1) a broad program to stabilize       the Department of the Treasury will exercise diligent
 the housing market by encouraging lower mortgage             stewardship and provide exceptional accountability and
 rates and making it easier for millions to refinance and     transparency in performing its work on behalf of the
 avoid foreclosure; 2) a new capital program to provide       American people.
 banks with a safeguard against a deeper recession; 3) a
 major new lending program with the Federal Reserve
 targeted at the securitization markets critical for con-
 sumer and small business lending; and 4) a program to
 set up funds to provide a market for legacy loans and
 securities that currently burden the financial system.




                                                                                                  INTRODUCTION                                     3
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Organization
                                                                                                                      THE DEPARTMENT OF THE TREASURY ORGANIZATIONAL CHART

                                                                                                                         Office of the Chief of Staff                                                                 Treasury Inspector General
                                                                                                                                                                                              Secretary                  for Tax Administration

                                                                                                                                                                                                                      Special Inspector General
                                                                                                                                                             Inspector General           Deputy Secretary                for Troubled Asset
                                                                                                                                                                                                                           Relief Program




                                                                                                                                                         Undersecretary Domestic        Undersecretary Terrorism           Undersecretary
                                                                                                                                                                Finance                   Financial Intelligence         International Affairs




                                                                                                                                                                                                                                                   Special Envoy to China
                                                                                                                                                                                                                                                      for the Strategic
                                                                                                                                                                                                                                                    Economic Dialogue
                                                                                                                           Internal Revenue                Assistant Secretary          Assistant Secretary          Assistant Secretary
                                                                                                                                Service                     Financial Markets           Terrorist Financing          International Affairs
                                                                                                                                                                                                                     Financial Markets &             Assistant Secretary
                                                                                                                                                                                                                      Investment Policy                   Tax Policy
                                                                                                                         Bureau of Engraving               Assistant Secretary           Assistant Secretary
                                                                                                                             and Printing                   Financial Stability       Intelligence and Analysis
                                                                                                                                                                                                                      Assistant Secretary          Alcohol and Tobacco
                                                                                                                                                                                                                      International Affairs           Tax and Trade
                                                                                                                                                                                                                   International Economics
                                                                                                                                                           Assistant Secretary           Financial Crimes               & Development
                                                                                                                          United States Mint
                                                                                                                                                          Financial Institutions       Enforcement Network
                                                                                                                                                                                                                                                     Assistant Secretary
                                                                                                                                                                                                                                                      Economic Policy
                                                                                                                            Office of the               Community Development
                                                                                                                          Comptroller of the            Financial Institutions Fund                                                                  Assistant Secretary
                                                                                                                             Currency
                                                                                                                                                                                                                                                   Public Affairs & Director
                                                                                                                                                                                                                                                      of Policy Planning
                                                                                                                            Office of Thrift               Assistant Secretary
                                                                                                                             Supervision                          Fiscal
                                                                                                                                                                                                                                                     Assistant Secretary
                                                                                                                                                                                                                                                      Legislative Affairs
                                                                                                                                                                    Bureau of
                                                                                                                                                                 the Public Debt                                                                    Assistant Secretary
                                                                                                                                                                                                                                                   for Management and
                                                                                                                                                                                                                                                   Chief Financial Officer
                                                                                                                                                                   Financial
                                                                                                                                                                  Management
                                                                                                                                                                    Service
                                                                                                                                                                                                                                                      General Counsel




                                                                                                                                                                                                                                                          Treasurer



                                                                                                                                                                                                                                                   Director Office of Small
                                                                                                                                                                                                                                                      & Disadvantaged
                                                                                                                                                                                                                                                     Business Utilization




4                                                                                                                      Organization
                                                                                                                      PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
The Department of the Treasury is the executive           Tax Policy develops and implements tax policies and
agency responsible for promoting economic prosper-             programs, reviews regulations and rulings to
ity and ensuring the financial security of the United          administer the Internal Revenue Code, negoti-
States. The Department is organized into two major             ates tax treaties, and provides economic and legal
components, the departmental offices and the bureaus.          policy analysis for domestic and international
The departmental offices are primarily responsible for         tax policy decisions. Tax Policy also provides
policy formulation, while the bureaus are primarily the        revenue estimates for the President’s budget.
operating units of the organization.
                                                          Treasurer of the United States advises the Secretary
Departmental Offices                                           on matters relating to coinage, currency, and the
                                                               production of other financial instruments. The
Domestic Finance advises and assists in areas of domes-
                                                               Treasurer also serves as one of the Department’s
    tic finance, banking, and other related economic
                                                               principal advisors and a spokesperson in the area
    matters. In addition, this office develops policies
                                                               of financial literacy and education.
    and guidance for Treasury Department respon-
    sibilities in the areas of financial institutions,    The Community Development Financial
    federal debt finance, financial regulation, capital        Institutions Fund (CDFI) expands the capac-
    markets, financial management, fiscal policy, and          ity of community development financial institu-
    cash management decisions.                                 tions and community development entities to
                                                               provide credit, capital, tax credit allocations,
International Affairs advises and assists in the formu-
                                                               and financial services to underserved domestic
      lation and execution of U.S. international eco-
                                                               populations and communities.
      nomic, financial, monetary, trade, investment,
      bilateral aid, environment, debt, development,      The Office of Small and Disadvantaged Business
      and energy policy, including U.S. participation          Utilization assists, counsels, and advises small
      in international financial institutions.                 businesses of all types: disadvantaged, women-
                                                               owned, veteran-owned, service-disabled veteran-
Terrorism and Financial Intelligence (TFI) marshals
                                                               owned, and small businesses located in histori-
      the Department’s intelligence and enforcement
                                                               cally underutilized business zones on procedures
      functions with the twin aims of safeguarding the
                                                               for contracting with Treasury.
      financial system against illicit use and combat-
      ing rogue nations, terrorist facilitators, money      Internally, the Treasury’s Departmental Offices
      launderers, drug kingpins, and other national         are responsible for the overall management of the
      security threats.                                     Department. The Office of the Assistant Secretary of
                                                            Management and Chief Financial Officer is respon-
Economic Policy reports on current and prospective
                                                            sible for internal management and controls, and
     economic developments and assists in the deter-
                                                            also serves as the Department’s Chief Performance
     mination of appropriate economic policies. The
                                                            Officer. Support organizations include General
     office is responsible for the review and analysis
                                                            Counsel, Legislative Affairs, and Public Affairs. Also,
     of domestic economic issues and developments
                                                            three inspectors general, the Treasury Inspector
     in the financial markets.
                                                            General for Tax Administration, the Office of the
                                                            Inspector General, and the Special Inspector General
                                                            for the Troubled Asset Relief Program provide inde-
                                                            pendent audits, investigations, and oversight of the
                                                            Department of Treasury and its programs.




                                                                                                 Organization                                  5
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Bureaus                                                    The Financial Management Service (FMS) provides
                                                                                                                     Bureaus employ 98 percent of Treasury’s workforce                central payment services to federal program
                                                                                                                     and are responsible for carrying out specific operations         agencies, operates the Federal Government’s col-
                                                                                                                     assigned to the Department.                                      lections and deposit systems, provides govern-
                                                                                                                                                                                      ment-wide accounting and reporting services,
                                                                                                                     The Alcohol and Tobacco Tax and Trade Bureau                     and manages the collection of delinquent debt
                                                                                                                          (TTB) collects excise taxes on alcohol, tobacco,            owed to the U.S. Government.
                                                                                                                          and firearms that are lawfully due the govern-
                                                                                                                          ment, protects consumers of alcoholic beverages       The Internal Revenue Service (IRS) is the largest
                                                                                                                          through voluntary compliance programs that are              of the Department’s bureaus and determines,
                                                                                                                          based on education and enforcement to ensure                assesses, and collects tax revenue for the Federal
                                                                                                                          a fair marketplace, and assists industry members            Government.
                                                                                                                          in understanding and complying volun-                 The United States Mint designs, produces, and issues
                                                                                                                          tarily with federal tax, product, and marketing            circulating and bullion coins, numismatic coins
                                                                                                                          requirements.                                              and other items, Congressional gold medals,
                                                                                                                     The Bureau of Engraving and Printing (BEP)                      and other medals of national significance. The
                                                                                                                          designs and manufactures high quality notes and            United States Mint maintains physical custody
                                                                                                                          other financial documents that deter counterfeit-          and protection of the nation’s gold assets.
                                                                                                                          ing and meet customer requirements for quality,       The Office of the Comptroller of the Currency
                                                                                                                          quantity, and performance.                                 (OCC) charters, regulates, and supervises
                                                                                                                     The Bureau of the Public Debt (BPD) borrows                     national banks to ensure a safe, sound, and com-
                                                                                                                          the money needed to operate the Federal                    petitive banking system that supports citizens,
                                                                                                                          Government through the sale of marketable, sav-            communities, and the economy.
                                                                                                                          ings, and special purpose U.S. Treasury securi-       The Office of Thrift Supervision (OTS) charters,
                                                                                                                          ties. In addition, it accounts for and services the        examines, supervises, and regulates federal and
                                                                                                                          public debt and provides reimbursable support              many state-chartered thrift associations in order
                                                                                                                          services to federal agencies.                              to maintain their safety and soundness and
                                                                                                                     The Financial Crimes Enforcement Network                        compliance with consumer laws.
                                                                                                                           (FinCEN) safeguards the financial system from
                                                                                                                           the abuses of financial crime, including terrorist
                                                                                                                           financing, money laundering, and other illicit
                                                                                                                           activity.




6                                                                                                                      Organization
                                                                                                                                                         PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
The Treasury Department’s
2007-2012 Strategic Framework
The Treasury Department’s Strategic Framework is a summary of our goals, objectives, and outcomes. This frame-
work provides the basis for performance planning and continuous improvement.


              Strategic Goals            Strategic Objectives                    Value Chains**   Value Chain Outcomes
              Effectively Managed        Available cash resources to operate     Collect          •	 Revenue collected when due through a fair and
              U.S. Government            the government                          Disburse            uniform application of the law at the lowest
              Finances                                                                               possible cost
                                                                                 Borrow
                                                                                                  •	 Timely and accurate payments at the lowest
                                                                                 Account
                                                                                                     possible cost
                                                                                 Invest
                                                                                                  •	 Government financing at the lowest possible cost
                                                                                                     over time
                                                                                                  •	 Effective cash management
 FINANCIAL




                                                                                                  •	 Accurate, timely, useful, transparent, and
                                                                                                     accessible financial information


              U.S. and World             Improved economic opportunity,          Strengthen       •	 Strong U.S. economic competitiveness
              Economies Perform at       mobility and security with robust,      Regulate         •	 Free trade and investment
              Full Economic Potential    real, sustainable economic growth
                                                                                                  •	 Decreased gap in global standard of living
                                         at home and abroad
                                                                                                  •	 Competitive capital markets
                                                                                                  •	 Prevented or mitigated financial and economic
 ECONOMIC




                                                                                                     crises
                                         Trust and confidence in U.S. currency Manufacture        •	 Commerce enabled through safe, secure U.S.
                                         worldwide                                                   notes and coins

              Prevented Terrorism        Pre-empted and neutralized threats      Secure           •	 Removed or reduced threats to national security
              and Promoted the           to the international financial system                       from terrorism, proliferation of weapons of mass
              Nation’s Security          and enhanced U.S. national security                         destruction, narcotics trafficking ,and other
              Through Strengthened                                                                   criminal activity on the part of rogue regimes,
              International Financial                                                                individuals, and their support networks
 SECURITY




              Systems                                                                             •	 Safer and more transparent U.S. and international
                                                                                                     financial systems


              Management and             Enabled and effective Treasury          Manage           •	 A citizen-centered, results-oriented, and
 MANAGEMENT




              Organizational             Department                                                  strategically aligned organization
              Excellence                                                                          •	 Exceptional accountability and transparency




              ** Value Chains – Programs grouped by a common purpose.




                                                                 The Treasury Department's 2007-2012 strategic framework                                                          7
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Fiscal Year 2009 Summary of Performance
                                                                                                                     by Strategic Goal
                                                                                                                      STRATEGIC             KEY ACCOMPLISHMENTS                                         KEY CHALLENGES                                      TREND
                                                                                                                      GOAL
                                                                                                                      U.S. and World        •	 Supported stabilization of the financial system          •	 Repair and reform the regulatory system to          Performance 
                                                                                                                      Economies                through implementation of the Emergency Economic            improve supervision of financial markets and
                                                                                                                      Perform at               Stabilization Act of 2008 and the Financial Stability       institutions
                                                                                                                      Full Economic            Plan                                                     •	 Continue to mitigate risks at national banks and Budget 
                                                                                                                      Potential             •	 Improved mortgage availability and stability of the         thrifts
                                                                                                                                               housing market through implementation of the             •	 Reduce mortgage delinquency and foreclosure
                                                                                                                                               Housing and Economic Recovery Act of 2008                   rates                                               Cost 
                                                                                                                      Cost:                 •	 Implemented economic stimulus measures under the         •	 Reduce direct government support for
                                                                                                                      2008: $3.7 Billion       American Recovery and Reinvestment Act of 2009              securitization and other financial markets
                                                                                                                      2009: $4.4 Billion    •	 Issued “Financial Regulatory Reform: A New               •	 Maintain open economies despite rising
                                                                                                                                               Foundation” and drafted legislation for fundamental         protectionist interests
                                                                                                                                               financial regulatory reform                              •	 Reform Medicare and Social Security to ensure
                                                                                                                                            •	 Contributed to stabilization of the money market            long-term solvency
                                                                                                                                               through implementation of a Temporary Guarantee          •	 Continue international movement towards a
                                                                                                                                               Program for Money Market Funds                              global agreement on climate change
                                                                                                                                            •	 Implemented measures to bolster regulation of            •	 Increase financial knowledge and access,
                                                                                                                                               national banks and thrifts                                  especially in low-income and underserved
                                                                                                                                            •	 Expanded international economic partnerships to             communities
                                                                                                                                               better manage the financial crisis                       •	 Improve productivity management related to coin
                                                                                                                                            •	 Hosted G-20 meetings and supported elevation of             and currency production
                                                                                                                                               the G-20 to premier international economic forum         •	 Improve supply management for bullion coin
                                                                                                                                            •	 Supported trebling resources for the International          production
                                                                                                                                               Monetary Fund and restructuring of the Financial         •	 Manage cost issues related to the penny and
                                                                                                                                               Stability Forum into the Financial Stability Board          nickel
                                                                                                                                            •	 Coordinated the Economic Track of the U.S.-China         •	 Encourage robust circulation of the $1 coin
                                                                                                                                               Strategic and Economic Dialogue                             cost-effectively
                                                                                                                                            •	 Provided grants, investments, financial services and     •	 Increase financial literacy and access to financial
                                                                                                                                               technical support for underserved and low-income            services in low-income and underserved
                                                                                                                                               communities through the CDFI Fund                           communities
                                                                                                                      Effectively         •	 Collected $2.3 trillion in tax revenue and $20.6 billion   •	 Continue to work toward the Congressional        Performance 
                                                                                                                      Managed U.S.           in federal excise taxes on tobacco, alcohol, firearms,        goal of having 80 percent of tax returns filed
                                                                                                                      Government             and ammunition                                                electronically                                   Budget 
                                                                                                                      Finances            •	 Processed over 144.4 million individual returns and        •	 Continue to convert from paper to electronic
                                                                                                                                             issued over 111.4 million refunds                             savings bonds                                    Cost 
                                                                                                                                          •	 Increased individual electronic tax returns processed      •	 Process 90 percent of Treasury payments and
                                                                                                                      Cost*:                 by 8 percentage points, from 58 to 66 percent                 associated information electronically
                                                                                                                      2008:$14.0 Billion  •	 Issued over 54.8 million payments valued at more           •	 Reduce the use of illegal international tax
                                                                                                                                             than $13.7 billion under the American Recovery and            shelters
                                                                                                                      2009: $14.4 Billion
                                                                                                                                             Reinvestment Act of 2009                                   •	 Reduce the erroneous payments rate within the
                                                                                                                                          •	 Converted over one million federal benefit check              Earned Income Tax Credit (EITC) program
                                                                                                                                             recipients to direct deposit                               •	 Continue on path to complete CADE
                                                                                                                                          •	 Conducted more than 290 auctions resulting in the             implementation by 2011
                                                                                                                                             issuance of more than $8 trillion in marketable            •	 Improve audit coverage of high net-worth/high-
                                                                                                                                             Treasury securities                                           income taxpayers
                                                                                                                                          •	 Began the monthly issuance of the three and seven          •	 Reduce average taxpayer telephone wait time
                                                                                                                                             year notes                                                 •	 Accurately forecast government receipts
                                                                                                                                          •	 Collected $5.07 billion in delinquent debt




8                                                                                                                       Fiscal Year 2009 Summary of Performance by Strategic Goal
                                                                                                                                                                PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
STRATEGIC              KEY ACCOMPLISHMENTS                                           KEY CHALLENGES                                            TREND
GOAL
Prevented              •	 Strengthened measures against Iran to protect U.S.         •	 Modernize Bank Secrecy Act (BSA) information          Performance 
Terrorism and             national security                                             and analysis
Promoted               •	 Enhanced mechanisms to combat mortgage and loan            •	 Encourage Pakistan to make its anti-money
the Nation’s              modification fraud                                            laundering law permanent                              Budget 
Security Through
                       •	 Lifted sanctions on 125 individuals or entities from       •	 Continue to provide additional guidance to the
Strengthened
                          the list of Specially Designated Nationals (SDNs)             charitable sector                                     Cost 
International
Financial              •	 Retired magnetic media filing                              •	 Establish external performance measure
Systems                •	 Strengthened the review process for foreign                   evaluation
                          investment in the United States


Cost:
2008: $555 Million
2009: $570 Million
Management             •	 Treasury OIG completed 10 Material Loss Reviews            •	 Continue to complete an increased number of           Performance 
and                       (MLRs)                                                        MLR
Organizational         •	 Treasury OIG issued 68 audit products related to           •	 Continue to improve management of information
Excellence                Treasury operations                                           technology                                            Budget 
                       •	 Treasury Inspector General for Tax Administration
                          issued 142 audit reports of the IRS that could                                                                      Cost 
Cost:                     produce $14.7 billion in financial benefits
2008: $508 Million     •	 Employed dynamic new approach to the 2011
                          Treasury budget process
2009: $296 Million
                       •	 Expanded human capital initiatives
*Cost is stated as “Performance Cost,” and in addition to budgetary resources, includes imputed costs, depreciation, losses, and other expenses not requiring
 budgetary resources.




                                                         Fiscal Year 2009 Summary of Performance by Strategic Goal                                                                       9
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     How Well is Treasury Performing?
                                                                                                                      Treasury Performance Cost Trend                                                   Treasury Total (Direct and Non-Appropriated) Budget Trend


                                                                                                                                     $20,000,000                                                                      $25,000,000
                                                                                                                                                                                         $19,644,803                                                                               $19,562,620
                                                                                                                                     $19,500,000                                                                                                                        $18,133,476
                                                                                                                                     $19,000,000                               $18,820,586                            $20,000,000                            $16,989,508
                                                                                                                                                                                                                                               $16,224,763
                                                                                                                                     $18,500,000                                                                                     $14,732,430




                                                                                                                                                                                                          K Dollars
                                                                                                                        K Dollars




                                                                                                                                                                     $17,843,729                                      $15,000,000
                                                                                                                                     $18,000,000
                                                                                                                                                           $17,436,584
                                                                                                                                     $17,500,000                                                                      $10,000,000
                                                                                                                                                 $16,822,622
                                                                                                                                     $17,000,000
                                                                                                                                     $16,500,000                                                                       $5,000,000
                                                                                                                                     $16,000,000
                                                                                                                                     $15,500,000                                                                                0
                                                                                                                                                    2005       2006      2007       2008     2009                                      2005         2006         2007         2008         2009



                                                                                                                      Fiscal Year 2009 Treasury-wide Performance Results Including                      Fiscal Year 2009 Treasury-wide Performance Results Excluding
                                                                                                                      Discontinued and Baseline Measures                                                Discontinued and Baseline Measures

                                                                                                                                              7%                                       1%                                                                                            2%
                                                                                                                                    Discontinued                                       Improved                                                                                      Improved
                                                                                                                                                                                                                               14%                                                   (Not Met)
                                                                                                                                                                                       (Not Met)
                                                                                                                                            10%                                                                                Met
                                                                                                                                        Baseline
                                                                                                                                                                                        55%                                                                                          66%
                                                                                                                                              12%                                       Exceeded                                                                                     Exceeded
                                                                                                                                              Met                                                                              18%
                                                                                                                                                                                                                             Unmet
                                                                                                                                            15%
                                                                                                                                          Unmet




                                                                                                                      Treasury Actual Performance Trends 2006–2009                                      Treasury Target Performance Trends 2006–2009




                                                                                                                                        17%                                             60%                             24%                                                          43%
                                                                                                                              No Significant                                            Favorable             No Significant                                                         Favorable
                                                                                                                                    Change                                                                          Change


                                                                                                                                           23%                                                                               33%
                                                                                                                                    Unfavorable                                                                       Unfavorable




                                                                                                                      Treasury Department Cost per Person in the United States                          Treasury Performance vs. Performance Cost Trends

                                                                                                                                                                                                                      100%
                                                                                                                                      $66.0                                                                                                                72%
                                                                                                                                                                                      $63.80                                                                            70%          67%
                                                                                                                                                                                                                                60%           60%
                                                                                                                                      $64.0
                                                                                                                                                                            $61.61
                                                                                                                                      $62.0
                                                                                                                                                                                                          Percent




                                                                                                                                                                 $59.09                                                10%
                                                                                                                          Dollars




                                                                                                                                      $60.0            $58.24
                                                                                                                                              $56.96                                                                          9.60%
                                                                                                                                      $58.0
                                                                                                                                      $56.0                                                                                                                         5.50%
                                                                                                                                                                                                                                                                                4.40%
                                                                                                                                      $54.0                                                                                                3.30%       3.50%
                                                                                                                                                                                                                        1%
                                                                                                                                                                                                                                2005       2006         2007         2008        2009
                                                                                                                                      $52.0
                                                                                                                                               2005      2006      2007       2008     2009                       Performance Results (Percent of Performance Targets Exceeded or Met)
                                                                                                                                                                                                                  Year-over-year growth in performance cost

                                                                                                                                                                                                       Please see next page for explanation of charts.



10                                                                                                                     How Well is Treasury Performing?
                                                                                                                     PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
HOW WELL IS TREASURY                                      ACTUAL AND TARGET PERFORMANCE
PERFORMING DISCUSSION                                     TRENDS
                                                          Trends in actual performance and targets have been
PERFORMANCE COST AND BUDGET                               analyzed since 2005 where data were available.
                                                          Trends can move upward, downward, or remain flat.
TRENDS
                                                          Depending on the type of measure, a trend can be
Performance cost represents the best indication of the
                                                          favorable, unfavorable, or remain unchanged. Results
total actual cost to operate the Treasury Department.
                                                          indicate that 60 percent of actual performance trends
It includes normal operating expenses from the
                                                          were favorable, 23 percent were unfavorable, and 17
Department’s Statement of Net Cost, but also includes
                                                          percent were unchanged. Target trends were 43 percent
adjustments for costs which do not require budgetary
                                                          favorable, 33 percent unfavorable, and 24 percent
resources such as imputed costs, depreciation, amor-
                                                          unchanged.
tization, losses, and other non-budgetary expenses.
Performance cost in fiscal year 2009 was $19.6 billion,
a 4.4 percent increase from fiscal year 2008, and has     TREASURY COST PER PERSON
risen 4 percent per year since fiscal year 2005. The      The chart reflecting the approximate cost of the
Department’s total enacted budget, however, which         Treasury Department per person in the United States is
includes direct appropriations, non-appropriated,         based on calculations determined by dividing Treasury
and reimbursable amounts, rose by an average of           Performance Cost by an estimate of the U.S. popula-
7.4 percent per year since fiscal year 2005.              tion at the end of fiscal year 2009. This ratio attempts
                                                          to describe the estimated cost of operating the Treasury
                                                          Department borne by everyone in the United States
PERFORMANCE TO TARGET
                                                          on a per person basis. The estimated cost per person
In fiscal year 2009, the Treasury Department contin-
                                                          for fiscal year 2009 is $63.80, up from $61.61 in fiscal
ued reporting using the revised performance rating
                                                          year 2008.
system rolled out in 2008. Performance to target is
rated as: Exceeded, Met, Improved from the prior year
(but not met), Unmet, Baseline, or Discontinued.          TREASURY PERFORMANCE AND REAL
Prior to 2008, performance measures were rated only       COST
as met or unmet. Results are shown in two pie charts,     This chart provides information on Treasury’s perfor-
one including all performance measures, and one not       mance to target trends compared with the year-to-year
including baseline and discontinued measures. While       increase in the Department’s performance cost. The
68 percent of targets were exceeded, met, or improved     percent of targets met or exceeded dropped by two
based on all measures, 82 percent of targets were         percentage points compared to the prior fiscal year,
exceeded, met, or improved based on measures that         while performance cost increased by 4.4 percent.
were not baselined or discontinued.




                                                                      How Well is Treasury Performing?                     11
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Financial Highlights
                                                                                                                       Total Assets (in billions)                                                                                Total Liabilities (in billions)


                                                                                                                                                             $16,000                                                                                                   $16,000
                                                                                                                                                                                                                    $13,846.6                                                                                                 $13,418.5
                                                                                                                                                             $14,000                                                                                                   $14,000
                                                                                                                         Dollars (in billions)




                                                                                                                                                                                                                                   Dollars (in billions)
                                                                                                                                                             $12,000                                    $11,117.0                                                      $12,000                                    $10,807.3
                                                                                                                                                                                             $9,528.8                                                                                                  $9,407.7
                                                                                                                                                             $10,000              $8,988.0                                                                             $10,000              $8,873.1
                                                                                                                                                                       $8,394.4                                                                                                  $8,279.0
                                                                                                                                                              $8,000                                                                                                    $8,000
                                                                                                                                                              $6,000                                                                                                    $6,000
                                                                                                                                                              $4,000                                                                                                    $4,000
                                                                                                                                                              $2,000                                                                                                    $2,000
                                                                                                                                                                  $0                                                                                                       $0
                                                                                                                                                                         FY05       FY06       FY07       FY08        FY09                                                        FY05       FY06        FY07       FY08        FY09



                                                                                                                      The increase of $2.7 trillion in total assets in fiscal year 2009                                         Total liabilities increased by $2.6 trillion from fiscal year
                                                                                                                      is largely due to the increase in future funds required from                                              2008 to fiscal year 2009. The majority of the increase is due
                                                                                                                      the General Fund of the U.S. Government to pay for the                                                    to borrowings from other federal agencies and debt issued to
                                                                                                                      federal debt owed to the public and other federal agencies.                                               the public.

                                                                                                                       Net Federal Debt Interest Costs (in billions)                                                             Total Budgetary Resources (in billions)


                                                                                                                                                               $500                                                                                                     $2,000                                                $1,835.0
                                                                                                                                                                                                         $440.9
                                                                                                                                                               $450                           $420.4                                                                    $1,800
                                                                                                                                                                                   $390.9
                                                                                                                                                               $400                                                  $363.2                                             $1,600
                                                                                                                         Dollars (in billions)




                                                                                                                                                                                                                                   Dollars (in billions)




                                                                                                                                                                        $342.4
                                                                                                                                                               $350                                                                                                     $1,400
                                                                                                                                                               $300                                                                                                     $1,200
                                                                                                                                                               $250                                                                                                     $1,000
                                                                                                                                                               $200                                                                                                       $800                                     $772.2
                                                                                                                                                               $150                                                                                                       $600   $453.3     $503.1     $523.0
                                                                                                                                                               $100                                                                                                       $400
                                                                                                                                                                $50                                                                                                       $200
                                                                                                                                                                 $0                                                                                                         $0
                                                                                                                                                                         FY05       FY06       FY07       FY08        FY09                                                        FY05       FY06        FY07       FY08        FY09



                                                                                                                      The decrease of $77.7 billion in net interest paid on the                                                 The majority of the increase in total budgetary resources
                                                                                                                      federal debt is due to the decrease in the average interest rate                                          for fiscal year 2009 is due to Troubled Asset Relief Program
                                                                                                                      for debt held by federal entities and federal debt held by the                                            (TARP) activity and additional investments in the
                                                                                                                      public.                                                                                                   Government-Sponsored Enterprises.

                                                                                                                       Net Outlays (in billions)                                                                                 Net Custodial Revenue Received (in trillions)


                                                                                                                                                             $1,000                                                 $922.2                                              $3.0
                                                                                                                                                                                                                                                                                                       $2.45      $2.37
                                                                                                                                                              $800                                                                                                      $2.5                $2.28
                                                                                                                                     Dollars (in billions)




                                                                                                                                                                                                                                               Dollars (in billions)




                                                                                                                                                                                                                                                                                 $2.04                                        $1.99
                                                                                                                                                                                                                                                                        $2.0
                                                                                                                                                              $600
                                                                                                                                                                                             $436.0     $462.9                                                          $1.5
                                                                                                                                                                                  $413.0
                                                                                                                                                              $400     $361.2
                                                                                                                                                                                                                                                                        $1.0
                                                                                                                                                              $200                                                                                                      $0.5

                                                                                                                                                                $0                                                                                                      $0.0
                                                                                                                                                                       FY05       FY06        FY07       FY08        FY09                                                        FY05       FY06       FY07        FY08        FY09



                                                                                                                      The majority of the $459.3 billion increase in net outlays                                                Net custodial revenue collected on behalf of the U.S.
                                                                                                                      was due to Troubled Asset Relief Program (TARP) activity                                                  Government decreased by $379.3 billion. This decrease can
                                                                                                                      and additional investments in the Government-Sponsored                                                    be contributed to the weakened economic conditions that
                                                                                                                      Enterprises.                                                                                              existed during fiscal year 2009.




12                                                                                                                      Financial Highlights
                                                                                                                                                                          PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
Fiscal Year 2009 Performance by Strategic Goal
 U.S. AND WORLD ECONOMIES                                      TABLE 1: TARP SUMMARY
 PERFORM AT FULL ECONOMIC                                      AS OF SEPTEMBER 30, 2009
                                                               $ IN BILLIONS
 POTENTIAL




                                                                                      Purchase Price




                                                                                                                                                          Received from
                                                                                      or Guarantee




                                                                                                                           Repayments

                                                                                                                                            Outstanding




                                                                                                                                                          Investments
                                                                                                                           Investment
 Treasury remains at the forefront of the U.S.




                                                                                                           Disbursed
                                                                                      Amounts




                                                                                                                                            Balance
 Government’s response to the financial crisis and




                                                                                                           Total $




                                                                                                                                                          Cash
 economic recession. Through implementation of the




                                                                                   
 Housing and Economic Recovery Act of 2008 (HERA),             Capital Purchase       $ 204.6          $ 204.6         $ 70.7           $ 133.9           $      9.7
                                                               Program
 Emergency Economic Stabilization Act of 2008 (EESA),
                                                               Targeted Investment    $ 40.0           $ 40.0          $      0.0       $ 40.0            $      1.9
 and American Recovery and Reinvestment Act of 2009            Program
 (Recovery Act); coordination with federal, state, and
                                                               Asset Guarantee        $      5.0       $      0.0      $      0.0       $       0.0       $      0.5
 international partners; regulation of national banks and      Program
 thrifts; temporary measures to stabilize money markets;       AIG Investments        $ 69.8           $ 43.2          $      0.0       $ 43.2            $      0.0
 and various other initiatives, Treasury worked in fiscal      Term Asset-Backed      $ 20.0           $      0.1      $      0.0       $       0.1       $      0.0
 year 2009 to stabilize the financial system and restore       Securities Loan
                                                               Facility
 economic growth. Ahead is a process of repairing and
 reforming the financial system to close the gaps and          Public Private         $      6.7       $      0.0      $      0.0       $       0.0       $      0.0
                                                               Investment Program
 weaknesses in supervision and regulation of financial
                                                               Automotive Industry    $ 81.1           $ 75.9          $      2.1           $ 73.8        $      0.7
 firms, continuing economic stabilization and stimulus,        Financing Program
 and defining an appropriate path for unwinding the            Home Affordable        $ 27.1           $      0.0             NA                NA        $      0.0
 government programs which have been put in place to           Modification
                                                               Program
 support the economy.
                                                               Totals                 $ 454.3 $ 363.8                  $ 72.8 $ 291.0                      $ 12.7
                                                              Some figures may not sum to total due to rounding.
 TROUBLED ASSET RELIEF PROGRAM/
 FINANCIAL STABILITY PLAN
 On October 3, 2008, Congress passed EESA to                  The incoming Obama Administration faced an
 prevent a potentially catastrophic failure of the            extremely fragile financial system and deep ongo-
 financial system. Under the legislation, the Office of       ing economic recession. On February 10, 2009,
 Financial Stability (OFS) was created within Treasury        Secretary Geithner announced a series of new financial
 to purchase and insure up to $700 billion in certain         programs, most of which relied on TARP, that were
 types of assets under the Troubled Asset Relief Program      designed to help rebuild confidence in the financial
 (TARP). Operating in conjunction with Federal                system, draw in private capital, and restart critical
 Reserve and FDIC programs, TARP has provided re-             channels of credit supply. These programs helped
 sources facilitating stabilization of the financial system   bolster confidence in financial markets on the state of
 and restoration of credit to businesses and consumers.       the country’s financial institutions and ensure the avail-
 For the period ended September 30, 2009, the face            ability of essential capital support for small businesses,
 value of the amounts obligated under TARP was $454           consumers and home owners.
 billion and funds disbursed totaled $364 billion.




                                      U.S. AND WORLD ECONOMIES PERFORM AT FULL ECONOMIC POTENTIAL                                                                               13
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     TARP operations are managed with four primary goals:         certified to Congress extension of TARP authority to
                                                                                                                                                                                  October 3, 2010 under Section 120(b) of EESA.
                                                                                                                      •	   Goal 1 – Ensure the overall stability and liquidity
                                                                                                                           of the financial system
                                                                                                                                                                                   FIGURE 1. Total TARP Funds Obligated in Fiscal Year 2009
                                                                                                                              a.	 Make capital available to viable institutions    (in billions)
                                                                                                                                                                                                      27.1
                                                                                                                              b.	Provide targeted assistance as needed                  Home Affordable
                                                                                                                                                                                    Modification Program
                                                                                                                              c.	 Increase liquidity and volume in securitiza-                        81.1
                                                                                                                                                                                                                                    204.6
                                                                                                                                                                                                                                    Capital Purchase
                                                                                                                                  tion markets                                        Automotive Industry
                                                                                                                                                                                       Financing Program
                                                                                                                                                                                                                                    Program

                                                                                                                              Contributing programs:                                                   6.7
                                                                                                                                                                                                                                    40.0
                                                                                                                                                                                                                                    Targeted Investment
                                                                                                                                                                                            Public Private                          Program
                                                                                                                               •	 Capital   Purchase Program                          Investment Program
                                                                                                                                                                                                                                    5.0
                                                                                                                               •	 Public-Private   Investment Program                                 20.0                          Asset Guarantee
                                                                                                                                                                                      Term Asset-Backed                             Program
                                                                                                                               •	 Consumer    and Business Lending Initiative      Securities Loan Facility                         69.8
                                                                                                                                                                                                                                    AIG Investments
                                                                                                                                  •	 Term   Asset-Backed Securities Loan
                                                                                                                                     Facility
                                                                                                                                                                                  Capital Purchase Program (CPP)
                                                                                                                                  •	 Unlocking      Credit for Small Business
                                                                                                                                                                                  Treasury created the Capital Purchase Program (CPP)
                                                                                                                                     Initiative
                                                                                                                                                                                  in October 2008 to stabilize the financial system by
                                                                                                                               •	 Targeted   Investment Program                   providing capital to viable financial institutions of all
                                                                                                                               •	 AmericanInternational Group (AIG)               sizes across the country. The program was intended to
                                                                                                                                 Investment Program                               strengthen banks’ capital base to enable them to absorb
                                                                                                                               •	 Asset   Guarantee Program                       losses from bad assets while continuing to lend to con-
                                                                                                                               •	 Automotive      Industry Financing Program      sumers and businesses. Through the program, Treasury
                                                                                                                                                                                  has provided capital to 685 financial institutions across
                                                                                                                      •	   Goal 2 – Prevent avoidable foreclosures and help
                                                                                                                                                                                  48 states, the District of Columbia, and Puerto Rico,
                                                                                                                           preserve homeownership
                                                                                                                                                                                  including more than 300 small and community banks.
                                                                                                                              Contributing program:
                                                                                                                               •	 Home     Affordable Modification Program        Treasury provided capital to qualified financial in-
                                                                                                                                                                                  stitutions through the purchase of senior preferred
                                                                                                                      •	   Goal 3 – Protect taxpayer interests
                                                                                                                                                                                  equity or subordinated debentures. Obligations were
                                                                                                                      •	   Goal 4 – Promote transparency                          structured to encourage repayment, with dividends set
                                                                                                                     The purpose of TARP was to restore the liquidity and         at five percent for the first five years and nine percent
                                                                                                                     stability of the financial system. While EESA provided       thereafter. In addition, to participate in financial gains,
                                                                                                                     the Secretary of the Treasury with the authority to          Treasury received from participating institutions war-
                                                                                                                     spend $700 billion to meet the objectives of the Act, it     rants to purchase common equity, additional preferred
                                                                                                                     is clear today that TARP will not cost taxpayers $700        shares, or additional subordinated debentures. All
                                                                                                                     billion, based on what has already been disbursed and        funding recipients were subject to limitations on
                                                                                                                     current program estimates. The current cost estimate of      executive pay to protect taxpayers and encourage early
                                                                                                                     the program is $69 billion, with net costs in the AIG        repayment. Treasury initially committed over a third of
                                                                                                                     Program, Automotive Industry Financing Program,              total TARP funding, $250 billion, to the CPP; which
                                                                                                                     and Home Affordable Modification Program partially           was lowered to $218 billion in March 2009. Treasury
                                                                                                                     offset by net gains in other programs. (See Table 2,         is continuing to monitor CPP investments, collect
                                                                                                                     page 19.) On December 9, 2009, Secretary Geithner            dividends, and ensure compliance with contractual
                                                                                                                                                                                  obligations.



14                                                                                                                     FISCAL YEAR 2009 PERFORMANCE BY STRATEGIC GOAL
                                                                                                                          PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
As of September 30, 2009, more than 40 banks had             Public-Private Investment Program
repaid TARP investments made by Treasury, includ-
                                                             (PPIP)
ing over $70 billion in repayments. The repayments
                                                             To help clean up the balance sheets of major financial
had reduced program commitments to below $135
                                                             institutions and restore liquidity to financial mar-
billion. In addition, dividends and interest from CPP
                                                             kets, Treasury proposed creation of a Public-Private
participants was over $6.8 billion and proceeds from
                                                             Investment Program to purchase legacy loans and
the repurchase of warrants and stock was $2.9 bil-
                                                             securities under the Financial Stability Plan. Under the
lion. Many investments aimed at stabilizing banks are
                                                             legacy securities PPIP program, Treasury is investing
expected to deliver returns for taxpayers.
                                                             equity on a dollar-for-dollar basis with private investors
Capital Purchase Program information on                      in qualified Public-Private Investment Funds and pro-
FinancialStability.gov.                                      viding access to debt financing for up to 100 percent
                                                             of the fund’s total equity. Funds are required to obtain
Capital Assistance Program (CAP) and                         commitments of at least $500 million in private capital
                                                             to qualify and are expected to employ a predominately
the Supervisory Capital Assessment                           long-term buy-and-hold strategy. Treasury will receive
Program (SCAP)                                               pro rata any profits or losses in the funds alongside
In early 2009, the Federal Reserve, OCC and FDIC             private investors. A total of nine asset managers were
conducted a one-time, forward-looking assessment or          designated to establish funds for the program in July
“stress test” (the SCAP) on the 19 largest U.S. bank         2009 (selected out of 100 applicants) and the first
holding companies. The goal was to determine whether         fund closing occurred on September 30, 2009. The
these banks, which hold two-thirds of U.S. bank-             maximum capital commitment for the first round is
ing system assets, had sufficient capital to withstand       $30 billion. As of September 30, 2009, no private fund
losses and sustain lending through a severe economic         managers had made any investments and Treasury had
downturn. Participant banks were encouraged to raise         not disbursed any funds.
needed capital from private investors, with a backstop
financial arrangement available through Treasury’s           After announcement of the program, non-agency
Capital Assessment Program.                                  mortgage-backed securities (MBS) rose substantially
                                                             in price. Prime fixed rate securities issued in 2006 that
For the assessment, supervisors used historically high       traded as low as $60 in March had increased in value
loss estimates on securities and loans and historically      by over 40 percent by the end of September. That
low estimates on potential earnings to determine             improvement in financial market condition created
baseline capital levels. The stress test results published   the positive backdrop to enable introduction of the
on May 9, 2009 revealed that nine of the 19 banks had        program at a smaller scale than originally envisioned.
sufficient capital buffers while the remaining 10 banks      The Department will assess the need for additional
needed to raise their capital buffers by a combined $75      rounds following the results of the first round.
billion. Since the release of the results, U.S. banks have
raised over $80 billion in common equity and $40             Public-Private Investment Program information on
billion in non-government guaranteed debt. Treasury          FinancialStability.gov.
had not funded any investments through CAP as of
the end of fiscal year 2009.

Capital Assistance Program information on
FinancialStability.gov.




                                      U.S. and World Economies Perform at Full Economic Potential                               15
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Term Asset-Backed Securities Loan                            In August 2009, Treasury and the Federal Reserve
                                                                                                                                                                                  announced extension of TALF through March 31,
                                                                                                                     Facility (TALF)
                                                                                                                                                                                  2010 for newly-issued ABS and legacy commercial
                                                                                                                     Treasury and the Federal Reserve announced creation
                                                                                                                                                                                  mortgage-backed securities (CMBS) and through June
                                                                                                                     of TALF in November 2008 to help unlock credit
                                                                                                                                                                                  30, 2010 for newly-issued CMBS.
                                                                                                                     markets for households and small businesses. Under
                                                                                                                     TALF, the Federal Reserve announced intention to             Term Asset-Backed Securities Loan Facility informa-
                                                                                                                     lend up to $200 billion to eligible investors purchasing     tion on the Federal Reserve website.
                                                                                                                     AAA-rated asset-backed securities (ABS) collateralized
                                                                                                                                                                                   FIGURE 2. Issuance of ABS Backed by Consumer and Small
                                                                                                                     by newly and recently originated consumer and small           Business Loans (US$, billions)
                                                                                                                     business loans. (Including securities backed by auto
                                                                                                                                                                                                             $25
                                                                                                                     loans, student loans, credit card loans, equipment
                                                                                                                     loans, floorplan loans, loans guaranteed by the Small                                   $20




                                                                                                                                                                                     Dollars (in billions)
                                                                                                                     Business Administration, insurance premium finance                                      $15                                      Average Post-TALF
                                                                                                                                                                                                                                                     (Mar. 2009 - Oct. 2009)
                                                                                                                     loans, residential mortgage servicing advances, and                                     $10
                                                                                                                     commercial mortgage loans.) Borrowers are eligible to
                                                                                                                                                                                                              $5
                                                                                                                     borrow up to the market value of the ABS, less a fixed                                                                          Average Pre-TALF
                                                                                                                                                                                                                                                   (Sep. 2008 - Feb. 2009)

                                                                                                                     percentage, ensuring they take the first loss if the secu-                               $0




                                                                                                                                                                                                                                                                                 MAR



                                                                                                                                                                                                                                                                                             MAY
                                                                                                                                                                                                                   AUG




                                                                                                                                                                                                                                      AUG




                                                                                                                                                                                                                                                         NOV




                                                                                                                                                                                                                                                                                                               AUG
                                                                                                                                                                                                                          JUN




                                                                                                                                                                                                                                                                     JAN




                                                                                                                                                                                                                                                                                                   JUN
                                                                                                                                                                                                                                                                                       APR
                                                                                                                                                                                                                                                   OCT



                                                                                                                                                                                                                                                               DEC




                                                                                                                                                                                                                                                                                                                           OCT
                                                                                                                                                                                                                                            SEP




                                                                                                                                                                                                                                                                                                                     SEP
                                                                                                                                                                                                                                JUL




                                                                                                                                                                                                                                                                           FEB




                                                                                                                                                                                                                                                                                                         JUL
                                                                                                                     rities lose value. Under TALF, Treasury provided up to                                        2007                     2008                                              2009



                                                                                                                     $20 billion to the Federal Reserve in credit protection                                                          Standard ABS                                     TALF-Eligible ABS

                                                                                                                     to be employed in the event of borrower default.

                                                                                                                     Prior to introduction of the program, the market for         Unlocking Credit for Small Business
                                                                                                                     newly-issued ABS had largely shut down. Interest rate        Initiative
                                                                                                                     spreads on the most highly-rated AAA tranches of
                                                                                                                                                                                  To help restore the confidence needed for financial
                                                                                                                     ABS and CMBS rose to levels outside their historical
                                                                                                                                                                                  institutions to increase lending to small businesses,
                                                                                                                     range, in certain cases well over seven to 15 times
                                                                                                                                                                                  Treasury announced an initiative to expand securi-
                                                                                                                     their average, respectively. The disruption of these
                                                                                                                                                                                  tization of small business loans on March 16, 2009.
                                                                                                                     markets contributed to the lack of credit to households
                                                                                                                                                                                  Securitization of small business loans provides com-
                                                                                                                     and businesses of all sizes, impacting U.S. economic
                                                                                                                                                                                  munity banks and other lenders with an important
                                                                                                                     activity. Through October 2009, the TALF program
                                                                                                                                                                                  source of capital for additional loans. However, as a
                                                                                                                     had supported nearly $86 billion of new consumer
                                                                                                                                                                                  result of the severe dislocations in the credit markets,
                                                                                                                     and small business credit, including over 3.6 million
                                                                                                                                                                                  both lenders that originate loans under SBA programs
                                                                                                                     consumer and small business loans and leases, and over
                                                                                                                                                                                  and the “pool assemblers” that package such loans for
                                                                                                                     132 million active credit card accounts. TALF has also
                                                                                                                                                                                  securitization experienced significant difficulty selling
                                                                                                                     provided liquidity for $4.1 billion of legacy CMBS
                                                                                                                                                                                  SBA loans or securities in the secondary market. This,
                                                                                                                     securities. This aid to the securitization market has had
                                                                                                                                                                                  in turn, significantly reduced the ability of such lenders
                                                                                                                     a clear impact on liquidity, spreads and the availability
                                                                                                                                                                                  and pool assemblers to obtain funds to make new
                                                                                                                     of consumer and small business credit. Since the peak
                                                                                                                                                                                  small business loans. Under the program, Treasury has
                                                                                                                     of the crisis, spreads for the asset classes backed by
                                                                                                                                                                                  planned to make up to $15 billion in TARP resources
                                                                                                                     the program have come down by 60 percent or more,
                                                                                                                                                                                  available to purchase securities backed by the SBA
                                                                                                                     including a reduction in credit card and auto loan ABS
                                                                                                                                                                                  guaranteed portions of loans made under the SBA’s
                                                                                                                     rates from six percentage points above the benchmark
                                                                                                                                                                                  7(a) loan program, as well as first-lien mortgage securi-
                                                                                                                     to only one percentage point above the benchmark.
                                                                                                                                                                                  ties made by private sector lenders in connection with




16                                                                                                                     FISCAL YEAR 2009 PERFORMANCE BY STRATEGIC GOAL
                                                                                                                            PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
SBA’s 504 community development loan program.                 programs into common shares and trust preferred
(The SBA’s 7(a) program is the SBA’s most basic and           securities to strengthen Citigroup’s capital base. As
widely used loan program.)                                    of September 30, 2009, Treasury had received $1.9
                                                              billion in dividends, interest and fees from holdings
Since Treasury’s announcement of this program, the            under the TIP program.
credit markets for small businesses have improved
somewhat. The secondary market for guaranteed SBA             Targeted Investment Program information on
loans, for example, had essentially ceased working last       FinancialStability.gov.
fall and had only $86 million in January re-sales. That
market improved notably this spring in the wake of
                                                              AIG Investment Program
Treasury’s announcement, with $399 million settled
                                                              In November 2008, Treasury purchased $40 billion in
from lenders to broker-dealers in September 2009. As
                                                              cumulative preferred shares from AIG. In April 2009,
a result of this improvement, as well as reluctance on
                                                              the $40 billion in cumulative shares were exchanged
the part of market participants to accept TARP funds,
                                                              for $41.6 billion in non-cumulative preferred shares
Treasury found that demand for its proposed program
                                                              paying a 10 percent dividend. At the same time, an eq-
declined. As of September 30, 2009, no funds had
                                                              uity capital facility was created providing an additional
been disbursed under the program, although funding
                                                              $29.8 billion as needed, of which $3.2 billion had been
remains available.
                                                              drawn as of September 30, 2009. The Federal Reserve
Unlocking Credit for Small Business Initiative on             provided loans to AIG and a public trust was created
FinancialStability.gov.                                       to hold convertible preferred shares representing 79.8
                                                              percent of the current voting power of AIG common
Targeted Investment Program (TIP)                             shares. These shares are held in trust for the sole benefit
                                                              of taxpayers. (The Department of the Treasury does not
Treasury provided assistance on a case-by-case basis to
                                                              control the trust and cannot direct the trustees.) As of
stabilize key financial institutions during the height of
                                                              September 30, 2009, AIG had not made any dividend
the financial crisis. Through TIP, Treasury sought to
                                                              payments on any of the perpetual preferred stock.
prevent a loss of confidence in critical financial institu-
                                                              Subsequently, AIG failed to make a dividend payment
tions which could have resulted in significant financial
                                                              on November 2, 2009. Per the terms of the preferred
market disruption. Assistance was provided through
                                                              stock, if AIG misses four dividend payments, Treasury
the purchase of preferred shares paying an annual
                                                              may appoint to the AIG board of directors the greater
dividend of eight percent. These investments impose
                                                              of two members or 20 percent of the total number of
greater reporting requirements and harsher restrictions
                                                              directors of the Company.
on the companies than under CPP terms, including
restrictions on dividend payments to $0.01 per share          AIG Program information on the Federal Reserve
per quarter, limits on executive compensation and             website.
corporate expenses, and other measures. In addition,
Treasury received warrants from participant companies         Asset Guarantee Program (AGP)
to purchase common shares.                                    The Asset Guarantee Program was created in
Under the TIP, Treasury purchased $20 billion in pre-         November 2008 to stabilize the financial system by
ferred shares from Citigroup in December 2008 and             providing guarantees against severe credit losses by
$20 billion in preferred shares from Bank of America          large financial institutions. The AGP has been applied
in January 2009. Treasury has exchanged the preferred         with extreme discretion and Treasury does not antici-
shares for Citigroup received under the TIP and CPP           pate wider use of this program. Announced in January
                                                              2009, Treasury guaranteed up to $5 billion of potential



                                      U.S. and World Economies Perform at Full Economic Potential                                 17
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     losses on a $301 billion pool of loans for Citigroup.        As an extension of AIFP, in March 2009 Treasury
                                                                                                                     Under the program, Citigroup will absorb the first           created an Auto Supplier Support Program provid-
                                                                                                                     $39.5 billion of losses on the pool, with Treasury           ing qualified automotive supply companies financial
                                                                                                                     taking second loss on the next $5 billion. Additionally,     protection on their receivables from domestic auto
                                                                                                                     Federal Deposit Insurance Corporation (FDIC) will            manufacturers. Treasury also established a Warranty
                                                                                                                     absorb $10 billion in third losses and the Federal           Commitment Program designed to give consumers
                                                                                                                     Reserve will provide secured loans for 90 percent of         considering new car purchases confidence that their
                                                                                                                     the remaining value in the pool, following FDIC and          warranties from GM and Chrysler would be honored.
                                                                                                                     Treasury payments. The guarantee will expire in 2014         As of July 10, 2009, the Warranty Commitment
                                                                                                                     for non-residential assets and 2019 for residential as-      program was terminated after New GM and New
                                                                                                                     sets. In return, Treasury received $4 billion in preferred   Chrysler completed the purchase of substantially all
                                                                                                                     shares and warrants, which have since been converted         of the assets of GM and Chrysler from their respective
                                                                                                                     into trust preferred securities.                             bankruptcies.

                                                                                                                     In January 2009, Treasury, the Federal Reserve and           Automotive Industry Financing Program information
                                                                                                                     FDIC announced agreement to share potential losses           on FinancialStability.gov.
                                                                                                                     on a $118 billion pool of loans at Bank of America.
                                                                                                                     Bank of America terminated the request prior to fund-        Home Affordable Modification
                                                                                                                     ing, paying $425 million in fees to Treasury, FDIC and
                                                                                                                                                                                  Program (HAMP)
                                                                                                                     the Federal Reserve.
                                                                                                                                                                                  To mitigate foreclosures and help ensure homeowner-
                                                                                                                     Asset Guarantee Program information on                       ship preservation, Treasury announced the Home
                                                                                                                     FinancialStability.gov.                                      Affordable Modification Program in February 2009 to
                                                                                                                                                                                  provide incentives for mortgage servicers, borrowers
                                                                                                                     Automotive Industry Financing                                and investors to modify loans that are delinquent or at
                                                                                                                     Program (AIFP)                                               imminent risk of default. Funded jointly by EESA and
                                                                                                                                                                                  HERA, with $50 billion from TARP and $25 billion
                                                                                                                     Treasury established the Automotive Industry
                                                                                                                                                                                  from HERA, HAMP provides financial support for
                                                                                                                     Financing Program on December 19, 2008, to help
                                                                                                                                                                                  loan modifications which reduce a borrower’s monthly
                                                                                                                     prevent a significant disruption to the American auto-
                                                                                                                                                                                  mortgage payment to no more than 31 percent of their
                                                                                                                     motive industry, which would have posed a systemic
                                                                                                                                                                                  monthly gross income. Modifications are intended
                                                                                                                     risk to financial market stability and had a negative
                                                                                                                                                                                  to provide sustainably affordable mortgage payments
                                                                                                                     effect on the economy. AIFP loans and equity invest-
                                                                                                                                                                                  for responsible mortgage holders, and mitigate the
                                                                                                                     ments (purchases of preferred and common shares)
                                                                                                                                                                                  spillover effects of preventable foreclosures on neigh-
                                                                                                                     totaling $76 billion were provided to General Motors
                                                                                                                                                                                  borhoods, communities, the financial system and the
                                                                                                                     (GM), Chrysler and their respective financing entities.
                                                                                                                                                                                  economy. With over 85 percent of mortgage loans
                                                                                                                     GM and Chrysler were provided funds with the re-
                                                                                                                                                                                  in the country covered by the program, HAMP is
                                                                                                                     quirement that they develop plans to achieve long term
                                                                                                                                                                                  expected to help three to four million eligible hom-
                                                                                                                     viability. Following finalization of the plans, GM and
                                                                                                                                                                                  eowners modify their mortgages on more affordable
                                                                                                                     Chrysler conducted orderly bankruptcies (40 days for
                                                                                                                                                                                  terms before the end of 2012.
                                                                                                                     GM and 42 days for Chrysler). The U.S. Government
                                                                                                                     currently holds 61 percent of common stock in GM             At a meeting between Treasury and participating
                                                                                                                     and 10 percent of common stock in Chrysler under             servicers on July 28, 2009, the servicers committed to
                                                                                                                     the program.                                                 reaching a cumulative target of 500,000 trial modifica-
                                                                                                                                                                                  tions by November 1, 2009. As of September 30, 2009,



18                                                                                                                     FISCAL YEAR 2009 PERFORMANCE BY STRATEGIC GOAL
                                                                                                                                                                                                    PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
over 487,000 HAMP trial modifications had been com-                                                                   (GSEs). U.S. equity markets have surged, and prices
pleted, well on the way to achieving the target. Servicers                                                            for bank securities have improved significantly. Credit
have also agreed to work with Treasury to implement                                                                   creation in securities markets has increased, facilitating
actions designed to improve program effectiveness,                                                                    new credit for consumers and businesses. Housing mar-
including streamlining application procedures. To pro-                                                                kets are also stabilizing. Home prices, as measured by
vide transparency and servicer accountability, servicer-                                                              the national LoanPerformance index, increased by five
specific results are reported on a monthly basis on                                                                   percent over the last six months, reversing three straight
FinancialStability.gov and MakingHomeAffordable.                                                                      years of decline. While clear challenges remain, particu-
gov. Treasury is also establishing specific performance                                                               larly with continuing bank failures, high foreclosure
metrics to measure the performance of each servicer,                                                                  rates, high unemployment and concerns in commercial
such as average borrower wait time in response to inqui-                                                              real estate markets, the worst of the crisis has passed.
ries and the response time for completed applications,
and has implemented a “second look” review of samples                                                                 The ultimate return on the TARP investments that
of rejected applications to ensure borrower applications                                                              remain outstanding will depend on how the economy
are not inadvertently or incorrectly denied.                                                                          and financial markets evolve. The improvement in
                                                                                                                      economic and financial prospects that has already
Home Affordable Modification Program information                                                                      occurred has had a significant impact on the expected
on MakingHomeAffordable.gov.                                                                                          cost. As of September 30, 2009, the estimated cost of
                                                                                                                      TARP programs is $110 billion lower than the initial
 FIGURE 3. HAMP Loans Entering Trial and Permanent Modification                                                       estimates made at the time the programs were initiated.
                                                                                                                      (See table 2.) About $10 billion of that decline in costs
                       600,000                                                     24,000                             stems from early repayments of TARP funds. The rest
                                                                         487,081
                                                                                            Permanent Modifications




                       500,000                                                     20,000                             of the decline is primarily a function of improvements
 Trial Modifications




                                                               386,865
                       400,000                                                     16,000                             in the economic and financial environment since
                       300,000                       253,673                       12,000                             TARP programs were initiated.
                       200,000                                                     8,000
                                           143,276
                                                                                                                       TABLE 2: ESTIMATED CHANGE IN COST FOR THE TARP
                       100,000    50,130                                           4,000                               PROGRAMS
                                                                          1,733
                                                       13       396
                            0
                                  MAY       JUN        JUL      AUG       SEP
                                                                                   0                                   $ IN BILLIONS
                                 & PRIOR                                                                                                                    Original       Current          Net
                                                                                                                                                           Estimate1      Estimate       Change
                                                                                                                       Capital Purchase Program                - 57.4        + 15.0        + 72.4
                                                                                                                       Targeted Investment Program             - 19.6         + 1.9        + 21.5
TARP accomplishments in                                                                                                Asset Guarantee Program                  + 1.0         + 2.2         + 1.2
fiscal year 2009                                                                                                       AIG Investments                          - 31.5       - 30.4         + 1.1
Viewed in conjunction with other Federal Government                                                                    Automotive Industry Financing            - 43.7       - 30.4        + 13.3
programs, TARP should be evaluated primarily on its                                                                    Program
impact on stabilizing the financial system. Today, the                                                                 Term Asset-Backed Securities             + 0.1         + 0.3         + 0.2
financial system and the economy are showing signs of                                                                  Loan Facility

stability. The economy grew in the third quarter and                                                                       Subtotal                           - 151.1        - 41.4      + 109.7

private economists generally expect moderate growth                                                                    Home Affordable Modification             - 27.1       - 27.1           0.0
                                                                                                                       Program
in the remainder of this year and next. The cost of bor-
                                                                                                                       Total                                  - 178.2        - 68.5      + 109.7
rowing has declined to pre-crisis levels for many banks,
                                                                                                                      1 Original estimates completed on or near the initiation of each program.
non-financial corporations, states and local govern-                                                                  Amounts shown based on total program disbursements through fiscal year
ments, and the government-sponsored enterprises                                                                       2009.




                                                                  U.S. and World Economies Perform at Full Economic Potential                                                                             19
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Measuring the impact of TARP in isolation is challeng-       over 100 basis points today. The TARP was a necessary
                                                                                                                     ing. Most TARP programs were part of a coordinated           step, but not the only step, to achieving this recovery.
                                                                                                                     government response to restore confidence in the
                                                                                                                                                                                   FIGURE 5. Credit Default Spreads for Financial Institutions
                                                                                                                     financial system. The health of the overall system and        (basis points)
                                                                                                                     its impact on the U.S. economy are therefore the
                                                                                                                     most important metrics by which the effectiveness of                           500                      Lehman    FSP
                                                                                                                                                                                                    450
                                                                                                                     these policies can be assessed. However, a few TARP                            400
                                                                                                                     programs were uniquely targeted to specific markets                            350




                                                                                                                                                                                     Basis Points
                                                                                                                                                                                                    300
                                                                                                                     and institutions, allowing for more direct assessment of                       250
                                                                                                                     performance.                                                                   200
                                                                                                                                                                                                    150
                                                                                                                                                                                                    100
                                                                                                                     Below are several accepted indicators of financial                              50
                                                                                                                                                                                                      0
                                                                                                                     market stress. The London Inter-Bank Offered Rate –                                  2006     2007       2008        2009
                                                                                                                     Overnight Index Swap (LIBOR-OIS) spread measures
                                                                                                                     the difference between short-term borrowing rates
                                                                                                                                                                                  Notes: Includes Bank of America, Citigroup, Goldman Sachs, JPMorgan,
                                                                                                                     between banks and expected short-term borrowing              Morgan Stanley, and Wells Fargo.
                                                                                                                     rates for banks from the Federal Reserve. The spread
                                                                                                                     reflects the additional risk banks perceive when lending     In conjunction with lower credit default swap rates,
                                                                                                                     to other banks, versus borrowing costs from the Federal      borrowing costs have declined for many businesses.
                                                                                                                     Reserve. Historically, LIBOR-OIS spreads have been           Investment-grade corporate bond rates have fallen by
                                                                                                                     0.1 percent or less. With greater stress in financial mar-   over 70 percent since last fall, and high-yield bond
                                                                                                                     kets in October 2008, the three-month LIBOR-OIS              rates have fallen by more than half. Businesses have
                                                                                                                     spread spiked to 3.64 percent. At the end of the fiscal      issued about $900 billion in investment-grade debt
                                                                                                                     year, LIBOR-OIS spreads were 0.25 percent, within            and over $100 billion in high-yield debt this year.
                                                                                                                     reach of historical levels.                                  While much of the new issuance earlier in the year was
                                                                                                                                                                                  supported by the government, private investors have
                                                                                                                      FIGURE 4. Libor-OIS Spread (basis points)                   funded most new corporate debt in recent months.

                                                                                                                                       400                                         FIGURE 6. Corporate Bond Spreads (basis points)
                                                                                                                                                              Lehman    FSP
                                                                                                                                       350
                                                                                                                                       300                                                          600
                                                                                                                        Basis Points




                                                                                                                                       250
                                                                                                                                                                                                    500
                                                                                                                                       200
                                                                                                                                                                                                    400
                                                                                                                                                                                     Basis Points




                                                                                                                                       150
                                                                                                                                       100                                                          300
                                                                                                                                        50
                                                                                                                                                                                                    200
                                                                                                                                         0
                                                                                                                                             2006   2007       2008       2009
                                                                                                                                                                                                    100
                                                                                                                                                    1-Month   3-Month
                                                                                                                                                                                                      0
                                                                                                                                                                                                          2006     2007       2008        2009

                                                                                                                     Credit-default swap spreads for financial institutions,                                     AA 5-Year   BBB 5-Year

                                                                                                                     which measure investor confidence in their health,
                                                                                                                     have also fallen significantly. A measure of credit-         An indicator of borrowing costs for homeowners is the
                                                                                                                     default swaps for the largest U.S. banks reached 450         spread between the 30-year fixed mortgage rate and
                                                                                                                     basis points last fall, as shown in Figure 5, and is just    10-year Treasuries. Higher spreads indicate that banks
                                                                                                                                                                                  perceive greater risks in issuing mortgages and hom-
                                                                                                                                                                                  eowners face higher borrowing costs. In mid-December



20                                                                                                                     FISCAL YEAR 2009 PERFORMANCE BY STRATEGIC GOAL
                                                                                                                                                                                                                   PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
2008, the 30-year mortgage to 10-year Treasury spread                                                                                                  Taxpayer protection and promoting
reached almost 3.3 percent, its highest level since
                                                                                                                                                       transparency
January 2002. On September 30, 2009, the spread was
                                                                                                                                                       In implementing EESA, Treasury has sought to care-
1.85 percent, well below its height during the crisis.
                                                                                                                                                       fully and assertively manage taxpayer resources. No
 FIGURE 7. Spread between 30 year Mortgage and 10 year Treasury                                                                                        investments have been made unless they are compliant
 Rates
                                                                                                                                                       with statutory requirements, necessary for restoring
        350
                                                                                                                                                       or maintaining financial stability, and structured to
        300                                                                                                                                            protect the taxpayer. Programs have been designed to
        250                                                                                                                                            achieve these objectives by:
        200                                                                                                                                             •	   setting commercial terms and conditions on
        150
                                                                                                                                                             financial assistance;
        100
         50
                                                                                                                                                        •	   taking warrants to capture gains from assistance;
          0                                                                                                                                             •	   requiring private capital or risk sharing;
                      MAR 1




                                                                      MAR 1




                                                                                                                      MAR 1
                              MAY 1




                                                                              MAY 1




                                                                                                                              MAY 1
                                                      NOV 1




                                                                                                      NOV 1
              JAN 1




                                                              JAN 1




                                                                                                              JAN 1
                                              SEP 1




                                                                                              SEP 1




                                                                                                                                               SEP 1
                                      JUL 1




                                                                                      JUL 1




                                                                                                                                       JUL 1




                              2007                                            2008                                            2009                      •	   restricting executive compensation and other
                                                                                                                                                             related activities;
Finally, the Chicago Board Options Exchange                                                                                                             •	   minimizing self-dealing and other conflicts of
Volatility Index (VIX) is a gauge of the expected                                                                                                            interest;
volatility of the S&P 500 equity index. The VIX is                                                                                                      •	   managing the role of the U.S. Government as a
often referred to as the “Fear Index”, since high levels                                                                                                     shareholder, but only a “reluctant shareholder”.
imply investors “fear” sharp moves in the market in
                                                                                                                                                       Given its unusual position in managing financial
either direction (up or down). Historically, the VIX
                                                                                                                                                       market stress, EESA designated four reviewing bod-
has ranged between 10 and 30. In November 2008
                                                                                                                                                       ies to oversee TARP operations: a Financial Stability
the VIX reached nearly 81, its highest level on record.
                                                                                                                                                       Oversight Board, a Special Inspector General for TARP
On September 30, 2009, the VIX was nearly 26, still
                                                                                                                                                       (SIGTARP), a Congressional Oversight Panel (COP),
relatively high by historic levels, but well below its
                                                                                                                                                       and the Government Accountability Office (GAO).
height during the crisis.
                                                                                                                                                       The Assistant Secretary for Financial Stability meets
 FIGURE 8. Market Volatility Index of S&P 500 (VIX)                                                                                                    weekly with the SIGTARP and makes frequent reports
                                                                                                                                                       and/or updates to Congress and the COP to ensure
         90                                                                                                                                            transparency and accountability for OFS activities. OFS
         80                                                                                                                                            involves the oversight bodies early in the design process
         70
         60                                                                                                                                            for new programs or investments to benefit from any
         50                                                                                                                                            suggestions.
         40
         30
                                                                                                                                                       Treasury has made every effort to communicate pro-
         20
         10                                                                                                                                            gram activities in a fully transparent and timely man-
          0                                                                                                                                            ner, through correspondence with oversight authorities,
                      MAR 1




                                                                      MAR 1




                                                                                                                      MAR 1
                              MAY 1




                                                                              MAY 1




                                                                                                                               MAY 1
                                                      NOV 1




                                                                                                      NOV 1
              JAN 1




                                                              JAN 1




                                                                                                              JAN 1
                                              SEP 1




                                                                                              SEP 1




                                                                                                                                               SEP 1
                                      JUL 1




                                                                                      JUL 1




                                                                                                                                       JUL 1




                               2007                                            2008                                           2009                     activity reports, testimony, speeches and publication
                                                                                                                                                       of program information. To provide transparency and
                                                                                                                                                       accountability for TARP and other programs designed
                                                                                                                                                       to repair and reform the financial system, Treasury
                                                                                                                                                       created FinancialStability.gov. The website includes
                                                                                                                                                       reports and information on Treasury programs, includ-



                                                                                                              U.S. and World Economies Perform at Full Economic Potential                                                21
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     ing transaction reports, program guidelines, speeches,      While some new investments are still being made
                                                                                                                     press releases and other information. As of September       to support financial markets and the economy, the
                                                                                                                     30, 2009, Treasury had published 86 Transaction             Administration intends to exit TARP investments as
                                                                                                                     Reports, 10 Section 105(a) monthly Congressional            soon as prudent judgment allows.
                                                                                                                     Reports, seven Tranche Reports, three dividend and
                                                                                                                     interest reports, and two MHA Program Reports, all          Exiting TARP
                                                                                                                     of which are posted on FinancialStability.gov. This         TARP was designed as an emergency response to a
                                                                                                                     information is intended to answer the basic questions       major financial crisis. Because financial conditions
                                                                                                                     many Americans have about how TARP monies are               have started to improve, Treasury has begun the
                                                                                                                     invested. In keeping with principles of good steward-       process of exiting from some emergency programs.
                                                                                                                     ship, Treasury has never missed a deadline for a report.    As of September 30, 2009, Treasury had received
                                                                                                                     Additionally, Treasury posts program guidelines on          over $73 billion in principal repayments and warrant
                                                                                                                     the website within two business days of any program         repurchases from CPP participants. For banks that
                                                                                                                     launch, all obligations made under TARP, and all            have elected not to repurchase their CPP warrants,
                                                                                                                     contracts with Treasury service providers involved          Treasury began auctioning their warrants in December
                                                                                                                     with TARP programs. Additional information on the           2009. In addition, many programs were structured to
                                                                                                                     Making Home Affordable program can be found at              encourage early repayment of funds, including interest
                                                                                                                     MakingHomeAffordable.gov.                                   rates on preferred stock and subordinated debentures
                                                                                                                                                                                 which increase over time and restrictions on executive
                                                                                                                     Managing TARP assets                                        compensation. Most TARP programs also have defined
                                                                                                                     Treasury manages TARP investments under several             lives with clear end dates. For example, new lending
                                                                                                                     core principles:                                            under CPP is scheduled to end December 31, 2009
                                                                                                                                                                                 and TALF is scheduled to end in June 30, 2010. For
                                                                                                                     First, the U.S. government is a shareholder reluctantly     investments in the automobile industry and for other
                                                                                                                     and out of necessity. The government intends to             companies that have received exceptional assistance,
                                                                                                                     dispose of its interests as soon as practicable, with the   clear principles have been outlined ensuring support
                                                                                                                     dual goals of achieving financial stability and protect-    is limited and temporary. Specifically under AIFP,
                                                                                                                     ing taxpayer interests.                                     Chrysler Financial has already repaid its assistance, and
                                                                                                                                                                                 an initial public offering for GM is expected next year.
                                                                                                                     Second, there is no intention to be involved in the
                                                                                                                     day-to-day management of any company. Government            The financial and economic recovery is fragile and faces
                                                                                                                     involvement in daily management of a company could          significant headwinds. The unemployment rate reached
                                                                                                                     possibly reduce the value of these investments, impede      10.2 percent in October and may remain elevated
                                                                                                                     the ability of companies to return to full private owner-   for some time. Delinquencies of subprime residential
                                                                                                                     ship, and frustrate attainment of broader economic          mortgages reached over 26 percent and conforming
                                                                                                                     policy goals.                                               mortgages nearly seven percent in the third quarter. A
                                                                                                                                                                                 contraction in bank lending, particularly for smaller
                                                                                                                     Third, consistent with these goals, the Department
                                                                                                                                                                                 businesses which do not have access to bond markets,
                                                                                                                     takes a commercial approach to the exercise of share-
                                                                                                                                                                                 has had a significant impact on economic growth. The
                                                                                                                     holder rights. Voting participation only corresponds
                                                                                                                                                                                 number of bank failures and “problem institutions”
                                                                                                                     to four core matters: board membership; amendments
                                                                                                                                                                                 as classified by FDIC has increased significantly, and
                                                                                                                     to the charter and by-laws; liquidations, mergers and
                                                                                                                                                                                 will likely remain elevated through 2010. Financial
                                                                                                                     other substantial transactions; and significant issuances
                                                                                                                                                                                 stability is a necessary precondition for the resumption
                                                                                                                     of common shares.
                                                                                                                                                                                 of economic growth. Treasury and other institutions




22                                                                                                                     FISCAL YEAR 2009 PERFORMANCE BY STRATEGIC GOAL
                                                                                                                          PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
of government have accomplished a great deal in a                 President’s Working Group on Financial Markets
short amount of time. Still, there is more work ahead.            and have a permanent, full-time staff at Treasury.
While a number of TARP initiatives have begun to             •	   Supervise and regulate all of the largest, most
wind down, Treasury continues to focus on stabiliz-               interconnected financial firms. Under the reform
ing housing markets as well as improving access to                plan, the largest, most interconnected financial
credit for small businesses. For these reasons, Treasury          firms will be subjected to strong, comprehen-
determined in December 2009 to extend TARP spend-                 sive and consolidated oversight by the Federal
ing authority beyond the initial expiration date of               Reserve, regardless of whether the firm owns an
December 31, 2009. The authority to make new TARP                 insured depository institution. Larger and more
investments will now expire on October 3, 2010, two               interconnected firms will be subjected to higher
years from the enactment of EESA, under provisions of             prudential standards and prompt corrective action
the Act’s Section 120(b).                                         will be required should their capital levels decline.
                                                                  Shareholders and creditors should bear the risks
FINANCIAL REGULATORY REFORM                                       and the ultimate costs of failure, ending the im-
On June 17, 2009, the President announced a com-                  plicit guarantee of public support for the largest,
prehensive plan to reform an outdated and ineffective             most interconnected financial firms.
financial regulatory system. Treasury submitted pro-         •	   Raise standards for all financial firms. Tougher
posed legislative text to implement the plan in July and          standards should be imposed on all financial firms
August 2009, and is currently working with Congress               so that the system is not compromised by the
to promulgate legislation by the end of the calendar              failure of one firm. Capital and liquidity require-
year. The plan has five key objectives: promote robust            ments must be raised and exposures between
supervision and regulation of financial firms; establish          financial firms should carry added capital charges.
comprehensive regulation of financial markets; protect            These tougher standards should incentivize
consumers and investors; provide the government with              firms to shrink, increase their capacity to absorb
the ability to manage financial crises; and improve               losses, and reduce their leverage, complexity and
international cooperation.                                        interconnectedness.
                                                             •	   Establish a National Bank Supervisor and eliminate
Promote robust supervision and                                    loopholes in banking regulation. Merging the Office
regulation of financial firms                                     of the Comptroller of the Currency (OCC) and
Financial institutions that are critical to market                the Office of Thrift Supervision (OTS) into a
functioning should be subject to strong oversight. No             National Bank Supervisor (NBS) and eliminat-
financial firm that poses a significant risk to the finan-        ing the federal thrift charter would streamline
cial system should be unregulated or weakly regulated.            the regulatory system and reduce potential for
 •	   Create a Financial Services Oversight Council. The          regulatory arbitrage. The proposed legislation
      Administration’s regulatory reform plan will create         also requires the Federal Reserve, the FDIC, and
      a Financial Services Oversight Council to facilitate        NBS adopt joint rules on bank regulatory fees to
      the coordination of financial regulatory policy,            eliminate arbitrage between regulators based on
      provide a forum for the resolution of jurisdictional        bank examination fees.
      disputes, and identify emerging risks in financial     •	   Establish an Office of National Insurance. The
      markets. This Council would include the heads               regulatory reform legislation includes a proposal to
      of the principal federal financial regulators and be        establish an Office of National Insurance (ONI) to
      chaired by Treasury. The Council will replace the           serve as an advisor to the Secretary and coordinate




                                      U.S. and World Economies Perform at Full Economic Potential                               23
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                           and develop federal policy in the insurance sector.      Establish comprehensive supervision
                                                                                                                           As part of Treasury, ONI will monitor all aspects
                                                                                                                                                                                    of financial markets
                                                                                                                           of the insurance industry, including identifying
                                                                                                                                                                                    New requirements for transparency and improved risk
                                                                                                                           issues and gaps in the regulation of insurers that
                                                                                                                                                                                    management capacity should be built into the financial
                                                                                                                           could contribute to a systemic crisis in the insur-
                                                                                                                                                                                    market infrastructure to improve understanding of
                                                                                                                           ance industry or within the broader financial
                                                                                                                                                                                    the risks associated with new financial instruments.
                                                                                                                           system. ONI would also assist the Secretary in
                                                                                                                                                                                    In addition, regulation of financial markets should be
                                                                                                                           negotiating international insurance agreements on
                                                                                                                                                                                    enhanced to better manage system-wide stress and the
                                                                                                                           prudential measures.
                                                                                                                                                                                    failure of one or more large institutions.
                                                                                                                      •	   Register hedge funds. Hedge funds and other private
                                                                                                                                                                                     •	   Strengthen supervision and regulation of secu-
                                                                                                                           pools of capital, including private equity and ven-
                                                                                                                                                                                          ritization markets. Securitization, by breaking
                                                                                                                           ture capital funds, will be required to register with
                                                                                                                                                                                          down the traditional relationship between borrow-
                                                                                                                           the Securities and Exchange Commission (SEC).
                                                                                                                                                                                          ers and lenders, created conflicts of interest that
                                                                                                                           Due to insufficient oversight and regulation prior
                                                                                                                                                                                          market discipline failed to correct. To better align
                                                                                                                           to the financial crisis, the government lacked the
                                                                                                                                                                                          investor and issuer interests, regulation should
                                                                                                                           data necessary to monitor these funds’ activities
                                                                                                                                                                                          require that originators or sponsors retain an
                                                                                                                           and assess potential risks in the market. The legis-
                                                                                                                                                                                          economic stake in a material portion of the credit
                                                                                                                           lation would help to protect investors from fraud
                                                                                                                                                                                          risk of these securitized credit exposures. The SEC
                                                                                                                           and abuse, provide increased transparency, and
                                                                                                                                                                                          should continue its efforts to increase the transpar-
                                                                                                                           supply the information necessary to assess whether
                                                                                                                                                                                          ency and standardization of securitization markets
                                                                                                                           risks in the aggregate or risks in any particular
                                                                                                                                                                                          and be given clear authority to require robust
                                                                                                                           fund pose a threat to our overall financial stability.
                                                                                                                                                                                          reporting by issuers of asset-backed securities.
                                                                                                                      •	   Realign executive compensation. Treasury delivered
                                                                                                                                                                                     •	   Strengthen credit rating agency regulation.
                                                                                                                           draft “say-on-pay” legislation to Congress that
                                                                                                                                                                                          The Administration’s financial regulatory reform
                                                                                                                           would require all publicly traded companies
                                                                                                                                                                                          effort includes legislation to increase transparency,
                                                                                                                           establish non-binding shareholder votes on execu-
                                                                                                                                                                                          improve oversight, and reduce reliance on credit
                                                                                                                           tive compensation packages, encouraging greater
                                                                                                                                                                                          rating agencies. Credit rating agencies often failed
                                                                                                                           accountability and disclosure of compensation
                                                                                                                                                                                          to accurately describe the risks associated with
                                                                                                                           practices. In addition, the draft legislation would
                                                                                                                                                                                          certain products, preventing investors from under-
                                                                                                                           help ensure the independence of board compensa-
                                                                                                                                                                                          standing the underlying risks which contributed
                                                                                                                           tion committees. Overall, federal standards and
                                                                                                                                                                                          to the severity of the crisis. The legislation includes
                                                                                                                           guidelines should better align executive compensa-
                                                                                                                                                                                          provisions expanding transparency and disclosure
                                                                                                                           tion practices of financial firms with long-term
                                                                                                                                                                                          requirements for credit rating agencies, establishing
                                                                                                                           shareholder value and prevent these practices from
                                                                                                                                                                                          mandatory registration with the SEC, instituting
                                                                                                                           providing incentives that could threaten the safety
                                                                                                                                                                                          tougher examination of internal controls and
                                                                                                                           and soundness of supervised institutions.
                                                                                                                                                                                          processes, and ending the practice of firms provid-
                                                                                                                     Regulatory reform information at FinancialStability.                 ing consulting services to companies they rate.
                                                                                                                     gov.                                                            •	   Regulate over-the-counter derivatives markets,
                                                                                                                                                                                          including credit default swaps. One of the most
                                                                                                                                                                                          significant developments in the financial sector
                                                                                                                                                                                          in recent decades has been the growth and rapid
                                                                                                                                                                                          innovation in credit default swaps and other




24                                                                                                                     FISCAL YEAR 2009 PERFORMANCE BY STRATEGIC GOAL
                                                                                                                          PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
      over-the-counter (OTC) derivatives. The proposed             Consumer Financial Protection Agency (CFPA) to
      legislation will regulate OTC derivative markets             protect consumers against deceptive and unscru-
      for the first time. This legislation will provide            pulous financial practices and improve innovation,
      regulation and transparency for all OTC deriva-              efficiency and access in the marketplace. This
      tive transactions, stronger prudential and business          agency will consolidate the current fragmented
      conduct regulation of all major participants in              regulatory regime into a single, independent fed-
      OTC derivative markets, and improved regulatory              eral consumer protection agency with the author-
      and enforcement tools to prevent manipulation,               ity to write rules, oversee compliance, and address
      fraud and other abuses.                                      violations by non-bank and banking institutions.
 •	   Strengthen oversight of systemically important          •	   Strengthen investor protection. The
      payment, clearing and settlement systems. To                 Administration’s financial regulatory reform legis-
      mitigate systemic risk and promote financial                 lation includes a provision to strengthen the SEC’s
      stability, the plan proposes giving the Federal              authority to protect investors. The legislation
      Reserve stronger statutory authority to oversee              outlines steps to establish consistent standards of
      systemically important payment, clearing and                 conduct and accountability for broker-dealers and
      settlement systems. The Federal Reserve is the only          investment advisors, and improve the timing and
      agency with sufficiently broad and deep knowledge            the quality of disclosures. The proposed legislation
      of financial institutions and capital markets to             also establishes a permanent Investor Advisory
      effectively assume this responsibility. Under the            Committee to ensure investor representation at the
      Administration’s plan, the Federal Reserve will be           SEC.
      required to consult with the Financial Services
      Oversight Council to identify systemically impor-      Provide the government with the tools
      tant systems and set appropriate standards. In the     it needs to manage financial crises
      case of clearing and settlement systems for regulat-   The government should have the tools necessary to ad-
      ed markets, the Federal Reserve will be required to    dress the potential failure of a bank holding company
      coordinate its risk management oversight with the      or other non-bank financial firm when the stability of
      CFTC or the SEC, which will remain the primary         the financial system is at risk.
      regulators for these markets.                           •	   Enhance resolution authority. Plans should be
 •	   Harmonize futures and securities regulation.                 in place to resolve the failure of any large inter-
      The legislation proposes to harmonize statutory              connected financial firm which could threaten
      and regulatory regimes for futures and securi-               the stability of the financial system. Bankruptcy
      ties markets to better address gaps in regulation            will remain the primary option, but the recent
      between the CFTC and SEC.                                    financial crisis demonstrates the need for enhanced
                                                                   resolution capacity. Major financial firms will be
Protect consumers and investors from                               required to develop rapid resolution plans to better
financial abuse                                                    prepare for the potential of failure. This authority
To rebuild trust in U.S. markets, it is critical to ensure         will also give Treasury the ability to appoint FDIC
strong, consistent regulation and supervision of                   or SEC as conservator for a failing firm that poses
consumer financial services and investment markets.                a threat to the system. Under the legislation, the
 •	   Create a Consumer Financial Protection Agency.               Federal Reserve would be required to receive prior
      Failure of the consumer protection regime signifi-           written approval from the Secretary of the Treasury
      cantly contributed to the financial crisis. On June          before providing emergency lending under its
      30, 2009, the President proposed creation of the             “unusual and exigent circumstances” authority.




                                      U.S. and World Economies Perform at Full Economic Potential                               25
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Raise international regulatory                                 •	   Preferred Stock Purchase Agreements (PSPAs) with
                                                                                                                                                                                         Fannie Mae and Freddie Mac providing backstop
                                                                                                                     standards and improve international
                                                                                                                                                                                         funding for program operations
                                                                                                                     cooperation
                                                                                                                                                                                    •	   A Mortgage-Backed Securities (MBS) Purchase
                                                                                                                     As witnessed during the financial crisis, problems in
                                                                                                                                                                                         Program limited to securities issued by Fannie Mae
                                                                                                                     any single country can easily and quickly spread across
                                                                                                                                                                                         and Freddie Mac
                                                                                                                     borders. As financial regulatory reform progresses
                                                                                                                     within the United States, stronger standards need to           •	   An emergency credit facility for Fannie Mae,
                                                                                                                     be established across global markets to ensure interna-             Freddie Mac and the FHLBs
                                                                                                                     tional financial stability.
                                                                                                                      •	   Enhance international cooperation and reform
                                                                                                                                                                                   Preferred Stock Purchase Agreements
                                                                                                                           of global financial markets. To ensure that             The PSPAs were created to instill confidence in inves-
                                                                                                                           U.S. safeguards are not undermined abroad, the          tors that Fannie Mae and Freddie Mac would remain
                                                                                                                           U.S. Government has taken the lead in calling           viable entities critical to the functioning of the housing
                                                                                                                           for strong, modern regulation and supervision           and mortgage markets. Investors purchased securities
                                                                                                                           around the world through the G-20, the Financial        issued or guaranteed by Fannie Mae and Freddie Mac
                                                                                                                           Stability Board, the Basel Committee on Banking         in part because ambiguities in their Congressional
                                                                                                                           Supervision, and other organizations. Led by the        charters created a perception of government backing.
                                                                                                                           United States, the leaders of the Group of Twenty       These ambiguities fostered enormous growth in the
                                                                                                                           (G-20) pledged to take action to build a stronger,      obligations issued or guaranteed by Fannie Mae and
                                                                                                                           more globally consistent supervisory and regula-        Freddie Mac, which by the scale and breadth of public
                                                                                                                           tory framework to oversee today’s international         holdings eventually posed a systemic risk to global
                                                                                                                           markets. The United States is seeking consensus         financial markets in the event of their failure. The focus
                                                                                                                           on four core issues: regulatory capital standards,      of the PSPAs is to enhance market stability by provid-
                                                                                                                           oversight of global financial markets, supervision      ing additional security to holders of Fannie Mae and
                                                                                                                           of internationally active financial firms, and crisis   Freddie Mac securities to avoid a mandatory triggering
                                                                                                                           prevention and management.                              of receivership. Because the U.S. government created
                                                                                                                                                                                   these ambiguities, it had a responsibility to both avert
                                                                                                                                                                                   and ultimately address this systemic risk. In February
                                                                                                                     TREASURY HOUSING GOVERNMENT-                                  2009, the PSPAs were increased from $100 billion per
                                                                                                                     SPONSORED ENTERPRISE PROGRAMS                                 GSE to $200 billion per GSE to provide additional
                                                                                                                     To provide stability to the financial markets, increase       security for financial markets. As of September 30,
                                                                                                                     the availability of mortgage finance and protect tax-         2009, Fannie Mae and Freddie Mac had utilized $95.6
                                                                                                                     payer interests, Treasury implemented three emergency         billion dollars of the $400 billion set aside under the
                                                                                                                     programs in September 2008 with respect to Fannie             PSPAs.
                                                                                                                     Mae, Freddie Mac and the Federal Home Loan Banks
                                                                                                                     (FHLBs). Authority for the action was provided by             GSE MBS Purchase Program
                                                                                                                     Section 1117 of the Housing and Economic Recovery             The GSE MBS Purchase Program was created to help
                                                                                                                     Act of 2008, which authorized Treasury to purchase            support the availability of mortgage credit by tem-
                                                                                                                     obligations and other securities issued by Fannie Mae,        porarily providing additional capital to the mortgage
                                                                                                                     Freddie Mac and any FHLB. The programs include:               market. By purchasing these securities, Treasury has
                                                                                                                                                                                   sought to broaden access to mortgage funding for cur-
                                                                                                                                                                                   rent and prospective homeowners as well as to promote
                                                                                                                                                                                   market stability.



26                                                                                                                     FISCAL YEAR 2009 PERFORMANCE BY STRATEGIC GOAL
                                                                                                                          PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
Program priorities:                                         its inception, the program provided guarantees to 93
 •	   Support mortgage availability for both current and    percent of the money market mutual fund market, cov-
      prospective homeowners                                ering $3.62 trillion in assets. At its expiration, utiliza-
                                                            tion had fallen to 68 percent of the market. Treasury
 •	   Promote secondary market stability                    had no losses under the program and in fact earned the
 •	   Ensure zero principal loss on outlays                 U.S. Government $1.2 billion in fees.
As of September 30, 2009, Treasury had purchased            The program expired on its scheduled end date of
$192.2 billion in agency MBS and received back $22.2        September 18, 2009 under improved general market
billion in principal and $5.0 billion in interest.          conditions and restored confidence in the money
                                                            market industry. 
GSE Credit Facility
The GSE Credit Facility was created to ensure credit
availability to Fannie Mae, Freddie Mac, and the            EXPANDED INTERNATIONAL
FHLBs by providing secured funding on an as-needed          ECONOMIC PARTNERSHIPS
basis under terms and conditions established by the         Managing financial crises, trade flows, financial secu-
Treasury Secretary. Funding is provided directly by         rity, climate change, and aid for developing economies
Treasury from its general fund held at the Federal          in a global economy requires coordination with
Reserve Bank of New York in exchange for eligible           international partners. In all of these areas, Treasury
collateral limited to guaranteed MBS issued by Fannie       worked with international partners to improve joint
Mae and Freddie Mac and advances made by the                stewardship of the global economy. Throughout the
FHLBs. Loans will be for short-term durations, but          financial crisis, Treasury officials have been in constant
would in general be expected to be for between one          communication with international colleagues, showing
week and one month. To date, this facility has not          clear and compelling results. Treasury helped facilitate
been used. The facility is scheduled to be terminated       international cooperation in responding to the global
on December 31, 2009.                                       financial crisis, averting a more serious economic
                                                            downturn, and anchoring the largest, most coordinated
                                                            fiscal and monetary stimulus ever undertaken.
TEMPORARY GUARANTEE PROGRAM
FOR MONEY MARKET MUTUAL FUNDS Demonstrated U.S. leadership at G-20
At the height of the crisis in September 2008, Treasury meetings
established a Temporary Guarantee Program for
                                                            The G-20 is a multilateral forum bringing together the
Money Market Mutual Funds to provide stability
                                                            leaders from the 20 largest economies in the world,
in the wake of the failure of Lehman Brothers and
                                                            accounting for 85 percent of world output. At the
well-publicized troubles at several large funds. Program
                                                            G-20 Summits in Washington (November 2008),
participants were charged a fee of four to six basis
                                                            London (April 2009), and Pittsburgh (September
points on an annualized basis, with coverage provided
                                                            2009), Treasury took a lead role in developing a
to guarantee maintenance of each fund’s typical stable
                                                            dynamic global recovery formula and securing G-20
share price of $1. Eligibility was open to all money
                                                            leaders’ commitments on measures to combat the
market mutual funds regulated under Rule 2a-7 of the
                                                            economic and financial crisis. Through these summits,
Investment Company Act of 1940 and registered with
                                                            G-20 members agreed to pursue a globally-coordinated
the SEC, upon payment of an up-front participation
                                                            policy response to stabilize the financial system and
fee and satisfaction of certain criteria related to their
                                                            provide monetary policy support, fiscal stimulus, and
net asset value on September 19, 2008. Shortly after
                                                            emergency capital for emerging and developing econo-




                                      U.S. and World Economies Perform at Full Economic Potential                               27
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     mies. In addition to coordinating national fiscal and       Deepened U.S. engagement with
                                                                                                                     monetary policies, major accomplishments included
                                                                                                                                                                                 key emerging market and priority
                                                                                                                     decisions to:
                                                                                                                                                                                 countries
                                                                                                                      •	   Treble resources for the IMF from $250 billion
                                                                                                                                                                                 Given that the global economy is increasingly impacted
                                                                                                                           to $750 billion, enabling it to provide emer-
                                                                                                                                                                                 by emerging market countries, more inclusive represen-
                                                                                                                           gency loans to countries adversely affected by the
                                                                                                                                                                                 tation in international bodies is essential for long-term
                                                                                                                           financial crisis
                                                                                                                                                                                 global recovery and growth. Treasury strongly sup-
                                                                                                                      •	   Restructure the Financial Stability Forum into the    ported the transition from reliance on the G-7 negotia-
                                                                                                                           Financial Stability Board, by adding G-20 mem-        tion process to the G-20 process, the trebling of the
                                                                                                                           bers not previously part of the Financial Stability   IMF’s resources, and creation of the Financial Stability
                                                                                                                           Forum, broadening its capacity to manage global       Board. Treasury also supported quota reforms at the
                                                                                                                           banking regulation and supervision                    World Bank and IMF to allow greater participation
                                                                                                                      •	   Establish a Framework for Strong, Sustainable, and    by developing nations and increased financial support
                                                                                                                           Balanced Growth, formulated around peer reviews       for multilateral development banks (MDBs) that will
                                                                                                                           of national economic policies and regulatory          boost lending by $100 billion over the next three years.
                                                                                                                           standards to collaboratively identify and prevent     To manage key partnerships, the Treasury Department
                                                                                                                           imbalances in the global economy                      has established bilateral strategic dialogues with
                                                                                                                                                                                 China, India, Russia, Afghanistan, Pakistan and Iraq.
                                                                                                                      •	   Establish processes to ensure that all systemically
                                                                                                                                                                                 (The U.S.-China Strategic and Economic Dialogue is
                                                                                                                           important financial institutions, markets and
                                                                                                                                                                                 discussed in a following section.)
                                                                                                                           instruments are subject to appropriate regulation
                                                                                                                      •	   Improve coordination in international crisis          Promoted free international trade and
                                                                                                                           management                                            investment
                                                                                                                      •	   Determine common rules for compensation               Treasury promoted open investment policies at
                                                                                                                           practices at large financial institutions             home and for U.S. investors abroad through bilateral
                                                                                                                      •	   Improve international accounting standards            and multilateral outreach. Announcement of the
                                                                                                                                                                                 intention to complete the Doha Round of World
                                                                                                                      •	   Jointly manage concerns related to tax havens and
                                                                                                                                                                                 Trade Organization negotiations by the end of 2010
                                                                                                                           non-cooperative jurisdictions
                                                                                                                                                                                 increased activity in fiscal year 2009 surrounding
                                                                                                                      •	   Jointly manage oversight of credit rating agencies    trade negotiations. Treasury staff participated in the
                                                                                                                     At the G-20 summit in Pittsburgh, the leaders an-           launching, negotiation or implementation of 15 trade
                                                                                                                     nounced that the G-20 would replace the G-7 as the          and investment agreements, including free trade
                                                                                                                     main economic council of wealthy nations. Through           agreements with Oman, Costa Rica and Peru; the
                                                                                                                     the G-20 process, Treasury has participated in develop-     Trans-Pacific Agreement; the Asia-Pacific Economic
                                                                                                                     ing a strong multilateral system to coordinate a global     Cooperation cross-border services initiative; and the
                                                                                                                     policy response to reverse the economic slide and do        Mauritius Bilateral Investment Treaty. Treasury has
                                                                                                                     what is necessary to restore public confidence, eco-        supported efforts by G-20 leaders to refrain from new
                                                                                                                     nomic growth, and job creation.                             protectionist measures and keep markets open. Finally,
                                                                                                                                                                                 Treasury played a key role in establishing the U.S.-EU
                                                                                                                                                                                 Investment Dialogue and the U.S.-China Investment
                                                                                                                                                                                 Forum to discuss high-priority investment issues,
                                                                                                                                                                                 and efforts to codify investment criteria for sovereign
                                                                                                                                                                                 wealth funds.



28                                                                                                                     FISCAL YEAR 2009 PERFORMANCE BY STRATEGIC GOAL
                                                                                                                             PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
U.S.–China Strategic and Economic                         CONTINUED EFFORTS TO BOLSTER
Dialogue                                                  REGULATION OF NATIONAL BANKS
In April 2009, President Barack Obama and Chinese         AND THRIFTS
President Hu Jintao announced the establishment           OCC and OTS are the primary regulators of national
of the U.S.-China Strategic and Economic Dialogue         banks and thrifts, respectively. Given continuing
(S&ED). The Dialogue provides an overarching frame-       concerns about the soft economy and bank solvency
work bringing together the two countries’ highest-level   following the financial crisis, both made extensive
officials to address a range of critical bilateral and    efforts to monitor evolving conditions at financial
global economic, environmental and diplomatic             institutions they regulate and implement measures
issues. In fiscal year 2009, the Dialogue contributed     intended to restore financial health. In fiscal year 2009,
to coordinated monetary and fiscal policy actions         the Inspector General again indicated regulation of
to restore growth and the successful restructuring of     national banks and thrifts as a Management Challenge.
multilateral economic institutions. The S&ED builds
on its predecessor, the Strategic Economic Dialogue       Despite efforts to identify and correct potential issues
(SED), which was created in 2006, and includes two        at an early stage, a number of national banks and
tracks, one economic track led by Secretary Geithner,     thrifts were closed by federal regulators in fiscal year
and a strategic track led by Secretary Clinton. The       2009 due to difficult market conditions. In total, 107
last meeting of the S&ED was held in Washington in        financial institutions regulated by FDIC with $111.3
July 2009. The next meeting will be held in Beijing in    billion in deposits failed over the year. Of these, 13
2010.                                                     were national banks with $14.8 billion in deposits,
                                                          14 were federal thrifts with $35.8 billion in deposits,
Supported a Global Agreement on                           and 80 were state banks with $60.8 billion in deposits.
Climate Change                                            Work-out solutions, whereby some or all deposits and
                                                          assets were assumed by another existing bank, were
With the parties to the United Nations Framework
                                                          arranged by FDIC and regulators for almost all failed
Convention on Climate Change scheduled to meet in
                                                          institutions.
Copenhagen in December 2009, Treasury is working
closely with other federal agencies and international      FIGURE 9. Failed Banks in USA from 2000-2009
partners to secure an effective global agreement.
                                                                  140
Treasury’s efforts were critical to establishing and                                                                 120
                                                                  120
launching the Climate Investment Funds, two new
                                                                  100
multilateral trust funds hosted by the World Bank
                                                                   80
that promote clean energy in developing countries,
                                                                   60
and establishment of an Experts Group on Climate
                                                                   40
                                                                                                                26
Finance at the G-20. The Clean Technology Fund                     20              11
                                                                         2    4         3    4              3
(CTF), the first of the two new funds, aims to reduce               0
                                                                                                  0    0
                                                                        2000 2001 2002 2003 2004 2005 2006 2007 2008 2009
global emissions growth by helping to close the price
                                                                                                                     NOV 6
                                                                                                                     JAN 1
                                                                                                                     thru




gap in developing countries between dirtier conven-
tional technologies and commercially available cleaner
alternatives. The CTF is currently co-chaired by the
Treasury’s Deputy Assistant Secretary for Environment     OCC and OTS supervisory activities in fiscal year
and Energy.                                               2009 focused on monitoring and responding to
                                                          adverse conditions in credit and financial markets.
                                                          OCC’s on-site supervisory assessments focused on



                                    U.S. and World Economies Perform at Full Economic Potential                                    29
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     the quality of national banks’ credit risk management         Borrowers, providing guidance to financial institutions
                                                                                                                     practices (including effective credit risk rating systems     on managing mortgage delinquency. OCC and OTS
                                                                                                                     and problem loan identification), adequacy of loan-           worked closely with HUD and other Treasury officials
                                                                                                                     loss reserves, and effective loan work-out strategies.        to develop the Making Home Affordable Program,
                                                                                                                     Primary emphasis was placed on ensuring the strength          including establishing transparent capital standards
                                                                                                                     of capital buffers to weather earnings pressures and          for treatment of mortgage loans modified under the
                                                                                                                     asset quality deterioration. Other critical areas included    program to encourage bank participation. OCC was
                                                                                                                     sound liquidity risk management through diversified           also actively involved in identifying potential bank
                                                                                                                     funding sources and realistic contingency funding             responses to the foreclosure crisis, including working
                                                                                                                     plans, and maintenance of consistent underwriting             with community development organizations to reha-
                                                                                                                     standards regardless of intent to hold or sell a loan.        bilitate foreclosed properties and working with HUD
                                                                                                                     OTS examinations emphasized assessment of risk                to stabilize neighborhoods.
                                                                                                                     management structures, liquidity plans, capital man-
                                                                                                                     agement, concentration risk and maintenance of strong         In fiscal year 2009, OCC’s Annual Survey of Credit
                                                                                                                     underwriting standards. Given the natural exposure of         Underwriting Practices indicated a continuation of
                                                                                                                     thrifts to the real estate market, OTS utilized the Net       tighter underwriting standards begun in mid-2007. In
                                                                                                                     Portfolio Value model (enhanced in 2008) extensively          contrast with the period of “originate and sell”, where
                                                                                                                     to value financial instruments and evaluate interest risk     banks originated loans and then sold them to other
                                                                                                                     related to real estate and other investments. (Thrifts        investors, survey results showed that the majority of
                                                                                                                     are required to hold 65 percent of their holdings             banks applied the same tight underwriting standards
                                                                                                                     in mortgages.) For troubled institutions, OCC and             regardless of intent to hold or sell. With increased
                                                                                                                     OTS employed a number of remedial measures,                   weakness in commercial real estate markets, both
                                                                                                                     including Prompt Corrective Action determinations             agencies warned of the accumulating risks in many
                                                                                                                     when institution capital deteriorated below specified         small and medium-sized institutions’ portfolios. At an
                                                                                                                     thresholds, requirements to increase available capital        inter-agency level, both OCC and OTS have worked
                                                                                                                     and liquidity, required changes in bank management,           directly with the Federal Reserve and FDIC to review
                                                                                                                     and required approval for changes in business plans. To       large syndicated loans held by multiple banks through
                                                                                                                     combat mismanagement, formal enforcement actions              the Shared National Credit Program. This year’s review
                                                                                                                     such as cease-and-desist orders, removal or prohibition       covered 8,955 credit facilities with commitments
                                                                                                                     orders, civil money penalties and formal agreements           totaling $2.9 trillion. OCC and OTS will continue to
                                                                                                                     were utilized. In severe cases, financial institutions were   coordinate their licensing and supervisory procedures
                                                                                                                     required to enter into sales, mergers, liquidation or         with other federal agencies to keep regulations current,
                                                                                                                     enter FDIC receivership.                                      transparent and supportive of financial industry stabil-
                                                                                                                                                                                   ity and growth.
                                                                                                                     To minimize real estate losses and avoid unnecessary
                                                                                                                     foreclosures, both agencies encouraged financial insti-       OCC and OTS have issued direct warnings to financial
                                                                                                                     tutions and at-risk mortgage holders to work construc-        institutions of the risks posed by excessive asset or
                                                                                                                     tively to find effective work-out solutions. Both OCC         liability concentrations in their portfolios. During the
                                                                                                                     and OTS urged adoption of loan modification pro-              last four years, OCC has conducted asset quality re-
                                                                                                                     grams and other foreclosure mitigation practices and          views of all the OCC community and mid-sized banks
                                                                                                                     provided information for consumers on ways to iden-           with significant commercial real estate concentrations,
                                                                                                                     tify and avoid foreclosure fraud. In November 2008,           to ensure they have adequate credit underwriting,
                                                                                                                     the federal banking agencies issued the Interagency           problem loan identification, and loan-loss reserves.
                                                                                                                     Statement on Meeting the Needs of Creditworthy                More recently, the federal banking agencies issued




30                                                                                                                     FISCAL YEAR 2009 PERFORMANCE BY STRATEGIC GOAL
                                                                                                                       PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
guidance on managing concentration risks that may           protection programs. For credit cards, these addressed
emerge from correspondent banking relationships, to         unfair practices in the areas of providing reasonable
reduce any carryover effect from one bank’s failure.        time periods for making payments, payment alloca-
                                                            tions, interest rate increases on outstanding balances,
Given the global nature of the financial crisis, OCC        security deposits and fees charged to an account prior
and OTS worked closely with both domestic and               to the issuance of credit.
international banking supervisors to identify problems
and coordinate actions to restore functioning markets
and strengthen risk management. The Federal Reserve,        PROVIDED ASSISTANCE TO
OCC and SEC worked with key global regulators               LOW-INCOME AND UNDERSERVED
and market participants to strengthen operational           COMMUNITIES
infrastructure and processes used to oversee OTC            The Community Development Financial Institutions
derivatives. OCC was actively involved in developing        (CDFI) Fund expands the capacity of financial
and implementing a package of measures announced            institutions to provide credit, capital, and financial
by the Basel Committee of Banking Supervisors in            services to underserved populations and low-income
July 2009 to capture the credit risk of complex trading     communities. With the economic downturn, demand
activities and institute higher capital requirements for    for the Fund’s services increased as mainstream lenders
certain activities. OCC and OTS also joined other           reduced lending activities. At the same time, con-
global supervisors in endorsing the Basel Committee’s       strained debt and equity markets limited CDFIs’ access
Principles for Sound Liquidity Risk Management and          to private capital. To address the shortfall, Treasury
Supervision, underscoring the importance of liquid-         increased funding through the CDFI program in fiscal
ity management. Through the Financial Stability             year 2009 to help meet demand. This year, the CDFI
Board’s Working Group of Provisioning, chaired by           Program competitively made 194 awards totaling
the Comptroller of the Currency, OCC has actively           $160.8 million (including $98 million in Recovery
promoted use of credit valuation processes to reduce        Act awards) to CDFIs and Native American CDFIs
the pro-cyclicality of loan-loss requirements. During       for loans, investments, financial services, and techni-
the year, OCC and OTS provided significant support          cal assistance (a 158 percent increase over fiscal year
for TARP, including reviewing financial institutions’       2008). Under the New Markets Tax Credit Program
Capital Purchase Program (CPP) applications; par-           (NMTC), which provides tax credit allocation author-
ticipating on the TARP CPP Council (which provides          ity to designated financial institutions for investments
advisory support to OFS); conducting “stress tests” for     in low-income communities, Treasury awarded $6.5
regulated entities; providing legal analysis on financial   billion in fiscal year 2009 (including $3 billion in
institution participation in TARP; and establishing         Recovery Act awards), compared with $3.5 billion in
credit rules promoting use of the Making Home               fiscal year 2008, a nearly 86 percent increase. Treasury
Affordable Program. OCC and OTS also continued              will continue to provide funding through the CDFI
to jointly issue the Mortgage Metrics Report, provid-       program to mitigate tight capital conditions in under-
ing detailed information on 34.7 million mortgages          served markets.
serviced by their regulated institutions, including new
sections in 2009 on loan modifications.

To strengthen its unfair or deceptive acts and practices
rules, OTS, Federal Reserve and National Credit
Union Association issued final rules in December
2008 governing practices for credit cards and overdraft




                                     U.S. and World Economies Perform at Full Economic Potential                             31
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     MANAGEMENT OF CURRENCY AND                                      available blank supply to production of bullion coins
                                                                                                                                                                                     from proof coins and worked with suppliers to augment
                                                                                                                     COIN MANUFACTURING IN TODAY’S
                                                                                                                                                                                     blank volumes and sources. Subsequent increases in al-
                                                                                                                     ECONOMY                                                         location and ordering limits towards the end of the year
                                                                                                                     Record low demand for currency and                              allowed the U.S. Mint to satisfy all investor demand for
                                                                                                                     coins                                                           22-karat one-ounce gold and silver bullion coins by the
                                                                                                                                                                                     third quarter of fiscal year 2009. However, at the end
                                                                                                                     The economic and financial crises significantly af-
                                                                                                                                                                                     of the fiscal year, one-ounce gold and silver eagle proof
                                                                                                                     fected note and coin demand in fiscal year 2009.
                                                                                                                                                                                     coins remained unavailable.
                                                                                                                     Manufacturing of currency notes experienced a 1.5 bil-
                                                                                                                     lion unit (19.5 percent) reduction in quantity ordered
                                                                                                                     by the Federal Reserve, a drop from 7.7 billion notes in
                                                                                                                                                                                     Completion of the most ambitious
                                                                                                                     fiscal year 2008 to 6.2 billion notes in fiscal year 2009.      currency redesign in U.S. history
                                                                                                                     This reduction in the Federal Reserve order was large           The redesign of the $100 note will mark the comple-
                                                                                                                     enough to increase BEP’s average cost per note pro-             tion of a multi-year initiative to implement the most
                                                                                                                     duced by 7 percent over the prior fiscal year. The U.S.         ambitious currency redesign in United States history.
                                                                                                                     Mint shipped an estimated 5.2 billion coins, down               Finalized and presented for approval in fiscal year
                                                                                                                     from 10.0 billion in fiscal year 2008, representing a 45-       2009, BEP expects to produce and deliver 2.4 bil-
                                                                                                                     year low for coin demand. As a result, the U.S. Mint            lion redesigned $100 notes in fiscal year 2010. In
                                                                                                                     transferred $475 million to the Treasury General Fund           cooperation with the Federal Reserve, BEP administers
                                                                                                                     in fiscal year 2009, significantly lower than the $750          a public education program to support the introduc-
                                                                                                                     million transferred in fiscal year 2008. To compensate          tion of new currency designs. To maintain trust and
                                                                                                                     for weak demand, both the U.S. Mint and BEP are                 confidence in U.S. currency, BEP is continuously
                                                                                                                     optimizing manufacturing and administrative efficien-           engaged in improving note design to keep the nation’s
                                                                                                                     cies, focusing on maintenance, capital improvements,            currency a step ahead of counterfeiters. While no spe-
                                                                                                                     and employee cross-training.                                    cific timetable has been set, the next currency redesigns
                                                                                                                                                                                     will include improvements to the nation’s currency to
                                                                                                                     Responding to record high demand for                            better serve the blind and visually impaired.
                                                                                                                     bullion products
                                                                                                                     As the economy and financial markets weakened, inves-
                                                                                                                                                                                     Implementing the Presidential and
                                                                                                                     tors sought the perceived safety of precious metals. U.S.       Native American $1 Coin Acts
                                                                                                                     Mint revenue from the sale of gold, platinum, and silver        The Presidential $1 Coin Act (Public Law 109-145) and
                                                                                                                     bullion products increased by 79 percent in fiscal year         the Native American $1 Coin Act (Public Law 110-82)
                                                                                                                     2009, from $949 million in fiscal year 2008 to $1,695           mandate that the U.S. Mint take cost-effective measures
                                                                                                                     million in fiscal year 2009. However, these record-             to identify, analyze and overcome barriers to circulation
                                                                                                                     breaking demand levels and successful sales efforts in          of $1 coins. The increased circulation of $1 coins could
                                                                                                                     the bullion product line posed a new set of challenges.         save the Federal Government money because $1 coins
                                                                                                                     The number of bullion coins produced by the U.S.                last longer than $1 notes. A four-city pilot focusing on
                                                                                                                     Mint was constrained in fiscal year 2009 by limited             new messaging and retail activation showed American
                                                                                                                     availability of precious metal blanks from suppliers.           acceptance of $1 coins is growing. However, despite
                                                                                                                     These constraints compelled the U.S. Mint to suspend            U.S. Mint advertising campaigns, consumer acceptance
                                                                                                                     the sale of certain bullion coins during the fiscal year.       of $1 coins has remained low and inventories at the
                                                                                                                     In order to satisfy its legislative mandate to fulfill public   Federal Reserve Bank have continued to rise.
                                                                                                                     demand for bullion products, the U.S. Mint shifted




32                                                                                                                     FISCAL YEAR 2009 PERFORMANCE BY STRATEGIC GOAL
                                                                                                                        PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
AMERICAN RECOVERY AND                                      full credit is available to individuals whose modified
                                                           adjusted gross income is $80,000 or less, or $160,000
REINVESTMENT ACT
                                                           or less for married couples filing a joint return. The
The American Recovery and Reinvestment Act of 2009
                                                           credit is phased out for taxpayers with incomes above
(Recovery Act) was signed into law on February 17th,
                                                           these levels. Many of those eligible will qualify for the
2009. The Recovery Act is an unprecedented effort
                                                           maximum annual credit of $2,500 per student. The
to jumpstart the economy, create or save millions of
                                                           estimated benefit in 2009 is $328 million.
jobs, and address long-neglected challenges. It includes
extraordinary measures to modernize the nation’s           COBRA health insurance continuation premium
infrastructure, enhance energy independence, expand        subsidy. To help people maintain health care coverage,
educational opportunities, preserve and improve            the Recovery Act provides a 65 percent subsidy for
affordable health care, and provide tax relief. Of the     COBRA continuation premiums for themselves and
$787 billion provided through the Recovery Act,            their families, up to nine months, for workers who
Treasury is managing programs that will contribute         have been involuntarily terminated. Eligible workers
over $300 billion in benefits to the American people       are required to pay 35 percent of the premium to their
through the year 2019.                                     former employers. Employers are required to pay the
                                                           full premium, but are entitled to a credit of 65 percent
Making Work Pay credit. Taxpayers can receive this
                                                           on their payroll tax return. To qualify, a worker must
benefit through a reduction in the amount of federal
                                                           have been involuntarily terminated between September
income tax that is withheld from their paychecks, or
                                                           1, 2008 and December 31, 2009. Over $313 million
through claiming the credit on their tax returns. It is
                                                           in COBRA credits have been claimed by employers
estimated that over 120 million households will benefit
                                                           through fiscal year 2009.
from this provision through 2010.
                                                           Build America Bonds. State and local governments
Expanded tax break for 2009 first-time home-
                                                           issuing taxable bonds are eligible to receive direct
buyers. Taxpayers who qualify for the First-Time
                                                           federal subsidies of 35 percent of bond interest.
Homebuyer Credit and purchase a home this year
                                                           Through September 30, 2009, over $35.6 billion in
before December 1 may claim a maximum $8,000
                                                           Build America Bonds had been issued to help finance
credit on their 2009 tax return. The estimated benefit
                                                           projects across the nation, including schools, utilities,
claimed by 479,622 taxpayers through fiscal year 2009
                                                           public safety and transportation.
was over $3.5 billion. The credit has been extended
through April 30, 2010, with closing required by           Sales tax deduction for vehicle purchases. Taxpayers
June 30, 2010.                                             can deduct state and local sales and excise taxes paid
                                                           on the purchase of new cars, light trucks, motor homes
American Opportunity Credit. Under the Recovery
                                                           and motorcycles through 2009.
Act, more parents and students will qualify over
the next two years for a tax credit, the American          Economic recovery payments. The Recovery Act
Opportunity Credit, to pay for college expenses. The       provided $250 one-time economic recovery payments
new credit modifies the existing Hope Credit for tax       to eligible retirees, veterans and other high-need recipi-
years 2009 and 2010, making the Hope Credit avail-         ents. FMS, in coordination with the Social Security
able to a broader range of taxpayers, including many       Administration, the Railroad Retirement Board, and
with higher incomes and those who owe no tax. It also      the Department of Veterans Affairs, issued over 54.9
adds required course materials to the list of qualifying   million economic recovery payments to beneficiaries,
expenses and allows the credit to be claimed for four      totaling more than $13.7 billion. 
post-secondary education years instead of two. The




                                     U.S. and World Economies Perform at Full Economic Potential                              33
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Community Development Financial Institutions                Payments for Specified Energy Property in Lieu of
                                                                                                                     (CDFI) awards. The CDFI Fund makes monetary                 Tax Credits. Because of the impact of current econom-
                                                                                                                     awards (grants, loans and other investments) on a           ic conditions on taxable income, the value of energy
                                                                                                                     competitive basis to certified CDFIs. The Recovery Act      property tax credits to investors who finance renew-
                                                                                                                     appropriated $98 million to expand funding for the          able energy projects has decreased. Designed with the
                                                                                                                     CDFI and Native American CDFI Assistance (NACA)             Department of Energy, this program’s objective is to
                                                                                                                     programs. All $98 million was awarded to CDFI               provide an alternative means to attract financing for re-
                                                                                                                     recipients by July 1, 2009.                                 newable energy projects by providing direct payments
                                                                                                                                                                                 in lieu of tax credits. The program began accepting
                                                                                                                     New Markets Tax Credit (NMTC). The NMTC                     applications on July 31, 2009 and by September 30,
                                                                                                                     Program, administered by the CDFI Fund, facilitates         2009 had made awards for 37 projects totaling more
                                                                                                                     investment in low-income communities by permitting          than $1 billion. The high demand for this program is
                                                                                                                     credits against federal income taxes for equity invest-     expected to continue in fiscal year 2010.
                                                                                                                     ments in designated Treasury-certified Community
                                                                                                                     Development Entities (CDEs).                                Payments for Low-Income Housing Projects in Lieu
                                                                                                                                                                                 of Tax Credits. Current economic conditions have
                                                                                                                     CDEs are required to use substantially all NMTC             severely undermined the effectiveness of tax credits
                                                                                                                     proceeds to make loans and investments in businesses        intended to attract private capital investment for the
                                                                                                                     and real estate developments in low-income and              construction, acquisition or rehabilitation of qualified
                                                                                                                     distressed urban and rural communities. The Recovery        low-income housing projects. The Recovery Act gives
                                                                                                                     Act provided a total of $3 billion for the credits. The     state housing credit agencies the choice to receive cash
                                                                                                                     first NMTC award of $1.5 billion was allocated in           assistance for all or a part of their 2009 low-income tax
                                                                                                                     May 2009 to 32 organizations. The second allocation         credit allocation. Through September 30, 2009, the
                                                                                                                     of $1.5 billion was awarded in October 2009 to 24           Department has received 57 applications and approved
                                                                                                                     organizations.                                              payments to 40 state housing agencies for over $2.5
                                                                                                                     Health Coverage Tax Credit (HCTC). HCTC was                 billion. However, only $29 million has been drawn
                                                                                                                     created to help displaced workers and retirees who have     down so far. Initial feedback suggests that states are
                                                                                                                     lost their jobs due to promulgation of free trade agree-    evaluating their financial capacity and determining
                                                                                                                     ments. The Trade Adjustment Assistance Reform Act           how to provide funding needed to complete qualifying
                                                                                                                     of 2002 created HCTC to assist eligible beneficiaries       projects.
                                                                                                                     between the ages of 55 and 64 receive affordable health
                                                                                                                     care. The program originally provided a refundable tax
                                                                                                                     credit for 65 percent of the cost of qualified insurance.
                                                                                                                     In May 2009, the tax credit was increased from 65
                                                                                                                     percent to 80 percent of qualified health insurance
                                                                                                                     premiums, allowing participants to only pay 20
                                                                                                                     percent for health insurance each month. The increased
                                                                                                                     credit expires on December 31, 2010. The number of
                                                                                                                     new enrollees has increased more than four times since
                                                                                                                     April 2009, to over 6,000 recipients.




34                                                                                                                     FISCAL YEAR 2009 PERFORMANCE BY STRATEGIC GOAL
                                                                                                                            PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
EFFECTIVELY MANAGED                                             vided face-to-face assistance to 3.4 million taxpayers.
                                                                To track their refunds, more than 54 million taxpayers
U.S. GOVERNMENT FINANCES
                                                                used the online service “Where’s My Refund?”, an
The Treasury Department manages the nation’s                    increase of 39 percent over 2008. Outreach efforts
finances by collecting money due to the United                  and service locations for U.S. overseas taxpayers were
States, making its payments, managing its borrowing,            increased to facilitate information availability and
investing when appropriate, and performing central              support. IRS is making every effort to restore its level
accounting functions. With the financial crisis and             of service, which dropped from 82 percent in 2007 to
recession, fiscal year 2009 provided unique challenges          53 percent in 2008, due largely to increased volume of
in implementing Recovery Act provisions, forecast-              inquiries related to economic stimulus payments. The
ing government receipts, and conducting a record                level of service for fiscal year 2009 was 70 percent.
number of auctions of government securities. Treasury
continues to focus on its ongoing efforts to increase the       EXPANDED ENFORCEMENT OF TAX
total volume of electronic payments and receipts and
                                                                LAWS TO ENSURE TAX COMPLIANCE
improve taxpayer service and enforcement.
                                                                Treasury has expanded its international enforcement
                                                                presence, continued to pursue high net-worth/high
TAX RETURNS FILED ELECTRONICALLY                                income non-compliant taxpayers, and initiated efforts
In fiscal year 2009, Treasury processed 144.4 million           to improve coordination with the tax return preparer
individual returns and issued 114.4 million refunds             community. In fiscal year 2009, Treasury focused on
totaling $339.6 billion. Sixty-six percent of individual        detecting and bringing to justice individuals and busi-
returns were filed electronically, up from 58 percent           nesses who hide assets overseas to avoid paying taxes.
in fiscal year 2008. Although this is a clear improve-          The largest bank in Switzerland agreed to pay a $780
ment, Treasury has not yet reached the Congressional            million fine and provide the names of 4,450 U.S. ac-
goal of 80 percent of tax returns filed electronically.         count holders in response to a summons. Another bank
Treasury continues to promote the use of the IRS Free           entered into a deferred prosecution agreement and
File program and engage in national and local outreach          forfeited $340 million in connection with violations
efforts to increase electronic filing by businesses and tax     of the International Emergency Economic Powers Act.
return preparers.                                               An Offshore Merchant Account Initiative increased
                                                                focus on U.S. businesses that deposit unreported
                                                                business receipts from debit and credit card sales in
IMPROVED SERVICE TO MAKE
                                                                bank accounts domiciled in secrecy jurisdictions. For
VOLUNTARY TAX COMPLIANCE                                        high-net-worth individuals, 11.2 percent of taxpayers
EASIER                                                          with incomes over $200,000 were audited and 29
Treasury makes every effort to ensure that taxpayers            percent of taxpayers with incomes over $1 million were
have access to the necessary information and support            audited. Audits were also increased on self-employed
to meet their tax obligations. In fiscal year 2009, the         taxpayers by over 21 percent. In fiscal year 2009, the
IRS fielded over 107 million taxpayer calls. The second         IRS developed a comprehensive set of recommenda-
“Super Saturday” tax information event was held on              tions to ensure consistent standards for tax preparer
March 21, 2009, providing on-site support at more               qualifications, ethics and service, with the intention of
than 250 local IRS offices and 1,700 Volunteer Income
Tax Assistance (VITA) sites. Over the year, 82,000
volunteers at the VITA and Tax Counseling for the
Elderly sites helped file over 3 million returns and pro-



                                                              Effectively Managed U.S. Government Finances                        35
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     establishing a foundation for improving enforcement           receipts increased to about 4.5 million, an increase of
                                                                                                                     coordination with the tax preparer community.                 21 percent over 2008.

                                                                                                                     The Children’s Health Insurance Program
                                                                                                                     Reauthorization Act (CHIPRA) was enacted in                   CHALLENGES ASSOCIATED WITH
                                                                                                                     February 2009. CHIPRA imposes significantly                   IMPLEMENTING RECOVERY ACT TAX
                                                                                                                     increased tax rates on tobacco products and introduced        PROVISIONS
                                                                                                                     requirements for permits and taxes on products which          Upon enactment of the Recovery Act, Treasury worked
                                                                                                                     had not previously been taxed or regulated (cigarettes        to ensure timely implementation of tax provisions,
                                                                                                                     went from a tax rate of $.39 to $1.01). Implementing          including creating and issuing forms and publica-
                                                                                                                     the provisions was a major undertaking for TTB, in-           tions, developing and disseminating information
                                                                                                                     cluding mailing of almost 500,000 information packets         through the internet, print media and television, and
                                                                                                                     and fielding 50,000 inquiries about the tax increase          implementing safeguards against tax fraud. Despite
                                                                                                                     and permit requirements, resulting in an additional $6        the successes implementing these provisions, increased
                                                                                                                     billion in Federal tax revenues. CHIPRA also levies a         customer inquiries and payments added strains to
                                                                                                                     floor stocks tax (FST), a one-time excise tax placed on       existing management systems. The increased volume of
                                                                                                                     a commodity undergoing a tax increase, on all tobacco         taxpayer calls resulted in increased waiting times and
                                                                                                                     products held for sale as of April 1, 2009. In fiscal year    busy signals, with the average caller waiting nearly 9
                                                                                                                     2009, TTB processed more than 133,000 receipts and            minutes. Average wait time in 2007 was 4.5 minutes.
                                                                                                                     collected a record $1.2 billion dollars of FST.               The additional payments also increased the incidence
                                                                                                                     TTB is using automated data analysis techniques to            of improper payments, particularly for the First-Time
                                                                                                                     target non-filers for audit, and is reviewing sales data to   Homebuyer Credit. The IRS will continue to make
                                                                                                                     find unusual patterns that may indicate a business was        efforts to reduce service wait time and improper
                                                                                                                     stock piling product prior to the effective date of the       payments.
                                                                                                                     new tax rates. TTB will use this information to identify
                                                                                                                     tobacco dealers to target for audit in fiscal year 2010.      MANAGED INCREASED ISSUANCE OF
                                                                                                                                                                                   DEBT FINANCING
                                                                                                                     IMPROVED ELECTRONIC RETURN                                    In fiscal year 2009, the Department conducted over
                                                                                                                     PROCESSING THROUGH BUSINESS                                   290 government securities auctions, resulting in the
                                                                                                                                                                                   issuance of over $8 trillion dollars in marketable
                                                                                                                     SYSTEMS MODERNIZATION
                                                                                                                                                                                   securities. The results of each auction were released
                                                                                                                     Treasury continues to make efforts to improve business
                                                                                                                                                                                   within the target time of two minutes plus or minus
                                                                                                                     systems for tax processing. Upgrades to the Customer
                                                                                                                                                                                   30 seconds after the auction close. The prompt release
                                                                                                                     Account Data Engine (CADE) in 2009 enabled the
                                                                                                                                                                                   of auction results reduced the amount of time bid-
                                                                                                                     system to process 40 million returns, 34.9 million
                                                                                                                                                                                   ders were exposed to adverse market movements,
                                                                                                                     refunds and over seven million payments. Treasury is
                                                                                                                                                                                   encouraging more competitive bidding and allowing
                                                                                                                     committed to completing CADE implementation by
                                                                                                                                                                                   the Department to secure lower borrowing rates for
                                                                                                                     2011. Modernized e-File (MeF) release 5.5 enabled
                                                                                                                                                                                   the U.S. Government. Treasury also successfully began
                                                                                                                     system processing of 33 percent more Form 1120s
                                                                                                                                                                                   the monthly issuance of three and seven year notes in
                                                                                                                     and 307 percent more Form 990s. (Returns submitted
                                                                                                                                                                                   order to meet the demand for borrowing and allow for
                                                                                                                     through the MeF system have an average process-
                                                                                                                                                                                   greater flexibility in borrowing options.
                                                                                                                     ing error rate of seven percent, versus 19 percent for
                                                                                                                     transcription-based paper processing.) MeF return




36                                                                                                                     FISCAL YEAR 2009 PERFORMANCE BY STRATEGIC GOAL
                                                                                                                                                                             PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
 FIGURE 10. Number of Auctions and Amount Issued by Fiscal Year                                                   EXPANDED USE OF ELECTRONIC
                        350                                              $10.0
                                                                                                                  FUND TRANSFERS




                                                                                 Amount Issued (in trillions)
                        300
                                                                          $9.0                                    During fiscal year 2009, FMS continued to expand
                                                                          $8.0
   Number of Auctions




                        250                                               $7.0                                    the use of electronic fund transfers to deliver federal
                                                                          $6.0
                        200
                                                                          $5.0
                                                                                                                  payments, improve service to payment recipients, and
                        150                                               $4.0                                    reduce government program costs. The Go Direct
                        100                                               $3.0
                                                                          $2.0                                    campaign, which encourages current federal benefit
                         50
                                                                          $1.0                                    check recipients to switch to direct deposit, concluded
                          0                                               $0.0
                              FY05   FY06     FY07      FY08      FY09                                            a successful fourth year with over one million conver-
                                      Number of Auctions (LHS)
                                      Total Amount Issued (RHS)                                                   sions. The total number of conversions since inception
                                                                                                                  of the campaign is over 3 million. Overall, 81 percent
                                                                                                                  of Treasury payments and associated information were
IMPROVED RETAIL SECURITIES                                                                                        made electronically, an increase of two percent from
SERVICES                                                                                                          fiscal year 2008. This helped decrease the number of
BPD’s Retail Securities Services program serves more                                                              paper checks issued, minimizing costs associated with
than 50 million retail investors in marketable securities                                                         postage and the re-issuance of lost, stolen and mis-
and savings bonds. In fiscal year 2009, BPD achieved                                                              placed checks.
its long-term goal of completing 90 percent of time-
sensitive retail customer service transactions within
                                                                                                                  CHALLENGES FORECASTING
10 business days, one year ahead of schedule. BPD
will transition to a new performance measure in fiscal
                                                                                                                  GOVERNMENT RECEIPTS DURING THE
year 2010 targeting completion of these transactions                                                              RECESSION
within 5 business days. TreasuryDirect, which provides                                                            The financial and economic crisis made fiscal year 2009
investors electronic savings bonds, continues to grow.                                                            an extremely challenging year to forecast government
In fiscal year 2009, the system was enhanced to enable                                                            tax receipts. Expanded tax credit programs under the
entities such as trusts, corporations, fiduciaries, and                                                           Recovery Act and rising unemployment levels reduced
estates to open accounts and conduct transactions.                                                                tax receipts and increased the difficulty of forecasting
                                                                                                                  accurately. Given the severity of the recession and
                                                                                                                  uncertainty surrounding future private consumption
                                                                                                                  and investment, predicting the timing and rate of re-
                                                                                                                  covery in fiscal year 2010 could be equally challenging.
                                                                                                                  Treasury missed its performance target of five percent
                                                                                                                  maximum variance between estimated and actual fiscal
                                                                                                                  receipts in fiscal year 2009, with an actual variance of
                                                                                                                  5.5 percent.




                                                                                                                Effectively Managed U.S. Government Finances                       37
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     PREVENTED TERRORISM AND                                      institutions are no longer allowed to process such
                                                                                                                                                                                  transactions.
                                                                                                                     PROMOTED THE NATION’S SECURITY
                                                                                                                     THROUGH STRENGTHENED                                         Treasury maintained its designations of Iranian finan-
                                                                                                                     INTERNATIONAL FINANCIAL                                      cial institutions and individuals due to proliferation
                                                                                                                     SYSTEMS                                                      concerns and implemented several new designations.
                                                                                                                                                                                  The Department, through the FATF, will continue to
                                                                                                                     While promoting financial and economic growth at             strengthen its measures and encourage other countries
                                                                                                                     home and abroad, the Treasury Department performs            to enhance vigilance over all business with Iran.
                                                                                                                     a unique role in preserving national security. In fiscal
                                                                                                                     year 2009, Treasury continued to safeguard the nation’s      ENHANCED MECHANISMS TO
                                                                                                                     financial security while carrying out critical law en-
                                                                                                                     forcement responsibilities pertaining to predatory lend-
                                                                                                                                                                                  COMBAT MORTGAGE AND LOAN
                                                                                                                     ing practices. These expectations require that Treasury      MODIFICATION FRAUD
                                                                                                                     continue to modernize its technological infrastructure       A series of initiatives have been announced to help
                                                                                                                     to ensure a safer and more transparent financial system      American homeowners and address the housing crisis.
                                                                                                                     while protecting U.S. national security.                     The United States government continues to inten-
                                                                                                                                                                                  sify its efforts to ensure predatory scams do not rob
                                                                                                                                                                                  Americans of their savings and potentially their homes.
                                                                                                                     STRENGTHENED MEASURES                                        On April 6, 2009, Secretary Geithner announced a
                                                                                                                     AGAINST IRAN TO PROTECT U.S.                                 coordinated proactive effort to be led by Treasury, to
                                                                                                                     NATIONAL SECURITY                                            combat fraudulent loan modification schemes and
                                                                                                                     Since the designation of a large Iranian bank, Bank          coordinate ongoing efforts across a range of federal
                                                                                                                     Saderat, in September 2006, Treasury has led an ongo-        and state agencies that investigate fraud and assist with
                                                                                                                     ing effort to warn the world about the threat Iran poses     enforcement and prosecutions. Treasury simultaneously
                                                                                                                     to U.S. security and the integrity of the international      issued an advisory to alert financial institutions to the
                                                                                                                     financial system. This effort has developed a global         risks of emerging schemes related to loan modification.
                                                                                                                     consensus. In fiscal year 2009, the Financial Action         These efforts are designed to facilitate the detection,
                                                                                                                     Task Force (FATF), the global standard-setting body to       deterrence, investigation and prosecution of those who
                                                                                                                     combat money laundering and terrorist financing, is-         would exploit consumers facing possible home foreclo-
                                                                                                                     sued its fourth warning alerting countries to strengthen     sures, in particular to target fraudulent scams against
                                                                                                                     measures to protect their financing sectors. Treasury        consumers seeking loan modification assistance.
                                                                                                                     has continued to strengthen its efforts to ensure that
                                                                                                                                                                                  This advisory was intended to identify “red flags” that
                                                                                                                     Iran is restricted from the U.S. financial system, while
                                                                                                                                                                                  may indicate a loan modification or foreclosure rescue
                                                                                                                     encouraging other countries to do the same.
                                                                                                                                                                                  scam and warrant the filing of a Suspicious Activity
                                                                                                                     The Department of the Treasury responded to the              Report (SAR). These red flags alert financial institu-
                                                                                                                     FATF warning one month after it was issued. Treasury         tions to scams victimizing their customers and provide
                                                                                                                     hindered Iran’s ability to financially support illicit       an opportunity to stop predatory loan modification.
                                                                                                                     activities by revoking an existing “U-turn” license for      The advisory reminded financial institutions of the
                                                                                                                     Iran, further restricting Iran’s access to the U.S. finan-   requirement to implement appropriate risk-based poli-
                                                                                                                     cial system. This license had allowed funds transfers to     cies, procedures and processes. Financial institutions
                                                                                                                     pass though the U.S. financial system for the benefit of     must conduct customer due diligence on a risk-assessed
                                                                                                                     Iranian entities. Following this action, U.S. financial      basis to prevent fraudulent actors from accessing the




38                                                                                                                     FISCAL YEAR 2009 PERFORMANCE BY STRATEGIC GOAL
                                                                                                                           PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
financial system and to aid in the identification of           ness, they strengthen the effectiveness of government-
potentially suspicious transactions.                           imposed measures.

The advisory required the term “foreclosure rescue             In fiscal year 2009, OFAC had success with financial
scam” to be included in the narrative sections of all          institutions in South Africa, Latin-America, Mexico,
relevant SARs. This inclusion allowed law enforcement          Europe, China, and the Middle East in closing ac-
to more easily search for and identify fraudulent activ-       counts and denying access to the financial system for
ity when reviewing SAR information, improving the              criminals involved in activities that could jeopardize
focus of investigative resources. Utilizing the initiative’s   U.S. national security. Additionally, OFAC took several
advanced targeting methods, 30 case referrals were             actions to lift sanctions on 125 individuals or entities,
made to law enforcement investigators involving over           where an individual or entity had to divest themselves
140 suspects. Treasury, at the request of civil and crimi-     of any ownership interest in any OFAC designated
nal law enforcement, also contributed to 35 investiga-         companies. As a result, dozens of front companies
tions involving multiple suspects and hundreds of              within the target networks have been liquidated and no
BSA reports. These results have illustrated the benefits       longer facilitate illicit business activities.
of proactive threat identification and preemption of
fraudulent activity. However, the management of
                                                               STRENGTHENED THE REVIEW
capital investments is still considered to be a manage-
ment challenge.                                                PROCESS FOR FOREIGN INVESTMENT
                                                               IN THE UNITED STATES
                                                               Treasury chairs the sixteen-member Committee on
LIFTED SANCTIONS ON 125
                                                               Foreign Investment in the United States (CFIUS)
INDIVIDUALS OR ENTITIES FROM                                   which reviews certain foreign investments into the
THE LIST OF SPECIALLY DESIGNATED                               United States to identify and resolve national security
NATIONALS (SDNs)                                               concerns.
Treasury’s Office of Foreign Assets Control (OFAC)
                                                               The Foreign Investment and National Security Act of
administers and enforces economic and trade sanctions
                                                               2007 (FINSA) required Treasury to issue new regula-
based on U.S. foreign policy and national security
                                                               tions governing the CFIUS process. CFIUS agencies
goals against targeted foreign countries and regimes,
                                                               took into account over 30 public comments received
terrorists, international narcotics traffickers, those
                                                               from domestic and foreign parties in response to pro-
engaged in activities related to the proliferation of
                                                               posed regulations that Treasury published on April 21,
weapons of mass destruction, and other threats to the
                                                               2008. Treasury issued final regulations on November
national security, foreign policy or economy of the
                                                               21, 2008, which went into effect on December 22,
United States. Key to OFAC’s success is the reaction of
                                                               2008. On December 8, Treasury also published
the private sector when financial measures are utilized,
                                                               guidance on the types of transactions that CFIUS has
such as designations, to disrupt or dismantle the forces
                                                               reviewed which have raised national security concerns.
at work in illicit finance or other criminal behavior.
                                                               Though the guidance does not have the force of law, it
When private sector organizations, particularly those in
                                                               provides helpful insight about how the CFIUS process
the international banking community, voluntarily go
                                                               works.
beyond their legal requirement and demonstrate good
corporate citizenship by refusing to handle illicit busi-




                                             Prevented Terrorism and Promoted the Nation’s Security                              39
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     MODERNIZE BANK SECRECY ACT                                 the work Treasury has done in fiscal year 2009 and
                                                                                                                                                                                before, there is still room for improvement to imple-
                                                                                                                     (BSA) INFORMATION AND ANALYSIS
                                                                                                                                                                                ment AML/CFT laws in key countries.  In particular,
                                                                                                                     The current BSA data infrastructure is ill-equipped to
                                                                                                                                                                                Pakistan needs to build on the progress it made as a
                                                                                                                     meet 21st century realities and unable to quickly adapt
                                                                                                                                                                                result of its mutual evaluation. Its anti-money launder-
                                                                                                                     to changing financial indicators and patterns of illicit
                                                                                                                                                                                ing law must be made permanent and investigations
                                                                                                                     activity. The number of financial institutions falling
                                                                                                                                                                                and prosecutions for money laundering and terrorist
                                                                                                                     under the purview of the BSA has grown exponentially
                                                                                                                                                                                financing offenses must occur. 
                                                                                                                     in the last six years and will continue to experience
                                                                                                                     robust growth in the future. Treasury developed a
                                                                                                                     strategy in fiscal year 2007 to modernize the BSA data     CONTINUE TO PROVIDE ADDITIONAL
                                                                                                                     architecture to better serve its internal and more than    GUIDANCE TO THE CHARITABLE
                                                                                                                     10,000 external users that rely on accurate, timely,       SECTOR
                                                                                                                     and reliable BSA data to identify money laundering,
                                                                                                                                                                                The Department strives to create a robust and aggres-
                                                                                                                     terrorist financing, tax evasion, and vulnerabilities in
                                                                                                                                                                                sive strategy to conduct outreach to the charitable
                                                                                                                     the financial industry.
                                                                                                                                                                                sector to combat terrorist exploitation and abuse of
                                                                                                                     The modernization will reengineer the BSA data             charities. The Department works with various commu-
                                                                                                                     architecture, update antiquated infrastructure             nity organizations in order to raise awareness of the risk
                                                                                                                     required to support data capture and dissemina-            of terrorist financing and measures to minimize such
                                                                                                                     tion, implement innovative web-services, enhance           risks. Outreach events include participation in several
                                                                                                                     electronic-filing, and provide analytical tools. This      interagency outreach efforts, hosted by the Department
                                                                                                                     investment will begin to enrich and standardize BSA        of Justice as well as the Department of Homeland
                                                                                                                     data to maximize value, evaluate and deploy advanced       Security. One key component is that Treasury issues
                                                                                                                     analytical technologies, and establish more effective      guidance to the charitable sector as part of this com-
                                                                                                                     security technologies to enhance data confidential-        prehensive strategy to raise awareness and minimize
                                                                                                                     ity and integrity. After two years of analysis, the        the risk of terrorist exploitation through charities.
                                                                                                                     Department anticipates beginning implementation of         During fiscal year 2009, the Treasury Guidelines
                                                                                                                     this modernization in fiscal year 2010.                    Working Group (TGWG) met, which represents major
                                                                                                                                                                                U.S.-based charities, foundations and philanthropic
                                                                                                                                                                                groups, and began revising its Anti-Terrorist Financing
                                                                                                                     ENCOURAGE PAKISTAN TO MAKE                                 Guidelines: Voluntary Best Practices for U.S-Based
                                                                                                                     ITS ANTI-MONEY LAUNDERING LAW                              Charities (Guidelines).  It is expected that the TGWG
                                                                                                                     PERMANENT                                                  will submit a proposal concerning the revision of the
                                                                                                                     A key aspect of strengthening anti-money laundering/       Guidelines by the close of the 2009 calendar year. This
                                                                                                                     counter-terrorist financing (AML/CFT) regimes is           is just one component to ensuring risks are minimized
                                                                                                                     conducting country assessments to determine the level      by the charitable sector, Treasury will need to continue
                                                                                                                     of compliance with international AML/CFT standards         to develop and implement its strategy to combat
                                                                                                                     that country has. These evaluation reports also identify   further exploitation.
                                                                                                                     deficiencies and ways to strengthen each country’s
                                                                                                                     regime. Adopting one of these mutual evaluations
                                                                                                                     triggers a follow-up review, which establishes an
                                                                                                                     avenue for Treasury to encourage additional measures
                                                                                                                     to strengthen a country’s AML/CFT regime. Despite




40                                                                                                                     FISCAL YEAR 2009 PERFORMANCE BY STRATEGIC GOAL
                                                                                                                       PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
ESTABLISH EXTERNAL                                         MANAGEMENT AND
PERFORMANCE MEASURE                                        ORGANIZATIONAL EXCELLENCE
EVALUATION
                                                           The Department of the Treasury strives to maintain
Treasury introduced and began to apply a composite
                                                           public trust and confidence in U.S. and international
performance measure to assess the Department’s
                                                           economic and financial systems through exemplary
impact in preventing terrorism and safeguarding U.S.
                                                           leadership, best-in-class processes, and a culture of
and international financial systems. The measure incor-
                                                           excellence, integrity and teamwork. Achieving and
porates four focus areas: the impact of policymaking,
                                                           maintaining exemplary accountability and transpar-
outreach and diplomacy; economic sanctions; informa-
                                                           ency is critical for the Treasury Department as the
tion and analysis; and regulatory activity on transpar-
                                                           primary financial agency for the U.S. Government.
ency of financial systems. Moving forward, refinement
                                                           Management of Treasury programs provided significant
of the specific methodologies for data collection and
                                                           challenges in fiscal year 2009 associated with imple-
validation related to these focus areas will need to be
                                                           mentation and oversight of new programs to manage
further refined and reviewed externally.
                                                           the economy.


                                                           COMPLETED AN INCREASED NUMBER
                                                           OF MATERIAL LOSS REVIEWS (MLRS)
                                                           OIG is mandated to conduct MLRs of any Treasury-
                                                           regulated bank failure resulting in material losses
                                                           greater than $25 million, or two percent of the institu-
                                                           tion’s assets. An MLR examines the cause(s) of the
                                                           failure, with specific attention paid to effectiveness of
                                                           bank supervision and potential preventative measures
                                                           to improve regulation. The review also looks for
                                                           examples of fraud that may lead to criminal or civil
                                                           prosecution.

                                                           In fiscal year 2009, 107 banks failed, of which 27
                                                           were regulated by OCC or OTS. Of these Treasury-
                                                           regulated bank failures, 23 required an MLR by
                                                           OIG. In fiscal year 2009, OIG completed 10 MLRs,
                                                           including five MLRs for failures that occurred in fiscal
                                                           year 2008. The estimated loss to the Federal Deposit
                                                           Insurance Fund of the 10 reviewed bank failures
                                                           totaled $14.7 billion, including a $10.7 billion loss
                                                           resulting from the failure of IndyMac Bank, the largest
                                                           institution to date to be the subject of an MLR. As of
                                                           September 30, 2009, 18 MLRs were still in progress.

                                                           OIG has reported on several trends from the MLRs.
                                                           Three primary causes of the failures were identified:




                                                          Management and Organizational Excellence                           41
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     asset quality issues (e.g. risky non-traditional loan      returns. The IRS has implemented filters to identify
                                                                                                                     products, poor underwriting, commercial real estate);      these taxpayers and ensure the credits are properly ap-
                                                                                                                     liquidity issues (e.g. reliance on volatile brokered       plied. In addition, IRS identified 48,580 taxpayers who
                                                                                                                     deposits to fund aggressive growth); and management        may not have been aware of the changes to the credit
                                                                                                                     issues (e.g. management systems not commensurate           and did not claim the full amount. IRS is planning an
                                                                                                                     with level of risk, non-responsive to regulator con-       outreach campaign to inform those taxpayers of the
                                                                                                                     cerns). With respect to supervision, OIG reported that     additional credit, if they do not otherwise amend their
                                                                                                                     OCC or OTS usually identified the problems early on        returns.
                                                                                                                     but did not forcefully act to address them. Both regula-
                                                                                                                     tors have been responsive to OIG’s recommendations
                                                                                                                                                                                EFFECTIVE MANAGEMENT OF
                                                                                                                     for improving supervision processes.
                                                                                                                                                                                TREASURY’S INFORMATION
                                                                                                                                                                                TECHNOLOGY
                                                                                                                     TIGTA AUDITS
                                                                                                                                                                                The Department relies on information technology (IT)
                                                                                                                     TIGTA conducts audits and investigations to ensure
                                                                                                                                                                                infrastructure to manage more than $8 trillion dollars
                                                                                                                     fair administration of the nation’s tax system and
                                                                                                                                                                                in debt, collect more than $2 trillion in revenue, and
                                                                                                                     accountability for the more than $2 trillion in tax
                                                                                                                                                                                conduct more than $58 billion in daily cash transac-
                                                                                                                     revenue collected each year. The audits identify high-
                                                                                                                                                                                tions. In fiscal year 2009, the Department defined
                                                                                                                     risk issues and deficiencies related to the administra-
                                                                                                                                                                                strategic IT management priorities to strengthen
                                                                                                                     tion of programs and operations, ensuring taxpayers
                                                                                                                                                                                cyber security, reduce infrastructure operations costs,
                                                                                                                     are appropriately served and their rights adequately
                                                                                                                                                                                increase bureau collaboration and productivity, and
                                                                                                                     protected. In fiscal year 2009, TIGTA issued 142 audit
                                                                                                                                                                                improve Treasury IT workforce proficiency. As part of
                                                                                                                     reports focusing on the areas of improved tax compli-
                                                                                                                                                                                operations management, the Department uses OMB’s
                                                                                                                     ance (including the international arena), security
                                                                                                                                                                                IT Dashboard to gauge the effectiveness of its IT
                                                                                                                     maintenance, systems modernization and operations.
                                                                                                                                                                                systems. Each month, Treasury’s Chief Information
                                                                                                                     The audit reports isolated $14.7 billion in potential
                                                                                                                                                                                Officer evaluates the Department’s 59 major invest-
                                                                                                                     financial benefits, the majority stemming from a
                                                                                                                                                                                ments on cost and schedule performance metrics.
                                                                                                                     possible $8.9 billion savings over five years from the
                                                                                                                                                                                As of October 1, 2009, Treasury had 58 out of 59
                                                                                                                     disallowance of the Additional Child Tax Credit to
                                                                                                                                                                                investments (98.3 percent) reported as Green or Yellow
                                                                                                                     filers without a valid social security number.
                                                                                                                                                                                for Cost Variance and 1 investment (1.7 percent Red)
                                                                                                                     TIGTA conducted a special audit on a major Recovery        reported as Red. As of October 1, 2008, 37 out of 62
                                                                                                                     Act activity for IRS associated with the First-Time        investments (59.7 percent) reported Green for Cost
                                                                                                                     Homebuyer Tax Credit. TIGTA found that although            Variance and the remainder (40.3 percent) reported
                                                                                                                     the IRS developed controls to identify many question-      red. As of October 1, 2009, Treasury had 59 out of
                                                                                                                     able claims for the First-Time Homebuyer Tax Credit,       59 investments (100.0 percent) reported as Green
                                                                                                                     some key documentation requirements to substantiate        or Yellow for Schedule Variance and no investments
                                                                                                                     the purchase of a house were inadequate. As a result,      reported as Red. As of October 1, 2008, 50 out of
                                                                                                                     19,351 Tax Year 2008 income tax returns included           62 investments (80.6 percent) reported Green for
                                                                                                                     erroneous or fraudulent claims for the credit, totaling    Schedule Variance and the remainder (19.4 percent)
                                                                                                                     over $139 million for homes that had not yet been          reported red. Additionally, the information security
                                                                                                                     purchased. In addition, taxpayers who appeared not to      management challenge was closed in fiscal year 2009.
                                                                                                                     be first-time homebuyers claimed the credit on their




42                                                                                                                     FISCAL YEAR 2009 PERFORMANCE BY STRATEGIC GOAL
                                                                                                     PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
EXPANDED HUMAN CAPITAL
INITIATIVES
The Office of the Deputy Assistant Secretary for
Human Resources/Chief Human Capital Officer
(DASHR/CHCO) endeavors to broaden and diversify
Treasury’s talent pool; develop and retain an effec-
tive workforce; effectively manage and utilize human
capital; and develop human capital practitioners
as strategic business partners. In fiscal year 2009,
DASHR/CHCO was directly involved in ramping up
emergency programs to support economic stabilization
efforts, improving applicant outreach and supporting
new hires through the Hamilton Fellows Program
and other initiatives, and expanding the diversity of
Treasury’s workforce. A major challenge in future
years will be managing the retirement of a significant
percentage of Treasury’s employees as baby boomers
leave the workforce. Improving retention of new hires
and providing executive leadership development for
current employees is essential to ensuring Treasury has
a strong and professional talent pool.




                                                          Management and Organizational Excellence         43
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Department of the Treasury
                                                                                                                     Key Performance Measures for 2009
                                                                                                                     The following table contains ten key performance metrics providing a representative overview of the Department’s
                                                                                                                     performance for 2009. Discussion of the factors contributing to each measure’s performance results, and plans to
                                                                                                                     improve the measure’s results in future years, follows the table.

                                                                                                                      ANNUAL FINANCIAL REPORT FOR FISCAL YEAR 2009
                                                                                                                      Treasury Department Key Performance Measure Table




                                                                                                                                                                                                                                                                                                                           2009 Actual vs.
                                                                                                                                                                                                                                                                                                         Percent Target
                                                                                                                                                                                                                                                                                                         Achieved 2009




                                                                                                                                                                                                                                                                                                                                                            Actual Trend
                                                                                                                                                                                                                                                                                                                                             Target Trend
                                                                                                                                                                        2005 Actual




                                                                                                                                                                                                    2006 Actual




                                                                                                                                                                                                                                2007 Actual




                                                                                                                                                                                                                                                            2008 Actual




                                                                                                                                                                                                                                                                                           2009 Actual
                                                                                                                                                          2005 Target




                                                                                                                                                                                      2006 Target




                                                                                                                                                                                                                  2007 Target




                                                                                                                                                                                                                                              2008 Target




                                                                                                                                                                                                                                                                            2009 Target
                                                                                                                                                 Bureau




                                                                                                                                                                                                                                                                                                                           Target
                                                                                                                      Performance Measure
                                                                                                                      Official Title
                                                                                                                      Percentage collected       FMS      82            79            83            79            80            79            79            80              80             83            104%             Exceeded                         
                                                                                                                      electronically of total
                                                                                                                      dollar amount of Federal
                                                                                                                      government receipts (%)
                                                                                                                      Customer Service           IRS      82.0          82.6          82.0          82.0          82.0          82.1          82.0          52.8            70.0          70.0           100%               Met                            
                                                                                                                      Representative (CSR)
                                                                                                                      Level of Service (%)
                                                                                                                      Percent of Business        IRS      17            17.8          18.6          16.6          19.5          19.1          20.8          19.4            21.6          22.8           106%             Exceeded                         
                                                                                                                      Returns Processed
                                                                                                                      Electronically (%)
                                                                                                                      Percent of Individual      IRS      51            51.1          55            54.1          57            57.1          61.8          57.6            64            65.9           103%             Exceeded                         
                                                                                                                      Returns Processed
                                                                                                                      Electronically (%)
                                                                                                                      Number of full-time       CDFI 26,995 23,656 29,158 22,329 34,009 35,022 28,676 29,539                                                               30,000         70,260 234%                     Exceeded                         
                                                                                                                      equivalent jobs created
                                                                                                                      or maintained in
                                                                                                                      underserved communities
                                                                                                                      by businesses financed by
                                                                                                                      CDFI program awardees
                                                                                                                      Rehabilitated national     OCC      40            44            40            46            40            52            40            47              40             29             73%              Unmet                           
                                                                                                                      banks as a percentage of
                                                                                                                      problem national banks
                                                                                                                      one year ago (CAMELS 3,
                                                                                                                      4 or 5) (%)
                                                                                                                      Clean audit opinion on    DO                                                                                                                        Baseline        Met            100%               Met                B              B
                                                                                                                      TARP financial statements
                                                                                                                      Percentage of SIGTARP      DO                                                                                                                       Baseline        100            100%               Met                B              B
                                                                                                                      and GAO oversight
                                                                                                                      recommendations
                                                                                                                      responded to on time
                                                                                                                      Average days to close a    DO                                                                                                                       Baseline         67            100%               Met                B              B
                                                                                                                      FOIA case
                                                                                                                      Impact of TFI programs     DO                                                                                                                       Baseline        7.81           100%               Met                B              B
                                                                                                                      and activities




44                                                                                                                      Department of the Treasury Key Performance Measures for 2009
                                                                                                                           PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
 Legend                                        Symbol         IRS electronic filing metrics “Percent of Business
 Favorable upward trend                                      Returns Processed Electronically” and “Percent of
 Favorable downward trend                                    Individual Returns Processed Electronically” exceeded
 Unfavorable upward trend                                    their performance targets by six percent and three
 Unfavorable downward trend                                  percent, respectively, and each improved significantly
 No change in trend, no effect                               over their fiscal year 2008 results by 18 percent and
 No change in trend, favorable effect                        14 percent, respectively. Their favorable results can be
 No change in trend, unfavorable effect                      attributed to changes in filing patterns, economic and
 Baseline                                           B         demographic trends, legislative requirements, and IRS
                                                              administrative processes. IRS expects the percentage of
In fiscal year 2009, FMS’ total dollar collections            both business and individual returns filed electronically
decreased from $3.2 trillion to $2.9 trillion as a result     to increase in fiscal year 2010 based on recent experi-
of both businesses and individuals being impacted by          ence, historical growth trends, increased marketing,
the economic downturn. However, paper tax receipts            and expanded programs aimed at boosting electronic
collected through a lockbox network and paper                 filing. IRS will continue to pursue additional legislative
federal tax deposits decreased by more than 28 percent        mandates to increase electronic filing for businesses
compared with 2008, while electronic tax collections          taxpayers, such as a provision for 2011 requiring tax-
only decreased by 11 percent. This caused FMS’ metric         payers filing more than ten individual returns during a
“Percentage collected electronically of total dollar          calendar year file electronically.
amount of Federal government receipts” to exceed its          CDFI’s metric “Number of full-time equivalent jobs
performance target by four percent, and show a four           created or maintained in underserved communities by
percent improvement over 2008.FMS regularly reaches           businesses financed by CDFI program awardees” in
out to the banking community to promote electronic            fiscal year 2009 exceeded its performance target by 134
collection, and is implementing marketing programs to         percent and improved over the prior fiscal year’s actual
encourage migration of paper-based collections to elec-       result by 138 percent. The primary reason for this
tronic collection systems and Pay.gov. Two initiatives to     increase was the additional $90 million in Recovery
promote this migration would eliminate paper coupons          Act funds added to the $57 million received under
for employment taxes, transferring them completely to         the regular budget. Targeted performance without the
electronic collection systems by 2011, and require cer-       additional Recovery Act funding was 30,000 full-time
tain classes of non-tax collections be paid electronically.   jobs created or maintained; with Recovery Act fund-
Both proposals would help to significantly increase the       ing, 70,000 full-time jobs were created. In addition,
percentage of electronic collections going forward.           the amount of money CDFIs were able to attract from
The IRS metric “Customer Service Representative               private investment reached nearly $1.3 billion, more
(CSR) Level of Service” met its performance target in         than double the 2008 target of $635 million, due to
fiscal year 2009 and improved on the prior fiscal year’s      commitments made before the full onset of the finan-
result by 33 percent. Demand for IRS customer service         cial crisis. Based on the increased funding and private
was unusually high in 2009, due largely to inquiries          sector matching, in 2009 CDFIs were able to invest
related to the Recovery Act, Rebate Recovery Credit           in projects that created or maintained 70,260 jobs,
and interest in electronic filing. Given the sunset for       more than double the target of 30,000 jobs. With an
Recovery Act provisions and the Recovery Rebate               anticipated drop in Recovery Act funding and private
Credit, the IRS does not anticipate a significant in-         sector matching in 2009, it is unlikely that these results
crease in the CSR Level of Service for fiscal year 2010.      will be repeated in 2010.




                                          Department of the Treasury Key Performance Measures for 2009                           45
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     During fiscal year 2009, OCC’s metric “Rehabilitated         •	   Percentage of SIGTARP and GAO oversight
                                                                                                                     national banks as a percentage of problem na-                     recommendations responded to on time: In fiscal
                                                                                                                     tional banks one year ago (CAMELS 3, 4 or 5)” only                year 2009, OFS responded to 100 percent of
                                                                                                                     achieved 73 percent of its performance target, drop-              these oversight bodies’ recommendations on time.
                                                                                                                     ping by 38 percent compared with fiscal year 2008.                Going forward, OFS will continue working to en-
                                                                                                                     During fiscal year 2009, national banks continued to              sure that all recommendations from the oversight
                                                                                                                     operate in a highly challenging and volatile environ-             bodies are responded to efficiently and effectively.
                                                                                                                     ment. Deterioration in the housing and commercial            •	   Average days to close a FOIA case (after received
                                                                                                                     real estate markets and the decline in general economic           by OFS): During fiscal year 2009, OFS went
                                                                                                                     conditions directly impacted national banks’ financial            to great lengths to reduce the time required to
                                                                                                                     condition and performance. OCC is identifying banks               respond to FOIA requests, and by the end of the
                                                                                                                     most vulnerable to current economic conditions, and               fiscal year, averaged 67 days to close a FOIA case, a
                                                                                                                     is allocating bank supervision resources to areas and             response time faster than the overall Treasury aver-
                                                                                                                     institutions of highest risk. For problem banks, OCC              age. Going forward, OFS will continue working
                                                                                                                     is working to develop specific plans to correct deficien-         to further reduce the time taken to respond to all
                                                                                                                     cies in a timely manner and return the bank to a safe             incoming FOIA requests.
                                                                                                                     and sound condition. For all national banks, OCC is
                                                                                                                     continuing to focus on quick response to deteriorating      TFI began applying its composite performance metric
                                                                                                                     bank credit quality and on ensuring banks maintain          “Impact of TFI programs and activities” during fiscal
                                                                                                                     adequate liquidity, loan loss reserves, and capital         year 2009. This metric consists of four overall focus
                                                                                                                     buffers.                                                    areas, with additional detailed focus area components.
                                                                                                                                                                                 These components align to performance goals estab-
                                                                                                                     In fiscal year 2009, DO’s Office of Financial Stability,    lished by TFI. In fiscal year 2009 this metric achieved
                                                                                                                     responsible for managing TARP, established new              a 7.81 rating out of 10 possible points. The external
                                                                                                                     performance measures. These measures included the           review process for this measure still needs to be devel-
                                                                                                                     following:                                                  oped, but the implementation of this measure is a large
                                                                                                                                                                                 step in the effort to measure performance for a policy
                                                                                                                      •	   Clean audit opinion on TARP financial state-          office that also has operational responsibilities.
                                                                                                                           ments: For 2009, OFS received a clean audit
                                                                                                                           opinion on TARP financial statements, a signifi-
                                                                                                                           cant accomplishment given OFS’s very challeng-
                                                                                                                           ing first year of operations after standing up the
                                                                                                                           organization.




46                                                                                                                     Department of the Treasury Key Performance Measures for 2009
                                                                                                                                             PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
Summary of Management and Performance
Challenges and High Risk Areas
Annually, the Treasury Office of Inspector General                       continue to focus on resolving them during fiscal year
(OIG) and the Treasury Inspector General for Tax                         2010.
Administration (TIGTA) identify the most significant
management and performance challenges facing the                         Summaries of the IG-identified management challeng-
Department. The Government Accountability Office                         es and GAO-identified high risks are below, along with
(GAO) identifies High Risk areas biennially. These                       Treasury’s progress and status ratings for each manage-
challenges do not necessarily indicate deficiencies in                   ment challenge. For details, please refer to Appendix C
performance; rather, some represent inherent risks that                  for this year’s OIG and TIGTA memoranda identifying
must be monitored continuously. Treasury made much                       major management and performance challenges, and
progress on these issues in fiscal year 2009, and will                   the Secretary’s responses.



TREASURY-WIDE MANAGEMENT CHALLENGES – AS IDENTIFIED BY OIG
 MANAGEMENT CHALLENGE                  IMPORTANCE                                                         PROGRESS*     STATUS*
 Treasury’s New Authorities Related    Protection of the taxpayer from unnecessary risk associated with Reasonable      Meets Expectations
 to Distressed Financial Markets       the implementation of the program
 Regulation of National Banks and      Prevent or better mitigate unsafe and unsound practices and        Reasonable    Meets Expectations
 Thrifts                               protect the financial health of the banking industry
 Management of Recovery Act            Ensure the programs achieve their intended purposes, provide       New           New
 Programs                              for accountability and transparency, and are free from fraud and
                                       abuse
 Management of Capital Investments     Effective use of taxpayer funds for large capital investments      Significant   Meets Expectations
 Anti-Money Laundering and Terrorist   U.S. and international financial systems that are safe             Reasonable    Meets Expectations
 Financing/ Bank Secrecy Act
 Reporting
 Information Security                  Ensure compliance to federal standards for protection of           Closed        Closed
                                       systems and information
 Corporate Management                  Overall agency performance/improved value for the taxpayer         Closed        Closed
 * Determined by management




                              Summary of Management and Performance Challenges and High Risk Areas                                                 47
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     IRS MANAGEMENT CHALLENGES – AS IDENTIFIED BY TIGTA
                                                                                                                     MANAGEMENT CHALLENGE                    IMPORTANCE                                                         PROGRESS*           STATUS*
                                                                                                                     Modernization                          Improved taxpayer service and efficiency of operations              Reasonable          Meets Expectations
                                                                                                                     Security                               Appropriate protection of financial, personal, and other            Reasonable          Meets Expectations
                                                                                                                                                            information
                                                                                                                     Tax Compliance Initiatives             Improved compliance and fairness in the application of the tax      Reasonable          Meets Expectations
                                                                                                                                                            laws
                                                                                                                     Implementing Tax Law Changes           Responsiveness to new tax provisions, including the Recovery        Reasonable          Meets Expectations
                                                                                                                                                            Act, and adjusting to expiring ones
                                                                                                                     Providing Quality Taxpayer Service     Improved taxpayer service                                           Reasonable          Meets Expectations
                                                                                                                     Operations
                                                                                                                     Human Capital                          Enables the IRS to achieve its mission                              Significant         Meets Expectations
                                                                                                                     Erroneous and Improper Payments        Effective use of taxpayer funds                                     Reasonable          Adequate
                                                                                                                     and Credits
                                                                                                                     Globalization                          Increased outreach efforts to foreign governments on cross          New                 New
                                                                                                                                                            border transactions
                                                                                                                     Taxpayer Protection and Rights         Fairness in the application of the tax laws                         Reasonable          Meets Expectations
                                                                                                                     Leveraging Data to Improve Program     Resources that are focused on producing the best value for          Significant         Exceeds
                                                                                                                     Effectiveness and Reduce Costs         stakeholders                                                                            Expectations
                                                                                                                     * Determined by management



                                                                                                                     LEGEND                                                                     LEGEND
                                                                                                                     Progress Rating   Description                                              Status Rating    Description
                                                                                                                     New               A new management challenge in fiscal year 2009           New              A new management challenge in fiscal year 2009
                                                                                                                     None              No progress was made on the management                   Inadequate       Regardless of progress made in fiscal year, the status
                                                                                                                                       challenge                                                                 of the management challenge remains incomplete and
                                                                                                                     Marginal          Minimal progress was made on the management                               falls significantly short of expectations
                                                                                                                                       challenge compared to the prior year                     Adequate         The current status of the management challenge is
                                                                                                                     Reasonable        Progress was made in addressing the management                            acceptable but falls slightly short of expectations set
                                                                                                                                       challenge, improving from the prior year                                  for the fiscal year
                                                                                                                     Significant       A large amount of progress was made compared to          Meets            The current status of the management challenge
                                                                                                                                       the prior year assessment                                Expectations     meets expectations set for the fiscal year
                                                                                                                                                                                                Exceeds          The current status of the management challenge
                                                                                                                                                                                                Expectations     exceeds expectations set for the fiscal year
                                                                                                                                                                                                Closed           Actions taken resulted in the elimination of the
                                                                                                                                                                                                                 management challenge




48                                                                                                                     Summary of Management and Performance Challenges and High Risk Areas
                                                                                                                          PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
HIGH RISK AREAS – AS IDENTIFIED                                       conducted over 145,000 high-net worth audits,
                                                                      an increase of 11.2 percent. Audits of large
BY GAO
                                                                      corporations increased by 3.6 percent and the
                                                                      number of flow through audits remained over
ENFORCEMENT OF THE TAX LAWS                                           31,000.
Problem: The IRS needs to improve its enforcement of             •	   In fiscal year 2010, IRS will continue to expand
      tax laws, not only to catch tax cheats, but also to             its efforts to address international tax evasion,
      promote broader compliance by giving taxpayers                  to expand the focus on corporate and high
      confidence that others are paying their fair share.             net-worth returns, to integrate significant
Goal: Improve research on noncompliance, increase                     new information reporting authorities into
      the use of third party information reporting,                   compliance programs, and to implement higher
      focus on improving standards among tax return                   standards within the practitioner community to
      preparers, and increase emphasis on interna-                    ensure that the proper amount of tax is paid.
      tional noncompliance.
                                                             IRS BUSINESS SYSTEMS
Challenges and Actions Taken/Planned:
                                                             MODERNIZATION
Reduce the opportunity for evasion
                                                             Problem: The Business Systems Modernization
    •	   Offshore Private Banking Initiative – The largest         (BSM) program is developing and delivering
         bank in Switzerland agreed to provide the names           a number of modernized systems to replace
         of 4,450 of their U.S. account holders and to             the aging business and tax processing systems
         pay a $780 million fine, including $380 million           currently in use. This effort is highly complex
         to the IRS. Another bank entered into a deferred          and scheduled to be carried out over a numbers
         prosecution agreement to forfeit $340 million,            of years, ultimately creating a more efficient
         the largest seizure in IRS history, in connection         and effective IRS. Though the IRS experienced
         with violations of the International Emergency            delays and cost overruns in the early years of the
         Economic Powers Act. Over 7,500 people                    effort, improved practices and oversight are now
         submitted “voluntary disclosure” applications             contributing to better delivery of outcomes.
         under the partial amnesty program that ended
         October 15, 2009.                                   Goal: Meet all BSM project milestones within a cost
                                                                   and schedule variance of 10 percent of the initial
    •	   Offshore Merchant Account Initiative – A                  estimate.
         summons was issued to a large processor of
         merchant accounts to identify U.S. businesses       Challenges and Actions Taken/Planned:
         that deposit unreported business receipts from      Fully implement all projects and programs for the
         debit and credit card sales in accounts in banks    BSM program
         domiciled in secrecy jurisdictions.                     •	   In fiscal year 2009, the IRS revised its Customer
Target specific areas of noncompliance and improve                    Account Data Engine (CADE) strategy. BSM
voluntary compliance with extensive research                          will continue the revised CADE strategy to
    •	   The IRS maintained its focus on high-net worth               implement the new taxpayer account database
         individuals, flow through entities, and large                by the end of 2011 for the 2012 filing season.
         corporations (assets > $10 million). The IRS                 The new database will result in the migration




                        Summary of Management and Performance Challenges and High Risk Areas                                    49
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                             of all 140 million individual taxpayers to a              •	   Elimination of the federal thrift charter and
                                                                                                                             modernized, relational database that will support              other loopholes that allowed some depository
                                                                                                                             daily processing and result in faster refunds for              institutions to avoid bank holding company
                                                                                                                             all individual refund filers. Daily updating of all            regulation by the Federal Reserve.
                                                                                                                             individual taxpayer accounts by 2012 also will            •	   The registration of advisers of hedge funds and
                                                                                                                             improve taxpayer service and accuracy, reduce                  other private pools of capital with the Securities
                                                                                                                             interest paid on late refunds, improve data                    and Exchange Commission.
                                                                                                                             security, and create new tools to combat fraud
                                                                                                                             and improve enforcement activities. Completion         Establish comprehensive supervision of financial
                                                                                                                                                                                    markets
                                                                                                                             of the taxpayer account database is the pre-
                                                                                                                             requisite for other major initiatives, including          •	   Enhanced regulation of securitization markets,
                                                                                                                             significant expansion of online services and                   including new requirements for market trans-
                                                                                                                             transactions and the next generation of enforce-               parency, stronger regulation of credit rating
                                                                                                                             ment technologies.                                             agencies, and a requirement that issuers and
                                                                                                                                                                                            originators retain a financial interest in securi-
                                                                                                                                                                                            tized loans.
                                                                                                                     MODERNIZING THE OUTDATED
                                                                                                                     U.S. REGULATORY SYSTEM                                            •	   Comprehensive regulation of all over-the-
                                                                                                                                                                                            counter derivatives.
                                                                                                                     (NEWLY IDENTIFIED IN 2009)
                                                                                                                     Problem: The current financial system is a fragmented,            •	   A new regime to resolve nonbank financial
                                                                                                                           complex arrangement of federal and state regula-                 institutions whose failure could have serious
                                                                                                                           tors that arose over the past 150 years, often in                systemic effects.
                                                                                                                           response to past crises.                                    •	   Revisions to the Federal Reserve’s emergency
                                                                                                                                                                                            lending authority to improve accountability.
                                                                                                                     Goal: Establish regulatory reform goals and a measure-
                                                                                                                           ment plan.                                                  •	   New authority for the Federal Reserve to oversee
                                                                                                                                                                                            payment, clearing, and settlement systems.
                                                                                                                     Challenges and Actions Taken/Planned:
                                                                                                                                                                                    Protect comprehensive supervision of financial
                                                                                                                     Promote robust supervision and regulation of                   markets
                                                                                                                     financial firms
                                                                                                                                                                                       •	   A new Consumer Financial Protection Agency
                                                                                                                        •	   A new Financial Services Oversight Council of                  to protect consumers across the financial sector
                                                                                                                             financial regulators to identify emerging system-              from unfair, deceptive, and abusive practices.
                                                                                                                             ic risks and improve interagency cooperation.
                                                                                                                                                                                       •	   Stronger regulations to improve the transpar-
                                                                                                                        •	   New authority for the Federal Reserve to super-                ency, fairness, and appropriateness of consumer
                                                                                                                             vise all firms that could pose a threat to financial           and investor products and services.
                                                                                                                             stability, even those that do not own banks.
                                                                                                                                                                                       •	   A level playing field and higher standards for
                                                                                                                        •	   Stronger capital and other prudential standards                providers of consumer financial products and
                                                                                                                             for all financial firms, and even higher standards             services, whether or not they are part of a bank.
                                                                                                                             for large, interconnected firms.
                                                                                                                        •	   A new National Bank Supervisor to supervise all
                                                                                                                             federally chartered banks.




50                                                                                                                     Summary of Management and Performance Challenges and High Risk Areas
                                                                                              PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
Provide the government with the tools it needs to
manage financial crises
   •	   A new regime to resolve nonbank financial
        institutions whose failure could have serious
        systemic effects.
   •	   Revisions to the Federal Reserve’s emergency
        lending authority to improve accountability.
Raise international regulatory standards and
improve international cooperation
   •	   International reforms to support our efforts
        at home, including strengthening the capital
        framework; improving oversight of global
        financial markets; coordinating supervision of
        internationally active firms; and enhancing crisis
        management tools.




                       Summary of Management and Performance Challenges and High Risk Areas         51
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Analysis of Financial Statements
                                                                                                                      CONDENSED BALANCE SHEET:                                                   (in Millions)              2009              2008
                                                                                                                               Due From the General Fund                                                         $   11,992,719     $   10,100,763
                                                                                                                               Other Intra-governmental Assets                                                          923,457            551,115
                                                                                                                               Cash, Foreign Currency, and Other Monetary Assets                                        341,308            387,270
                                                                                                                               Gold and Silver Reserve                                                                   11,062             11,062
                                                                                                                               Investments and Related Interest                                                          13,565             10,576
                                                                                                                               Tax, Other Related Interest Receivables, Net                                              30,408             30,878
                                                                                                                               Asset Guarantee                                                                            1,765                  0
                                                                                                                               Investments-Credit Reform                                                                203,141                  0
                                                                                                                               Investments in Government Sponsored Enterprises                                           64,679              7,032
                                                                                                                               Credit Program Receivables, Direct Loans                                                 219,170              3,385
                                                                                                                               Beneficial Interest in Trust                                                              23,472                  0
                                                                                                                               Other Assets                                                                              21,855             14,957
                                                                                                                            Total Assets                                                                         $   13,846,601     $   11,117,038
                                                                                                                                Federal Debt and Interest Payable                                                $   11,962,385     $   10,075,108
                                                                                                                                Other Intra-governmental Liabilities                                                  1,275,613            681,621
                                                                                                                                Other Liabilities                                                                       180,547             50,598
                                                                                                                            Total Liabilities                                                                        13,418,545         10,807,327
                                                                                                                                Unexpended Appropriations                                                               455,144            271,968
                                                                                                                                Cumulative Results of Operations                                                        (27,088)            37,743
                                                                                                                            Total Net Position                                                                   $      428,056     $      309,711
                                                                                                                            Total Liabilities and Net Position                                                   $   13,846,601     $ $11,117,038

                                                                                                                         

                                                                                                                      CONDENSED STATEMENT OF NET COST:                                           (in Millions)              2009              2008
                                                                                                                               Net Financial Program Cost                                                        $       13,055     $      12,287
                                                                                                                               Net Economic Program (Revenue)/Cost                                                      195,705            14,048
                                                                                                                                Net Security Program Cost                                                                  322                342
                                                                                                                                Net Management Program Cost                                                                509                466
                                                                                                                            Total Net Cost of Treasury Operations                                                      209,591              27,143
                                                                                                                                Net Federal Costs (primarily interest on the Federal Debt)                       $     313,341      $     442,208
                                                                                                                                                                                              

                                                                                                                      CONDENSED STATEMENT OF CUSTODIAL ACTIVITY:                                 (in Millions)              2009              2008
                                                                                                                               Individual and FICA Taxes                                                         $    2,036,557     $    2,294,326
                                                                                                                               Corporate Income Taxes                                                                   225,482            354,063
                                                                                                                               Other Revenues                                                                            139,648            144,218
                                                                                                                            Total Revenue Received                                                                    2,401,687          2,792,607
                                                                                                                               Less Refunds                                                                            (437,972)          (426,074)
                                                                                                                            Net Revenue Received                                                                      1,963,715          2,366,533
                                                                                                                               Beneficial Interest in Trust                                                               23,472                  –
                                                                                                                               Accrual Adjustment                                                                         (1,097)             3,132
                                                                                                                            Total Custodial Revenue                                                                   1,986,090          2,369,665
                                                                                                                               Amounts Provided to Fund the Federal Government                                        1,963,228          2,366,126
                                                                                                                               Other Agencies                                                                                487               407
                                                                                                                               Beneficial Interest in Trust                                                               23,472                  –
                                                                                                                               Accrual Adjustment                                                                         (1,097)             3,132
                                                                                                                            Total Disposition of Custodial Revenue                                                    1,986,090          2,369,665
                                                                                                                            Net Custodial Revenue Activity                                                       $             0    $             0




52                                                                                                                     Analysis of Financial Statements
                                                                                                                 PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
CONDENSED STATEMENT OF CHANGES IN NET POSITION:             (in Millions)               2009             2008

      Beginning Balance                                                     $        37,743     $     48,782

     Budgetary Financing Sources                                                   668,894           482,150
     Other Financing Sources (Uses)                                               (210,793)          (23,838)
     Total Financing Sources                                                        458,101           458,312
     Net Cost of Operations                                                       (522,932)         (469,351)
     Net Change                                                                     (64,831)          (11,039)
  Cumulative Results of Operations                                                  (27,088)           37,743

      Beginning Balance                                                     $       271,968     $      72,317
      Appropriations Received                                                       855,762           681,473
      Appropriations Used                                                         (668,153)         (481,735)
      Other                                                                          (4,433)              (87)
      Total Budgetary Financing Sources                                             183,176           199,651
  Total Unexpended Appropriations                                                  455,144           271,968
  Net Position - Year End                                                   $       428,056     $    309,711




CONDENSED STATEMENT OF BUDGETARY RESOURCES:                 (in Millions)               2009             2008
      Unobligated Balances, Brought Forward                                 $      284,630      $     57,450
      Recoveries of Prior Year Obligations                                           8,096                413
      Budget Authority                                                           1,814,086           722,859
      Other Budget Authority                                                     (271,778)            (8,558)
  Total Budgetary Resources                                                 $    1,835,034      $    772,164
      Obligations Incurred                                                       1,387,195           487,534
      Unobligated Balance                                                          413,998           273,235
      Unobligated Balance, Not Available                                             33,841           11,395
  Total Status of Budgetary Resources                                       $    1,835,034      $    772,164
      Total Unpaid Obligated Balances, Net                                  $         56,977    $      57,393
      Obligations Incurred, Net                                             $     1,387,195     $     487,534
      Gross Outlays                                                         $   (1,248,916)     $   (487,608)
      Recoveries of Prior Year Unpaid Obligations, Actual                   $         (8,096)   $       (413)
      Changes in Uncollected Customer Payments Federal                      $       (28,748)    $          71
      Total Unpaid Obligated Balance, Net, End of Year                      $       158,412     $     56,977
      Net Outlays                                                           $       922,165     $    462,868




                                                                      Analysis of Financial Statements                 53
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     SUMMARY OF AUDITOR’S REPORT ON
                                                                                                                     THE TREASURY DEPARTMENT’S FINANCIAL STATEMENTS
                                                                                                                     The Department received an unqualified audit opinion on its fiscal year 2009 financial statements. As sum-
                                                                                                                     marized in the table below, the auditor reported two material weaknesses. The auditor also reported significant
                                                                                                                     deficiencies related to financial reporting at the Office of Financial Stability and information system controls at
                                                                                                                     the Financial Management Service. The auditor also reported an instance of noncompliance with laws and regu-
                                                                                                                     lations related to Section 6325 of the Internal Revenue Code and that the Department’s financial management
                                                                                                                     systems did not substantially comply with the requirements of the Federal Financial Management Improvement Act
                                                                                                                     of 1996.


                                                                                                                     SUMMARY OF FINANCIAL STATEMENT AUDIT
                                                                                                                      AUDIT OPINION                                                                      UNQUALIFIED
                                                                                                                      Restatement                                                                            No
                                                                                                                                                                                       Beginning                                       Ending
                                                                                                                      Material Weaknesses                                               Balance    New    Resolved     Consolidated   Balance
                                                                                                                      Financial Systems and Reporting at the IRS
                                                                                                                                                                                          1         1        0              0            2
                                                                                                                      Financial Management Practices at the Departmental Level (new)




                                                                                                                     LIMITATIONS ON THE PRINCIPAL FINANCIAL STATEMENTS
                                                                                                                     The principal financial statements have been prepared to report the financial position and results of operations
                                                                                                                     of the Department of the Treasury, pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements
                                                                                                                     have been prepared from the books and records of the Department of the Treasury, in accordance with generally
                                                                                                                     accepted accounting principles (GAAP) for federal entities and the formats prescribed by OMB, the statements
                                                                                                                     are in addition to the financial reports used to monitor and control budgetary resources which are prepared from
                                                                                                                     the same books and records.

                                                                                                                     The financial statements should be read with the realization that they are for a component of a sovereign entity,
                                                                                                                     that liabilities not covered by budgetary resources cannot be liquidated without the enactment of an appropria-
                                                                                                                     tion, and that the payment of all liabilities other than for contracts can be abrogated by the sovereign entity.


                                                                                                                     MAJOR HIGHLIGHTS
                                                                                                                     The following provides the highlights of Treasury’s financial position and results of operations for fiscal year 2009.




54                                                                                                                     Analysis of Financial Statements
                                                                                                                                PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
MAJOR HIGHLIGHTS                                                 Liabilities. Intra-governmental liabilities totaled $5.7
                                                                       trillion, and include $4.4 trillion of principal
The following provides the major highlights of
                                                                       and interest payable to various federal agencies,
Treasury’s financial position and results of operations
                                                                       such as the Social Security Trust Fund. These
for fiscal year 2009.
                                                                       borrowings do not include debt issued separately
                                                                       by other governmental agencies, such as the
Assets. Total assets increased from $11.1 trillion                     Tennessee Valley Authority or the Department
      at September 30, 2008 to $13.8 trillion at                       of Housing and Urban Development.
      September 30, 2009. The primary reason for
      the increase is the rise in the federal debt, which                Liabilities also include federal debt held by the
      causes a corresponding rise in the “Due from the                   public, including interest, of $7.6 trillion; this
      General Fund of the U.S. Government” account                       debt was mainly issued as Treasury Notes. The
      ($12.0 trillion). This account represents future                   increase in total liabilities in fiscal year 2009
      funds required from the General Fund of the                        over fiscal year 2008 ($2.6 trillion and 24.2
      U.S. Government to pay borrowings from the                         percent), is the result of increases in borrowings
      public and other federal agencies.                                 from various federal agencies ($140.7 billion),
                                                                         and federal debt held by the public, includ-
	          The majority of loans and interest receiv-                    ing interest, ($1.75 trillion). Debt held by the
           able ($410.6 billion) included in “Intra-                     public increased primarily because of the need to
           governmental” assets are the loans issued by                  finance budget deficits.
           the Bureau of the Public Debt to other federal
           agencies for their own use or to private sector        Total Liabilities
           borrowers, whose loans are guaranteed by the
           federal agencies.                                                      11%
                                                                      Other Liabilities

                                                                                                            33%
    Total Assets                                                                  56%                       Federal Debt
                                                                          Federal Debt
                                                                                                            and
                                                                                   and
                                            3%                                                              Interest Payable
                                                                      Interest Payable
                                            Intra-governmental                                              (held by other
              11%                                                             (held by
                                            Loans and Interest                                              federal agencies)
       Other Assets                                                         the public)
                                            Receivable



                                            86%
                                            Due from the
                                            General Fund




                                                                                      Analysis of Financial Statements                55
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Net Cost of Treasury Operations. The                                                          Net Federal Debt Interest Costs. The decrease of
                                                                                                                          Consolidated Statement of Net Cost presents                                                   $77.7 billion in net interest paid on the federal
                                                                                                                          the Department’s gross and net cost for its                                                   debt is due to the decrease in the average interest
                                                                                                                          four strategic missions: financial program,                                                   rate for debt held by federal entities and federal
                                                                                                                          economic program, security program, and                                                       debt held by the public.
                                                                                                                          management program. The majority of the Net
                                                                                                                          Cost of Treasury Operations is in the economic                                            Net Federal Debt Interest Cost (in billions)
                                                                                                                          program which includes Troubled Asset Relief
                                                                                                                                                                                                                                                  $500
                                                                                                                          Program (TARP) activity and investments in                                                                                                        $420.4   $440.9
                                                                                                                                                                                                                                                                   $390.9
                                                                                                                                                                                                                                                  $400




                                                                                                                                                                                                                      Dollars (in billions)
                                                                                                                          the Government Sponsored Enterprises (GSEs).                                                                                    $342.4                               $363.2

                                                                                                                          Financial program costs include costs associated                                                                        $300

                                                                                                                          with Treasury’s role as the primary fiscal agent                                                                        $200
                                                                                                                          for the Federal Government in managing the                                                                              $100
                                                                                                                          nation’s finances by collecting revenue, making
                                                                                                                                                                                                                                                    $0
                                                                                                                          federal payments, managing federal borrowing,                                                                                   FY05     FY06     FY07     FY08       FY09

                                                                                                                          performing central accounting functions, and
                                                                                                                          producing coins and currency sufficient to meet
                                                                                                                          the demand.                                                                              Custodial Revenue. Total net revenue collected by
                                                                                                                                                                                                                        Treasury on behalf of the Federal Government
                                                                                                                      Net Cost of Treasury Operations (in millions)                                                     includes various taxes, primarily income taxes,
                                                                                                                                                $250,000                                                                user fees, fines and penalties, and other revenue.
                                                                                                                                                $200,000
                                                                                                                                                                         $195,705                                       Over 94.2 percent of the revenues are from
                                                                                                                        Dollars (in millions)




                                                                                                                                                $150,000
                                                                                                                                                                                                                        income and social security taxes.
                                                                                                                                                $100,000
                                                                                                                                                                                                                    Total Revenue
                                                                                                                                                 $50,000
                                                                                                                                                            $13,055
                                                                                                                                                                                           $322          $509
                                                                                                                                                     $0                                                                                                                                 6%
                                                                                                                                                           FINANCIAL    ECONOMIC       SECURITY MANAGEMENT
                                                                                                                                                                                                                                                                                        Other Revenue
                                                                                                                                                                           PROGRAM COSTS                                                            9%
                                                                                                                                                                                                                                              Corporate
                                                                                                                                                                                                                                           Income Taxes
                                                                                                                                                                                                                                                                                        85%
                                                                                                                                                                                                                                                                                        Individual Income
                                                                                                                      Net Cost of Treasury Operations (in billions)
                                                                                                                                                                                                                                                                                        and FICA Taxes

                                                                                                                                                   $300
                                                                                                                        Dollars (in billions)




                                                                                                                                                                                                         $209.59
                                                                                                                                                   $200



                                                                                                                                                   $100                                                             Net Revenue Received (in trillions)

                                                                                                                                                           $13.80      $14.00                 $27.10                                              $3.00
                                                                                                                                                                                $12.00
                                                                                                                                                     $0                                                                                                                     $2.45    $2.37
                                                                                                                                                            FY05       FY06         FY07          FY08    FY09                                    $2.50            $2.28
                                                                                                                                                                                                                      Dollars (in trillions)




                                                                                                                                                                                                                                                          $2.04                                $1.99
                                                                                                                                                                                                                                                  $2.00

                                                                                                                                                                                                                                                  $1.50

                                                                                                                                                                                                                                                  $1.00

                                                                                                                                                                                                                                                  $0.50

                                                                                                                                                                                                                                                  $0.00
                                                                                                                                                                                                                                                          FY05     FY06     FY07     FY08       FY09




56                                                                                                                     Analysis of Financial Statements
                                                                                                                       PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
Improper Payments Information Act
and Recovery Auditing Act
 IMPROPER PAYMENTS                                           TREASURY’S RISK ASSESSMENT
 INFORMATION ACT                                             METHODOLOGY AND RESULTS FOR
                                                             FISCAL YEAR 2009
 BACKGROUND                                                  Each year, Treasury develops a comprehensive inven-
                                                             tory of all funding sources and conducts a risk assess-
 The Improper Payments Information Act of 2002 (IPIA)
                                                             ment for improper payments on all of its programs
 requires agencies to review their programs and activities
                                                             and activities. The risk assessment performed on all of
 annually to identify those susceptible to significant im-
                                                             Treasury’s programs and activities in fiscal year 2009
 proper payments. According to Office of Management
                                                             resulted in low and medium risk susceptibility for
 and Budget (OMB) Circular A-123, Management’s
                                                             improper payments except for the Internal Revenue
 Responsibility for Internal Control, Appendix C,
                                                             Service’s (IRS) Earned Income Tax Credit (EITC)
 Requirements for Effective Measurement and Remediation
                                                             program. The high-risk status of this program is well-
 of Improper Payments (A-123, Appendix C), “signifi-
                                                             documented and has been deemed a complex program
 cant” means that an estimated error rate and a dollar
                                                             for the purposes of the IPIA.
 amount exceed the threshold of 2.5 percent and $10
 million of total program funding. A-123, Appendix
 C also requires the agency to implement a corrective        EARNED INCOME TAX CREDIT
 action plan that includes improper payment reduction        The EITC is a refundable tax credit that offsets
 targets.                                                    income tax owed by low-income taxpayers and, if
                                                             the credit exceeds the amount of taxes due, provides
 However, some federal programs are so complex that
                                                             a lump-sum payment in the form of a refund to
 developing an annual error rate is not feasible. The
                                                             those who qualify. The fiscal year 2009 estimate is
 government-wide Chief Financial Officers Council
                                                             that a maximum of 28 percent ($13.3 billion) and a
 developed an alternative for such programs to assist
                                                             minimum of 23 percent ($11.2 billion) of the EITC
 them in meeting the IPIA requirements. Agencies may
                                                             total program payments are overclaims.
 establish an annual estimate for a high-risk component
 of a complex program (e.g., a specific program popula-      The IRS has a robust base enforcement program for
 tion) with OMB approval. Agencies must also perform         the EITC which consists of examinations (audits),
 trend analyses to update the program’s baseline error       math error notices, and document matching. In fiscal
 rate in the interim years between detailed program          year 2009 the IRS expanded its approach to decrease
 studies. When development of a statistically valid error    improper payments.
 rate is possible, the reduction targets are revised and
 become the basis for future trend analyses.




                                     Improper Payments Information Act and Recovery Auditing Act                             57
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     RECOVERY AUDITING ACT                                      fied, and recoveries achieved. Bureaus and offices may
                                                                                                                                                                                use recovery auditing firms to perform many of the
                                                                                                                                                                                steps in their recovery program and identify candidates
                                                                                                                     BACKGROUND                                                 for recovery action.
                                                                                                                     In accordance with the Recovery Auditing Act of 2002,
                                                                                                                     OMB Circular A-123, Appendix C, requires agencies
                                                                                                                     issuing $500 million or more in contracts to establish
                                                                                                                                                                                RESULTS FOR FISCAL YEAR 2009
                                                                                                                     and maintain recovery auditing activities and report on    During fiscal year 2009, $5.3 billion in contracts (de-
                                                                                                                     the results of those recovery efforts annually. Recovery   fined as issued and obligated contracts, modifications,
                                                                                                                     auditing activities include the use of (1) contract        task orders, and delivery orders) were issued. Improper
                                                                                                                     audits, in which an examination of contracts pursu-        payments in the amount of $1.5 million were identi-
                                                                                                                     ant to the audit and records clause incorporated in        fied from recovery auditing efforts and $1.4 million
                                                                                                                     the contract is performed, (2) contingency contracts       has been recovered, including prior year recoveries,
                                                                                                                     for recovery services in which the contractor is paid a    with $117,630 outstanding as accounts receivable on
                                                                                                                     percentage of the recoveries, and (3) internal review      September 30, 2009.
                                                                                                                     and analysis in which payment controls are employed        Note: Additional detail on Treasury’s IPIA and
                                                                                                                     to ensure that contract payments are accurate.             Recovery Auditing Act Programs can be found in
                                                                                                                     For Recovery Auditing Act compliance, Treasury             Appendix B.
                                                                                                                     requires each bureau and office to review their post-
                                                                                                                     payment controls and report on recovery auditing
                                                                                                                     activities, contracts issued, improper payments identi-




58                                                                                                                     Improper Payments Information Act and Recovery Auditing Act
                                                                                                               PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
Management Assurances
                        THE SECRETARY’S LETTER OF ASSURANCE
  The Department of the Treasury’s management is responsible for establishing and maintaining effective
  internal control and financial management systems that meet the objectives of the Federal Managers’
  Financial Integrity Act (FMFIA). Treasury has evaluated its management controls, internal controls over
  financial reporting, and compliance with federal financial systems standards. As part of the evaluation
  process, we considered results of extensive testing and assessment across the Department and independent
  audits.

  Treasury provides assurance that the objectives of the Federal Managers’ Financial Integrity Act over
  operations have been achieved, except for the material weaknesses noted below. In accordance with OMB
  Circular A-123, Appendix A, we provide qualified assurance on internal control over financial reporting
  based on the results of the assessment for the period ending June 30, 2009. Treasury is not in substantial
  compliance with the Federal Financial Management Improvement Act due to the material weakness involv-
  ing revenue accounting systems.

  As of September 30, 2009, Treasury has five material weaknesses as follows (with resolution time frames
  indicated):
      Operations:
         Internal Revenue Service
            • Improved Modernization Management Controls Processes (fiscal year 2011)
            • Computer Security (fiscal year 2012)

          Financial Management Service
             • Systems, Controls, and Procedures to Prepare the Government-wide Financial Statements
               (fiscal year 2012)

      Financial Reporting:
          Internal Revenue Service
             • Financial Accounting of Revenue-Custodial (fiscal year 2010)

          Treasury Departmental Offices
             • Financial Management Practices (fiscal year 2010)

  The external auditors identified one new material weakness in 2009. Treasury is taking action to address
  this issue in fiscal year 2010. Overall, Treasury continues to make progress in reducing management and
  control weaknesses and in meeting federal financial systems requirements.




                                                       Timothy F. Geithner
                                                       December 15, 2009




                                                                                  Management Assurances              59
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Material Weaknesses, Audit Follow-up,
                                                                                                                     and Financial Systems
                                                                                                                      SUMMARY OF MANAGEMENT ASSURANCES
                                                                                                                       SUMMARY OF MATERIAL WEAKNESSES
                                                                                                                                                                                      Beginning                                                     Ending
                                                                                                                      Material Weaknesses                                              Balance    New     Resolved      Consolidated   Reassessed   Balance
                                                                                                                      IRS - Financial Accounting of Revenue - Custodial                  1          0        0               0             0            1
                                                                                                                      IRS - Improve Modernization Management Controls and Processes      1          0        0               0             0            1
                                                                                                                      IRS - Computer Security                                            1          0        0               0             0            1
                                                                                                                      FMS - Systems, Controls, and Procedures to Prepare the             1          0        0               0             0            1
                                                                                                                      Government-wide Financial Statements
                                                                                                                      DO - Financial Management Practices                                0          1        0               0             0            1
                                                                                                                      Total Material Weaknesses                                          4          1        0               0             0            5


                                                                                                                      As of September 30, 2009, Treasury has five material weaknesses under Section 2 of the Federal Managers’
                                                                                                                      Financial Improvement Act as shown in the tables below.

                                                                                                                       EFFECTIVENESS OF INTERNAL CONTROL OVER FINANCIAL REPORTING (FMFIA § 2)
                                                                                                                      Statement of Assurance                                                                         Qualified
                                                                                                                                                                                      Beginning                                                     Ending
                                                                                                                      Material Weaknesses                                              Balance    New     Resolved      Consolidated   Reassessed   Balance
                                                                                                                      IRS - Financial Accounting for Revenue - Custodial                 1          0        0               0             0            1
                                                                                                                      DO - Financial Management Practices                                0          1        0               0             0            1
                                                                                                                      Total Material Weaknesses                                          1          1        0               0             0            2

                                                                                                                       EFFECTIVENESS OF INTERNAL CONTROL OVER OPERATIONS (FMFIA § 2)

                                                                                                                      Statement of Assurance                                                                         Qualified
                                                                                                                                                                                      Beginning                                                     Ending
                                                                                                                      Material Weaknesses                                              Balance    New     Resolved      Consolidated   Reassessed   Balance
                                                                                                                      IRS - Improve Modernization Management Controls and Processes      1          0        0               0             0            1
                                                                                                                      IRS - Computer Security                                            1          0        0               0             0            1
                                                                                                                      FMS - Systems, Controls, and Procedures to Prepare the             1          0        0               0             0            1
                                                                                                                      Government-wide Financial Statements
                                                                                                                      Total Material Weaknesses                                          3          0        0               0             0            3

                                                                                                                       CONFORMANCE WITH FINANCIAL MANAGEMENT SYSTEM REQUIREMENTS (FMFIA § 4)
                                                                                                                      Statement of Assurance                                              Systems conform to financial management system requirements
                                                                                                                                                                                      Beginning                                                     Ending
                                                                                                                      Non-Conformances                                                 Balance    New     Resolved      Consolidated   Reassessed   Balance
                                                                                                                      Total Non-conformances                                             0          0        0               0             0            0




60                                                                                                                      Material Weaknesses, Audit Follow-up, and Financial Systems
                                                                                                                         PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
 COMPLIANCE WITH FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT (FFMIA)
                                                                           Agency                   Auditor
Overall Substantial Compliance                                               No                       No
1. System Requirements                                                                     No
2. Accounting Standards                                                                    No
3. USSGL at Transaction Level                                                              No




FEDERAL MANAGERS’ FINANCIAL                                 Each year material weaknesses, both the resolution of
                                                            existing ones and the prevention of new ones, receive
INTEGRITY ACT (FMFIA)
                                                            special attention from management. In fiscal year
The management control objectives under FMFIA are           2009, Treasury continued to make resolution of mate-
to reasonably ensure that:                                  rial weaknesses a performance requirement for every
                                                            executive, manager, and supervisor.
 •	   programs achieve their intended results
 •	   resources are used consistent with overall mission
 •	    programs and resources are free from waste, fraud,   OFFICE OF MANAGEMENT
      and mismanagement
                                                            AND BUDGET CIRCULAR A-123,
 •	   laws and regulations are followed
                                                            APPENDIX A
 •	   controls are sufficient to minimize any improper
      or erroneous payments                                 The Department continues to strengthen and improve
 •	   performance information is reliable                   the execution of the Treasury mission through the
                                                            application of sound internal controls over financial
 •	   system security is in substantial compliance with
                                                            reporting. In response to Office of Management
      all relevant requirements
                                                            and Budget (OMB) Circular A-123, Management’s
 •	   continuity of operations planning in critical areas   Responsibility for Internal Control, Appendix A, Internal
      is sufficient to reduce risk to reasonable levels     Control over Financial Reporting, Treasury developed
 •	   financial management systems are in compliance        and implemented an extensive annual testing and
      with federal financial systems standards              assessment methodology that identified and docu-
                                                            mented internal controls over financial reporting at
Deficiencies that seriously affect an agency’s ability
                                                            the transaction level integrated with the Government
to meet these objectives are deemed “material weak-
                                                            Accountability Office’s Standards for Internal Control.
nesses.” Treasury can provide assurance that the objec-
                                                            The testing and assessment were completed across all
tives of the FMFIA have been achieved, except for the
                                                            material Treasury bureaus and offices by June 30, 2009.
material weaknesses noted in the Secretary’s Letter of
                                                            Treasury provides qualified assurance that internal
Assurance, which include one new weakness identified
                                                            controls over financial reporting are effective as of June
by the external auditors in November 2009. Although
                                                            30, 2009, due in large part to the computer security
the last open material weakness is targeted to be closed
                                                            and financial accounting of revenue - custodial weak-
in fiscal year 2012, Treasury is focusing on making
                                                            nesses at the Internal Revenue Service.
sufficient progress to downgrade the weakness sooner.




                                          Material Weaknesses, Audit Follow-up, and Financial Systems                          61
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     FEDERAL FINANCIAL MANAGEMENT                                  timely and accurate performance to address PCA
                                                                                                                                                                                   schedules and implementation and integrate the effects
                                                                                                                     IMPROVEMENT ACT (FFMIA)
                                                                                                                                                                                   of those actions more fully into management decision-
                                                                                                                     FFMIA mandates that agencies “... implement and               making processes. Treasury needs to identify more
                                                                                                                     maintain financial management systems that comply             precisely what it costs to accomplish its varied missions
                                                                                                                     substantially with federal financial management               and develop ways to improve overall performance. This
                                                                                                                     systems requirements, applicable federal accounting           will entail building upon the progress made in expand-
                                                                                                                     standards, and the United States Government Standard          ing the communication and coordination among
                                                                                                                     General Ledger at the transaction level.” FFMIA also          offices variously involved in strategic planning, budget
                                                                                                                     requires that remediation plans be developed for any          formulation, budget execution, performance manage-
                                                                                                                     entity that is unable to report substantial compliance        ment, and financial management.
                                                                                                                     with these requirements.

                                                                                                                     As of September 30, 2009, the Treasury Department’s           FINANCIAL MANAGEMENT
                                                                                                                     financial management systems were not in substantial
                                                                                                                                                                                   SYSTEMS FRAMEWORK
                                                                                                                     compliance with FFMIA due to deficiencies with the
                                                                                                                     IRS’s financial management systems. The IRS has a re-         The Department’s overall financial management
                                                                                                                     mediation plan in place to correct the deficiencies. For      systems framework consists of a Treasury-wide financial
                                                                                                                     each FFMIA recommendation, the remediation plan               data warehouse, supported by a financial reporting tool
                                                                                                                     identifies specific remedies, target dates, responsible of-   and separate bureau financial systems. Currently, 14
                                                                                                                     ficials, and resource estimates required for completion.      bureaus are serviced by the Bureau of the Public Debt’s
                                                                                                                     This plan is reviewed and updated quarterly. (Refer to        Administrative Resource Center (BPD ARC) for core
                                                                                                                     Appendix D for detailed information.)                         financial system processing. Bureaus submit their
                                                                                                                                                                                   monthly financial data to the data warehouse within
                                                                                                                                                                                   three business days of the month-end. The Department
                                                                                                                     AUDIT FOLLOW-UP                                               then produces monthly financial statements and
                                                                                                                                                                                   reports for management analysis. This framework satis-
                                                                                                                     During fiscal year 2009, Treasury continued its efforts       fies both the bureaus’ diverse financial operational and
                                                                                                                     to improve both the general administration of man-            reporting needs, as well as the Department’s internal
                                                                                                                     agement and internal control issues throughout the            and external reporting requirements. The financial data
                                                                                                                     Department and the timeliness of the resolution of all        warehouse is part of the overarching Treasury-wide
                                                                                                                     findings and recommendations identified by the Office         Financial Analysis and Reporting System (FARS),
                                                                                                                     of the Inspector General (OIG), the Treasury Inspector        which also includes applications for the bureaus to
                                                                                                                     General for Tax Administration (TIGTA), the Special           report the status of their performance measures and
                                                                                                                     Inspector General for the Troubled Asset Relief               the status of their planned audit corrective actions.
                                                                                                                     Program (SIGTARP), the Government Accountability              In addition to the existing FARS applications, the
                                                                                                                     Office, and external auditors.                                Department is reviewing options for implementing
                                                                                                                     Treasury management at every level will maintain the          a new fleet management application. The fleet ap-
                                                                                                                     momentum on accomplishing Planned Corrective                  plication would maintain a consolidated inventory
                                                                                                                     Actions (PCAs) to resolve and implement sound                 of Treasury vehicles to enhance management control
                                                                                                                     solutions for all audit recommendations. Although             and reporting. Treasury is evaluating existing govern-
                                                                                                                     Treasury has made great progress, considerably more           ment owned and operated systems to support this
                                                                                                                     work remains. Specifically, Treasury must provide             functionality.




62                                                                                                                     Material Weaknesses, Audit Follow-up, and Financial Systems
                                                                                                                          PART 1 • MANAGEMENT’S DISCUSSION AND ANALYSIS
Treasury’s FARS applications operate at a contractor            entities. Using a SSP enables the bureaus to streamline
operated hosting facility. In accordance with the guid-         their financial management activities and achieve more
ance contained in the American Institute of Certified           efficient and cost effective business performance by
Public Accountants’ Statement of Auditing Standards             reducing maintenance and operational costs. Treasury
(SAS) No. 70, Service Organizations, the service                will continue to evaluate opportunities to consolidate
provider’s independent auditors examined the controls           financial management systems and better utilize exist-
for the dedicated hosting service. In the opinion of            ing federal resources. The Department will work with
the auditors, the description of the controls presents          the remaining bureaus to develop plans to migrate to
fairly, in all material respects, the relevant aspects of the   Treasury’s SSP for core financial systems in accordance
provider’s controls that had been placed in operation           with the Financial Management Line of Business
as of September 30, 2009. Also, the controls described          requirements.
are suitably designed to provide reasonable assurance
that the specified control objectives would be achieved         As part of the Department’s E-Government initiative,
if the described controls were complied with satisfac-          BPD ARC also provides systems and service support to
torily and customer organizations applied the controls          14 Treasury bureaus in the processing of their human
contemplated in the design of the provider’s controls.          resources and travel activities. BPD ARC’s human
                                                                resource management system supports the bureaus’
The Department continues to eliminate redundant and             specific human resources needs and provides consoli-
outdated financial management systems with the goal             dated systems and resources. BPD ARC’s consolidated
of consolidating financial management activities to             travel system and activity processing has reduced
improve productivity. As of September 30, 2009, the             redundant systems and merged travel processes.
number of financial management systems decreased to
55, down from 60 at the end of fiscal year 2008. Many           The Department’s FARS applications have also been
of these systems support bureau-specific program func-          used to support other federal agencies. Since the
tions, while others support internal bureau financial           initial start of the Department of Homeland Security
management. These systems are either maintained and             (DHS), Treasury serviced DHS in the preparation of
operated by the individual bureaus, or provided on a            its consolidated financial statements. Beginning with
cross-serviced basis by BPD ARC.                                fiscal year 2009, DHS implemented the FARS finan-
                                                                cial applications in its own systems environment and
BPD ARC has been designated by OMB as a Financial               is now generating its financial statements and reports.
Management Line of Business Shared Service Provider             As a result of this arrangement, DHS was able to take
(SSP). A SSP provides financial management systems              advantage of existing government systems and did not
and services for other federal organizations. BPD ARC           have to develop new systems to support its financial
currently services 29 federal entities for core financial       reporting requirements.
systems, including 14 Treasury bureaus and reporting




                                           Material Weaknesses, Audit Follow-up, and Financial Systems                          63
64
                                                                                                   D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                              This page left intentionally blank



Material Weaknesses, Audit Follow-up, and Financial Systems
Part 2
Annual Financial Report
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                                                          PART 2 • ANNUAL FINANCIAL REPORT
Message from the Assistant Secretary for Management
and Chief Financial Officer
                                 December 15, 2009

                                 Secretary Geithner’s message describes the extraordinary actions the Department
                                 of the Treasury has taken to help stabilize the nation’s financial systems and pro-
                                 vide the foundation for a sustainable economic recovery. Following the enactment
                                 of the Housing and Economic Recovery Act in July 2008 and the Emergency
                                 Economic Stabilization Act in early fiscal year 2009, Treasury took bold and asser-
                                 tive action to restore confidence in the financial system and ease the housing crisis.

                                 Building upon this effort, with the enactment of the American Recovery and
                                 Reinvestment Act (Recovery Act) just weeks after the new Administration took
                                 office, Treasury quickly implemented additional new programs to stimulate the
                                 economy. Treasury’s Recovery Act programs include:
                                 •	   tax benefits to more than 110 million families, or 95 percent of working
                                      families;
                                 •	   providing numerous tax incentives for businesses and households;
                                 •	   supporting local and state government development;
                                 •	   creating new methods of low cost borrowing; and
                                 •	   investing in renewable energy, low income housing, and health care.

 These programs have positively impacted the lives of millions of Americans. Treasury has taken a risk-based ap-
 proach and is focused on balancing the requirements of speed, quality, and accountability to ensure that Recovery
 Act funds are distributed quickly and accurately.

 The magnitude and complexity of these new economic stabilization programs coupled with the large volume and
 dollar amounts of these programs made the preparation and audit of the fiscal year 2009 financial statements a
 difficult undertaking. Despite these challenges, the Department received an unqualified audit opinion on both
 our new Office of Financial Stability/Troubled Asset Relief Program and again on our Treasury-wide fiscal year
 2009 financial statements. The Department has five material weaknesses, including one new area of concern,
 regarding financial management practices at the departmental level. This new area of weakness is directly related
 to Treasury's expanded roles and programs. We are taking corrective action to address this area in 2010. We also
 made substantial progress on the four existing material weaknesses open as of September 30, 2008. Those weak-
 nesses involve complex solutions that will require several years of sustained efforts to resolve. The Department is




             MESSAGE FROM THE ASSISTANT SECRETARY FOR MANAGEMENT AND CHIEF FINANCIAL OFFICER                                  67
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     also continuing to devote special attention to programs included in the Government Accountability Office's High
                                                                                                                     Risk List and management and performance challenges identified by the Department’s Inspectors General. These
                                                                                                                     challenges do not necessarily indicate deficiencies in performance – rather, they represent inherent risks based on
                                                                                                                     the nature of Treasury’s programs and will be monitored continuously.

                                                                                                                     While Treasury has already executed extraordinary measures to stabilize our economy, we will continue to take
                                                                                                                     bold and assertive action to restore America’s confidence in the financial system, ease the housing crisis, and put
                                                                                                                     our country back on a path of sustainable economic and job growth.




                                                                                                                     Dan Tangherlini
                                                                                                                     Assistant Secretary for Management
                                                                                                                     and Chief Financial Officer




68                                                                                                                     MESSAGE FROM THE ASSISTANT SECRETARY FOR MANAGEMENT AND CHIEF FINANCIAL OFFICER
PAGES 69-85 INTENTIONALLY LEFT BLANK
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                                                                            CONSOLIDATED BALANCE SHEETS
                                                                                                                                                                           AS OF SEPTEMBER 30, 2009 AND 2008
                                                                                                                                                                                     (IN MILLIONS)

                                                                                                                      ASSETS                                                                                           2009           2008
                                                                                                                      Intra-governmental Assets
                                                                                                                           Fund Balance (Note 2)                                                               $    504,582   $    275,368
                                                                                                                           Loans and Interest Receivable (Note 3)                                                   410,591        264,854
                                                                                                                           Advances to the Black Lung Trust Fund (Notes 1 & 4)                                            0         10,484
                                                                                                                           Advances to the Unemployment Trust Fund (Notes 1 & 4)                                      7,981              0
                                                                                                                           Due From the General Fund (Note 4)                                                    11,992,719     10,100,763
                                                                                                                           Accounts Receivable and Related Interest (Note 5)                                            298            396
                                                                                                                           Other Intra-governmental Assets                                                                5             13
                                                                                                                      Total Intra-governmental Assets                                                          $ 12,916,176   $ 10,651,878
                                                                                                                      Cash, Foreign Currency, and Other Monetary Assets (Note 6)                                    341,308        387,270
                                                                                                                      Gold and Silver Reserves (Note 7)                                                              11,062         11,062
                                                                                                                      Asset Guarantee (Note 8)                                                                        1,765              0
                                                                                                                      Investments – Credit Reform (Note 8)                                                          203,141              0
                                                                                                                      Investments in Government Sponsored Enterprises (Note 9)                                       64,679          7,032
                                                                                                                      Investments in International Financial Institutions (Note 10)                                   5,575          5,546
                                                                                                                      Other Investments and Related Interest (Note 11)                                               13,565         10,576
                                                                                                                      Credit Program Receivables, Direct Loans, Net (Note 12)                                       219,170          3,385
                                                                                                                      Loans and Interest Receivable (Note 13)                                                           168            172
                                                                                                                      Reserve Position in the International Monetary Fund (Note 14)                                  13,469          4,750
                                                                                                                      Tax, Other, and Related Interest Receivables, Net (Note 15)                                    30,408         30,878
                                                                                                                      Beneficial Interest in Trust (Note 29)                                                         23,472              0
                                                                                                                      Inventory and Related Property, Net (Note 16)                                                     598            698
                                                                                                                      Property, Plant, and Equipment, Net (Note 17)                                                   2,036          2,077
                                                                                                                      Other Assets                                                                                        9          1,714
                                                                                                                      Total Assets                                                                             $ 13,846,601   $ 11,117,038
                                                                                                                           Heritage Assets (Note 17)

                                                                                                                     The accompanying notes are an integral part of these financial statements.




86                                                                                                                      FINANCIAL STATEMENTS
                                                                                                                                PART 2 • ANNUAL FINANCIAL REPORT
                                                      CONSOLIDATED BALANCE SHEETS
                                                     AS OF SEPTEMBER 30, 2009 AND 2008
                                                               (IN MILLIONS)

LIABILITIES                                                                                      2009                   2008
Intra-governmental Liabilities
    Federal Debt and Interest Payable (Notes 4 and 19)                                   $   4,403,080          $   4,262,414
    Other Debt and Interest Payable (Note 20)                                                   12,060                 14,164
    Due to the General Fund (Notes 4, 6, and 27)                                             1,263,128                667,112
    Other Intra-governmental Liabilities (Note 22)                                                 425                    345
Total Intra-governmental Liabilities                                                     $   5,678,693          $   4,944,035


Federal Debt and Interest Payable (Notes 4 and 19)                                           7,559,305              5,812,694
Certificates Issued to the Federal Reserve (Note 6)                                              5,200                  2,200
Allocation of Special Drawing Rights (Note 6)                                                   55,953                  7,630
Gold Certificates Issued to the Federal Reserve Banks (Note 7)                                  11,037                 11,037
Refunds Payable (Notes 4 and 26)                                                                 4,040                  3,076
D.C. Pensions and Judiciary Retirement Actuarial Liability (Note 21)                             9,049                  8,803
Liabilities to GSEs (Note 9)                                                                   91,937                 13,800
Other Liabilities (Note 22)                                                                     3,331                  4,052
Total Liabilities                                                                        $ 13,418,545           $ 10,807,327
    Commitments and Contingencies (Note 31)


NET POSITION
Unexpended Appropriations:
    Earmarked Funds (Note 27)                                                            $         200          $        200
    Other Funds                                                                                454,944               271,768
    Subtotal                                                                                   455,144               271,968
Cumulative Results of Operations:
    Earmarked Funds (Note 27)                                                                   41,653                37,586
    Other Funds                                                                               (68,741)                   157
    Subtotal                                                                                  (27,088)                37,743
Total Net Position (Note 23)                                                             $    428,056           $    309,711
Total Liabilities and Net Position                                                       $ 13,846,601           $ 11,117,038

The accompanying notes are an integral part of these financial statements.




                                                                                                    FINANCIAL STATEMENTS            87
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                                                                   CONSOLIDATED STATEMENTS OF NET COST
                                                                                                                                                              FOR THE YEARS ENDED SEPTEMBER 30, 2009 AND 2008
                                                                                                                                                                               (IN MILLIONS)



                                                                                                                     Cost of Treasury Operations: (Note 24)                                                     2009           2008
                                                                                                                     Financial Program:
                                                                                                                     Gross Cost                                                                          $   15,313     $   14,569
                                                                                                                     Less Earned Revenue                                                                     (2,258)        (2,282)
                                                                                                                     Net Program Cost                                                                    $   13,055     $   12,287

                                                                                                                     Economic Program:
                                                                                                                     Gross Cost                                                                          $   210,490    $    19,139
                                                                                                                     Less Earned Revenue                                                                     (14,785)        (5,091)
                                                                                                                     Net Program Cost                                                                    $   195,705    $    14,048

                                                                                                                     Security Program:
                                                                                                                     Gross Cost                                                                          $       325    $       346
                                                                                                                     Less Earned Revenue                                                                          (3)            (4)
                                                                                                                     Net Program Cost                                                                    $       322    $       342

                                                                                                                     Management Program:
                                                                                                                     Gross Cost                                                                          $       569    $       631
                                                                                                                     Less Earned Revenue                                                                         (60)          (165)
                                                                                                                     Net Program Cost                                                                    $       509    $        466

                                                                                                                     Total Program Gross Costs                                                           $   226,697    $   34,685
                                                                                                                     Total Program Gross Earned Revenues                                                     (17,106)       (7,542)
                                                                                                                     Total Net Cost of Treasury Operations                                               $   209,591    $   27,143

                                                                                                                     Federal Costs: (Note 24)
                                                                                                                     Federal Debt Interest                                                               $   380,519    $   453,347
                                                                                                                     Less Interest Revenue from Loans                                                        (17,326)       (12,439)
                                                                                                                     Net Federal Debt Interest Costs                                                     $   363,193    $   440,908

                                                                                                                     Net GSE Non-Entity Revenue (Note 9)                                                     (61,983)       (7,032)

                                                                                                                     Other Federal Costs (Note 24)                                                       $    12,131    $     8,332
                                                                                                                     Total Net Federal Costs                                                             $   313,341    $   442,208
                                                                                                                     Net Cost of Treasury Operations, Federal Debt Interest, Other Federal Costs,
                                                                                                                     and Net GSE Non-Entity Revenue                                                      $   522,932    $   469,351


                                                                                                                     The accompanying notes are an integral part of these financial statements.




88                                                                                                                     FINANCIAL STATEMENTS
                                                                                                                                           PART 2 • ANNUAL FINANCIAL REPORT
                                     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                           FOR THE YEAR ENDED SEPTEMBER 30, 2009
                                                       (IN MILLIONS)

                                                                            Combined       Combined All                    Consolidated
CUMULATIVE RESULTS OF OPERATIONS                                      Earmarked Funds       Other Funds     Elimination            Total

Beginning Balances                                                           $   37,586    $        157       $       0    $     37,743

Budgetary Financing Sources:
    Appropriations Used                                                             408         667,745               0         668,153
    Non-exchange Revenue                                                            263             234              (4)            493
    Donations and Forfeitures of Cash/Equivalent                                    257               0                0            257
    Transfers In/Out Without Reimbursement                                          (16)             (7)               2            (21)
    Other                                                                             10               2               0              12
Other Financing Sources (non-exchange)
    Donation/Forfeiture of Property                                                 127               0               0             127
    Accrued Interest and Discount on Debt                                              0          6,027               0           6,027
    Transfers In/Out Without Reimbursement                                          (63)             29              (2)            (36)
    Imputed Financing Sources                                                         61          1,206            (474)            793
    Transfers to the General Fund and Other (Note 23)                               (31)       (217,673)               0       (217,704)
Total Financing Sources                                                           1,016         457,563           (478)         458,101


Net Cost of Operations                                                            3,051      (526,461)              478      (522,932)
Net Change                                                                        4,067        (68,898)               0        (64,831)
Cumulative Results of Operations                                             $   41,653    $ (68,741)         $       0    $ (27,088)

UNEXPENDED APPROPRIATIONS
Beginning Balances                                                           $      200    $    271,768       $       0    $    271,968

Budgetary Financing Sources:
    Appropriations Received (Note 23)                                               408       855,354                 0       855,762
    Appropriations Transferred In/Out                                                 0            11                 0            11
    Other Adjustments                                                                 0        (4,444)                0        (4,444)
    Appropriations Used                                                            (408)     (667,745)                0      (668,153)
Total Budgetary Financing Sources                                                      0      183,176                 0       183,176
Total Unexpended Appropriations                                              $      200    $ 454,944          $       0    $ 455,144
Net Position                                                                 $   41,853    $ 386,203          $       0    $ 428,056

The accompanying notes are an integral part of these financial statements.




                                                                                                           FINANCIAL STATEMENTS                89
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                                                        CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                                                                                                                              FOR THE YEAR ENDED SEPTEMBER 30, 2008
                                                                                                                                                                          (IN MILLIONS)

                                                                                                                                                                                             Combined       Combined All                 Consolidated
                                                                                                                     CUMUL ATIVE RESULTS OF OPERATIONS                                 Earmarked Funds       Other Funds   Elimination           Total
                                                                                                                     Beginning Balances                                                     $    35,385     $    13,397      $      0    $     48,782

                                                                                                                     Budgetary Financing Sources:
                                                                                                                         Appropriations Used                                                          458       481,277              0        481,735
                                                                                                                         Non-exchange Revenue                                                         134           144           (24)            254
                                                                                                                         Donations and Forfeitures of Cash/Equivalent                                 159              0             0            159
                                                                                                                         Transfers In/Out without Reimbursement                                         0           (10)             0            (10)
                                                                                                                         Other                                                                         38           (26)             0              12
                                                                                                                     Other Financing Sources (non exchange)
                                                                                                                         Donation/Forfeiture of Property                                              112              0           0              112
                                                                                                                         Accrued Interest and Discount on Debt                                          0        (3,870)           0          (3,870)
                                                                                                                         Transfers In/Out Without Reimbursement                                      (52)             31           0              (21)
                                                                                                                         Imputed Financing Sources                                                     60          1,147       (478)              729
                                                                                                                         Transfers to the General Fund and Other (Note 23)                           (23)      (20,765)            0        (20,788)
                                                                                                                     Total Financing Sources                                                         886        457,928        (502)         458,312
                                                                                                                     Net Cost of Operations                                                        1,315      (471,168)          502       (469,351)
                                                                                                                     Net Change                                                                    2,201       (13,240)            0         (11,039)
                                                                                                                     Cumulative Results of Operations                                       $     37,586    $        157     $     0     $     37,743

                                                                                                                     UNEXPENDED APPROPRIATIONS
                                                                                                                     Beginning Balances                                                     $         200   $     72,117     $      0    $     72,317
                                                                                                                     Budgetary Financing Sources:
                                                                                                                         Appropriations Received (Note 23)                                           458        681,015             0        681,473
                                                                                                                         Appropriations Transferred In/Out                                             0             24             0             24
                                                                                                                         Other Adjustments                                                             0           (111)            0           (111)
                                                                                                                         Appropriations Used                                                       (458)      (481,277)             0      (481,735)
                                                                                                                     Total Budgetary Financing Sources                                                 0        199,651             0        199,651
                                                                                                                     Total Unexpended Appropriations                                        $        200    $ 271,768        $      0    $ 271,968
                                                                                                                     Net Position                                                           $     37,786    $ 271,925        $      0    $ 309,711

                                                                                                                         The accompanying notes are an integral part of these financial statements.




90                                                                                                                    FINANCIAL STATEMENTS
                                                                                                                                     PART 2 • ANNUAL FINANCIAL REPORT
                                          COMBINED STATEMENT OF BUDGETARY RESOURCES
                                             FOR THE YEAR ENDED SEPTEMBER 30, 2009
                                                         (IN MILLIONS)
                                                                                               Non-Budgetary
                                                                                 Budgetary         Financing                Total
Budgetary Resources
Unobligated balance, brought forward                                         $     260,173       $     24,457     $      284,630
Recoveries of prior year unpaid obligations                                          8,097                 (1)             8,096
Budget authority:
    Appropriations (Note 23)                                                       952,185                  0            952,185
    Borrowing authority                                                                493            548,242            548,735
    Spending Authority from Offsetting Collections
Earned: Collected                                                                   11,681            272,768            284,449
         Change in receivables from Federal sources                                    (44)                 0                (44)
Change in unfilled customer orders:
    Advance received                                                                  (31)                 0                 (31)
    Without advance from Federal sources                                            (134)             28,926              28,792
Subtotal                                                                         964,150             849,936           1,814,086
    Non-expenditure transfers, net                                                    (43)                 0                 (43)
    Temporarily not available pursuant to Public Law                                    2                  0                   2
    Permanently not available                                                    (92,001)          (179,736)           (271,737)
Total Budgetary Resources                                                    $ 1,140,378         $ 694,656        $    1,835,034

Status of Budgetary Resources
Obligations incurred (Note 25): Direct                                       $     729,697       $    652,829     $    1,382,526
                               Reimbursable                                          4,669                  0              4,669
Subtotal                                                                           734,366            652,829          1,387,195

Unobligated Balance: Apportioned                                                 349,889               19,612            369,501
    Exempt from apportionment                                                     44,497                    0             44,497
Subtotal                                                                         394,386               19,612            413,998
Unobligated balance not available                                                 11,626               22,215             33,841
Total Status of Budgetary Resources                                          $ 1,140,378         $    694,656     $    1,835,034

Change in Obligated Balance
Obligated balance, net: (Note 1 AC)
    Unpaid obligations brought forward, Oct. 1                               $       57,314                 10    $        57,324
    Uncollected customer payments from Federal sources brought forward                 (346)                (1)              (347)
Total unpaid obligated balance, net                                                  56,968                   9            56,977
Obligations incurred, net                                                           734,366            652,829          1,387,195
Gross outlays                                                                     (675,286)          (573,630)        (1,248,916)
Recoveries of prior year unpaid obligations, actual                                  (8,097)                  1            (8,096)
Change In uncollected customer payments Federal source                                   178           (28,926)           (28,748)
Obligated balance, net, end of period:
    Unpaid obligations                                                             108,297              79,209           187,506
    Uncollected customer payments Federal sources                                     (168)           (28,926)           (29,094)
Total unpaid obligated balance, net, end of period                                 108,129             50,283            158,412
Net Outlays
    Gross outlays                                                                  675,286           573,630           1,248,916
    Offsetting collections                                                           (9,369)       (272,768)           (282,137)
    Distributed offsetting receipts                                                (40,114)           (4,500)            (44,614)
Net Outlays                                                                  $     625,803       $ 296,362        $      922,165

The accompanying notes are an integral part of these financial statements.




                                                                                                     FINANCIAL STATEMENTS                91
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                                                               COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                                                                                                                                  FOR THE YEAR ENDED SEPTEMBER 30, 2008
                                                                                                                                                                              (IN MILLIONS)

                                                                                                                                                                                                                     Non-Budgetary
                                                                                                                                                                                                      Budgetary          Financing            Total
                                                                                                                     Budgetary Resources
                                                                                                                     Unobligated balance, brought forward                                         $      57,450        $         0    $     57,450
                                                                                                                     Recoveries of prior year unpaid obligations                                            413                  0             413
                                                                                                                     Budget authority:
                                                                                                                         Appropriations (Note 23)                                                       679,563                  0         679,563
                                                                                                                         Borrowing authority                                                                  4             34,304          34,308
                                                                                                                         Spending Authority from Offsetting Collections
                                                                                                                     Earned: Collected                                                                     8,705                335           9,040
                                                                                                                              Change in receivables from Federal sources                                     (32)                 0             (32)
                                                                                                                     Change in unfilled customer orders: Advance received                                      19                 0               19
                                                                                                                         Without advance from Federal sources                                                (39)                 0             (39)
                                                                                                                     Subtotal                                                                           688,220             34,639         722,859
                                                                                                                         Non-expenditure transfers, net                                                      844                  0             844
                                                                                                                         Temporarily not available pursuant to Public Law                                      (9)                0               (9)
                                                                                                                         Permanently not available                                                       (4,626)            (4,767)         (9,393)
                                                                                                                     Total Budgetary Resources                                                    $     742,292        $    29,872    $    772,164
                                                                                                                     Status of Budgetary Resources
                                                                                                                     Obligations incurred (Note 25): Direct                                       $     477,384        $     5,415    $    482,799
                                                                                                                                                    Reimbursable                                          4,735                  0           4,735
                                                                                                                     Subtotal                                                                           482,119              5,415         487,534

                                                                                                                     Unobligated Balance: Apportioned                                                   214,114             24,122         238,236
                                                                                                                                          Exempt from apportionment                                      34,999                  0          34,999
                                                                                                                     Subtotal                                                                           249,113             24,122         273,235
                                                                                                                     Unobligated balance not available                                                   11,060                335          11,395
                                                                                                                     Total Status of Budgetary Resources                                          $     742,292        $    29,872    $    772,164

                                                                                                                     Change in Obligated Balance
                                                                                                                     Obligated balance, net:
                                                                                                                         Unpaid obligations brought forward, Oct. 1                               $       57,811       $          0   $      57,811
                                                                                                                         Uncollected customer payments from Federal sources brought forward                 (418)                 0            (418)
                                                                                                                     Total unpaid obligated balance, net                                                  57,393                  0          57,393
                                                                                                                     Obligations incurred, net                                                           482,119              5,415         487,534
                                                                                                                     Gross outlays                                                                     (482,199)            (5,409)       (487,608)
                                                                                                                     Recoveries of prior year unpaid obligations, actual                                   (413)                  0            (413)
                                                                                                                     Change In uncollected customer payments Federal source                                    71                 0               71
                                                                                                                     Obligated balance, net, end of period:
                                                                                                                         Unpaid obligations                                                              57,318                  6          57,324
                                                                                                                         Uncollected customer payments Federal sources                                     (347)                 0           (347)
                                                                                                                     Total unpaid obligated balance, net, end of period                                  56,971                  6          56,977
                                                                                                                     Net Outlays
                                                                                                                         Gross outlays                                                                  482,199              5,409         487,608
                                                                                                                         Offsetting collections                                                          (8,194)             (335)          (8,529)
                                                                                                                         Distributed offsetting receipts                                                (16,211)                 0         (16,211)
                                                                                                                     Net Outlays                                                                  $     457,794        $     5,074    $    462,868

                                                                                                                     The accompanying notes are an integral part of these financial statements.




92                                                                                                                     FINANCIAL STATEMENTS
                                                                                                                         PART 2 • ANNUAL FINANCIAL REPORT
                                                STATEMENTS OF CUSTODIAL ACTIVITY
                                         FOR THE YEARS ENDED SEPTEMBER 30, 2009 AND 2008
                                                          (IN MILLIONS)

                                                                                          2009                   2008
Sources of Custodial Revenue (Note 26):
Revenue Received

Individual Income and FICA Taxes                                                 $   2,036,557           $   2,294,326
Corporate Income Taxes                                                                 225,482                 354,063
Estate and Gift Taxes                                                                   24,677                  29,824
Excise Taxes                                                                            67,248                  66,293
Railroad Retirement Taxes                                                                4,711                   4,939
Unemployment Taxes                                                                       6,765                   7,331
Deposit of Earnings, Federal Reserve System                                             34,318                  33,598
Fines, Penalties, Interest and Other Revenue                                             1,929                   2,233
Total Cash Revenue Received                                                      $   2,401,687           $   2,792,607

Less Refunds                                                                         (437,972)               (426,074)
Net Cash Revenue Received                                                        $   1,963,715           $   2,366,533

Non-Cash Custodial Transactions

Beneficial Interest in Trust (Note 29)                                                  23,472                       0
Accrual Adjustment                                                                      (1,097)                  3,132
Total Custodial Revenue                                                          $   1,986,090           $   2,369,665


Disposition of Custodial Revenue:

Amounts Provided to Fund Non-Federal Entities                                              487                     407
Amounts Provided to Fund the Federal Government (Notes 26 and 29)                    1,963,228               2,366,126
Total Disposition of Cash Revenue                                                $   1,963,715           $   2,366,533

Non-cash Revenue – Beneficial Interest in Trust                                        23,472                      0
Accrual Adjustment                                                                     (1,097)                 3,132
Total Disposition of Custodial Revenue                                             1,986,090               2,369,665
Net Custodial Revenue                                                            $           0           $         0

The accompanying notes are an integral part of these financial statements.




                                                                                             FINANCIAL STATEMENTS            93
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Notes to the Financial Statements
                                                                                                                      TABLE OF CONTENTS
                                                                                                                      1.	    Summary of Significant Accounting Policies  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  95
                                                                                                                      2.	    Fund Balance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  111
                                                                                                                      3.	    Loans and Interest Receivable – Intra-governmental  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  114
                                                                                                                      4.	    Due from the General Fund and Due to the General Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  116
                                                                                                                      5.	    Accounts Receivable and Related Interest – Intra-governmental . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  118
                                                                                                                      6.	    Cash, Foreign Currency, and Other Monetary Assets . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  119
                                                                                                                      7.	    Gold and Silver Reserves, and Gold Certificates Issued to the Federal Reserve Banks . . . . . . . . . . . . . . .  122
                                                                                                                      8.	    Investments – Credit Reform and Asset Guarantee  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  123
                                                                                                                      9.	    Investments in Government Sponsored Enterprises  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  135
                                                                                                                      10.	   Investments in International Financial Institutions  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  138
                                                                                                                      11.	   Other Investments and Related Interest . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  139
                                                                                                                      12.	   Credit Program Receivables, Direct Loans, Net  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  140
                                                                                                                      13.	   Loans and Interest Receivable  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  154
                                                                                                                      14.	   Reserve Position in the International Monetary Fund  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  155
                                                                                                                      15.	   Tax, Other, and Related Interest Receivables, Net  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  157
                                                                                                                      16.	   Inventory and Related Property, Net . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  158
                                                                                                                      17.	   Property, Plant, and Equipment, Net . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  159
                                                                                                                      18.	   Non-Entity Assets . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  160
                                                                                                                      19.	   Federal Debt and Interest Payable  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  161
                                                                                                                      20.	   Other Debt and Interest Payable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  164
                                                                                                                      21.	   D.C. Pensions and Judiciary Retirement Actuarial Liability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  165
                                                                                                                      22.	   Liabilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  167
                                                                                                                      23.	   Net Position . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  169
                                                                                                                      24.	   Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations . . . . . . . . . . . . . . . .  171
                                                                                                                      25.	   Additional Information Related to the Combined Statements of Budgetary Resources  . . . . . . . . . . . . .  178
                                                                                                                      26.	   Collection and Disposition of Custodial Revenue . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  182
                                                                                                                      27.	   Earmarked Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  184
                                                                                                                      28.	   Reconciliation of Net Cost of Operations to Budget . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  189
                                                                                                                      29.	   Financial Stability and Stimulus Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  190
                                                                                                                      30.	   Schedule of Fiduciary Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  197
                                                                                                                      31.	   Commitments and Contingencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  199
                                                                                                                      32.	   Imputed Financing Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  203
                                                                                                                      33.	   Subsequent Events . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  204
                                                                                                                      	      Required Supplemental Information (Unaudited) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  206




94                                                                                                                      NOTES TO THE FINANCIAL STATEMENTS
                                                                                                                        PART 2 • ANNUAL FINANCIAL REPORT
1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A.	 REPORTING ENTITY
The accompanying financial statements include the operations of the U.S. Department of the Treasury (Treasury
Department), one of 24 CFO Act agencies of the Executive Branch of the United States Government, and certain
custodial activities managed on behalf of the entire U.S. Government. The following paragraphs describe the
activities of the reporting entity.

The Treasury Department was created by Act (1 Stat.65) on September 2, 1789. Many subsequent acts affected
the development of the Treasury Department, delegating new duties to its charge and establishing the numerous
bureaus and divisions that now comprise the Treasury Department. As a major policy advisor to the President,
the Secretary has primary responsibility for formulating and managing the domestic and international tax and
financial policies of the U.S. Government.

Further, the Secretary is responsible for recommending and implementing United States domestic and interna-
tional economic and fiscal policy; governing the fiscal operations of the government; maintaining foreign assets
control; managing the federal debt; collecting income and excise taxes; representing the United States on inter-
national monetary, trade, and investment issues; overseeing Departmental overseas operations; and directing the
manufacturing of coins, currency, and other products for customer agencies and the public.

The Emergency Economic Stabilization Act of 2008 (EESA) was signed into law on October 3, 2008. EESA
authorized the establishment of the Troubled Asset Relief Program (TARP) to be administered by the Treasury
Department. EESA established two new offices within the Treasury Department: the Office of Financial Stability
to administer the TARP, and a new Special Inspector General for TARP (SIGTARP). Under EESA, the Special
Inspector General has the responsibility, among other things, to conduct, supervise, and coordinate audits and
investigations of the purchase, management, and sale of assets under TARP.

The Treasury Department includes the Departmental Offices (DO) and nine operating bureaus. For financial
reporting purposes, DO is composed of: International Assistance Programs (IAP), Office of Inspector General
(OIG), the Special Office of Inspector General for the Troubled Asset Relief Program (SIGTARP), Treasury
Forfeiture Fund (TFF), Exchange Stabilization Fund (ESF), Community Development Financial Institutions
Fund (CDFI), Office of D.C. Pensions (DCP), Treasury Inspector General for Tax Administration (TIGTA),
Federal Financing Bank (FFB), Office of Financial Stability (OFS), and the DO policy offices, which include the
Government Sponsored Enterprise and Mortgage Backed Securities programs.

The nine operating bureaus are: Office of the Comptroller of the Currency (OCC); Bureau of Engraving and
Printing (BEP); Financial Crimes Enforcement Network (FinCEN); Financial Management Service (FMS);
Internal Revenue Service (IRS); U.S. Mint (Mint); Bureau of the Public Debt (BPD); Office of Thrift Supervision
(OTS); and the Alcohol and Tobacco Tax and Trade Bureau (TTB).

The Treasury Department’s financial statements reflect the reporting of its own entity activities, which include
appropriations it receives to conduct its operations and revenue generated from those operations. They also reflect
the reporting of certain non-entity (custodial) functions it performs on behalf of the U.S. Government and oth-
ers. Non-entity activities include collecting federal revenue, servicing the federal debt, disbursing certain federal
funds, and maintaining certain assets and liabilities for the U.S. Government, as well as for other federal entities.



                                                  Note 1. Summary of Significant Accounting Policies                        95
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     The Treasury Department’s reporting entity does not include the “General Fund” of the U.S. Government, which
                                                                                                                     maintains receipt, disbursement, and appropriation accounts for all federal agencies.

                                                                                                                     Transactions and balances among the Treasury Department’s entities have been eliminated from the Consolidated
                                                                                                                     Balance Sheets, the Consolidated Statements of Net Cost, and the Consolidated Statements of Changes in Net
                                                                                                                     Position.

                                                                                                                     Following GAAP for federal entities, the Treasury Department has not consolidated into its financial statements
                                                                                                                     the assets, liabilities, or results of operations of any financial organization or commercial entity in which it holds
                                                                                                                     either a direct, indirect, or beneficial majority equity investment. Even though some of the equity investments are
                                                                                                                     significant, these entities meet the criteria of “bailed out” entities under paragraph 50 of the Statement of Federal
                                                                                                                     Financial Accounting Standards (SFFAS) No. 2, which directs that such “bailout” investments should not be
                                                                                                                     consolidated into the financial reports of the Federal Government, either in part or as a whole.


                                                                                                                     B.	 BASIS OF ACCOUNTING AND PRESENTATION
                                                                                                                     The financial statements have been prepared from the accounting records of the Treasury Department in con-
                                                                                                                     formity with accounting principles generally accepted in the United States for federal entities, and the Office of
                                                                                                                     Management and Budget (OMB) Circular No. A-136, Financial Reporting Requirements, as amended. Accounting
                                                                                                                     principles generally accepted for federal entities are the standards prescribed by the Federal Accounting Standards
                                                                                                                     Advisory Board (FASAB). FASAB is recognized by the American Institute of Certified Public Accountants as
                                                                                                                     the official accounting standards-setting body of the U.S. Government. As such, the FASAB is responsible for
                                                                                                                     identifying the Generally Accepted Accounting Principles (GAAP) hierarchy for Federal reporting entities.

                                                                                                                     In July 2009, the FASAB issued SFFAS No. 34, The Hierarchy of Generally Accepted Accounting Principles for
                                                                                                                     Federal Entities, Including the Application of Standards Issued by the Financial Accounting Standards Board. SFFAS
                                                                                                                     No. 34 incorporates the hierarchy of the sources of accounting principles and the framework for selecting the
                                                                                                                     principles used in the preparation of general purpose financial reports of Federal reporting entities that are
                                                                                                                     presented in conformity with federal GAAP.

                                                                                                                     These financial statements are provided to meet the requirements of the Government Management Reform
                                                                                                                     Act of 1994. They consist of the Consolidated Balance Sheets, the Consolidated Statements of Net Cost, the
                                                                                                                     Consolidated Statements of Changes in Net Position, the Combined Statements of Budgetary Resources, and
                                                                                                                     the Statements of Custodial Activity. The statements and the related notes are prepared in a comparative form to
                                                                                                                     present both fiscal year 2009 and fiscal year 2008 information.

                                                                                                                     While these financial statements have been prepared from the books and records of the Treasury Department
                                                                                                                     in accordance with the formats prescribed by OMB, these financial statements are in addition to the financial
                                                                                                                     reports used to monitor and control budgetary resources which are prepared from the same books and records.

                                                                                                                     Intra-governmental assets and liabilities are those from or to other federal entities. Intra-governmental earned rev-
                                                                                                                     enues are collections or accruals of revenue from other federal entities, and intra-governmental costs are payments
                                                                                                                     or accruals of expenditures to other federal entities.

                                                                                                                     The financial statements should be read with the realization that they are for a component of a sovereign entity,
                                                                                                                     that liabilities not covered by budgetary resources cannot be liquidated without the enactment of an appropria-
                                                                                                                     tion, and that the payment of all liabilities other than for contracts can be abrogated by the sovereign entity.



96                                                                                                                     Note 1. Summary of Significant Accounting Policies
                                                                                                                       PART 2 • ANNUAL FINANCIAL REPORT
Liabilities represent the probable and measurable future outflow or other sacrifice of resources as a result of past
transactions or events. Since Treasury Department is a component of the United States Government, a sovereign
entity, Treasury’s liabilities cannot be liquidated without legislation that provides resources or an appropriation.
Liabilities covered by budgetary resources are those liabilities for which Congress has appropriated funds or fund-
ing is otherwise available to pay amounts due. Liabilities not covered by budgetary or other resources represent
amounts owed in excess of available, congressionally appropriated funds or other amounts, and there is no
certainty that the appropriations will be enacted. The United States government, acting in its sovereign capacity,
can abrogate liabilities of Treasury arising from other than contracts.


C.	 INVESTMENTS
Investments – Credit Reform
Troubled Asset Relief Program (TARP) equity investments, including investments in preferred and common
stock and warrants of public companies are accounted for pursuant to the provisions of the Federal Credit Reform
Act (FCRA) and the associated FASAB accounting standard SFFAS No. 2, Accounting for Direct Loans and Loan
Guarantees, as amended. As consideration for investments made, Treasury received common stock warrants,
preferred shares (referred to as warrant preferred shares) or additional notes. Treasury concluded that GAAP
accounting for such investments using SFFAS No. 2 was appropriate analogous accounting guidance based on the
similarity between the equity investments made by Treasury and direct loans. Consequently, TARP equity invest-
ments, including investments in preferred and common stock and warrants of public companies are accounted
for by Treasury using credit reform accounting in accordance with SFFAS No. 2, as amended, and reported in
accordance with FCRA in these financial statements. Treasury calculates and accounts for equity investments
using a market risk adjusted discount rate. In addition, the inclusion of market risk required by EESA in the
valuation calculation results in accounting for these investments at estimated fair value, which is consistent with
the accounting for other equity investments held by Treasury (i.e., Investments in GSEs).

Treasury recognizes dividend revenue associated with equity investments when declared by the entity in which
Treasury has invested and when received in relation to any repurchases and restructuring. Treasury reflects changes
in the present value of the projected cost value of direct loans, equity investments, and asset guarantees in the
subsidy cost on the Statement of Net Cost annually, as required by FCRA. The estimated values associated with
these additional instruments are disclosed in Note 8.

Investments in Government Sponsored Enterprises
The senior preferred stock liquidity preference (preferred stock) and associated common stock warrant
(warrant(s)) in GSEs are presented at their fair value as permitted by OMB Circular No. A-136. This Circular
includes language that generally requires agencies to value non-federal investments at acquisition cost, and
also permits the use of other measurement basis, such as fair value, in certain situations. OMB issued guidance
to the Department of the Treasury on October 7, 2009, noting that while OMB Circular No. A-136 focuses
primarily on federal securities, which are normally accounted for at amortized cost, it is reasonable to interpret
OMB Circular No. A-136 to permit non-federal investments, on an instrument by instrument election, to be
reported on a basis other than cost. OMB’s guidance allows the use of fair value accounting for non-federal
securities beginning with reporting for fiscal year 2009. OMB Circular No. A-136 also directs agencies with
non-federal securities to consult FASB’s Statement of Financial Accounting Standards No. 115, Accounting for
Certain Investments in Debt and Equity Securities, for additional guidance. The Investments in GSEs disclosed as of




                                                  Note 1. Summary of Significant Accounting Policies                       97
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     September 30, 2008, were recorded at acquisition cost at the date of purchase with disclosure of fair values as of
                                                                                                                     fiscal year end 2008.

                                                                                                                     Treasury performs annual valuations, as of September 30th, of the preferred stock and warrants. Any changes
                                                                                                                     in valuation, including impairment, is recorded and disclosed in accordance with SFFAS No. 7, Accounting for
                                                                                                                     Revenue and Other Financing Sources. Since the valuation is an annual process, the changes in valuation of the
                                                                                                                     preferred stock and warrants are deemed usual and recurring. Accordingly, changes in valuation are recorded as
                                                                                                                     an exchange transaction that is either an expense or revenue. Since the costs of preferred stock and warrants are
                                                                                                                     exchange transactions, any change in valuation is also recorded as an exchange transaction.

                                                                                                                     In addition, the preferred stock, warrants, and related dividends, and changes in valuation are accounted for as
                                                                                                                     non-entity transactions. Furthermore, any related revenue, gains, or losses to the preferred stock or warrants are
                                                                                                                     reported as non-entity exchange revenue. Dividends are accrued when declared; therefore, no accrual is made for
                                                                                                                     future dividends.

                                                                                                                     Increases in the non-entity preferred stock liquidity preference occur when quarterly payments to the GSEs
                                                                                                                     are made pursuant to the preferred stock purchase agreements (i.e., when a GSE’s liabilities exceed its assets at
                                                                                                                     the end of any quarter). These quarterly payments (liquidity commitments) are made from funds appropriated
                                                                                                                     directly to the Treasury Department. Therefore, quarterly liquidity payments are recorded as costs in the Treasury
                                                                                                                     Department’s entity accounts and appear as costs on the Statement of Net Cost economic program section.

                                                                                                                     Investments in International Financial Institutions
                                                                                                                     The Treasury Department invests in Multilateral Development Banks (MDB) to support poverty reduction, pri-
                                                                                                                     vate sector development, and transition to market economies and sustainable economic growth and development,
                                                                                                                     thereby advancing the United States’ economic, political, and commercial interests abroad. These investments are
                                                                                                                     non-marketable equity investments valued at cost.

                                                                                                                     Other Investments and Related Interest
                                                                                                                     The ESF holds most of the Treasury Department's other investments. Securities that the Treasury Department has
                                                                                                                     both the intent and ability to hold to maturity are classified as investment securities held to maturity and are car-
                                                                                                                     ried at historical cost, adjusted for amortization of premiums and accretion of discounts, in accordance with OMB
                                                                                                                     Circular No. A-136. The GSE securities held by ESF are in this category. “Other Foreign Currency Denominated
                                                                                                                     Assets” are considered “available for sale” securities and recorded at fair value as permitted by OMB Circular No.
                                                                                                                     A-136 beginning in fiscal year 2009. (Prior to fiscal year 2009, A-136 required reporting at cost.) These hold-
                                                                                                                     ings are normally invested in interest bearing securities issued or held through foreign governments or monetary
                                                                                                                     authorities.

                                                                                                                     D.	 TAX AND OTHER NON-ENTITY RECEIVABLES
                                                                                                                     Federal taxes receivable, net and the corresponding liability, due to Treasury are not accrued until related tax re-
                                                                                                                     turns are filed or assessments are made by the IRS and agreed to by either the taxpayer or the court. Additionally,
                                                                                                                     the prepayments are netted against liabilities. Accruals are made to reflect penalties and interest on taxes receivable
                                                                                                                     through the balance sheet date.

                                                                                                                     Taxes receivable consist of unpaid assessments (taxes and associated penalties and interest) due from taxpayers.
                                                                                                                     The existence of a receivable is supported by a taxpayer agreement, such as filing of a tax return without sufficient




98                                                                                                                     Note 1. Summary of Significant Accounting Policies
                                                                                                                           PART 2 • ANNUAL FINANCIAL REPORT
payment, or a court ruling in favor of the IRS. The allowance reflects an estimate of the portion of total taxes
receivable deemed to be uncollectible.

Compliance assessments are unpaid assessments which neither the taxpayer nor a court has affirmed the taxpayer
owes to the Federal Government. Examples include assessments resulting from an IRS audit or examination in
which the taxpayer does not agree with the results. Write-offs consist of unpaid assessments for which the IRS
does not expect further collections due to factors such as taxpayers’ bankruptcy, insolvency, or death. Compliance
assessments and write-offs are not reported on the balance sheet. Statutory provisions require the accounts to be
maintained until the statute for collection expires.


E.	 INVENTORY AND RELATED PROPERTY
Inventory and related property include inventory, operating materials and supplies, and forfeited property. The
Treasury Department values inventories at either standard cost, or lower of cost or latest acquisition cost, except
for finished goods inventories, which are valued at weighted-average unit cost. All operating materials and sup-
plies are recorded as an expense when consumed in operations.

Forfeited property is recorded at estimated fair market value as deferred revenue, and may be adjusted to reflect
the current fair market value at the end of the fiscal year. Property forfeited in satisfaction of a taxpayer’s assessed
liability is recorded when title to the property passes to the U.S. Government and a corresponding credit is made
to the related taxes receivable. Direct and indirect holding costs are not capitalized for individual forfeited assets.

Mortgages and claims on forfeited assets are recognized as a valuation allowance and a reduction of deferred
revenue from forfeited assets when the asset is forfeited. The allowance includes mortgages and claims on forfeited
property held for sale and a minimal amount of claims on forfeited property previously sold. Revenue from
the forfeiture of property is deferred until the property is sold or transferred to a state, local, or federal agency.
Revenue is not recognized if the forfeited property is ultimately destroyed or cannot be legally sold.


F.	 LOANS AND INTEREST RECEIVABLE, INTRAGOVERNMENTAL – ENTITY AND
    NON-ENTITY
Intra-governmental entity Loans and Interest Receivable from other federal agencies represent loans and interest
receivable held by the Treasury Department. No credit reform subsidy costs were recorded for loans purchased
from federal agencies or for guaranteed loans made to non-federal borrowers, because of outstanding balances
guaranteed (interest and principal) by those agencies.

Intra-governmental non-entity Loans and Interest Receivable from other federal agencies represent loans issued by
the Treasury Department to federal agencies on behalf of the U.S. Government. The Treasury Department acts as
an intermediary issuing these loans, because the agencies receiving these loans will lend these funds to others to
carry out various programs of the Federal Government. Because of the Treasury Department’s intermediary role
in issuing these loans, the Treasury Department does not record an allowance related to these intra-governmental
loans. Instead, loan loss allowances and subsidy costs are recognized by the ultimate lender, the federal agency that
issued the loans to the public.




                                                    Note 1. Summary of Significant Accounting Policies                         99
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     G.	 ADVANCES TO THE BLACK LUNG TRUST FUND
                                                                                                                     Advances were provided to the Department of Labor’s Black Lung Disability Trust Fund from the General
                                                                                                                     Fund of the U.S. Government. BPD accounted for the advances on behalf of the General Fund of the U.S.
                                                                                                                     Government. Advances to the Black Lung Disability Trust Fund were accounted for pursuant to the Benefits
                                                                                                                     Revenue Act which states: “In the event that fund resources are not adequate to meet fund obligations, then,
                                                                                                                     advances of interest and principal are paid to the General Fund of the U.S. Government when the Secretary of the
                                                                                                                     Treasury determines that funds are available in the trust fund for such purposes.” The advances to the Black Lung
                                                                                                                     Trust Fund were repayable with interest at a rate determined by the Secretary of the Treasury to be equal to the
                                                                                                                     current average market yield on outstanding marketable obligations of the United States with remaining periods
                                                                                                                     to maturity comparable to the anticipated period during which the advance will be outstanding. Advances made
                                                                                                                     prior to 1982 carried rates of interest equal to the average rate borne by all marketable interest-bearing obligations
                                                                                                                     of the United States then forming a part of the public debt.

                                                                                                                     The Benefits Revenue Act authorized restructuring of the Trust Fund debt by the repayment of the market value
                                                                                                                     of outstanding repayable advances with the proceeds of Authorized Trust Fund borrowing and a one-time appro-
                                                                                                                     priation of $6,498 million. As a result of the refinancing, the General Fund of the U.S. Government recognized
                                                                                                                     a gain of $2,496 million for the difference between the market value of the outstanding advances plus accrued
                                                                                                                     interest of $12,994 million and the carrying value of the outstanding advances plus accrued interest of $10,498
                                                                                                                     million.


                                                                                                                     H.	 ADVANCES TO THE UNEMPLOYMENT TRUST FUND
                                                                                                                     Advances have been issued to the Department of Labor's Unemployment Trust Fund from the General Fund
                                                                                                                     of the U.S. Government to states for unemployment benefits. The Bureau of the Public Debt accounts for the
                                                                                                                     advances on behalf of the General Fund. As outlined in 42 USC § 1323, these repayable advances bear an inter-
                                                                                                                     est rate of 3.375 percent, and were computed as the average interest rate, as of the end of the calendar month
                                                                                                                     preceding the issuance date of the advance, for all interest bearing obligations of the United States then forming
                                                                                                                     the public debt, to the nearest lower one-eighth of one percent. Interest on the repayable advances is due on
                                                                                                                     September 30th of each year. Advances will be repaid by transfers from the Unemployment Trust Fund to the
                                                                                                                     General Fund when the Secretary of the Treasury, in consultation with the Secretary of Labor, has determined
                                                                                                                     that the balance in the Unemployment Trust Fund is adequate to allow repayment.


                                                                                                                     I.	 RECEIVABLE ON DEPOSIT OF EARNINGS, FEDERAL RESERVE SYSTEM
                                                                                                                     Reserve Banks are required by the Board of Governors of the Federal Reserve System to transfer to the U.S.
                                                                                                                     Treasury excess earnings, after providing for the cost of operations, payment of dividends, and reservation of an
                                                                                                                     amount necessary to equate surplus with capital paid in. In the event of losses, or a substantial increase in capital,
                                                                                                                     a Reserve Bank will suspend its payments to the U.S. Treasury until such losses or increases in capital are recov-
                                                                                                                     ered through subsequent earnings. Weekly payments to the U.S. Treasury may vary significantly. The Receivable
                                                                                                                     on Deposit of Earnings, Federal Reserve System, represents the earnings due Treasury as of September 30, but not
                                                                                                                     collected by the U.S. Treasury until after the end of the month.




100                                                                                                                    Note 1. Summary of Significant Accounting Policies
                                                                                                                         PART 2 • ANNUAL FINANCIAL REPORT
J.	 PROPERTY, PLANT, AND EQUIPMENT
General
Property, plant, and equipment (PP&E) is composed of capital assets used in providing goods or services. It also
includes assets acquired through capital leases, which are initially recorded at the amount recognized as a liability
for the capital lease at its inception. PP&E is stated at full cost, including costs related to acquisition, delivery,
and installation, less accumulated depreciation. Major alterations and renovations including leasehold and land
improvements are capitalized, while maintenance and repair costs are charged to expenses as incurred.

Internal use software encompasses software design, development, and testing of projects adding significant new
functionality and long-term benefits. Costs for developing internal use software are accumulated in work in
development until a project is placed into service, and testing and final acceptance are successfully completed.
Once completed, the costs are transferred to depreciable property.

Costs for construction projects are recorded as construction-in-progress until completed, and are valued at actual
(direct) cost, plus applied overhead and other indirect costs.

The Treasury Department leases land and buildings from the General Services Administration (GSA) to conduct
most of its operations. GSA charges a standard level users fee which approximates commercial rental rates for
similar properties. Therefore, GSA-owned properties are not included in the Department’s PP&E.

The Treasury Department’s bureaus are diverse both in size and in operating environment. Accordingly, the
Department’s capitalization policy provides minimum capitalization thresholds which range from $25,000 to
$50,000. The Treasury Department also uses a capitalization threshold range for bulk purchases: $250,000
to $500,000 for non manufacturing bureaus and $25,000 to $50,000 for manufacturing bureaus. Bureaus
determine the individual items that comprise bulk purchases. In addition, Treasury bureaus may expense bulk
purchases if they conclude that total period costs would not be materially distorted and the cost of capitalization
is not economically feasible.

Depreciation is expensed on a straight-line basis over the estimated useful life of the asset with the exception of
leasehold improvements, which are depreciated over the useful life of the lease or the useful life of the improve-
ment, whichever is shorter. Service life ranges are high due to the Treasury Department’s diversity of PP&E.
Construction in progress and internal use software in development are not depreciated.

Heritage Assets
The Treasury Department owns the Treasury building -- a multi-use heritage asset. The building housing the
United States Mint in Denver, Colorado, is also considered a multi-use heritage asset. Multi-use heritage assets are
assets of historical significance for which the predominant use is general government operations. All acquisition,
reconstruction, and betterment costs for the Treasury Department building are capitalized as general PP&E and
depreciated over their service life.




                                                   Note 1. Summary of Significant Accounting Policies                    101
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     K.	 NON-ENTITY GOVERNMENT-WIDE CASH
                                                                                                                     Non-entity government-wide cash is held in depositary institutions and Federal Reserve accounts. Agencies can
                                                                                                                     deposit funds that are submitted to them directly into either a Federal Reserve Treasury General Account (TGA)
                                                                                                                     or a local TGA depositary. The balances in these TGA accounts are transferred to the FRBNY’s TGA at the end of
                                                                                                                     each day.

                                                                                                                     Operating Cash of the U.S. Government represents balances from tax collections, customs duties, other revenue,
                                                                                                                     federal debt receipts, and other various receipts net of cash outflows for budget outlays and other payments held
                                                                                                                     in the Federal Reserve Banks, foreign and domestic financial institutions, and in U. S. Treasury Tax and loan ac-
                                                                                                                     counts. Outstanding checks are netted against operating cash until they are cleared by the Federal Reserve System.

                                                                                                                     The Treasury General Account (TGA) is maintained at the Federal Reserve Bank of New York (FRBNY) and
                                                                                                                     functions as the government’s checking account for deposits and disbursements of public funds. The Treasury Tax
                                                                                                                     and Loan (TT&L) program includes about 9,000 depositories that accept tax payments and remit them the day
                                                                                                                     after receipt to FRBNY’s TGA. Certain TT&L depositaries also hold Non-entity Government-wide Cash in inter-
                                                                                                                     est bearing accounts. Cash in the TGA and the TT&L program is restricted for Government-wide operations.

                                                                                                                     U. S. Treasury Tax and Loan Accounts include funds invested through the Term Investment Option program and
                                                                                                                     the Repo program. Under the Term Investment Option program Treasury auctions funds for a set term, usually in
                                                                                                                     the range of one day to three weeks. Under the Repo program, Treasury invests funds through overnight reverse
                                                                                                                     repurchase agreements. However, under both programs, Treasury reserves the right to call the funds prior to
                                                                                                                     maturity under special circumstances.

                                                                                                                     The Supplementary Financing Program (SFP) Account is maintained at FRBNY. SFP is a temporary program
                                                                                                                     announced by Treasury and the Federal Reserve on September 14, 2008, to provide emergency cash for Federal
                                                                                                                     Reserve initiatives aimed at addressing the ongoing crisis in financial markets. The program consists of a series of
                                                                                                                     Treasury bills, apart from Treasury's current borrowing program.

                                                                                                                     To promote stability in the mortgage market, a Federal Reserve account was established at JP Morgan Chase.
                                                                                                                     Treasury uses this account to purchase Government Sponsored Enterprise (GSE) mortgage-backed securities in
                                                                                                                     the open market.

                                                                                                                     Other cash is mostly comprised of Automated Clearinghouse transfers and other deferred items.


                                                                                                                     L.	 FEDERAL DEBT
                                                                                                                     Debt and associated interest are reported on the accrual basis of accounting. Interest costs are recorded as expenses
                                                                                                                     when incurred, instead of when paid. Certain Treasury securities are issued at a discount or premium. These
                                                                                                                     discounts and premiums are amortized over the term of the security using an interest method for all long term
                                                                                                                     securities and the straight line method for short term securities. The Treasury Department also issues Treasury
                                                                                                                     Inflation-Protected Securities (TIPS). The principal for TIPS is adjusted daily over the life of the security based on
                                                                                                                     the Consumer Price Index for all Urban Consumers.




102                                                                                                                    Note 1. Summary of Significant Accounting Policies
                                                                                                                     PART 2 • ANNUAL FINANCIAL REPORT
M.	 LOAN COMMITMENTS
The FFB recognizes loan commitments when the FFB and the other parties fully execute the promissory notes
and reduces loan commitments when the FFB issues loans or when the commitments expire. Most obligations of
the FFB give a borrower the contractual right to a loan or loans immediately or at some point in the future. The
FFB limits the time available for a loan under an obligation, where applicable.


N.	 PENSION COSTS, OTHER RETIREMENT BENEFITS, AND OTHER POST
    EMPLOYMENT BENEFITS
The Treasury Department recognizes the full costs of its employees’ pension benefits. However, the liabilities as-
sociated with these costs are recognized by the Office of Personnel Management (OPM) rather than the Treasury
Department.

Most employees of the Treasury Department hired prior to January 1, 1984, participate in the Civil Service
Retirement System (CSRS), to which the Treasury Department contributes 8.51percent of salaries for regular
CSRS employees.

On January 1, 1987, the Federal Employees Retirement System (FERS) went into effect pursuant to Public Law
99-335. Employees hired after December 31, 1983, are automatically covered by FERS and Social Security. A
primary feature of FERS is that it offers a savings plan to which the Treasury Department automatically contrib-
utes 1 percent of base pay and matches any employee contributions up to an additional 4 percent of base pay. For
most employees hired after December 31, 1983, the Treasury Department also contributes the employer’s match-
ing share for Social Security. For the FERS basic benefit, the Treasury Department contributes 11.2 percent for
regular FERS employees.

Similar to federal retirement plans, OPM, rather than the Treasury Department, reports the liability for future
payments to retired employees who participate in the Federal Employees Health Benefits Program (FEHBP) and
Federal Employees’ Group Life Insurance (FEGLI) Program. The Treasury Department reports the full cost of
providing other retirement benefits (ORB). The Treasury Department also recognizes an expense and liability
for other post employment benefits (OPEB), which includes all types of benefits provided to former or inactive
(but not retired) employees, their beneficiaries, and covered dependents. Additionally, the Treasury Department
bureaus, OCC and OTS, separately sponsor certain benefit plans for their employees. OCC sponsors a defined
life insurance benefit plan for current and retired employees. Additionally, OTS provides certain health and life
benefits for all retired employees who meet eligibility requirements


O.	 SPECIAL DRAWING RIGHTS (SDR)
The ESF was established for use by the Secretary of the Treasury to account for the purchase or sale of foreign
currencies, to hold U.S. foreign exchange and Special Drawing Rights (SDR) holdings, and to provide financing
to foreign governments. SDR transactions of the ESF require the explicit authorization of the Secretary of the
Treasury.

The International Monetary Fund (IMF) has authority to cancel, in part or in whole, SDRs created under previ-
ous allocations. Decisions of the IMF to cancel an SDR are adopted by the IMF’s Board of Governors on a basis
of proposal by the IMF Managing Director, with concurrence by the IMF Executive Board. The same majority




                                                  Note 1. Summary of Significant Accounting Policies                 103
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     requirements as those for allocations apply to the Executive Board’s concurrence and to the Board of Governor’s
                                                                                                                     decision on an SDR cancellation proposal.

                                                                                                                     Allocations and Holdings
                                                                                                                     Allocations of SDR are recorded as liabilities. These liabilities represent the amount that is payable in the event of
                                                                                                                     liquidation of, or U.S. withdrawal from the SDR department of the IMF, or cancellation of the SDR.

                                                                                                                     SDR holdings represent transactions resulting from ESF SDR activities. These activities are primarily the result of
                                                                                                                     IMF allocations. Other transactions reported in this account are recorded as incurred. They include SDR acquisi-
                                                                                                                     tions and sales, interest received on SDR holdings, interest charges on SDR allocations, and valuation adjust-
                                                                                                                     ments. The U.S. Government receives remuneration in SDRs from the IMF. This is based on claims on the IMF,
                                                                                                                     represented by the U.S. Reserve Position. The allocations and holdings are revalued monthly based on the SDR
                                                                                                                     valuation rate calculated by the IMF.

                                                                                                                     Certificates
                                                                                                                     The SDR Act of 1968 authorized the Secretary of the Treasury to issue certificates, not to exceed the value of SDR
                                                                                                                     holdings, to the Federal Reserve Banks in return for interest-free dollar amounts equal to the face value of certifi-
                                                                                                                     cates issued. The certificates may be issued to finance the acquisition of SDR from other countries or to provide
                                                                                                                     resources for financing other ESF operations. Certificates issued are to be redeemed by the Treasury Department
                                                                                                                     at such times and in such amounts as the Secretary may determine. Certificates issued to Federal Reserve Banks
                                                                                                                     are stated at their face value. It is not practical to estimate the fair value of certificates issued to Federal Reserve
                                                                                                                     Banks, since these certificates contain no specific terms of repayment.


                                                                                                                     P.	 FEDERAL EMPLOYEE BENEFITS PAYABLE—FECA ACTUARIAL LIABILITY
                                                                                                                     The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to covered federal
                                                                                                                     civilian employees injured on the job, and employees who have incurred a work-related injury or occupational
                                                                                                                     disease. These future workers’ compensation estimates were generated from an application of actuarial procedures
                                                                                                                     developed to estimate the liability for FECA benefits. The actuarial liability estimates for FECA benefits include
                                                                                                                     the expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases.


                                                                                                                     Q.	 ANNUAL, SICK, AND OTHER LEAVE
                                                                                                                     Annual and compensatory leave earned by Treasury employees, but not yet used, is reported as an accrued li-
                                                                                                                     ability. The accrued balance is adjusted annually to current pay rates. Any portions of the accrued leave, for which
                                                                                                                     funding is not available, are recorded as an unfunded liability. Sick and other leave are expensed as taken.


                                                                                                                     R.	 REVENUE AND FINANCING SOURCES
                                                                                                                     Treasury Department activities are financed either through exchange revenue it receives from others or through
                                                                                                                     non-exchange revenue and financing sources (such as appropriations provided by the Congress and penalties,
                                                                                                                     fines, and certain user fees collected). User fees primarily include IRS reimbursable costs to process installment
                                                                                                                     agreements and accompanying photocopy and reproduction charges. Exchange revenues are recognized when
                                                                                                                     earned; i.e., goods have been delivered or services have been rendered. Non-exchange revenues are recognized
                                                                                                                     when received by the respective Treasury Department collecting bureau. Appropriations used are recognized as




104                                                                                                                    Note 1. Summary of Significant Accounting Policies
                                                                                                                          PART 2 • ANNUAL FINANCIAL REPORT
financing sources when related expenses are incurred or assets are purchased. Revenue from reimbursable agree-
ments is recognized when the services are provided. The Treasury Department also incurs certain costs that are
paid in total or in part by other federal entities, such as pension costs. These subsidized costs are recognized on the
Consolidated Statement of Net Cost, and the imputed financing for these costs is recognized on the Consolidated
Statement of Changes in Net Position. As a result, there is no effect on net position. Other non-exchange financ-
ing sources such as donations and transfers of assets without reimbursements also are recognized for the period in
which they occurred on the Consolidated Statement of Changes in Net Position.

The Treasury Department recognizes revenue it receives from disposition of forfeited property as non-exchange
revenue on the Consolidated Statement of Changes in Net Position. The costs related to the Forfeiture Fund
program are reported on the Consolidated Statement of Net Cost.


S.	 CUSTODIAL REVENUES AND COLLECTIONS
Non-entity revenue reported on the Treasury Department’s Statement of Custodial Activity includes cash collect-
ed by the Treasury Department, primarily taxes. It does not include revenue collected by other federal agencies,
such as user fees and other receipts, which are remitted for general operating purposes of the U.S. Government or
are earmarked for certain trust funds. The Statement of Custodial Activity is presented on the “modified accrual
basis.” Revenues are recognized as cash is collected. The “accrual adjustment” is the net increase or decrease, dur-
ing the reporting period, in net revenue related-assets and liabilities, mainly taxes receivable. The Balance Sheets
include an estimated amount for taxes receivable and payable to the General Fund of the U.S. Government at
September 30, 2009 and September 30, 2008.


T.	 TAX ASSESSMENTS, ABATEMENTS, AND REFUNDS PAYABLE
Under Internal Revenue Code Section 6201, the Treasury Department is authorized and required to make inqui-
ries, determinations, and assessments of all taxes which have not been duly paid (including interest, additions to
the tax, and assessable penalties) under the law. Unpaid assessments result from taxpayers filing returns without
sufficient payment, as well as from tax compliance programs such as examination, under-reporter, substitute for
return, and combined annual wage reporting. The Treasury Department also has authority to abate the paid or
unpaid portion of assessed tax, interest, and penalty. Abatements occur for a number of reasons and are a normal
part of the tax administration process. Abatements may result in claims for refunds or a reduction of the unpaid
assessed amount.

Refunds payable arise in the normal course of tax administration when it is determined that taxpayers have paid
more than the actual taxes they owe. Amounts the Treasury Department has concluded to be valid refunds owed
to taxpayers are recorded as a liability (Refunds Payable on the Balance Sheet), with a corresponding receivable
from the General Fund. This receivable is included on the Balance Sheet in the line entitled “Due from the
General Fund.”


U.	 PERMANENT AND INDEFINITE APPROPRIATIONS
Permanent and indefinite appropriations are used to disburse tax refunds, income tax credits, and child tax cred-
its. These appropriations are not subject to budgetary ceilings established by Congress. Therefore, refunds payable
at year end are not subject to funding restrictions. Refund payment funding is recognized as appropriations are
used. Permanent indefinite authority for refund activity is not stated as a specific amount and is available for an



                                                   Note 1. Summary of Significant Accounting Policies                     105
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     indefinite period of time. Although funded through appropriations, refund activity, in most instances, is reported
                                                                                                                     as a custodial activity of the Treasury Department, since refunds are, in substance, a custodial revenue-related
                                                                                                                     activity resulting from taxpayer overpayments of their tax liabilities.

                                                                                                                     The Treasury Department also receives two permanent and indefinite appropriations related to debt activity. One
                                                                                                                     is used to pay interest on the public debt securities; the other is used to redeem securities that have matured, been
                                                                                                                     called, or are eligible for early redemption. These accounts are not annual appropriations and do not have refunds.
                                                                                                                     Debt activity appropriations are related to the Treasury Department’s liability and are reported on the Treasury
                                                                                                                     Department’s Balance Sheet. Permanent indefinite authority for debt activity is available for an indefinite period
                                                                                                                     of time.

                                                                                                                     Treasury receives permanent indefinite appropriations annually to fund increases in the projected subsidy costs of
                                                                                                                     credit programs as determined by the reestimation process required by the FCRA.

                                                                                                                     Additionally, the Treasury Department receives other permanent and indefinite appropriations to make certain
                                                                                                                     payments on behalf of the U.S. Government. These appropriations are provided to make payments to the Federal
                                                                                                                     Reserve Banks for services provided. They also include appropriations provided to make other disbursements on
                                                                                                                     behalf of the U.S. Government, including payments made to various parties as the result of certain claims and
                                                                                                                     judgments rendered against the United States.


                                                                                                                     V.	 INCOME TAXES
                                                                                                                     As an agency of the Federal Government, the Treasury Department is exempt from all income taxes imposed by
                                                                                                                     any governing body, whether it is a federal, state, commonwealth, local, or foreign government.


                                                                                                                     W.	 USE OF ESTIMATES
                                                                                                                     The Treasury Department has made certain estimates and assumptions relating to the reporting of assets, liabili-
                                                                                                                     ties, revenues, expenses, and the disclosure of contingent liabilities to prepare these financial statements. Actual
                                                                                                                     results could differ from these estimates. Significant transactions subject to estimates include loan receivables
                                                                                                                     (including Mortgage Backed Securities (MBS) and TARP); investments in non-federal securities (including
                                                                                                                     Government Sponsored Enterprises (GSEs) foreign and domestic public entities) and related impairment, if any;
                                                                                                                     tax receivables; loan guarantees; depreciation; liability for liquidity commitment (GSEs); imputed costs; actuarial
                                                                                                                     liabilities; cost and earned revenue allocations; contingent legal liabilities; and credit reform subsidy costs.

                                                                                                                     The Treasury recognizes the sensitivity of credit reform modeling to slight changes in some model assumptions
                                                                                                                     and uses regular review of model factors, statistical modeling, and annual reestimates to reflect the most accurate
                                                                                                                     cost of the credit programs to the U.S. Government. Two of the emergency economic programs that Treasury
                                                                                                                     implemented in the latter part of September 2008, the purchase program for MBS and the GSE credit line facil-
                                                                                                                     ity, both operate under the provisions of credit reform and the use of estimates as dictated by the Federal Credit
                                                                                                                     Reform Act (Note 12). Additionally, all TARP credit activity, including investments in common and preferred
                                                                                                                     stock and warrants of public companies and loans and loan guarantees or guaranty-like insurance activities, are
                                                                                                                     also subject to credit reform subsidy cost estimates and valuation of direct loans, equity investments and asset
                                                                                                                     guarantees. (Notes 8 and 12)




106                                                                                                                    Note 1. Summary of Significant Accounting Policies
                                                                                                                           PART 2 • ANNUAL FINANCIAL REPORT
The forecasted future cash flows used to determine these amounts as of September 30, 2009, are sensitive to
slight changes in model assumptions, such as general economic conditions, specific stock price volatility of the
entities in which the Treasury Department has an equity interest, estimates of expected default, and prepayment
rates. Forecasts of future financial results have inherent uncertainty and the TARP Direct Loans and Equity
Investments, Net, and Asset Guarantee Program line items as of September 30, 2009, are reflective of relative
illiquid, troubled assets whose values are particularly sensitive to future economic conditions and other assump-
tions. Additional discussion related to sensitivity analysis can be found in the Management’s Discussion and
Analysis section of the Agency Financial Report.

The GSE preferred stock agreements provide that the Treasury Department will increase its investment in the
GSE’s senior preferred stock if at the end of any quarter the Federal Housing Finance Agency (FHFA), acting as
the conservator, determines that the liabilities of either GSE, individually, exceed its respective assets. Based on
U.S. GAAP, these contingent liquidity commitments predicated on the future occurrence of any shareholders’
deficits of the GSEs at the end of any reporting quarter, are potential liabilities of Treasury. Valuation analyses
were performed to attempt to provide a “sufficiently reliable” estimate of the outstanding commitment in order
for Treasury to record the remaining liability in accordance with SFFAS 5. The valuation incorporated various
forcasts, projections and cash flow analysis to develop an estimate of potential liability. Note 9 discusses the results
of the valuation and the liability recorded as of September 30, 2009.


X.	 CREDIT RISK
Credit risk is the potential, no matter how remote, for financial loss from a failure of a borrower or a counterparty
to perform in accordance with underlying contractual obligations. The Treasury Department takes on possible
credit risk when it makes direct loans or credits to foreign entities or becomes exposed to institutions which
engage in financial transactions with foreign countries (Note 11). Given the history of the Treasury Department
with respect to such exposure and the financial policies in place in the U. S. Government and other institutions in
which the United States participates, the Treasury Department expectations of credit losses is nominal.

The Treasury Department also takes on credit risk related to committed but undisbursed direct loans, its liquidity
commitment to GSE, its MBS portfolio, investments, loans, and asset guarantees of the TARP, its insurance of
non-FDIC insured money market funds, and its Terrorism Risk Insurance Program. Except for the Terrorism
Risk Insurance Program, these activities focus on the underlying problems in the credit markets, and the ongoing
instability in those markets exposes the Department to potential unknown costs and losses. The extent of the
risk assumed by the Treasury Department is described in more detail in the notes to the financial statements, and
where applicable is factored into credit reform models and reflected in fair value measurements (Notes 8, 9 & 12).

In addition, for EESA programs, the statute requires that market risk be considered in the subsidy cost of the
asset, through an adjustment to the discount rate. Within the TARP programs, Treasury has invested in many
assets that would traditionally be held by private investors and their valuation would inherently include market
risk. Thus, for all TARP direct loan, guarantee, and equity purchase programs, Treasury calculates a Market Risk
Adjusted Discount Rate (MRADR). Therefore, the Treasury cost estimates for the TARP programs are adjusted
for unexpected loss and the estimated risk of expected cash flows. Under SFFAS No. 2, including market risk
in the cash flow estimates is consistent with the type of assets and liabilities being valued. The inclusion of the
MRADR is the mechanism for providing the fair market value of the assets.




                                                    Note 1. Summary of Significant Accounting Policies                     107
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Y.	 EARMARKED FUNDS
                                                                                                                     Treasury has accounted for revenues and other financing sources for earmarked funds separately from other
                                                                                                                     funds. Earmarked funds are financed by specifically identified revenues, often supplemented by other financing
                                                                                                                     sources, which remain available over time. These specifically identified revenues and other financing sources are
                                                                                                                     required by statute to be used for designated activities or purposes. SFFAS No. 27, Identifying and Reporting
                                                                                                                     Earmarked Funds, defines the following three criteria for determining an earmarked fund: (1) A statute commit-
                                                                                                                     ting the Federal Government to use specifically identified revenues and other financing sources not used in the
                                                                                                                     current period for future use to finance the designated activities, benefits, or purposes; (2) Explicit authority for
                                                                                                                     the earmarked fund to retain revenues and other financing sources not used in the current period for future use
                                                                                                                     to finance the designated activities, benefits, or purposes; and (3) A requirement to account for and report on
                                                                                                                     the receipt, use, and retention of the revenues and other financing sources that distinguished the earmarked fund
                                                                                                                     from the Federal Government’s general revenues.


                                                                                                                     Z.	 ALLOCATION TRANSFERS
                                                                                                                     The Treasury Department is a party to allocation transfers with other federal agencies as both a transferring
                                                                                                                     (parent) entity and/or a receiving (child) entity. Allocation transfers are legal delegations by one department of its
                                                                                                                     authority to obligate budget authority and outlay funds to another department. A separate fund account (alloca-
                                                                                                                     tion account) is created in the U.S. Treasury as a subset of the parent fund account for tracking and reporting
                                                                                                                     purposes. All allocation transfers of balances are credited to this account, and subsequent obligations and outlays
                                                                                                                     incurred by the child entity are charged to this allocation account as they execute the delegated activity on behalf
                                                                                                                     of the parent. Beginning in fiscal year 2007, parent federal agencies report both the proprietary and budgetary
                                                                                                                     activity and the child agency does not report any financial activity related to budget authority allocated from the
                                                                                                                     parent federal agency to the child federal agency.

                                                                                                                     The Treasury Department allocates funds, as the parent, to the Department of Energy. OMB allows certain
                                                                                                                     exceptions to allocation reporting for certain funds. Accordingly, the Treasury Department has reported certain
                                                                                                                     funds for which the Treasury Department is the child in the allocation transfer, but in compliance with OMB
                                                                                                                     guidance (A-136 III.4.2 section 5 for three exceptions), will report all activities relative to these allocation trans-
                                                                                                                     fers in the Treasury Department’s financial statements. Also, the Treasury Department receives allocation transfers,
                                                                                                                     as the child, from the Agency for International Development and Department of Transportation. The Treasury
                                                                                                                     Department had no significant allocation transfers to report in fiscal years 2009 and 2008.


                                                                                                                     AA.	 CREDIT REFORM ACCOUNTING
                                                                                                                     The authoritative guidance for the credit reform portion of these statements is contained primarily in SFFAS No.
                                                                                                                     2, Accounting for Direct Loans and Loan Guarantees, as amended by SFFAS No. 18, Amendments to Accounting
                                                                                                                     Standards for Direct Loans and Loan Guarantees, and SFFAS No. 19, Technical Amendments to Accounting
                                                                                                                     Standards for Direct Loans and Loan Guarantees. This guidance was promulgated as a result of the Federal Credit
                                                                                                                     Reform Act of 1990 (FCRA).

                                                                                                                     The FCRA requires that the ultimate costs of a credit program be calculated, and the budgetary resources ob-
                                                                                                                     tained, before the direct loan obligations are incurred. The cost of loan guarantee programs is the net present
                                                                                                                     value of the estimated future cash flows from payments (for claims and interest rate subsidies). The primary pur-




108                                                                                                                    Note 1. Summary of Significant Accounting Policies
                                                                                                                         PART 2 • ANNUAL FINANCIAL REPORT
pose of the FCRA, which became effective on October 1, 1991, is to more accurately measure the cost of federal
credit programs and to place the cost of such credit programs on a basis equivalent with other federal spending.

SFFAS No. 2, which generally mirrors the requirements of the FCRA, established guidance for estimating the
cost of direct and guaranteed loan programs, as well as for recording direct loans and liabilities for loan guarantees
for financial reporting purposes. SFFAS No. 2 states that the actual and expected costs of federal credit programs
should be fully recognized in both budgetary and financial reporting. To accomplish this, agencies first predict
or estimate the future performance of direct and guaranteed loans when preparing their annual budgets. The
data used for these budgetary estimates are reestimated after the fiscal year-end to reflect changes in actual loan
performance and actual interest rates in effect when the loans were issued. The data used for these estimates were
reestimated at the fiscal year-end to reflect adjustments for market risk, asset performance, and other key variables
and economic factors. The reestimate data are then used to report the cost of the loans disbursed under the direct
or guaranteed loan program as a “Program Cost” in the agencies’ Statement of Net Cost.

The FCRA establishes budgetary and financing control for each credit program through the use of the program,
financing and negative subsidy receipt accounts for direct loans obligated after September 30, 1991. The FCRA
establishes the use of the program, financing, and general fund receipt for direct loans obligated after September
30, 1991. These accounts are classified as either budgetary or non-budgetary in the Combined Statements of
Budgetary Resources. The budgetary accounts include the program accounts and receipt accounts. The non-
budgetary accounts consist of the credit reform financing accounts.

The program account is a budget account that receives and obligates appropriations to cover the subsidy cost
of a direct loan or guarantee and disburses the subsidy cost to the financing account. The program account also
receives appropriations for administrative expenses. The financing account is a non-budgetary account that
records all of the cash flows resulting from Credit Reform direct loans or loan guarantees. It disburses loans, col-
lects repayments and fees, makes claim payments, holds balances, borrows from BPD, earns or pays interest, and
receives the subsidy cost payment from the program account.

The General Fund receipt account is a budget account used for the receipt of amounts paid from the financing
account when there is a negative subsidy or negative modification from the original estimate or a downward
reestimate. They are available for appropriations only in the sense that all General Fund receipts are available for
appropriations. Any assets in this account are non-entity assets and are offset by intragovernmental liabilities.
At the end of the fiscal year, the fund balance transferred to the U.S. Treasury through the General Fund receipt
account is no longer included in Treasury’s fund balance reporting.

The Department of Treasury accounts for TARP direct loans, equity investments and Asset Guarantees, MBS
purchased as a part of GSEs assistance program, and the GSE Credit Facility program, in accordance with the
FCRA and the provisions under the FASAB accounting standard SFFAS No. 2, as amended. Treasury determined
it was acceptable to include an estimate of market risk in the calculation of subsidy cost under SFFAS No. 2.


AB.	 FIDUCIARY ACTIVITIES
Treasury has adopted SFFAS No. 31, Accounting for Fiduciary Activities, which is effective for years beginning
after September 30, 2008. SFFAS No. 31, prescribes that fiduciary type activities and related transactions will no
longer be reported in proprietary financial statements. Fiduciary activities are the collection or receipt, and the
management, protection, accounting, investment, and disposition by the Federal Government of cash or other



                                                   Note 1. Summary of Significant Accounting Policies                    109
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     assets in which non-Federal individuals or entities have an ownership interest that the Federal Government must
                                                                                                                     uphold. Fiduciary cash and other assets are not assets of the Federal Government. While these activities are no
                                                                                                                     longer reported in the proprietary financial statements, they are required to be reported on schedules in the notes
                                                                                                                     to financial statements (Note 30).


                                                                                                                     AC.	 RECLASSIFICATIONS
                                                                                                                     Certain fiscal year 2008 balances on the Statements of Budgetary Resources (SBR) and Net Cost (SNC) have
                                                                                                                     been reclassified to conform to the fiscal year 2009 presentations. In fiscal year 2009, certain SBR budgetary and
                                                                                                                     non-budgetary amounts were disaggregated whereas in fiscal year 2008 they were reported in the aggregate. The
                                                                                                                     change was made to appropriately disclose the significant TARP and GSEs non-budgetary credit reform activ-
                                                                                                                     ity that occurred in fiscal year 2009. In addition, the Investments in GSEs accrued year-end liquidity payment
                                                                                                                     disclosed as of September 30, 2008 were reported in the Statement of Net Cost (SNC) separate from the four
                                                                                                                     Treasury strategic goals. In fiscal year 2009, Treasury concluded that the cost of this program helps accomplish
                                                                                                                     the Treasury strategic goal of ensuring that the U.S. economy performs at its full economic potential. Thus, as
                                                                                                                     of September 30, 2009 the cost of investments in GSEs and the related year-end accrual are included in the
                                                                                                                     Economic Program section of the SNC. The GSE transaction reclassification in the SNC also caused a similar
                                                                                                                     reclassification for the GSE transaction in Note 28, Reconciliation of Net Cost of Operations to Budget, as well.


                                                                                                                     AD.	 RELATED PARTIES
                                                                                                                     The primary “related parties” with whom the Treasury Department conducts business are other federal agencies,
                                                                                                                     mainly through the normal lending activities of the BPD and the Federal Financing Bank. These activities are
                                                                                                                     disclosed in these financial statements. The Treasury Department utilizes the services of the Federal Reserve to
                                                                                                                     execute a variety of transactions on behalf of the BPD and the Exchange Stabilization Fund. The Federal Reserve
                                                                                                                     is serving as the Treasury Department’s fiscal agent in executing these transactions and receives fees for its services.
                                                                                                                     The Treasury Department also consults with the Federal Reserve on matters affecting the economy, such as the
                                                                                                                     structuring of bailout financing for American International Group and other companies affected by the current
                                                                                                                     economic situation. However, these actions do not involve transactions between the Treasury Department and the
                                                                                                                     Federal Reserve.

                                                                                                                     Finally, the Secretary of the Treasury serves on the Federal Housing Finance Administration (FHFA) Oversight
                                                                                                                     Board, and consults with the Director of FHFA in matters involving Fannie Mae and Freddie Mac. This provides
                                                                                                                     the Treasury Department a voice in the FHFA’s actions as the conservator for Fannie Mae and Freddie Mac, and
                                                                                                                     thus some influence over major decisions involving Fannie Mae and Freddie Mac. The Treasury Department has
                                                                                                                     no transactions with FHFA; transactions and balances arising from transactions with Fannie Mae and Freddie
                                                                                                                     Mac are accounted for and disclosed in these financial statements.




110                                                                                                                    Note 1. Summary of Significant Accounting Policies
                                                                                                                        PART 2 • ANNUAL FINANCIAL REPORT
2. FUND BALANCE
Fund Balance with Treasury is the aggregate amount of the Treasury Department’s accounts with the U.S.
Government’s central accounts from which the Treasury Department is authorized to make expenditures and pay
liabilities. It is an asset because it represents the Treasury Department’s claim to the U.S. Government’s resources.
Fund balance with Treasury is not equivalent to unexpended appropriations, because it also includes non-
appropriated revolving and enterprise funds, suspense accounts, and custodial funds such as deposit funds, special
funds, and trust funds.

Appropriated funds consist of amounts appropriated annually by Congress to fund the operations of the
Department. Appropriated funds include clearing funds, which represent reconciling differences with Treasury
balances.

Revolving funds are used for continuing cycles of business-like activity, in which the fund charges for the sale of
products or services and uses the proceeds to finance its spending, usually without requirement for annual appro-
priations. A public enterprise revolving fund is an account that is authorized by law to be credited with offsetting
collections from the public and those monies are used to finance operations. The Working Capital Fund is a
fee-for-service fund established to support operations of Department Components. Also included are the financ-
ing funds for credit reform. The GSA and TARP programs were the main drivers for the increase in appropriated
and revolving funds.

Trust funds include both receipt accounts and expenditure accounts that are designated by law as a trust fund.
Trust fund receipts are used for specific purposes.

Deposit funds represent amounts received as an advance that are not accompanied by an order and include non-
entity collections that do not belong to the Federal Government. See Note 30, Schedule of Fiduciary Activity for
Non-Entity collections.

Special funds include funds designated for specific purposes including the disbursement of non-entity monies
received in connection with the Presidential Election Campaign.

Fund Balances: As of September 30, 2009 and September 30, 2008, fund balances consisted of the following (in
millions):

                                                                                        2009                    2008
    Appropriated Funds                                                           $   455,983              $   272,561
    Revolving Funds                                                                   47,897                    1,837
    Trust Funds                                                                            5                        2
    Clearing Funds                                                                        93                       26
    Deposit Funds                                                                        146                      587
    Special Funds                                                                        455                      299
    Other Funds (Receipts and Suspense Funds)                                              3                       56
Total Fund Balances                                                              $   504,582              $   275,368




                                                                                         Note 2. Fund Balance           111
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Status of Fund Balance with Treasury
                                                                                                                     Portions of the Unobligated Balance Unavailable include amounts appropriated in prior fiscal years that are not
                                                                                                                     available to fund new obligations. However, it can be used for upward and downward adjustments for existing
                                                                                                                     obligations in future years. The Obligated Balance Not Yet Disbursed represents amounts designated for payment
                                                                                                                     of goods and services ordered but not received or goods and services received but for which payment has not yet
                                                                                                                     been made.
                                                                                                                     Since the following line items do not post to budgetary status accounts, the following adjustments are required
                                                                                                                     to reconcile the budgetary status to non-budgetary Fund Balance with Treasury as reported in the accompanying
                                                                                                                     Balance Sheets:
                                                                                                                        •	   Adjustments for Non-Budgetary Funds are receipt, clearing, and deposit funds that represent amounts on
                                                                                                                             deposit with Treasury that have no budget status.
                                                                                                                        •	   Borrowing authority is in budgetary status but not in Fund Balance with Treasury.
                                                                                                                        •	   Budgetary resources have investments included; however, the money has been moved from the Fund
                                                                                                                             Balance with Treasury asset account to Investments.
                                                                                                                        •	   Imprest funds represent monies moved from Fund Balance with Treasury to Cash and Other Monetary
                                                                                                                             Assets with no change in the budgetary status.
                                                                                                                        •	   Adjustments for IMF– monies moved from Fund Balance with Treasury to Other Monetary Assets related
                                                                                                                             to IMF accounts that are with the Federal Reserve Bank of New York. They also include the IMF Reserve
                                                                                                                             Position based on SDRs.

                                                                                                                        •	   Adjustment for Unavailable for Obligations reduced the budgetary resources; however, did not impact the
                                                                                                                             Fund Balance with Treasury.
                                                                                                                     As of September 30, 2009 and September 30, 2008, the status of fund balances consisted of the following (in
                                                                                                                     millions):
                                                                                                                                                                                                            2009                   2008
                                                                                                                     Unobligated Balance – Available                                                $   382,047            $   242,939
                                                                                                                     Unobligated Balance – Unavailable                                                   33,841                 11,395
                                                                                                                     Obligated Balance not yet Disbursed                                                158,324                 56,868
                                                                                                                     Subtotal                                                                       $   574,212            $   311,202

                                                                                                                     Adjustment for Non-Budgetary Funds                                                       241                    669
                                                                                                                     Adjustment for Borrowing Authority                                                 (51,510)               (29,810)
                                                                                                                     Adjustment for Intra-Treasury Investments                                            (8,554)                (5,530)
                                                                                                                     Adjustment for Imprest Funds                                                              (4)                    (4)
                                                                                                                     Adjustment for IMF                                                                 (13,513)                 (4,838)
                                                                                                                     Adjustments for Temporary Reduction                                                       30                       0
                                                                                                                     Authority Unavailable for Obligation                                                  3,680                   3,679
                                                                                                                     Total Status of Fund Balance                                                   $   504,582            $   275,368


                                                                                                                     For ESF, the above balances only include unobligated balances related to the ESF insurance program that began in
                                                                                                                     fiscal year 2008, and expired on September 18, 2009. Otherwise, ESF does not have Fund Balance with Treasury.
                                                                                                                     Accordingly, while other ESF balances are included on the Statement of Budgetary Resources (SBR), they are




112                                                                                                                    Note 2. Fund Balance
                                                                                                                          PART 2 • ANNUAL FINANCIAL REPORT
not a component of Fund Balance with Treasury. The ESF balances displayed on the SBR include components of
cash, foreign currency, and other monetary assets (Note 6).

As of September 30, 2009 and September 30, 2008, the Treasury Department did not have any budgetary au-
thority in Fund Balance with Treasury that was specifically withheld from apportionment by OMB. The balances
in non-entity funds, such as certain deposit funds (e.g., seized cash), are being held by the Treasury Department
for the public or for another federal entity, such as the General Fund of the U.S. Government. Such funds have
an offsetting liability equal to fund balance. See Note 14 regarding restrictions related to the line of credit held on
the U.S. Quota in the International Monetary Fund.




                                                                                          Note 2. Fund Balance            113
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     3. LOANS AND INTEREST RECEIVABLE - INTRA-GOVERNMENTAL
                                                                                                                     As of September 30, 2009 and September 30, 2008, intra-governmental loans (issued by the Federal Financing
                                                                                                                     Bank) and interest receivable consisted of the following (in millions):

                                                                                                                     Entity Intra-governmental:
                                                                                                                                                                               Loans        Interest              2009         Loans        Interest             2008
                                                                                                                                                                           Receivable    Receivable               Total    Receivable    Receivable              Total
                                                                                                                     Department of Agriculture                         $       28,438        $     52        $ 28,490      $   26,326         $     50       $ 26,376
                                                                                                                     National Credit Union Administration                      18,384              22          18,406           1,109                0          1,109
                                                                                                                     United States Postal Service                              10,200              37          10,237           7,200                1          7,201
                                                                                                                     General Services Administration                            2,037              36           2,073           2,098               37          2,135
                                                                                                                     Department of Energy                                         908               0             908               0                0              0
                                                                                                                     Department of Housing and Urban Development                  587              71             658             691               84            775
                                                                                                                     Executive Office of the President                            546               6             552             680                8            688
                                                                                                                     Department of Education                                      453               2             455             338                3            341
                                                                                                                     Department of Defense                                          0               0               0              17                0             17
                                                                                                                     Other Agencies                                               12                   0             12            18                   0          18
                                                                                                                     Subtotal-Entity                                   $       61,565        $    226        $ 61,791      $   38,477         $ 183          $ 38,660


                                                                                                                     The FFB issues the above loans to federal agencies for their own use or to private sector borrowers, whose loans
                                                                                                                     are guaranteed by the federal agencies. When a federal agency has to honor its guarantee because a private sector
                                                                                                                     borrower defaults, the federal agency that guaranteed the loan must obtain an appropriation or use other resourc-
                                                                                                                     es to repay the FFB. Loan principal and interest are backed by the full faith and credit of the U.S. Government,
                                                                                                                     except for loans to the U.S. Postal Service. The FFB has not incurred and does not expect to incur any credit-re-
                                                                                                                     lated losses on its loans and accordingly, has not recorded an allowance for uncollectible intra-governmental loans.

                                                                                                                     Non-Entity Intra-governmental:
                                                                                                                                                                           Loans           Interest                           Loans        Interest              2008
                                                                                                                                                                       Receivable       Receivable          2009 Total    Receivable    Receivable               Total
                                                                                                                     Department of Education                       $        234,918      $        12       $ 234,930      $ 128,331       $         0       $ 128,331
                                                                                                                     Department of Agriculture                               55,627                2          55,629         51,192                 9          51,201
                                                                                                                     Department of Homeland Security                         19,004                0          19,004         17,360               359          17,719
                                                                                                                     Small Business Administration                           10,873                0          10,873          9,463                 0           9,463
                                                                                                                     Department of Labor                                      6,371                0           6,371              0                 0               0
                                                                                                                     Other Agencies                                           5,961                1           5,962          3,944                 0           3,944
                                                                                                                     Department of Housing and Urban Development              4,425                0           4,425          4,832                 0           4,832
                                                                                                                     Export Import Bank of the U. S.                          3,805                0           3,805          2,929                 0           2,929
                                                                                                                     Railroad Retirement Board                                3,359               58           3,417          3,096                69           3,165
                                                                                                                     Department of Energy                                     2,131               18           2,149          2,186                20           2,206
                                                                                                                     Department of Veterans Affairs                           1,545                0           1,545          1,575                 0           1,575
                                                                                                                     Department of the Interior                                 316              328             644            323               393             716
                                                                                                                     Federal Communications Commission                           46                0              46            113                 0             113
                                                                                                                     Subtotal Non-Entity                           $        348,381      $       419       $ 348,800      $ 225,344       $       850       $ 226,194
                                                                                                                     Total Intra-governmental Loans and Interest
                                                                                                                     Receivable Entity and Non-Entity                                                      $ 410,591                                        $ 264,854




114                                                                                                                    Note 3. Loans and Interest Receivable - Intra-governmental
                                                                                                                     PART 2 • ANNUAL FINANCIAL REPORT
BPD accounts for and reports on the principal borrowings from and repayments to the General Fund of the
United States for approximately 80 funds managed by other federal agencies, as well as the related interest due to
the General Fund. These agencies are statutorily authorized to borrow from the General Fund, through BPD, to
make loans for a broad range of purposes, such as education, housing, farming, and small business support.




                                        Note 3. Loans and Interest Receivable - Intra-governmental                   115
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     4. DUE FROM THE GENERAL FUND AND DUE TO THE GENERAL FUND
                                                                                                                     The Treasury Department is responsible for managing various assets and liabilities on behalf of the U.S.
                                                                                                                     Government as a whole. Due from the General Fund represents amounts required to fund liabilities managed by
                                                                                                                     Treasury Department on behalf of the U.S. Government. Liabilities managed by the Treasury Department are
                                                                                                                     comprised primarily of the federal debt. Due to the General Fund represents assets held for the General Fund of
                                                                                                                     the U.S. Government.

                                                                                                                     As of September 30, 2009 and September 30, 2008, Due from and Due to the General Fund, included the fol-
                                                                                                                     lowing non-entity assets and liabilities (in millions):

                                                                                                                     Liabilities Requiring Funding from the General Fund:                                  2009                     2008
                                                                                                                      Federal Debt and Interest Payable                                           $    7,559,305           $    5,812,694
                                                                                                                      Federal Debt and Interest Payable - Intra-governmental                           4,403,080                4,262,414
                                                                                                                      Refunds Payable                                                                      4,040                    3,076
                                                                                                                      Adjustment for Eliminated Liabilities                                               26,294                   22,579
                                                                                                                      Total Due from the General Fund                                             $   11,992,719           $   10,100,763


                                                                                                                     Assets to be Distributed to the General Fund:
                                                                                                                      Fund Balance                                                                          $202                   $215
                                                                                                                      Advances to the Black Lung Trust Fund                                                    0                  10,484
                                                                                                                      Advances to the Unemployment Trust Fund                                              7,981                       0
                                                                                                                      Cash Held by the Treasury Department                                               269,311                 364,594
                                                                                                                      Foreign Currency                                                                        26                      31
                                                                                                                      Custodial Gold and Silver held by the U.S. Mint without certificates                    25                      25
                                                                                                                      Loans and Interest Receivable - Intra-governmental                                 348,800                 226,194
                                                                                                                      Loans and Interest Receivable                                                          127                     130
                                                                                                                      Investments in GSEs                                                                 64,679                   7,032
                                                                                                                      Credit Reform Downward Subsidy Reestimate                                          118,139                       0
                                                                                                                      Accounts Receivable - Intra-governmental                                               285                     372
                                                                                                                      Tax and Other Non-Entity Receivables                                                30,353                  30,489
                                                                                                                      Beneficial Interest in Trust                                                        23,472                       0
                                                                                                                      Miscellaneous Assets                                                                     3                      12
                                                                                                                      Adjustment for Eliminated Assets                                                   399,725                  27,534
                                                                                                                      Total Due to the General Fund                                               $    1,263,128           $     667,112



                                                                                                                     The Adjustment for Eliminated Intra-Treasury liabilities mainly represents investments in U.S. Government
                                                                                                                     securities held by Treasury reporting entities that were eliminated against Federal Debt and Interest Payable. The
                                                                                                                     Adjustment for Eliminated Intra-Treasury assets mainly represents loans and interest payable owed by Treasury
                                                                                                                     reporting entities, which were eliminated against Loans and Interest Receivable held by the BPD.

                                                                                                                     The non-entity Credit Reform Downward Subsidy Reestimates represents amounts for the downward subsidy
                                                                                                                     reestimates for the Treasury’s discretionary GSE MBS Credit Program Receivables ($8,392 million) and TARP
                                                                                                                     Direct Loan, Equity Investments and Asset Guarantees ($109,747 million). Downward subsidy reestimates
                                                                                                                     indicates that too much subsidy will be or has been paid to the credit reform financing account. Because these




116                                                                                                                     Note 4. Due from the General Fund and Due to the General Fund
                                                                                                                       PART 2 • ANNUAL FINANCIAL REPORT
credit programs are discretionary, the downward reestimates are not available to Treasury and they are returned to
the U.S. Government General Fund Receipt Account (GFRA) in the fiscal year following the accrual of the rees-
timates. Generally, during the year, these GFRAs contain prior year reestimates. At year-end, the prior year funds
are “swept” by the General Fund. Since fiscal year 09 is the first year Treasury has reported reestimates there were
no prior year balances in the GFRAs. Also at year-end, the Treasury accrues the current year’s reestimates, includ-
ing downward reestimates as applicable. For the downward reestimates, in the loan financing funds, the Treasury
records an inter-governmental accrual adjustment that records a transfer out to the non-entity fund, a reduction
of subsidy allowance or loan guarantee liability, and an account payable to the GFRA non-entity fund. In the loan
program funds, the Treasury records a reduction of loan subsidy expense and the associated impact on the net
cost. The non-entity GFRAs contain a corresponding inter-governmental account receivable in anticipation of the
receipt of the downward reestimates in the following year and a Downward Reestimate Liability for Non-Entity
Asset due to the general fund. For consolidated financial statement presentation, Treasury is required to eliminate
the financing fund’s inter-governmental payable due to the GFRA and the GFRA’s inter-governmental receivable
due from the financing funds; since both are included in Treasury reporting entity. The Downward Reestimate
Liability for Non-Entity Asset Due to the General Fund is reflected on the Balance Sheet’s intra-governmental
liability Due to the General Fund line.

On the Balance Sheet, the Treasury Department reported $30,408 million in Tax, Other, and Related Interest
Receivables as of September 30, 2009 ($30,878 million as of September 30, 2008). However, only $30,353
million is reported as Due to the General Fund of the U.S. Government ($30,489 million as of September 30,
2008). The difference is attributable to the exclusion of amounts which will be paid to others outside the U.S.
Government, and miscellaneous entity receivables (see Notes 5 and 15).




                                  Note 4. Due from the General Fund and Due to the General Fund                        117
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     5. ACCOUNTS RECEIVABLE AND RELATED INTEREST—INTRA-GOVERNMENTAL
                                                                                                                     Intra-governmental accounts receivable and interest mainly represents non-entity payments made by the Treasury
                                                                                                                     Department under the Contract Disputes Act ($285 million of the $298 million and $368 million of the $396
                                                                                                                     million displayed on the balance sheet for 2009 and 2008, respectively). Other federal agencies are required to
                                                                                                                     reimburse the Treasury Department for payments made on their behalf, related to the Contract Disputes Act and
                                                                                                                     the No Fear Act. These amounts are a receivable on the Treasury Department’s books, specifically the Financial
                                                                                                                     Management Service, and a payable on the other federal agencies' books until reimbursement is made. The
                                                                                                                     remaining amount displayed as intra-governmental accounts receivable and interest is related to miscellaneous
                                                                                                                     intra-governmental transactions.  




118                                                                                                                    Note 5. Accounts Receivable and Related Interest—Intra-governmental
                                                                                                                         PART 2 • ANNUAL FINANCIAL REPORT
6. CASH, FOREIGN CURRENCY, AND OTHER MONETARY ASSETS
Cash, foreign currency, and other monetary assets held as of September 30, 2009 and September 30, 2008 were as
follows (in millions):

Entity:                                                                                 2009                     2008
    Cash                                                                         $        23              $        19
    Foreign Currency and Foreign Currency Denominated Assets                          13,701                   12,758
    Other Monetary Assets:
          Special Drawing Rights                                                      57,961                    9,464
          Other                                                                           44                       88
Subtotal - Entity                                                                $    71,729              $    22,329


Non-Entity:
    Operating Cash of the U.S. Government                                        $   269,052              $   364,273
    Foreign Currency                                                                      26                       31
    Miscellaneous Cash held by all Treasury sub-components                               501                      637
Subtotal - Non-Entity                                                            $   269,579              $   364,941
Total Cash, Foreign Currency, and Other Monetary Assets                          $   341,308              $   387,270


Non-entity Operating Cash and Other Cash of the U.S. Government held by the Treasury Department disclosed
above consisted of the following (in millions):

                                                                                        2009                     2008
Operating Cash of the U.S. Government                                            $     2,063              $    39,209
Operating Cash - Federal Reserve Bank Account                                        273,269                  332,480
Subtotal                                                                         $   275,332              $   371,689
Outstanding Checks                                                                    (6,280)                  (7,416)
Total Operating Cash of the U.S. Government                                      $   269,052              $   364,273
Other Cash                                                                                366                      386
Subtotal                                                                         $   269,418              $   364,659
Amounts Due to the Public                                                               (107)                     (65)
Total Cash Due to the General Fund (See Note 4)                                  $   269,311              $   364,594



Entity
Entity cash, foreign currency, and other monetary assets primarily include Foreign Currency Denominated Assets
(FCDA), Special Drawing Rights (SDR), and forfeited cash. SDR and FCDA are valued as of September 30,
2009 and September 30, 2008, using current exchange rates plus accrued interest. “Other” includes U.S. dol-
lars restricted for use by the International Monetary Fund (IMF), which are maintained in two accounts at the
FRBNY.
The foreign currency holdings are normally invested in interest bearing securities issued by or held through for-
eign governments or monetary authorities. FCDA with original maturities of three months or less, were valued at
$8.7 billion as of September 30, 2009 ($9.3 billion as of September 30, 2008). Other FCDAs having terms of less
than or equal to a year but greater than three months are classified as available for sale. As of September 30, 2009,




                                                  Note 6. Cash, Foreign Currency, and Other Monetary Assets              119
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     FCDA with maturities greater than three months were valued at $2.4 billion ($3.5 billion as of September 30,
                                                                                                                     2008).

                                                                                                                     The SDR are international reserve assets created by the IMF. They were created as a supplement to existing reserve
                                                                                                                     assets and on several occasions SDR have been allocated by the IMF to members participating in the IMF’s SDR
                                                                                                                     department. The SDR derives their value as reserve assets, essentially, from the commitments of participants to
                                                                                                                     hold and accept SDR and to honor various obligations connected with their proper functioning as a reserve asset.

                                                                                                                     The Special Drawing Rights Act of 1968 authorizes the Secretary of the Treasury Department to issue certificates,
                                                                                                                     not to exceed the value of SDR holdings, to the Federal Reserve Banks in return for interest free dollar amounts
                                                                                                                     equal to the face value of certificates issued. The certificates may be issued for the purpose of financing the
                                                                                                                     acquisition of SDR from other countries or to provide resources for financing exchange stabilization activities.
                                                                                                                     Certificates issued are to be redeemed by the Treasury Department at such times and in such amounts as the
                                                                                                                     Secretary of the Treasury Department may determine. As of September 30, 2009, the value of the certificates
                                                                                                                     issued to Federal Reserve Banks amounted to $5.2 billion ($2.2 billion as of September 30, 2008).

                                                                                                                     On a daily basis, the IMF calculates the value of the SDR using the market value, in terms of the U.S. dollar,
                                                                                                                     from the amounts of each of four freely usable weighted currencies, as defined by the IMF. These currencies are
                                                                                                                     the U.S. dollar, the European euro, the Japanese yen, and the British pound sterling. Treasury Department’s SDR
                                                                                                                     holdings (assets resulting from various SDR related activities including remuneration received on interest earned
                                                                                                                     on the U.S. reserve position – see Note 14) and allocations from the IMF (liabilities of the U.S. coming due only
                                                                                                                     in the event of a liquidation of, or U.S. withdrawal from the SDR department of the IMF, or cancellation of
                                                                                                                     SDR) are revalued monthly based on the SDR valuation rate calculated by the IMF.

                                                                                                                     Pursuant to the IMF Articles of Agreement, SDR allocated to or otherwise acquired by the United States are
                                                                                                                     permanent resources unless:
                                                                                                                        a.	 cancelled by the Board of Governors based on an 85 percent majority decision of the total voting power of
                                                                                                                            the Executive Board of the IMF
                                                                                                                        b.	the SDR Department of the IMF is liquidated
                                                                                                                        c.	 the IMF is liquidated or
                                                                                                                        d.	the United States chooses to withdraw from the IMF or terminate its participation in the SDR Department.

                                                                                                                     Except for the payment of interest and charges on SDR allocations to the United States, the payment of the
                                                                                                                     Treasury Department’s commitment related to SDR allocations is conditional on events listed above, in which
                                                                                                                     the United States has a substantial or controlling voice. Allocations of SDR were made in 1970, 1971, 1972,
                                                                                                                     1979, 1980, and 1981, and 2009. On August 28, 2009, the ESF received 27.5 billion SDRs (equivalent of $43
                                                                                                                     billion in U.S.) as the U.S. share of a general allocation from the IMF. On September 9, 2009, the ESF received
                                                                                                                     2.9 billion SDRs (equivalent of $4.5 billion in U.S.) as the U.S. share of a special allocation from the IMF. As of
                                                                                                                     September 30, 2009, the amount of SDR holdings and related accruals of the United States was the equivalent of
                                                                                                                     $ 57.9 billion, and the amount of SDR allocations to the United States was the equivalent of $ 55.9 billion. As of
                                                                                                                     September 30, 2008, the amount of SDR holdings and related accruals of the United States was the equivalent of
                                                                                                                     $ 9.4 billion and the amount of SDR allocations to the United States was the equivalent of $7.6 billion.

                                                                                                                     In fiscal year 2009, Treasury entered into a voluntary arrangement with the IMF for the purpose of providing ad-
                                                                                                                     ditional hard currency liquidity to certain countries. The voluntary arrangement allows Treasury to purchase up to



120                                                                                                                    Note 6. Cash, Foreign Currency, and Other Monetary Assets
                                                                                                                       PART 2 • ANNUAL FINANCIAL REPORT
approximately 16 billion SDRs. As of September 30, 2009 and September 30, 2008, the value of SDR allocations
was the equivalent of $55.9 and $7.6 billion, respectively.

During fiscal year 2009, the Treasury Department received remuneration on the U.S. reserve position in the IMF,
at the prevailing rates, in the amount of $39.6 million equivalent of SDR ($59 million equivalent of SDR during
fiscal year 2008), and paid the General Fund of the Federal Government $0.0038 million ($0.01 million in fiscal
year 2008) in interest on these funds until they were transferred to the General Fund.

Securities Purchased Under Agreement to Resell are issued in book entry form and denominated in Euro, and
issued or guaranteed in full by Belgium, France, Germany, Italy, the Netherlands and Spain. Maturities of the
Securities will not exceed 10.5 years. The duration of individual repo transactions will not exceed 90 days. These
agreements are generally treated as collateralized financial transactions and are carried at amounts at which the
securities were acquired. ESF has $2.6 billion securities which are pledged on behalf of their fiscal agent, Federal
Reserve Bank of New York (FRBNY). The fair value of such securities is monitored throughout the contract term
to insure that asset values remain sufficient to protect against counterparty default.

Non-Entity
Non-entity cash, foreign currency, and other monetary assets include the Operating Cash of the U.S.
Government, managed by the Treasury Department. Also included is foreign currency maintained by various U.S.
and military disbursing offices. It also includes seized monetary instruments, undistributed cash, and offers in
compromises which are maintained as the result of the Treasury Department’s tax collecting responsibilities.

The Operating Cash of the U.S. Government represents balances from tax collections, other revenues, federal
debt receipts, and other various receipts net of checks outstanding, which are held in the Federal Reserve Banks,
foreign and domestic financial institutions, and in U.S. Treasury tax and loan accounts at commercial banks.
Operating Cash of the U.S. Government is either insured (for balances up to $250,000), as of September 30,
2009, by the FDIC or collateralized by securities pledged by the depository institutions and held by the Federal
Reserve Banks, or through securities held under reverse repurchase agreements.

The Supplementary Financing Program (SFP) is a temporary program announced on September 17, 2008, by
Treasury and the Federal Reserve, to provide emergency cash for Federal Reserve initiatives aimed at addressing
the ongoing crisis in financial markets. At the height of this program's activity, during the week of November 6,
2008, there were a total of 15 cash management bills outstanding that totaled $560 billion. As of September 30,
2009, there were a total of five SEP cash management bills outstanding that totaled $165 billion. The decrease is
a result of outstanding SFP bills that have matured and have not been reinvested in the program. On September
16, 2009, Treasury announced its intention to reduce the balance to $15 billion in the short run to preserve flex-
ibility in the conduct of debt management policy.




                                         Note 6. Cash, Foreign Currency, and Other Monetary Assets                     121
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     7. GOLD AND SILVER RESERVES, AND GOLD CERTIFICATES ISSUED
                                                                                                                        TO THE FEDERAL RESERVE BANKS
                                                                                                                     The Treasury Department is responsible for safeguarding most of the U.S. Government’s gold and silver reserves
                                                                                                                     in accordance with 31 USC 5117. The Consolidated Balance Sheets also reflect the value of the gold being held in
                                                                                                                     the FRBNY.

                                                                                                                     Gold reserves being held by the Treasury Department are offset by a liability for gold certificates issued by the
                                                                                                                     Secretary of the Treasury Department to the Federal Reserve Banks as provided in 31 USC 5117. Since 1934,
                                                                                                                     Gold Certificates have been issued in non-definitive or book-entry form to the Federal Reserve Banks. The
                                                                                                                     Treasury Department’s liability incurred by issuing the Gold Certificates is limited to the gold being held by
                                                                                                                     the Treasury Department at the legal standard value established by law. Upon issuance of Gold Certificates to
                                                                                                                     the Federal Reserve Banks, the proceeds from the certificates are deposited into the operating cash of the U.S.
                                                                                                                     Government. All of the Treasury Department’s certificates issued are payable to the Federal Reserve Banks.

                                                                                                                     The deep storage gold and silver reserves are reported at the values stated in 31 U. S. C. §§ 5116 – 5117 (statu-
                                                                                                                     tory rates) which are $42.2222 per fine troy ounce (FTO) of gold and no less than $1.292929292 per FTO of
                                                                                                                     silver. Accordingly, the silver is valued at $1.292929292 per FTO. The gold and silver reserves are in the custody
                                                                                                                     of the U.S. Mint and FRBNY. The U.S. Mint holds gold and silver reserves without certificates (See Note 4).
                                                                                                                     As of September 30, 2009 and September 30, 2008, the gold and silver reserves consisted of the following (in
                                                                                                                     millions):

                                                                                                                                                                                                      9/30/09                       9/30/09
                                                                                                                                                                                   Statutory        Statutory        Market         Market
                                                                                                                                                                   FTOs                Rate            Value          Rate           Value
                                                                                                                     Gold                                    248,046,116     $       42.2222    $     10,473     $   995.75     $ 246,992
                                                                                                                     Gold Held by Federal Reserve Banks       13,452,784            $42.2222             568     $   995.75        13,396
                                                                                                                     Subtotal - Gold                         261,498,900                        $     11,041                    $ 260,388
                                                                                                                     Silver                                   16,000,000     $ 1.292929292                21     $    16.45           263
                                                                                                                     Total Gold and Silver Reserves                                             $     11,062                    $ 260,651


                                                                                                                                                                                                      9/30/08                       9/30/08
                                                                                                                                                                                   Statutory        Statutory        Market         Market
                                                                                                                                                                   FTOs                Rate            Value          Rate           Value
                                                                                                                     Gold                                    248,046,116     $       42.2222    $     10,473     $   884.50     $ 219,397
                                                                                                                     Gold Held by Federal Reserve Banks       13,452,784             42.2222             568     $   884.50        11,899
                                                                                                                     Subtotal - Gold                         261,498,900                        $     11,041                    $ 231,296
                                                                                                                     Silver                                   16,000,000         1.292929292              21     $    12.96           207
                                                                                                                     Total Gold and Silver Reserves                                             $     11,062                    $ 231,503




122                                                                                                                    Note 7. Gold and Silver Reserves, and Gold Certificates Issued
                                                                                                                           PART 2 • ANNUAL FINANCIAL REPORT
8. INVESTMENTS – CREDIT REFORM AND ASSET GUARANTEE
The Federal Credit Reform Act of 1990 (FCRA) and associated FASAB accounting standard SFFAS No. 2, as
amended, governs direct loans and asset guarantees made after fiscal year 1991. FCRA loans are valued at the
present value of expected future cash flows, discounted at the interest rate of marketable Treasury securities. The
subsidy allowance account represents the difference between the outstanding loan receivables balance and the net
present value of the estimated cash flows of the loans over their remaining term. The subsidy allowance is sub-
tracted from the outstanding loans receivable balance to obtain the net loans receivable balance.

Under the provisions of the EESA, Treasury implemented the TARP which resulted in the development of
several equity investment programs and transactions including: the Capital Purchase Program; the American
International Group, Inc. Investment Program (formerly known as Systemically Significant Failing Institution
Program); the Targeted Investment Program; the Automotive Industry Investment Program; the Public-Private
Investment Program; and the Asset Guarantee Program.

Treasury applies the provisions of SFFAS No. 2 to account for equity investments (including asset guarantees).
This standard requires measurement of the asset or liability at the present value of the estimated future cash-
flows. The cash flow estimates for each equity investment transaction reflect the actual structure of the instru-
ments. Analytical cash flow models generate estimated cash flows to and from Treasury over the estimated term
of the facility. Further, each cash-flow model reflects the specific terms and conditions of the program, technical
assumptions regarding the underlying assets, risk of default or other losses, and other factors as appropriate. The
models also incorporate an adjustment for market risk to reflect the additional return required by the market to
compensate for variability around the expected losses reflected in the cash flows (the “unexpected loss”). The basic
methods for these models as well as a description of each equity investment program are outlined below.

Equity Investments
Preferred stock cash flows are projected using an analytical model developed to incorporate the risk of losses
associated with adverse events, such as failure of the institution or increases in market interest rates. The model
estimates how cash flows vary depending on 1) current interest rates, which may affect the decision whether to
repay the preferred stock; and 2) the strength of a financial institution’s assets. Inputs to the model include institu-
tion specific accounting data obtained from regulatory filings; an institution’s stock price volatility, historical bank
failure information as well as market prices of comparable securities trading in the market. Treasury estimates the
values and projects the cash flows of warrants using an option-pricing approach based on the current stock price
and its volatility. Investments in common stock which are exchange traded is valued at the market price. The
result of using market prices, either quoted prices for the identical asset or quoted prices for comparable assets, is
that the equity investments are recorded at estimated fair value.

Asset Guarantees
The value of the asset guarantee reflect the net present value of estimated default-claim payments by the
Government, net of income from recoveries on defaults, fees, or other income. Guarantee fees to date have been
paid in the form of preferred stock subsequently converted to trust preferred stocks and a warrant to purchase
common stock of the financial institution, whose value is modeled using the same methodology for other equity
purchase programs, discussed above. Default-claim payments are based on estimated losses on the guaranteed




                                                                       Note 8. Investments – Credit Reform                 123
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     assets. Key inputs into these estimates are forecasted gross domestic product, unemployment rates and home price
                                                                                                                     depreciation, in a base scenario and a stress scenario.

                                                                                                                     Subsidy Cost
                                                                                                                     The recorded subsidy cost of a direct loan, equity investment or asset guarantee is based on a set of estimated
                                                                                                                     future cash flows. Government actions that change these estimated future cash flows change subsidy costs and
                                                                                                                     are recorded as a modification. The cost of a modification is recognized as a modification expense, included in
                                                                                                                     subsidy cost, when the direct loan, equity investment, or asset guarantee is modified. During fiscal year 2009,
                                                                                                                     modifications occurred within the Capital Purchase Program, Consumer and Business Lending Initiative, the AIG
                                                                                                                     Investment Program, and the Automotive Industry Financing Program. See detailed discussion related to each
                                                                                                                     program and related modifications below. Total net modification costs for the period ended September 30, 2009
                                                                                                                     approximated $412.1 million.


                                                                                                                     CAPITAL PURCHASE PROGRAM (CPP)
                                                                                                                     In October 2008, Treasury began implementation of the TARP with the Capital Purchase Program (CPP), de-
                                                                                                                     signed to stabilize the financial system by assisting in building the capital base of certain viable U.S. financial insti-
                                                                                                                     tutions to increase the capacity of those institutions to lend to businesses and consumers and support the economy.
                                                                                                                     Under this program, Treasury purchases senior perpetual preferred stock from qualifying U.S. controlled banks,
                                                                                                                     savings associations, and certain bank and savings and loan holding companies (Qualified Financial Institution
                                                                                                                     or QFI). The senior preferred stock has a stated dividend rate of 5.0 percent through year five, increasing to 9.0
                                                                                                                     percent in subsequent years. The dividends are cumulative for bank holding companies and subsidiaries of bank
                                                                                                                     holding companies and non-cumulative for others and payable when and if declared by the institution’s board of
                                                                                                                     directors. Under the original terms of the senior preferred stock, the QFI may not redeem the shares within the
                                                                                                                     first three years of the date of the investment, unless it has received the proceeds of one or more Qualified Equity
                                                                                                                     Offerings (QEOs)1 which results in aggregate gross proceeds to the QFI of not less than 25.0 percent of the issue
                                                                                                                     price of the senior preferred shares. QFIs that are Sub-chapter S Corporations issued subordinated debt in order to
                                                                                                                     maintain compliance with the Internal Revenue Code. The maturity of the subordinated debentures is 30 years and
                                                                                                                     interest rates are 7.7 percent for the first 5 years and 13.8 percent for the remaining years.

                                                                                                                     In February 2009 and May 2009, the United States Congress passed the American Recovery and Reinvestment Act
                                                                                                                     of 2009 and the Helping Families Save Their Homes Act of 2009, respectively. These acts contained amendments to
                                                                                                                     the EESA (EESA Amendments) which require the Secretary to allow QFIs to repay at any time, subject to regula-
                                                                                                                     tory approval, regardless of whether the 25.0 percent or greater QEO was accomplished. The ability of a QFI to
                                                                                                                     repay the Treasury investment prior to year 3 or a 25.0 percent QEO was not considered in the original subsidy
                                                                                                                     cost estimate. Therefore, a modification cost of $77.7 million was recorded as a result of these amendments.

                                                                                                                     In addition to the senior preferred shares, Treasury received warrants as required by section 113(d) of EESA from
                                                                                                                     public QFIs to purchase a number of shares of common stock. The warrants have an aggregate market price equal
                                                                                                                     to 15.0 percent of the total senior preferred share investment. The exercise price and market value used to deter-
                                                                                                                     mine the number of shares of common stock subject to the warrant was calculated based on the average of closing
                                                                                                                     prices of the common stock on the 20 trading days ending on the last day prior to the date the QFIs application


                                                                                                                     1	    A Qualified Equity Offering is defined as the sale by the QFI after the date of the senior preferred stock investment of Tier 1 perpetual
                                                                                                                           preferred stock or common stock for cash.




124                                                                                                                       Note 8. Investments – Credit Reform
                                                                                                                       PART 2 • ANNUAL FINANCIAL REPORT
was preliminarily approved for participation in the program. The warrants include customary anti-dilution provi-
sions. In the event that a public QFI completes, prior to December 31, 2009, one or more QEOs with aggregate
gross proceeds of not less than 100.0 percent (100.0 percent QEO) of the senior perpetual preferred stock invest-
ment, the number of shares subject to the warrants will be reduced by 50.0 percent. As of September 30, 2009,
19 QFIs reduced the number of shares available under the warrants as a result of this provision. The warrants have
a 10 year term. The Treasury may exercise one half of the warrants prior to the earlier of a 100.0 percent QEO, or
December 31, 2009. Subsequent to December 31, 2009, Treasury may exercise any warrants held in whole or in
part. Treasury considers the impact of potential future QEOs in the valuation process.

The Treasury received warrants from non-public QFIs for the purchase of additional senior preferred stock (or
subordinated debentures, if appropriate) with a stated dividend rate of 9.0 percent (13.8 percent interest rate
for subordinate debentures) and a liquidation value equal to 5.0% of the total senior preferred share (additional
subordinate debenture) investment. These warrants were immediately exercised and resulted in Treasury holding
additional senior preferred stock (subordinated debentures) (collectively referred to as “warrant preferred stock”)
of non-public QFIs. The Treasury did not receive warrants from banks considered Community Development
Financial Institutions (CDFIs). As of September 30, 2009, Treasury has invested in 20 institutions considered
CDFIs. The EESA Amendments previously discussed also allows the Secretary to liquidate warrants associated
with repurchased senior preferred stock at the market price. In addition, a QFI, upon the repurchase of its senior
preferred stock, also has the contractual right to repurchase the common stock warrants at the market price.

In June 2009, Treasury entered into an exchange agreement with Citigroup. Under the terms of the agreement,
Treasury exchanged $25,000 million of its investment in senior preferred stock for a new series (Series M) of
mandatorily convertible preferred stock. The initial conversion price was $3.25 per share. In July 2009, Treasury
received the Series M shares, which were subsequently converted in September 2009 to approximately 7,700
million common shares of Citigroup. This exchange transaction was not considered in the original subsidy cost
estimate for CPP. As a result, Treasury recorded a modification cost of approximately $1,866 million for the fiscal
year ended 2009. The Treasury also has investments in Citigroup through the Targeted Investment Program (TIP)
and Asset Guarantee Program (AGP).

During the period ending September 30, 2009, Treasury has invested approximately $204,619 million in 685
institutions, including small, community, regional, and national banks, as well as CDFIs, in 48 states, the District
of Columbia, and Puerto Rico. Approximately $70,718 million of Treasury investments have been repurchased
or redeemed bringing the total gross investment balance as of September 30, 2009 to approximately $133,901
million. In addition, during the period ending September 30, 2009, Treasury received under CPP approximately
$6,800 million in dividends on senior preferred and warrant preferred stock and approximately $2,900 million in
proceeds from the repurchase of warrants and warrant preferred shares. Thirty-eight QFIs have not declared and
paid one or more dividends to Treasury under CPP as of September 30, 2009.

Further details on the outstanding senior preferred stock investments and subordinated debentures under CPP
and the net investment amount including estimated cash flows associated with the sale or exercise of the warrants,
as of September 30, 2009, are presented in the table at the end of this section.




                                                                     Note 8. Investments – Credit Reform               125
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     AMERICAN INTERNATIONAL GROUP, INC. (AIG)
                                                                                                                     Treasury provides assistance to certain systemically significant financial institutions on a case-by-case basis in order
                                                                                                                     to provide stability to institutions that are critical to a functioning financial system and are at substantial risk of
                                                                                                                     failure as well as to prevent broader disruption to financial markets.

                                                                                                                     In November 2008, Treasury invested $40,000 million in AIG’s Cummulative Series D perpetual cumulative
                                                                                                                     preferred stock with a dividend rate of 10.0 percent compounded quarterly. On April 17, 2009, AIG and Treasury
                                                                                                                     restructured their November 2008 agreement. Under the restructuring, Treasury exchanged $40,000 million of
                                                                                                                     cumulative Series D preferred stock for $41,603 million of non-cumulative 10.0 percent Series E preferred stock.
                                                                                                                     The amount of Series E preferred stock is equal to the original $40,000 million, plus approximately $733.0 mil-
                                                                                                                     lion in undeclared dividends as of the February 1, 2009 scheduled quarterly dividend payment date, $15.0 mil-
                                                                                                                     lion in dividends compounded on the undeclared dividends, and an additional $855.0 million in dividends from
                                                                                                                     February 1, 2009, but not paid as of April 17, 2009. AIG’s restructured agreement kept the quarterly dividend
                                                                                                                     payment dates of May 1, August 1, November 1, and February 1, as established by the original November 2008
                                                                                                                     agreement. The original subsidy cost estimate did not consider this restructuring which resulted in a modification
                                                                                                                     cost of $127.2 million.

                                                                                                                     In addition to the exchange, Treasury agreed to make available an additional $29,800 million capital facility to al-
                                                                                                                     low AIG to draw additional funds if needed to assist in AIG’s restructuring. Treasury investment consists of Series
                                                                                                                     F non-cumulative perpetual preferred stock with an initial liquidation amount of $0.0. This liquidation amount
                                                                                                                     increases with any drawdown by AIG on the facility. The dividend rate applicable to these stock is 10.0 percent
                                                                                                                     and is payable quarterly, if declared, on the outstanding liquidation amount. As of September 30, 2009, ap-
                                                                                                                     proximately $3,200 million has been funded by Treasury to AIG under this additional capital facility. Consistent
                                                                                                                     with SFFAS No. 2, the unused portion of the AIG capital facility is not recognized as an asset as of September 30,
                                                                                                                     2009.

                                                                                                                     As of September 30, 2009, AIG has not made any dividend payments on any of the perpetual preferred stock.
                                                                                                                     Subsequently, AIG failed to make a dividend payment on November 2, 2009. Per the terms of the preferred
                                                                                                                     stock, if AIG misses 4 dividend payments, Treasury may appoint to the AIG board of directors the greater of two
                                                                                                                     members or 20.0 percent of the total number of directors of the Company.


                                                                                                                     TARGETED INVESTMENT PROGRAM (TIP)
                                                                                                                     The Targeted Investment Program (TIP) was designed to prevent a loss of confidence in financial institutions that
                                                                                                                     could result in significant market disruptions, threatening the financial strength of similarly situated financial
                                                                                                                     institutions, impairing broader financial markets, and undermining the overall economy. Treasury considers insti-
                                                                                                                     tutions as candidates for the TIP on a case-by-case basis, based on a number of factors described in the program
                                                                                                                     guidelines. These factors include the threats posed by destabilization of the institution, the risks caused by a loss of
                                                                                                                     confidence in the institution, and the institution’s importance to the nation’s economy.

                                                                                                                     Treasury completed the first transaction under the TIP in December 2008, when it invested $20,000 million in
                                                                                                                     Citigroup cumulative perpetual preferred stock and received a warrant for the purchase of Citigroup common
                                                                                                                     stock. Under the agreement with Citigroup, Treasury receives an 8.0 percent annual dividend, payable quarterly,
                                                                                                                     if and when declared by Citigroups’ Board of Directors. As part of this agreement, Citigroup must implement
                                                                                                                     rigorous compensation standards and other restrictions on corporate expenditures. In June 2009, Treasury and




126                                                                                                                    Note 8. Investments – Credit Reform
                                                                                                                                              PART 2 • ANNUAL FINANCIAL REPORT
Citigroup agreed to an exchange of the cumulative perpetual preferred stock issued under the TIP for a new
series of trust preferred securities. Citigroup issued subordinated debentures to a trust established by Citigroup,
and the trust issued trust preferred securities to Treasury. Interest and principal payments on the subordinated
debentures are passed-through to the trust preferred security holders. The trust preferred securities pay a quarterly
distribution at an annual rate of 8.0 percent to Treasury. The subordinated debentures contains an interest deferral
provision allowing Citigroup to defer payment of interest for up to 5 years. Treasury will not receive distributions
from the trust preferred securities during a deferral period. Deferred interest is required to be paid upon termina-
tion of the deferral period. The subordinated debentures will mature in 2039. As a result, the trust is scheduled to
pay out the proceeds to the holders of the trust preferred securities. In addition, the subordinate debentures can
be prepaid by Citigroup at any time prior to maturity, subject to consultation with the Federal Reserve, as long
as the U.S. Government holds the trust preferred securities. The terms of the new securities are substantially the
same as the preferred share originally received by Treasury and therefore the exchange transaction did not result in
a modification. Treasury has investments in Citigroup through the CPP and the Asset Guarantee Program (AGP).

In January 2009, Treasury completed its second transaction under the TIP, investing $20,000 million in Bank of
America. Under the agreement with Bank of America, Treasury purchased $20,000 million of cumulative per-
petual preferred stock and received a warrant for the purchase of Bank of America common stock. The preferred
stock purchased from Bank of America contains a stated annual dividend rate of 8.0 percent, payable quarterly,
if declared. Bank of America’s agreement under the TIP stipulates that the institution must implement rigorous
executive compensation standards and other restrictions on corporate expenditures. Treasury also has investments
in Bank of America through the CPP. (See Note 33.)

During the period ending September 30, 2009, Treasury received approximately $1,900 million in dividends
under the TIP.


AUTOMOTIVE INDUSTRY FINANCING PROGRAMS (AIFP)
The objective of the Automotive Industry Financing Program was to prevent a significant disruption of the
American automotive industry, which could have a negative effect on the economy of the United States. The
discussion below details the various investments made by the Treasury in the automotive industry.2

GMAC Preferred Stock
In December 2008, the Treasury purchased preferred membership interest for $5,000 million which were con-
verted to senior preferred stock with an 8.0 percent annual distribution right (dividends) from GMAC. Under
the agreement, GMAC issued warrants to Treasury to purchase, for a nominal price, additional preferred equity in
an amount equal to 5.0 percent of the preferred equity purchased. These warrants were exercised at closing of the
investment transaction. The additional preferred stock provided for a 9.0 percent annual distribution right. The
purpose of this investment was to enable GMAC to restore liquidity to its finance businesses and restore stabil-
ity to the domestic automobile industry in the United States. As of September 30, 2009, Treasury has received
$265.2 million in dividends associated with these preferred and warrant preferred stock.




2	   Included in the TARP Direct Loans net, are equity interests acquired during the restructuring of GM and Chrysler. These equity amounts
     are included with the original loans portfolio in Note 12.




                                                                                   Note 8. Investments – Credit Reform                        127
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     GMAC Mandatorily Convertible Preferred Stock
                                                                                                                     In May 2009, the Treasury published a non-binding term sheet to invest $13,140 million to support GMAC,
                                                                                                                     subject to definitive documentation and GMAC’s capital needs. The Treasury has invested $7,500 million (of the
                                                                                                                     $13,140 million) in 9.0 percent Mandatorily Convertible Preferred Stock in GMAC to support its ability to origi-
                                                                                                                     nate new loans to Chrysler dealers and consumers, and help address GMAC’s capital needs. The preferred stock
                                                                                                                     have a liquidation amount of $50 per share and are convertible, in whole or in part, at any time, at the option of
                                                                                                                     GMAC, subject to the approval of the Federal Reserve. Furthermore, GMAC shall not convert any of the stock
                                                                                                                     to the extent such conversion would result in the Treasury owning in excess of 49 percent of GMAC’s common
                                                                                                                     equity except (1) with the prior written consent of the Treasury, (2) pursuant to GMAC’s Capital Plan, or (3)
                                                                                                                     pursuant to an order of the Federal Reserve compelling such a conversion. The determination of the percentage
                                                                                                                     of common equity owned by the Treasury would take into account the common stock currently owned by the
                                                                                                                     Treasury as a result of the conversion of the GMAC Rights Offering, previously discussed. Absent a previous
                                                                                                                     conversion, the preferred stock will automatically convert after 7 years. The conversion rate is .00432 units of
                                                                                                                     common stock per unit of convertible preferred stock. The remaining $5,600 million (per the non-binding term
                                                                                                                     sheet) is subject to FRB’s review of GMAC’s capital plan assessment of whether additional capital is needed. As of
                                                                                                                     September 30, 2009, the remaining $5,600 million has not been funded. The Treasury has received approximately
                                                                                                                     $165.4 million in dividends associated with these preferred and warrant preferred stock.


                                                                                                                     PUBLIC-PRIVATE INVESTMENT PARTNERSHIP (PPIP) EQUITY
                                                                                                                     The Public-Private Investment Program is part of Treasury’s efforts to help restart the markets and provide liquid-
                                                                                                                     ity for legacy assets. Under this program Treasury will make equity and debt investments in investment vehicles
                                                                                                                     (referred to as Public Private Investment Funds or “PPIFs”) established by private investment managers. The
                                                                                                                     equity investment will be used to match private capital and will equal not more than 50.0 percent of the total
                                                                                                                     equity invested. The debt investment will be, at the option of the investment manager, equal to 50.0 percent or
                                                                                                                     100.0 percent of the total equity (including private equity). The PPIFs are only allowed to purchase commercial
                                                                                                                     mortgage-backed securities and non-agency residential mortgage-backed securities issued prior to January 1,
                                                                                                                     2009 that were originally rated AAA or an equivalent rating by two or more nationally recognized statistical
                                                                                                                     rating organizations without external credit enhancement and that are secured directly by the actual mortgage
                                                                                                                     loans, leases or other assets and not other securities. The PPIFs are also permitted to invest in certain temporary
                                                                                                                     securities, including bank deposits, U.S. Treasury Securities, and certain money market mutual funds. At least 90
                                                                                                                     percent of the assets underlying any eligible asset must be situated in the United States. On September 30, 2009,
                                                                                                                     Treasury signed definitive agreements with two investment managers, committing to potentially disburse up to
                                                                                                                     $6,700 million. As of September 30, 2009, no private fund managers had made any investments and Treasury
                                                                                                                     had not disbursed any funds.


                                                                                                                     ASSET GUARANTEE PROGRAM (AGP)
                                                                                                                     The AGP provides guarantees for assets held by systemically significant financial institutions that face a risk
                                                                                                                     of losing market confidence due in large part to a portfolio of distressed or illiquid assets. The AGP is applied
                                                                                                                     with extreme discretion in order to improve market confidence in the systemically significant institution and in
                                                                                                                     financial markets broadly.

                                                                                                                     Section 102 of the EESA established the AGP to guarantee troubled assets originated or issued prior to March
                                                                                                                     14, 2008, including mortgage-backed securities, and established the Troubled Assets Insurance Financing Fund



128                                                                                                                    Note 8. Investments – Credit Reform
                                                                                                                       PART 2 • ANNUAL FINANCIAL REPORT
(TAIFF). In accordance with Section 102(c) and (d) of the EESA, premiums from financial institutions, are col-
lected and all fees are recorded by Treasury in the TAIFF. In addition, Section 102(c)(3) of the EESA requires that
the original premiums assessed are “set” at a minimum level necessary to create reserves sufficient to meet antici-
pated claims. In the event there are insufficient funds within the TAIFF for the payment of claims, amounts are
borrowed from the U.S. Treasury until sufficient funds are received into the TAIFF. In the event that the estimate
of claims exceeds the estimated future cash inflows, an upward reestimate would be recorded and amounts would
be transferred to the TAIFF as a subsidy expense.

Treasury completed its first transaction under the AGP in January 2009, when it finalized the terms of a guarantee
agreement with Citigroup. Under the agreement, Treasury, the Federal Reserve Bank (FRB), the Federal Deposit
Insurance Corporation (FDIC), and the Federal Reserve Bank of New York (FRBNY) provided protection against
the possibility of large losses on an asset pool of approximately $301,000 million of loans and securities backed
by residential and commercial real estate and other such assets, which remain on Citigroup’s balance sheet. The
following loss-sharing terms apply to the transaction: Citigroup absorbs the first $39,500 million in losses, and
losses over the $39,500 million are shared by the U. S. government (90.0 percent) and Citigroup (10.0 percent)
(the “second loss”). For the second loss, Treasury absorbs up to $5,000 million, then the FDIC absorbs up to
$10,000 million, and lastly the FRBNY funds any U.S. government losses above Treasury and the FDIC commit-
ments through a non-recourse loan. The guarantee is in place for ten years for residential assets and five years for
non-residential assets.

As a premium for the guarantee, Citigroup issued $7,034 million of cumulative perpetual preferred stock with
an 8.0 percent stated dividend rate and a warrant for the purchase of common stock; $4,034 million was issued
to Treasury and approximately $3,000 million was issued to the FDIC. Treasury received the warrant. As part
of the agreement, Citigroup submitted an executive compensation plan to Treasury and the FDIC for approval
and must comply with certain common stock dividend restrictions. Treasury has received approximately $174.8
million in dividends on the preferred stock received as compensation for this arrangement. These dividends have
been deposited into the TAIFF. The preferred stock originally issued to Treasury and the FDIC were exchanged
for the trust preferred securities discussed above under the TIP. Treasury has also invested in Citigroup through
the CPP and the TIP.

The net present value of the estimated cash inflows from the preferred stock and warrant received by Treasury
from Citigroup as a premium is greater than the estimated net present value of future claim payments, resulting
in an asset of approximately $1,765 million, after reestimates, as of September 30, 2009.

In January 2009, Treasury, FDIC, FRBNY (together the USG Parties), and Bank of America signed a Summary
of Terms (Term Sheet) pursuant to which the USG Parties agreed to guarantee or lend against a pool of up to
$118,000 million of financial instruments consisting of securities backed by residential and commercial real estate
loans and corporate debt and related derivatives. In May 2009, prior to completing definitive documentation,
Bank of America notified the USG Parties of its desire to terminate negotiations with respect to the guarantee
contemplated in the Term Sheet. All parties agreed that Bank of America received value for entering into the
Term Sheet with the USG Parties and that the USG Parties should be compensated for out-of-pocket expenses
and a fee equal to the amount Bank of America would have paid for the guarantee from the date of the signing
of the Term Sheet through the termination date. Under the terms of the settlement, the U.S. Treasury received
$276.0 million for its role in the guarantee agreement through Treasury, the FRBNY received $57.0 million, and
the FDIC received $92.0 million. All Treasury funds received for the settlement were deposited in the TAIFF




                                                                     Note 8. Investments – Credit Reform               129
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     and subsequently paid to the U.S. Treasury General Fund. The $276 million received by Treasury pursuant to the
                                                                                                                     settlement is reflected in the Statement of Net Cost as a reduction of subsidy cost.

                                                                                                                     The tables below provide an analysis of the TARP equity investments including allowance for subsidy costs,
                                                                                                                     modifications, reestimates, and administrative costs. The TARP programs were created in fiscal year 2009 and
                                                                                                                     thus there are no fiscal year 2008 comparative balances to disclose.


                                                                                                                     Troubled Asset Relief Programs - Equity Investments, Net (in millions)
                                                                                                                                                                                                               Allowance for                  2009
                                                                                                                                                         Equity                                             Subsidy Cost and       Value of Assets
                                                                                                                                                   Investments,               Interest   Foreclosed   Loan Guarantee Liability    Related to Equity
                                                                                                                     Programs                            Gross             Receivable      Property          —Present Value           Investments
                                                                                                                     CPP                           $   133,901               $      0      $     0            $          7,770      $      141,671
                                                                                                                     AIG                                43,206                      0            0                    (30,054)              13,152
                                                                                                                     TIP                                40,000                      0            0                         341              40,341
                                                                                                                     AIFP                               12,500                      0            0                      (4,523)             7,977
                                                                                                                     Total                         $   229,607               $      0      $     0            $       (26,466)      $     203,141



                                                                                                                     Total Amount of Disbursements, Equity Investments (in millions):
                                                                                                                     Programs                                      2009
                                                                                                                     CPP                                  $   204,618
                                                                                                                     AIG                                          43,206
                                                                                                                     TIP                                          40,000
                                                                                                                     AIFP                                         12,500
                                                                                                                     Total                                $   300,324




130                                                                                                                    Note 8. Investments – Credit Reform
                                                                                                                                                                     PART 2 • ANNUAL FINANCIAL REPORT
Subsidy Expense, Equity Investments (in millions):
                                                    Interest                                   Fees and Other                                               2009
Programs                                        Differential                 Defaults             Collections                     Other                     Total
CPP                                             $    12,279              $      52,655              $         $0             $   (9,414)             $    55,520
AIG                                                 (17,280)                    46,906                         0                   1,799                  31,425
TIP                                                   3,724                     19,352                         0                 (3,536)                  19,540
AIFP                                                  5,319                      3,694                         0                 (2,196)                   6,817
Total                                           $    $4,042                $ 122,607                $          0             $ (13,347)              $ 113,302




Modifications and Reestimates, Equity Investments (in millions):
                                                                        Total               Interest Rate                  Technical                    Total
Programs                                                        Modifications                Reestimates                 Reestimates             Reestimates
CPP                                                               $    1,866                   $          0              $   (72,419)            $       (72,419)
AIG                                                                      127                              0                    (1,125)                     (1,125)
TIP                                                                        0                              0                  (21,467)                    (21,467)
AIFP                                                                       0                              0                    (2,710)                     (2,710)
Total                                                             $    1,993                   $          0              $   (97,721)            $       (97,721)




Total Subsidy Expense, Equity Investments, (in millions):

Programs                                                                          2009
CPP                                                                    $      (15,033)
AIG                                                                             30,427
TIP                                                                             (1,927)
AIFP                                                                              4,107
Total                                                                  $        17,574




Subsidy Rates by Program and Component, Equity Investments*:
                                                                                                        Fees and Other                                     2009
Programs                                Interest Differential                    Defaults                  Collections              Other                  Total
CPP                                                    5.97%                     25.60%                         0.00%             -4.58%                 26.99%
AIG                                                  -45.52%                    123.56%                         0.00%              4.74%                 82.78%
TIP                                                    9.31%                     48.38%                         0.00%             -8.84%                 48.85%
AIFP                                                  42.55%                     29.55%                         0.00%            -17.57%                 54.53%
(*) The rates reflected in the “Subsidy Rate” table above are weighted rates for the program. To compensate for the weighting of the various risk category
   subsidy rates, the “by component” dollar amounts reflected were computed as a ratio of the component rate to the total weighted subsidy rate multiplied by
   the subsidy expense for the program.




                                                                                                   Note 8. Investments – Credit Reform                               131
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Schedule for Reconciling Subsidy Cost Allowance Balances (in millions):

                                                                                                                     Fiscal Year 2009		                                         CPP                 AIG            TIP         AIFP          Totals
                                                                                                                     Beginning Balance of the subsidy cost allowance     $         0        $         0    $         0    $        0    $         0
                                                                                                                     Add: subsidy expense for disbursements
                                                                                                                         (a) Interest rate differential cost                  12,279            (17,280)         3,724         5,319          4,042
                                                                                                                         (b) Default costs (net of recoveries)                52,655             46,906         19,352         3,694        122,607
                                                                                                                         (c) Fees and other collections                            0                  0              0             0              0
                                                                                                                         (d) Other subsidy costs                              (9,414)              1,799        (3,536)       (2,196)       (13,347)
                                                                                                                     Total of the above subsidy expense components       $ 55,520           $ 31,425       $ 19,540       $ 6,817       $ 113,302
                                                                                                                     Adjustments:
                                                                                                                         (a) Loan modifications                                1,866                127              0             0          1,993
                                                                                                                         (b) Fees received                                     9,691                  0          1,862           431         11,984
                                                                                                                         (c) Foreclosed property acquired                          0                  0              0             0              0
                                                                                                                         (d) Loans written off                                     0                  0              0             0              0
                                                                                                                         (e) Subsidy allowance amortized                      (2,428)              (373)          (276)          (15)        (3,092)
                                                                                                                             (f) Other                                             0                  0              0             0              0
                                                                                                                     Ending Balance subsidy cost allowance before                  0
                                                                                                                     reestimates                                         $ 64,649           $ 31,179       $ 21,126       $ 7,233       $ 124,187
                                                                                                                     Add or subtract subsidy reestimates by component:
                                                                                                                         (a) Interest rate reestimate                              0                  0              0             0              0
                                                                                                                         (b) Technical default reestimate                    (72,419)            (1,125)       (21,467)       (2,710)       (97,721)
                                                                                                                     Total of the above reestimate components                (72,419)            (1,125)       (21,467)       (2,710)       (97,721)
                                                                                                                     Ending Balance of the
                                                                                                                     subsidy cost allowance                              $ (7,770)          $ 30,054       $     (341)    $ 4,523       $ 26,466




                                                                                                                     Administrative Expense of TARP programs (in millions):
                                                                                                                     Programs                                                               2009
                                                                                                                     Troubled Asset Relief Programs                                     $   167
                                                                                                                     Total                                                              $   167




132                                                                                                                    Note 8. Investments – Credit Reform
                                                                                                                                                                          PART 2 • ANNUAL FINANCIAL REPORT
Troubled Asset Relief Programs – Asset Guarantee Program (AGP)
As of September 30, 2009, Asset Guarantees consisted of the following (in millions):

Asset Guarantees Outstanding (in millions):
                                                                                                                                                           2009
Programs                             Outstanding Principal of Guaranteed Assets                                      Amount of Outstanding Principal Guaranteed
AGP                                                                          $301,000                                                                            $5,000



Asset for Asset Guarantee (in millions):
                                                                                                                                                           2009
Programs                                                                                                                Asset for Asset Guarantee Present Value
AGP                                                                                                                                                            *$1,765
(*)The net present value of the preferred stock received by Treasury from the TAIFF as a premium ($4,034 million) is greater than the liability ($2,269), resulting in
   a net asset of $1,765 million included as a line item on the face of the balance sheet, after reestimates, as of September 30, 2009.




Subsidy Expense, Guarantee (in millions):
                                                Interest                                      Fees and Other                                                      2009
Programs                                    Differential                  Defaults               Collections                        Other                         Total
AGP                                              $     0                 $    2,181                  $ (2,662)                   $ (270)                   $      (751)



Modifications and Reestimates (in millions):
                                                                                 Total              Interest Rate               Technical                      2009
Programs                                                                 Modifications               Reestimates              Reestimates         Total Reestimates
AGP                                                                             $       0                 $      0               $ (1,174)                 $ (1,174)



Total Guarantee Subsidy Expense (in millions):
Programs                                                                            2009
AGP                                                                           $(1,925)



Subsidy Rates for Guarantee by Program and Component:
                                                                                                   Fees and Other                                        2009
Programs                                 Interest Differential                 Defaults               Collections                   Other                Total
AGP                                                     0.00%                   43.62%                     -53.23%                 -5.37%            -14.98%




                                                                                                   Note 8. Investments – Credit Reform                                    133
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Schedule for Reconciling Asset Guatrantee Program Balances (in millions)
                                                                                                                     BEGINNING BAL ANCES, CHANGES, AND ENDING BAL ANCE                                2009
                                                                                                                     Beginning Balance of the Asset Guarantee liability                         $        0
                                                                                                                     Add: subsidy expense for disbursements
                                                                                                                         (a) Interest rate supplement costs                                              0
                                                                                                                         (b) Default costs (net of recoveries)                                       2,181
                                                                                                                         (c )Fees and other collections                                             (2,662)
                                                                                                                         (d) Other subsidy costs                                                      (270)
                                                                                                                     Total of the above subsidy expense components                                    (751)
                                                                                                                     Adjustments:
                                                                                                                         (a) Loan guarantee modifications                                                0
                                                                                                                         (b) Fees received                                                             175
                                                                                                                         (c ) Interest supplements paid                                                (15)
                                                                                                                         (d ) Foreclosed property acquired                                               0
                                                                                                                         (e) Claim payments to lenders                                                   0
                                                                                                                         (f) Interest accumulation on the liability balance                              0
                                                                                                                         (g) Other                                                                       0
                                                                                                                     Ending Balance of loan guarantee liability before reestimates                    (591)
                                                                                                                     Add or subtract subsidy reestimates by component:
                                                                                                                         (a) Interest rate reestimate                                                    0
                                                                                                                         (b) Technical default reestimate                                           (1,174)
                                                                                                                     Total of the above reestimate components                                       (1,174)
                                                                                                                     Ending Balance of Asset for Asset Guarantee                                $   (1,765)




134                                                                                                                    Note 8. Investments – Credit Reform
                                                                                                                         PART 2 • ANNUAL FINANCIAL REPORT
9. INVESTMENTS IN GOVERNMENT SPONSORED ENTERPRISES
The Housing and Economic Recovery Act (HERA), P.L. 110–289, dated July 30, 2008, authorized Treasury to enter
into several different types of financing arrangements with Government Sponsored Enterprises (GSEs) to:
    •	   provide stability to the financial markets;
    •	   prevent disruptions in the availability of mortgage finance; and
    •	   protect the taxpayer

As authorized by HERA, the Secretary of the Treasury entered into a Senior Preferred Stock Purchase Agreements
(SPSPA) with Fannie Mae and Freddie Mac on September 7, 2008 and began providing substantial financial
support to the enterprises; thereby minimizing potential systemic financial risks associated with the deteriorating
financial condition of Fannie Mae and Freddie Mac. Per SFFAC No. 2, Entity and Display, these entities meet
the criteria of “bailed out” entities under paragraph 50. Accordingly, Treasury has not consolidated them into the
financial statements, but include “disclosure of the relationship(s) with the bailed out entities and any actual or
potential material costs or liabilities” in the consolidated financial statements.

Under the SPSPA, Treasury initially received from each GSE: (1) 1,000,000 shares of non-voting variable
liquidation preference senior preferred stock with a liquidation preference value of $1,000 per share and (2) a
non-transferrable warrant for the purchase, at a nominal cost, of 79.9 percent of common stock on a fully-diluted
basis. The warrants expire on September 7, 2028. The senior preferred stock accrues dividends at 10 percent per
year, payable quarterly. This rate will increase to 12 percent if, in any quarter, the dividends are not paid in cash,
until all accrued dividends have been paid. As of September 30, 2009, dividends of $4,336 million have been
received. In addition, beginning on March 31, 2010, the GSEs will pay Treasury a periodic commitment fee on a
quarterly basis. This fee will be initially set by December 31, 2009, based on mutual agreement between Treasury
and each GSE, in consultation with the Chairman of the Federal Reserve Board. The fee will be established for
five-year periods, and may be waived by Treasury for one year at a time if warranted by adverse mortgage market
conditions. It may be paid in cash or may be added to the liquidation preference.

These agreements, which have no expiration date, provide that Treasury will increase its investment in the senior
preferred stock if at the end of any quarter the Federal Housing Finance Agency (FHFA) determines that the
liabilities of either GSE exceed its assets. The maximum amount available to each GSE under this agreement is
$200,000 million. Actual payments to the GSEs to date are $95,600 million, of which $15,000 million has been
accrued as a liability for the quarter ended September 30, 2009 ($13,800 million at September 30, 2008). As of
September 30, 2009, $140,100 million and $149,300 million remain available to Fannie Mae and Freddie Mac,
respectively, after quarterly payments made or accrued.

The Treasury Department determined the estimated amount of the remaining liability to the GSEs under the
SPSPA as of September 30, 2009. The valuation analysis resulted in estimates ranging from the “best case”
scenario of $76,937 million to an “extreme case” scenario of $206,700 million. The results also noted that no
value within the range is a better estimate than any other amount. However, future payments under the SPSPA
are deemed to be probable. SFFAS 5 provides that when a probable contingent liability is a range of amounts
and no amount within the range is a better estimate than any other amount, the estimated liability should be
based on the minimum value in the range. Accordingly, $76,937 million is recorded as a contingent liability as of
September 30, 2009.



                                      Note 9. Investments in Government Sponsored Enterprises (GSEs)                     135
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     As described below, the SPSPA payments are treated as entity expenses and liabilities, while the increases in
                                                                                                                     liquidity preference of the GSE preferred stock resulting from actual liquidity payments are non-entity transac-
                                                                                                                     tions. Accordingly, the contingent liability recorded is the gross estimated amount, without considering the
                                                                                                                     increase in preferred stock liquidity preference, future dividend payments, or future commitment fees.

                                                                                                                     As funds for these payments are appropriated directly to the Treasury Department, these payments are treated as
                                                                                                                     entity expenses and reflected as such on the Statement of Net Cost (SNC) and Cumulative Results of Operations.
                                                                                                                     In fiscal year 2008, these costs were reported on the SNC, as a below the line entity cost, separate from the four
                                                                                                                     Treasury strategic goals. In fiscal year 2009, Treasury concluded that the cost of this program helps accomplish
                                                                                                                     the Treasury strategic goal of ensuring that the U.S. economy performs at its full economic potential. Thus, as of
                                                                                                                     September 30, 2009, the entity cost of these Investments in GSEs are included in the Economic Program section
                                                                                                                     of the SNC. These payments also results in an increase to the non-entity investment in GSE preferred stock, with
                                                                                                                     a corresponding increase in Due to the General Fund, as the Treasury Department holds the investment on behalf
                                                                                                                     of the U.S. Government General Fund. Such investments are subject to impairment testing as noted below.

                                                                                                                     The Investments in GSEs disclosed as of September 30, 2008 were recorded at acquisition cost at the date of
                                                                                                                     purchase with disclosure of market values as of fiscal year end 2008. OMB issued guidance to Treasury on
                                                                                                                     October 7, 2009 allowing the use of fair value accounting for non-federal securities beginning with reporting for
                                                                                                                     fiscal year 2009. As a result, the GSE investments are reported at fair value at September 30, 2009. The preferred
                                                                                                                     stock and warrants for common stock were valued as of September 30, 2009. In accordance with SFFAS 7, the
                                                                                                                     annual valuation is classified as usual and recurring and thus recorded as an expense or revenue to the financial
                                                                                                                     statements. In addition, since Treasury holds the investment on behalf of the U.S. Government General Fund,
                                                                                                                     any valuation impairment is recorded as a non-entity cost/revenue and reported on the SNC below the line. As of
                                                                                                                     September 30, 2009 and September 30, 2008, GSE investments consisted of the following (in millions):

                                                                                                                                                                                                                                           9/30/09
                                                                                                                                                               Value at      Current Year              Net            Valuation      Fair Value at
                                                                                                                     GSE Investment                        Begin of Year     Investments       Investments           Gain/(Loss)   Reporting Date
                                                                                                                     Fannie Mae Sr. Preferred Stock           $     840       $       44,900   $          45,740     $ (20,658)         $   25,082
                                                                                                                     Freddie Mac Sr. Preferred Stock                824               50,700              51,524       (23,273)             28,251
                                                                                                                     Fannie Mae Warrants Common Stock             3,104                    0               3,104          3,603              6,707
                                                                                                                     Freddie Mac Warrants Common Stock            2,264                    0               2,264          2,375              4,639
                                                                                                                     Total GSE Investment                     $   7,032       $       95,600   $         102,632     $ (37,953)         $   64,679



                                                                                                                                                                                                           9/30/08                         9/30/08
                                                                                                                                                                                  Cost at              Investment     Valuation      Fair Value at
                                                                                                                     GSE Investment                                        Purchase Date                  Balance    Gain/(Loss)   Reporting Date
                                                                                                                     Fannie Mae Sr. Preferred Stock                               $     840        $          840    $      (99)    $         741
                                                                                                                     Freddie Mac Sr. Preferred Stock                                    824                   824           (97)              727
                                                                                                                     Fannie Mae Warrants Common Stock                                  3,104                3,104         3,403              6,507
                                                                                                                     Freddie Mac Warrants Common Stock                                 2,264                2,264         2,135              4,399
                                                                                                                     Total GSE Investment                                         $    7,032       $        7,032    $    5,342     $       12,374




136                                                                                                                    Note 9. Investments in Government Sponsored Enterprises (GSEs)
                                                                                                                 PART 2 • ANNUAL FINANCIAL REPORT
Summary of GSE Non-Entity Costs
                                                                                           2009          2008
General Fund Revenue from Increase in Liquidity Preference of GSE Preferred Stock   $   (95,600)   $        –
Net Valuation Loss on GSE Warrants/Pfd Stock                                             37,953             –
GSE Pfd Stock Dividends                                                                  (4,336)            –
Pfd Stock Commitment Fee                                                                      –    $   (7,032)
                                                                                    $ (61,983)     $   (7,032)




                                           Note 9. Investments in Government Sponsored Enterprises (GSEs)        137
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     10. INVESTMENTS IN INTERNATIONAL FINANCIAL INSTITUTIONS
                                                                                                                     The Treasury Department participates in Multilateral Development Banks (MDB) to support poverty reduc-
                                                                                                                     tion, private sector development, and transition to market economies and sustainable economic growth and
                                                                                                                     development, thereby advancing the United States’ economic, political, and commercial interests abroad. The
                                                                                                                     MDB consist of the World Bank Group (International Bank for Reconstruction and Development, International
                                                                                                                     Finance Corporation, and Multilateral Investment Guarantee Agency), and five regional development banks (the
                                                                                                                     African, Asian, European, Inter-American, and North American institutions), as enumerated in the table below.
                                                                                                                     These investments are non-marketable equity investments valued at cost.

                                                                                                                     As of September 30, 2009 and September 30, 2008, investments in international financial institutions consisted
                                                                                                                     of the following (in millions):

                                                                                                                                                                                                            2009               2008
                                                                                                                     African Development Bank                                                          $      175         $      172
                                                                                                                     Asian Development Bank                                                                   458                458
                                                                                                                     European Bank for Reconstruction and Development                                         636                633
                                                                                                                     Inter-American Development Bank                                                        1,482              1,482
                                                                                                                     International Bank for Reconstruction and Development                                  1,985              1,985
                                                                                                                     International Finance Corporation                                                        569                569
                                                                                                                     Multilateral Investment Guarantee Agency                                                  45                 45
                                                                                                                     North American Development Bank                                                         225                202
                                                                                                                     Total                                                                             $    5,575         $    5,546


                                                                                                                     Refer to Note 31 for a description of the additional commitments related to these institutions.




138                                                                                                                    Note 10. Investments in International Financial Institutions
                                                                                                                                                           PART 2 • ANNUAL FINANCIAL REPORT
11. OTHER INVESTMENTS AND RELATED INTEREST
Investments in U.S. Government securities held by Treasury Department entities have been eliminated against
the federal debt liability for financial reporting purposes (See Note 4). The ESF holds most of the Treasury
Department’s Other Investments, including Foreign Investments. Foreign investment holdings are normally
invested in interest bearing securities issued or held through foreign governments or monetary authorities (see
Note 6). During fiscal year 2009, ESF transferred other FCDA and Investment Securities to the available-for-sale
classification, and reported at fair value. The Other Investments represent securities that the Treasury Department
has both the positive intent and ability to hold to maturity and are carried at historical cost, adjusted for amorti-
zation of premiums and accretion of discounts.

As of September 30, 2009 and September 30, 2008, entity investments in foreign investment holdings and other
investments consisted of the following (in millions):

                                           Cost/           Unamortized                                   9/30/09           Unrealized            9/30/09
                                      Acquisition           (Premium)/             Interest          Investment                 Gain/               Fair
Type of Investment                         Value              Discount          Receivable              Balance                (Loss)             Value
Foreign Investments:
    Euro Bonds & Notes                $        4,827        $          52       $      116           $        4,995        $       184       $    5,179
     Japanese Government Bonds                 7,192                    9                 12                  7,213                 43            7,256
Other Investments                           1,137                      (7)               0                 1,130                     0          1,130
Total Non-Federal                     $    13,156           $          54       $      128           $    13,338           $       227       $ 13,565




                                      Cost/       Unamortized                                                9/30/08        Unrealized           9/30/08
                                 Acquisition       (Premium)/                 Net       Interest         Investment              Gain/           Market
Type of Investment                    Value          Discount          Investment    Receivable             Balance             (Loss)            Value
Foreign Investments:
     Euro Bonds & Notes           $   4,477            $    29          $    4,506    $        115        $     4,621          $     20      $    4,641
     Japanese Government Bonds        5,908                     3            5,911              11              5,922                13           5,935
 Other Investments                        39                (6)                33                0                    33                 0           33
 Total Non-Federal                $ 10,424             $    26          $ 10,450      $        126        $ 10,576             $     33      $ 10,609




                                                                    Note 11. Other Investments and Related Interest                                        139
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     12. CREDIT PROGRAM RECEIVABLES, DIRECT LOANS
                                                                                                                     The table below summarizes, by program, Treasury’s credit program assets net of subsidy allowance. As of
                                                                                                                     September 30, 2009 and September 30, 2008, Credit Program Receivables and Direct Loans consisted of the
                                                                                                                     following (in millions):
                                                                                                                                                                                                                     2009              2008
                                                                                                                      GSE MBS Purchase Program Receivables                                                      $ 184,419         $   3,385
                                                                                                                      Troubled Asset Relief Program Direct Loans                                                   34,751                 0
                                                                                                                      Total Credit Program Receivables and Direct Loans                                         $ 219,170         $   3,385



                                                                                                                     CREDIT PROGRAM RECEIVABLES, GSE MBS PURCHASE PROGRAM AND GSE
                                                                                                                     CREDIT FACILITY:
                                                                                                                     The Housing and Economic Recovery Act (HERA), P.L. 110–289, dated July 30, 2008, authorized Treasury to enter
                                                                                                                     into several different types of financing arrangements with Government Sponsored Enterprises (GSEs) to provide
                                                                                                                     stability to the financial markets; prevent disruptions in the availability of mortgage finance; and protect the
                                                                                                                     taxpayer. Two of these arrangements include the GSE Mortgage-Backed Securities (MBS) Purchase Program and
                                                                                                                     GSE Credit Facility (GSECF).

                                                                                                                     The GSE Mortgage-Backed Securities Purchase Program is a program to further support the availability of mortgage
                                                                                                                     financing for millions of Americans and to mitigate pressures on mortgage rates. Under this program, Treasury, via
                                                                                                                     Asset Managers, purchases GSE MBS in the open market. By purchasing these credit-guaranteed securities, Treasury
                                                                                                                     seeks to broaden access to mortgage funding for current and prospective homeowners and to promote stability in
                                                                                                                     the mortgage market. The Asset Managers are also authorized to enter into other trade/sell transactions such as Pair
                                                                                                                     Offs, Turns, Assignments, and Dollar Rolls to further support the market under the HERA provisions/mandate.
                                                                                                                     While the size and timing of the MBS purchases is subject to the discretion of the Secretary, the authority granted
                                                                                                                     by Congress to purchase MBS expires on December 31, 2009. The scale of the program has been based on develop-
                                                                                                                     ments in the capital and housing market but will moderate once the program expires.

                                                                                                                     Treasury purchases mortgage-backed pass-through securities through the Government Sponsored Enterprise
                                                                                                                     Mortgage-Backed Securities (GSE MBS) Purchase Program. Consistent with the Federal Credit Reform Act, these
                                                                                                                     securities are treated as direct loans, and the value of Treasury's position and the associated credit subsidy require-
                                                                                                                     ments are determined based on the net present value of the securities' forecasted future cash flows. Treasury esti-
                                                                                                                     mates nominal future cash flows using a financial model that incorporates each security's payment characteristics
                                                                                                                     together with assumptions about the future prepayment, default, and loss severity performance of underlying loan
                                                                                                                     collateral and the GSEs' ability to uphold their guarantee. Nominal cash flow forecasts are discounted at inter-
                                                                                                                     est rates of Treasury securities with comparable maturities using the Office of Management and Budget's Credit
                                                                                                                     Subsidy Calculator. Cash flows are estimated under the assumption that all securities will be held to maturity.

                                                                                                                     Security-level data used as the basis for cash flow model forecasts are obtained directly from Treasury's program
                                                                                                                     custodian. Assumptions about security and program performance are drawn from widely available market sources
                                                                                                                     as well as information published by the GSEs. Key inputs to the cash flow forecast include:
                                                                                                                         •	   Security characteristics such as unpaid principal balance, pass-through coupon rate, weighted-average loan
                                                                                                                              age, and weighted-average maturity




140                                                                                                                    Note 12. Credit Program Receivables, Direct Loans and Asset Guarantee, Net
                                                                                                                                                                    PART 2 • ANNUAL FINANCIAL REPORT
    •	   Forecast prepayment rates and default rates

The GSE Credit Facility was established to ensure credit availability to the GSEs and the Federal Home Loan
Banks. This lending facility will provide secured funding on an as needed basis under terms and conditions
established by the Secretary to protect taxpayers. Fannie Mae, Freddie Mac, and the Federal Home Loan Banks
are eligible to borrow under this program. The GSECF provides liquidity, if needed, until December 31, 2009.
There were no loans made through the GSECF in fiscal year 2009 or 2008, and therefore the GSECF program is
not disclosed in tables below.

Treasury's GSE Mortgage Backed Security (MBS) Purchase Program portfolio consists of mortgage pass-through
securities issued by Freddie Mac and Fannie Mae. At the end of fiscal year 2009, Treasury held $173.3 billion
in outstanding MBS principal and estimated the net present value of future cash flows on these holdings to be
$184.4 billion. The difference between the outstanding MBS principal balance and the value of the MBS to
Treasury is the negative subsidy allowance- Treasury expects the portfolio to generate the spread income between
coupon rates on the MBS and Treasury's discount rate which exceeds its estimate of potential credit losses on the
securities.

The tables below provide an analysis of the GSE MBS Credit Program Receivables including allowance for subsi-
dy costs, modifications, reestimates, and administrative costs. As of September 30, 2009 and September 30, 2008,
the Direct Mortgage-Backed Securities (MBS) Purchases Outstanding consisted of the following (in millions):

                                                                                                                                                            2009
                                                                                                                      Allowance for              Value of Assets
                                                Credit Program                    Interest      Foreclosed             Subsidy Cost             Related to Credit
Programs                                      Receivable, Gross                Receivable         Property           (Present Value)         Program Receivable

MBS                                             $      173,326             $           0        $       0            $       11,093            $        184,419



                                                                                                                                                            2008
                                                                                                                      Allowance for              Value of Assets
                                                Credit Program                    Interest      Foreclosed             Subsidy Cost             Related to Credit
Programs                                      Receivable, Gross                Receivable         Property           (Present Value)         Program Receivable

MBS                                             $         3,311            $           0        $       0            $            74           $           3,385




Total amount of MBS Purchase Program, Disbursed (in millions):*
Programs                                                                                                           2009                                     2008
MBS                                                                                                         $   192,263                            $      3,311
(*) Total fiscal year 2009 disbursements for MBS purchases was $192,263 million. These disbursements include fiscal year 2009 settled MBS purchases of
   $190,651 million and $1,612 million of fiscal year 2008 pre funded settled purchases. Negative subsidy for the fiscal year 2009 purchases has been calculated
   based on the negative subsidy rate of 2.36%. In 2008, $5,000 million was initially prefunded for the MBS purchase program. During fiscal year 2008 , $3,300
   million of MBS purchases were made and negative subsidy was calculated on the settled amounts only. The negative subsidy amount calculated on 2008
   purchase was based on a negative subsidy factor of 1.62%. In fiscal year 2009, the remaining $1,612 million of the initial $5,000 million prefunding were
   settled. The associated negative subsidy of $26 million related to these settled purchases was not reported on the fiscal year 2008 financial statements and
   has been captured in the 2009 negative subsidy reestimate.




                            Note 12. Credit Program Receivables, Direct Loans and Asset Guarantee, Net                                                              141
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Subsidy Expense (in millions):
                                                                                                                                                                                 *Interest                                   Fees and Other                                       2009
                                                                                                                     Programs                                                  Differential                *Defaults            Collections                    Other              Total
                                                                                                                     MBS                                                   $       (4,977)             $           477            $          0        $           0        $     (4,500)


                                                                                                                                                                                                                             Fees and Other                                       2008
                                                                                                                     Programs                                      Interest Differential                    Defaults            Collections                    Other              Total
                                                                                                                     MBS                                                   $           (62)            $             8            $          0        $           0        $        (54)
                                                                                                                     *The change in defaults and interest differential between fiscal year 2009 and fiscal year 2008 is driven by the an increase in the mortgage rate default
                                                                                                                       assumptions and fluctuation in pricing/interest rate curves, respectively, between years.




                                                                                                                     Modifications and Reestimates (in millions):
                                                                                                                                                                                                                                                                                2009
                                                                                                                                                                                                            Interest Rate                    Technical                          Total
                                                                                                                     Programs                                      Total Modifications                       Reestimates                   Reestimates                   Reestimates
                                                                                                                     MBS                                                           $     0                          $    0                   $    (8,392)                   $ (8,392)


                                                                                                                                                                                                                                                                                2008
                                                                                                                                                                                                            Interest Rate                    Technical                          Total
                                                                                                                     Programs                                      Total Modifications                       Reestimates                   Reestimates                   Reestimates
                                                                                                                     MBS                                                           $     0                          $    0                   $            0                 $         0




                                                                                                                     Total MBS Purchases Subsidy Expense (in millions):

                                                                                                                     Programs                                                                 2009             2008
                                                                                                                     MBS                                                           $   (12,892)             $ (54)




                                                                                                                     Subsidy Rates for MBS Purchases:
                                                                                                                                                                                   Interest                              Fees and Other                                            2009
                                                                                                                     Programs                                                  Differential            Defaults             Collections                       Other                Total
                                                                                                                     MBS, Cohort 2009                                              -2.61%                  0.25%                 0.00%                    0.00%                  -2.36%


                                                                                                                                                                                   Interest                              Fees and Other                                            2008
                                                                                                                     Programs                                                  Differential            Defaults             Collections                       Other                Total
                                                                                                                     MBS, Cohort 2008                                              -1.86%                  0.24%                 0.00%                    0.00%                  -1.62%




142                                                                                                                    Note 12. Credit Program Receivables, Direct Loans and Asset Guarantee, Net
                                                                                                                          PART 2 • ANNUAL FINANCIAL REPORT
Schedule for Reconciling Subsidy Cost Allowance Balances (in millions):
                                                                                        2009             2008
 Beginning Balance of the subsidy cost allowance                                  $      (74)        $      0
 Add: subsidy expense for disbursements
     (a) Interest rate differential cost                                              (4,977)             (62)
     (b) Default costs (net of recoveries)                                               477                8
     (c )Fees and other collections                                                        0                0
     (d) Other subsidy costs                                                               0                0
 Total of the above subsidy expense components                                        (4,500)             (54)
 Adjustments:
     (a) Loan modifications                                                                0                0
     (b) Fees received                                                                     0                0
     (c ) Foreclosed property acquired                                                     0                0
     (d) Loans written off                                                                 0                0
     (e) Subsidy allowance amortized                                                   1,873              (20)
 Ending Balance subsidy cost allowance before reestimates                         $   (2,701)             (74)
 Add or subtract subsidy reestimates by component:
     (a) Interest rate reestimate                                                          0                0
     (b) Technical default reestimate                                                 (8,392)               0
 Total of the above reestimate components                                             (8,392)               0
 Ending Balance of the subsidy cost allowance                                     $ (11,093)        $     (74)



Administrative Expense of GSE Program Receivables – MBS (in millions):

 Programs                                                       2009       2008
 GSE Related Credit Program Receivables-MBS                 $    12    $     0




TROUBLED ASSET RELIEF PROGRAM DIRECT LOANS
FCRA and associated FASAB accounting standard SFFAS No. 2, as amended, governs direct loans made after
fiscal year 1991. FCRA loans are valued at the present value of expected future cash flows, discounted at the inter-
est rate of marketable Treasury securities. The subsidy allowance account represents the difference between the
outstanding loan receivables balance and the net present value of the estimated cash flows of the loans over their
remaining term. The subsidy allowance is subtracted from the outstanding loans receivable balance to obtain the
net loans receivable balance.

Under the provisions of the EESA, Treasury implemented the TARP which resulted in the development of several
direct loan programs and transactions including: the Automotive Industry Financing Program; the Consumer and
Business Lending Initiative; and the Public-Private Investment Partnership.

Treasury applies the provisions of SFFAS No. 2 to account for direct loans. This standard requires measurement of
the asset or liability at the present value of the estimated future cash flows. The cash flow estimates for each direct
loan transaction reflect the actual structure of the instruments. Analytical cash flow models generate estimated
cash flows to and from the Government over the life of a facility. Further, each cash-flow model reflects the spe-
cific terms and conditions of the program, technical assumptions regarding the underlying assets, risk of default or



                               Note 12. Credit Program Receivables, Direct Loans and Asset Guarantee, Net                 143
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     other losses, and other factors as appropriate. The models also incorporate an adjustment for market risk to reflect
                                                                                                                     the additional return required by the market to compensate for variability around the expected losses reflected in
                                                                                                                     the cash flows (the “unexpected loss”). The basic methods for these models are outlined below.

                                                                                                                     Direct Loans
                                                                                                                     The estimated future cash flows for direct loans are derived using analytical models that estimate the cash flows to
                                                                                                                     and from Treasury over the life of the loan. These cash flows include the scheduled principal, interest, and other
                                                                                                                     payments to Treasury, including estimated proceeds from equity interest obtained or additional notes. These
                                                                                                                     models also include estimates of default and recoveries, incorporating the value of any collateral provided by the
                                                                                                                     contract. The probability and timing of default and losses related to a default are estimated by using applicable
                                                                                                                     historical data when available, or publicly available proxy data, including credit rating agency historical perfor-
                                                                                                                     mance data.

                                                                                                                     In the case of the Term Asset-Backed Securities Loan Facility (TALF), Treasury uses an analytical model to project
                                                                                                                     cash flows to and from Treasury-based on the estimated loan collateral performance, the estimated mix of collat-
                                                                                                                     eral funded through the TALF, and the terms of the contracts.

                                                                                                                     The models include an adjustment for market risk which is intended to capture the risk of unexpected losses, but
                                                                                                                     are not intended to represent fair value, i.e. the proceeds that would be expected to be received if the loans were
                                                                                                                     sold to a market participant.


                                                                                                                     AUTOMOTIVE INDUSTRY FINANCING PROGRAMS (AIFP)
                                                                                                                     The objective of the Automotive Industry Financing Program was to prevent a significant disruption of the
                                                                                                                     American automotive industry, which would pose a systemic risk to financial market stability and have a negative
                                                                                                                     effect on the economy of the United States. The discussion below details the various loans made by the Treasury
                                                                                                                     to the automotive industry.3

                                                                                                                     General Motors (GM or old GM) General Purpose Loan including Working Capital Advances
                                                                                                                     The Treasury provided GM with a total of $13,400 million in a three-year direct loan bearing interest at 3 Month
                                                                                                                     LIBOR (subject to a 2.0 percent floor), plus 3.0 percent and secured by various types of collateral. Approximately
                                                                                                                     $4,000 million of this loan was funded in December 2008, an additional $5,400 million in January 2009, and
                                                                                                                     an additional $4,000 million in February 2009. In April 2009, the Treasury and GM amended this loan agree-
                                                                                                                     ment to increase the maximum loan amount from $13,400 million to $15,400 million, and on May 20, 2009 to
                                                                                                                     increase the maximum loan amount from $15,400 million to $19,400 million (these amendments are referred
                                                                                                                     to as the Working Capital Advances) to provide GM with adequate working capital to assist in the restructur-
                                                                                                                     ing effort. The additional amounts were funded upon amendment, bringing the total funded under this loan
                                                                                                                     to $19,400 million. The agreement required GM to develop and implement a restructuring plan to achieve
                                                                                                                     long-term financial viability and required compliance with certain enhanced executive compensation and expense
                                                                                                                     control requirements.




                                                                                                                     3	    Included in the TARP Direct Loans net, are equity interests acquired during the restructuring of GM and Chrysler. These equity amounts
                                                                                                                           are included with the original loans portfolio in this note.




144                                                                                                                       Note 12. Credit Program Receivables, Direct Loans and Asset Guarantee, Net
                                                                                                                       PART 2 • ANNUAL FINANCIAL REPORT
Furthermore, the Treasury received warrants for shares of GM common stock and an additional senior unsecured
note in the principal amount of $748.6 million. The purpose of this loan was to enhance the ability of GM and
its subsidiaries to pursue timely and aggressive production of energy-efficient advanced technology vehicles;
preserve and promote the jobs of American workers employed directly by GM and its subsidiaries; safeguard the
ability of GM and its subsidiaries to provide retirement and health care benefits for retirees and their dependents;
and stimulate manufacturing and sales of automobiles produced by GM. On June 1, 2009, GM filed for Chapter
11 bankruptcy. All rights under this loan were transferred to a newly created entity (GM NewCo) and subse-
quently extinguished in connection with a successful credit bid for the assets of old GM. In addition, Treasury
received $134.4 million in interest while the loan was outstanding. See further discussion below under GM
Debtor-In-Possession.

Chrysler Holding LLC General Purpose
The Treasury provided a three-year, $4,000 million loan to Chrysler in January 2009, bearing interest at 3 Month
LIBOR (subject to a 2.0 percent floor) plus 3.0 percent. The loan was secured by various collateral including
parts inventory, real estate, and certain equity interests held by Chrysler. This agreement required Chrysler
to submit a restructuring plan to achieve long-term viability and required compliance with certain enhanced
executive compensation and expense-control requirements. Furthermore, the Treasury received a senior unsecured
note from Chrysler in the principal amount of approximately $266.8 million, containing the same terms as the
General Purpose loan. The purpose of this loan was to: enhance the ability of Chrysler and its subsidiaries to
pursue timely and aggressive production of energy-efficient advanced technology vehicles; preserve and promote
the jobs of American workers employed directly by Chrysler and its subsidiaries; safeguard the ability of Chrysler
and its subsidiaries to provide retirement and health care benefits for retirees and their dependents; and stimulate
manufacturing and sales of automobiles produced by Chrysler.

On April 30, 2009, Chrysler filed for Chapter 11 bankruptcy. Upon entering bankruptcy, a portion of Chrysler
was sold to a newly created entity (New Chrysler). Under the terms of the bankruptcy agreement, $500.0 million
of this loan was assumed by New Chrysler (see discussion under Chrysler Exit for discussion of note terms). The
balance remains outstanding and is in default. Any recovery of the remainder of this loan will depend on: (a)
Chrysler Holding’s obligation to pay the greater of $1,375 million or 40.0 percent of the equity value of Chrysler
Financial to Treasury should Chrysler Holding receive certain distributions from Chrysler Financial and (b)
proceeds received from the sale of assets remaining in the bankrupt company. In addition, Treasury received $52.1
million in interest payments on this note.

Chrysler Financial
In January 2009, the Treasury loaned $1,500 million to Chrysler LB Receivables Trust (Chrysler Trust), a special
purpose entity created by Chrysler Financial, to finance the extension of new consumer auto loans. The five-year
loan bore interest at 1 Month LIBOR plus 1.0 percent for the first year, 1.5 percent for the remaining term and
was secured by a senior secured interest in a pool of newly originated consumer automotive loans, and Chrysler
served as a guarantor for certain covenants of Chrysler Financial. Under the agreement, Chrysler Financial was
required to comply with the executive compensation and corporate governance requirements of Section 111(b)
of the EESA, as well as enhanced restrictions on executive compensation including the need to reduce by 40.0
percent its bonus pool for Senior Executive Officers and Senior Employees. In lieu of warrants, the Treasury




                     Note 12. Credit Program Receivables, Direct Loans and Asset Guarantee, Net                        145
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     received additional notes in an amount equal to five percent of the maximum loan amount. The additional notes
                                                                                                                     would vest 20.0 percent on the closing date and 20.0 percent on each anniversary of the closing date and had
                                                                                                                     other terms similar to the loan. The purpose of this loan was to assist Chrysler Financial in providing retail financ-
                                                                                                                     ing to purchasers of automobiles, light duty trucks and recreational vehicles; to stimulate manufacturing and sales
                                                                                                                     of automobiles produced by Chrysler’s affiliates; preserve and promote the jobs of American workers employed
                                                                                                                     directly by Chrysler’s affiliates and in related industries; and safeguard the ability of Chrysler to provide retirement
                                                                                                                     and health care benefits for their retirees and their dependents. On July 14, 2009, the loan and additional note of
                                                                                                                     $15.0 million were paid in full. In addition, Treasury received $7.4 million in interest payments while this loan
                                                                                                                     was outstanding.

                                                                                                                     Auto Supplier Support Program
                                                                                                                     In April 2009, the Treasury committed $5,000 million in financing for the Auto Supplier Support Program,
                                                                                                                     as follows: $3,500 million for GM suppliers and $1,500 million for Chrysler suppliers. These commitments
                                                                                                                     were subsequently reduced to $2,500 million for GM and $1,000 million for Chrysler per the loan agreement.
                                                                                                                     Under the program, suppliers are able to sell their receivable to a special purpose vehicle, created by the respective
                                                                                                                     automaker, at a discount. The purchases of the receivables are funded by equity investments made by the auto-
                                                                                                                     maker, cash payments made by the automaker on previously purchased receivables or from draws on the Treasury
                                                                                                                     funding commitment. The duration of the program is 12 months, extendable at the option of the Treasury.
                                                                                                                     Interest is charged on advances under the facility at a rate of 3 Month LIBOR (subject to a 2.0 percent floor) plus
                                                                                                                     3.5 percent. In addition, the Treasury received a contingent payment note comprised of an exit fee equal to 4.0
                                                                                                                     percent of the adjusted commitment amount and 50.0% of the residual equity in the special purpose vehicle after
                                                                                                                     the program’s end date. This program provides suppliers with access to government backed protection ensuring
                                                                                                                     that money owed to them for the products they ship will be paid regardless of what happens to the recipient car
                                                                                                                     company. This provided suppliers with needed funding to operate their businesses and help unlock credit more
                                                                                                                     broadly in the supplier industry. Purchases of receivables and collection of amounts due from GM and Chrysler
                                                                                                                     is performed by a third party service provider. Suppliers must maintain qualifying commercial terms with the
                                                                                                                     automakers to participate in the program. The Treasury has provided approximately $413.1 million, collectively,
                                                                                                                     of funding to this program. The bankruptcy of Chrysler and GM did not impact this program, as both companies
                                                                                                                     were allowed to continue paying suppliers while in bankruptcy. As of September 30, 2009, Treasury had received
                                                                                                                     $5.9 million in interest under the Auto Supplier Support Program.

                                                                                                                     Auto Warranty Program
                                                                                                                     In April 2009 and May 2009, the Treasury loaned approximately $280.0 million to Chrysler and $360.6 mil-
                                                                                                                     lion to GM, respectively, to capitalize certain SPVs created by Chrysler and GM to finance participation in the
                                                                                                                     Warranty Commitment Program (warranty program). The Treasury also received additional notes as consideration
                                                                                                                     for its loans in an amount equal to 6.67 percent of the funded amounts. The warranty program covered all
                                                                                                                     warranties on new vehicles purchased from Chrysler and GM during the period in which Chrysler and GM were
                                                                                                                     restructuring. The program was run by a third party program administrator with the backing of financial re-
                                                                                                                     sources allocated by the Treasury, Chrysler and GM. Chrysler and GM contributed 15.0 percent of the projected
                                                                                                                     cost for warranty service on each covered vehicle, with the Treasury providing additional funds to cover 110.0
                                                                                                                     percent of the projected cost. The SPVs holding the funds operated separately from Chrysler and GM and would
                                                                                                                     transfer the necessary funds to a third-party to handle all warranty claims even if Chrysler and GM entered into




146                                                                                                                    Note 12. Credit Program Receivables, Direct Loans and Asset Guarantee, Net
                                                                                                                                                PART 2 • ANNUAL FINANCIAL REPORT
bankruptcy or went out of business. Both Chrysler and GM have completed the Section 3634 sales in June 2009
and July 2009, respectively. Upon completion of the sale, the Treasury received principal amounts due from both
GM and Chrysler and terminated the warranty program. Interest in the amount of $3.1 million was received by
Treasury from Chrysler. No interest was received in connection with the GM repayment. The GM additional
note was assigned to the New GM as part of the bankruptcy proceedings and extinguished as part of the credit
bid for the assets of old GM. The Chrysler additional note is still outstanding.

Chrysler Debtor-In-Possession
In May 2009, the Treasury and the Canadian government jointly agreed to make a loan in the total amount of
$4,100 million ($3,000 million by the Treasury and $1,100 million by Canada) to Chrysler LLC in its capacity as
debtor-in-possession (DIP) in its bankruptcy case. In May 2009, the Treasury increased its loan commitment in
the DIP credit agreement to $3,800 million, and the Canadian government increased its commitment to $1,200
million, bringing the maximum loan amount to $5,000 million. The loan interest rate was the 3 Month Eurodollar
rate plus 3.0 percent. The stated maturity was September 2009, with earlier maturity depending on the bankruptcy
proceedings. Of the $3,800 million committed by the Treasury, approximately $1,900 million was funded during
the bankruptcy. This DIP loan provided the necessary liquidity to sustain Chrysler during the bankruptcy period.
Upon the Section 363 sale of the Chrysler assets, the funding commitment was reduced to amounts previously
drawn. As such, no additional amounts were drawn from this facility. Recovery of the DIP loan is subject to the
bankruptcy process associated with the Chrysler assets remaining after the sale to New Chrysler.

Chrysler Exit
In May 2009, the Treasury committed to make a loan to in New CarCo Acquisition LLC (New Chrysler or
Chrysler Group LLC), the company that purchased the assets of Chrysler. The final terms of the credit agreement
resulted in a loan to New Chrysler for $7,140 million. This amount consists of $6,640 million of new funding
and $500.0 million of assumed debt5 from the Treasury January 2, 2009 credit agreement with Chrysler Holding
LLC. The loan was secured by a first priority lien on the assets of Chrysler Group LLC. Funding of the loan
was available in two installments or tranches (B and C), each with varying availability and terms. The following
describes the terms of Tranches B and C.

The maximum funding under Tranche B was $2,000 million and was funded on the closing date of the agree-
ment. Interest on Tranche B is 3 Month Eurodollar plus 5.0 percent margin (in certain situations, defined in the
agreement, a rate other than the 3 Month Eurodollar rate will be applied. This rate, referred to as the Alternative
Base Rate, will be the greater of the Prime Rate, the Federal Funds Effective rate plus 0.5 percent or the 3 Month
Eurodollar rate plus 1.0 percent. If this Alternative Base Rate is applied, the margin will be 4.0 percent versus the
5.0 percent if the 3 Month Eurodollar Rate). Tranche B is due and payable on December 10, 2011, provided that
the Chrysler Group LLC may elect to extend the maturity of up to $400.0 million of Tranche B to the Tranche C
maturity date. If so elected, the applicable margin will increase to 6.5 percent for Eurodollar and 5.5 percent for
ABR loans, respectively.

The maximum funding under Tranche C is $4,640 million, of which $2,580 million was funded on the closing
date. Interest on Tranche B is 3 Month Eurodollar plus 7.91 percent margin (in certain situations, defined in the
agreement, a rate other than the 3 Month Eurodollar rate will be applied. This rate, referred to as the Alternative

4	   Section 363 refers to Section 363 of the Federal Bankruptcy Code, which allows companies in bankruptcy to sell assets in reorganization.
5	   The assumed debt contains the same terms as the Tranche C loan with respect to mandatory prepayment, interest and maturity.




                         Note 12. Credit Program Receivables, Direct Loans and Asset Guarantee, Net                                             147
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Base Rate, will be the greater of the Prime Rate, the Federal Funds Effective rate plus 0.5 percent or the 3 Month
                                                                                                                     Eurodollar rate plus 1.0 percent. If this Alternative Base Rate is applied, the margin will be 6.91 percent versus
                                                                                                                     the 7.91 percent if the 3 Month Eurodollar Rate is used). On June 10, 2016, the Tranche C loan shall be prepaid
                                                                                                                     to the extent funded amount is greater than 50.0 percent of the closing date commitment amount, taking into
                                                                                                                     consideration amounts previously prepaid as a voluntary prepayment. The remaining balance of the Tranche C loan
                                                                                                                     is due and payable on June 10, 2017.

                                                                                                                     Interest on both the Tranche B and Tranche C will be payable in-kind through December 2009 and will be
                                                                                                                     added to the principal balance of the respective Tranche. In addition, additional in-kind interest will accrue in
                                                                                                                     the amount of $17.0 million per quarter. Such amount will be added to the Tranche C loan balance subject to
                                                                                                                     interest at the appropriate rate.

                                                                                                                     The Treasury also obtained other consideration, including a 9.85 percent equity interest in Chrysler Group LLC
                                                                                                                     (included in Notes) and additional notes6 with principal balances of $288.0 million and $100.07 million. As of
                                                                                                                     September 30, 2009, the Treasury has funded approximately $4,600 million under this facility.

                                                                                                                     GM Debtor-In-Possession
                                                                                                                     On June 1, 2009, GM filed for Chapter 11 bankruptcy. As part of the filing the Treasury and the Canadian
                                                                                                                     government agreed to lend up to $33,300 million under the terms of the DIP credit agreement; the Treasury’s
                                                                                                                     commitment amount was $30,100 million. The Treasury funded the $30,100 million of which approximately
                                                                                                                     $986 million remains outstanding. In July 2009, the DIP credit agreement was amended to reflect the fact that
                                                                                                                     the amounts there under (other than $986 million that remained with GM for wind-down in bankruptcy and
                                                                                                                     $7,100 million that was assumed by GM NewCo) were extinguished in connection with a successful credit bid
                                                                                                                     for the assets of old GM.

                                                                                                                     The Treasury has assigned its rights in this loan as well as the General Purpose and Working Capital loans and pre-
                                                                                                                     viously received common stock warrants to a newly created entity (GM NewCo or General Motors Company).
                                                                                                                     The purpose of this GM NewCo is to obtain sufficient assets of GM out of bankruptcy to satisfy the original
                                                                                                                     disbursed to GM and discussed above, which it accomplished through a successful credit bid for the assets in a
                                                                                                                     sale pursuant to Section 363 of the Bankruptcy Code. Upon closing of the Section 363 sale, the General Motors
                                                                                                                     Company has assumed $7,100 million of the DIP loan, simultaneously paying $400 million (return of warranty
                                                                                                                     program funds), resulting in a balance of $6,700 million. The loan has a term of 6 years and bears interest at 3
                                                                                                                     Month Eurodollar (subject to a 2.0 percent floor) plus 5.0 percent and has a first lien security interest in the assets
                                                                                                                     of General Motors Company. The Treasury also received $2,100 million in 9.0 percent cumulative perpetual
                                                                                                                     preferred shares and 60.8 percent of the common equity interest in General Motors Company. The assets received
                                                                                                                     by the Treasury as a result of the assignment and Section 363 sale are considered recoveries of the original loans
                                                                                                                     for subsidy cost estimation purposes. As of September 30, 2009, Treasury had received $34.1 million in dividends
                                                                                                                     on GM preferred stock.




                                                                                                                     6	    The additional note bears the same interest rate and maturity as the Tranche C loan.
                                                                                                                     7	    Interest begins to accrue on this note after certain events, defined in the credit agreement, have taken place.




148                                                                                                                       Note 12. Credit Program Receivables, Direct Loans and Asset Guarantee, Net
                                                                                                                       PART 2 • ANNUAL FINANCIAL REPORT
GMAC Limited Liability Company (LLC) Rights Offering
In December 2008, the Treasury agreed, in principal, to lend up to $1,000 million to GM for participation in
a rights offering by GMAC in support of GMAC’s reorganization as a bank holding company. The loan was
secured by the GMAC common interest acquired in the rights offering. The loan agreement specified that at any
time, at the option of the lender (Treasury), the unpaid principal and accrued interest was exchangeable for the
membership interest purchased, by GM, during the rights offering. The note was funded for $884.0 million. In
May 2009, the Treasury exercised its exchange option under the loan and received 190,921 membership interests,
representing approximately 35.36 percent of the voting interest, in GMAC in full satisfaction of the loan. In addi-
tion, Treasury received $9.1 million in interest while the loan was outstanding. The conversion to GMAC shares
was not considered in the original subsidy cost. As a result a modification was recorded reducing the estimated
subsidy cost by approximately $1,600 million.


THE CONSUMER AND BUSINESS LENDING INITIATIVE (CBLI)
Term Asset-Backed Securities Loan Facility
The Term Asset-Backed Securities Loan Facility (TALF) was created by the Federal Reserve Board (FRB) to
provide low cost funding to investors in certain classes of Asset Backed Securities (ABS). Treasury agreed to
participate in the program by providing liquidity and credit protection to the FRB.
Under the TALF, the FRBNY, as implementer of the TALF program, originated loans on a non-recourse basis to
holders of certain AAA rated ABS secured by recently originated consumer and commercial loans and commercial
mortgage backed securities (New Issue CMBS). In addition to securities secured by recently originated loans,
CMBS issued prior to January 2009 and originally AAA rated (Legacy CMBS) are eligible collateral. TALF loans
have a term of 3 or 5 years and are secured solely by eligible collateral. Haircuts (a percentage reduction used for
collateral valuation) are determined based on the riskiness of each type of eligible collateral and the maturity of
the eligible collateral pledged to the FRBNY. The “haircuts” provide additional protection to Treasury by expos-
ing the TALF borrowers to risk of loss. Interest rates charged on the TALF loans depend on the weighted average
maturity of the pledged collateral, the collateral type and whether the collateral pays a fixed or variable coupon.

As part of the program, the FRBNY has entered into a put agreement with the TALF, LLC, a special purpose
vehicle created by the FRBNY. In the event of a TALF borrower default, the FRBNY will seize the collateral and
sell it to the TALF, LLC under this agreement. The TALF, LLC receives a monthly fee equal to the difference
between the TALF loan rate and the FRBNY’s fee (spread) as compensation for entering into the put agreement.
The accumulation of this fee will be used to fund purchases. In the event there are insufficient funds to purchase
the collateral, the Treasury has committed to invest up to $20,000 million in non-recourse subordinate notes
issued by the TALF, LLC. The subordinate notes bear interest at 1 Month LIBOR plus 3.0 percent and mature
10 years from the closing date, subject to extension. The Treasury disbursed $100.0 million upon creation of
the TALF, LLC and the remainder can be drawn to purchase collateral in the event the spread is not sufficient
to cover purchases. Any amounts needed in excess of the Treasury commitment and the fee would be provided
through a loan from the FRBNY. Upon wind-down of TALF, LLC (collateral defaults, reaches final maturity or is
sold), the cash balance will be disbursed according to the following payment priority:
   1.	FRBNY principal balance
   2.	Treasury principal balance
   3.	FRBNY interest



                     Note 12. Credit Program Receivables, Direct Loans and Asset Guarantee, Net                        149
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                           4.	Treasury interest
                                                                                                                           5.	Remaining cash balance – 90.0 percent to Treasury, 10.0 percent to FRBNY

                                                                                                                     Subsequent to the initial cost estimates prepared for the TALF, certain changes were made to the terms of the
                                                                                                                     program, including increasing the term to 5 years and the addition of different types of acceptable collateral.
                                                                                                                     These program changes resulted in a modification, increasing the original cost estimate by $8.0 million.

                                                                                                                     The TALF, LLC is owned and controlled by the FRBNY. The credit agreement entered into between the Treasury
                                                                                                                     and the TALF, LLC provides the Treasury with certain rights consistent with a creditor but would not constitute
                                                                                                                     control. As such TALF, LLC is not a federal entity and the assets, liabilities, revenue and cost of TALF, LLC are
                                                                                                                     not included in the Treasury financial statements. The discussion below provides information on 1) the amount
                                                                                                                     of TALF loans issued by the FRBNY, by collateral class, and 2) the assets, liabilities, income and expense of the
                                                                                                                     TALF, LLC.

                                                                                                                     The FRBNY has originated $50,900 million in TALF loans8, of which about $42,700 million is outstanding as
                                                                                                                     of September 30, 2009. The average “haircut” was approximately 9.9 percent of the originated balance. As of
                                                                                                                     September 30, 2009, all TALF loans performed as agreed. The table below shows the outstanding balance of the
                                                                                                                     TALF loans as of September 30, 2009, by collateral type:

                                                                                                                                                                               Loan Amount
                                                                                                                      Collateral Type                                            (in millions)                        % of Total
                                                                                                                      Auto                                                       $     7,430                             17.3%
                                                                                                                      Credit Cards                                                    21,610                             50.6 %
                                                                                                                      Equipment                                                          890                              2.1 %
                                                                                                                      Floorplan                                                        1,010                              2.4 %
                                                                                                                      Premium Finance                                                    990                              2.3 %
                                                                                                                      Servicing Advances                                                 580                              1.4 %
                                                                                                                      Small Business                                                     460                              1.1 %
                                                                                                                      Student Loans                                                    5,630                             13.1 %
                                                                                                                      New Issue CMBS                                                       0                              0.0 %
                                                                                                                      Legacy CMBS                                                      4,130                              9.7 %
                                                                                                                      Total                                                      $    42,730                              100%


                                                                                                                     As of September 30, 2009, the TALF, LLC has assets of approximately $198.9 million consisting primarily of in-
                                                                                                                     vestments in U.S. Treasury and Agency securities9. Total liabilities of the TALF, LLC are $101.8 million consisting
                                                                                                                     of Treasury subordinated note plus accrued interest. During the period ended September 30, 2009, TALF, LLC
                                                                                                                     collected $99.1 million in fees and investment income and incurred $2.3 million in expenses, $1.8 million of
                                                                                                                     which is accrued interest on Treasury subordinated note. As of September 30, 2009 there were no TALF borrower
                                                                                                                     defaults and consequently no purchases of collateral by TALF, LLC.

                                                                                                                     The tables below provide an analysis of the TARP direct loans including allowance for subsidy costs, modifica-
                                                                                                                     tions, and reestimates. The description of the TARP direct loan programs are described above. The TARP pro-
                                                                                                                     grams were created in fiscal year 2009 and thus there are no fiscal year 2008 comparitive balances to disclose.

                                                                                                                     8	    These represent loans originated by the FRBNY and not Treasury. The intention of this disclosure is to show the activity in the program
                                                                                                                           and the types of collateral that could eventually be purchased by the TALF, LLC with funding provided by Treasury.
                                                                                                                     9	    Agency securities refer to securities issued by either Ginnie Mae, Fannie Mae, Freddie Mac, or the Federal Home Loan Banks.




150                                                                                                                       Note 12. Credit Program Receivables, Direct Loans and Asset Guarantee, Net
                                                                                                                                                         PART 2 • ANNUAL FINANCIAL REPORT
Troubled Asset Relief Programs - Direct Loans Receivables, Net (in millions):
                                                                                                                                                 2009
                                                                                                            Allowance for             Value of Assets
                             Direct Loans                         Interest            Foreclosed             Subsidy Cost            Related to Direct
Programs                 Receivable, Gross                     Receivable               Property           (Present Value)                      Loans
AIFP                           $   61,262                          $        0               $    0            $   (26,955)                $    34,307
CBLI                                  100                                   0                    0                     344                        444
Total                          $   61,362                          $        0               $    0            $ (26,611)                  $    34,751
			


Total Amount of Disbursements, Direct Loans (in millions):

Programs                                       2009
AIFP                                         $63,402
CBLI                                             100
Total                                        $63,502




Subsidy Expense, Direct Loans (in millions):
                                                                                                Fees and Other                                  2009
Programs                                Interest Differential                    Defaults          Collections               Other              Total
AIFP                                                   $          (33)          $ 38,787               $     0        $      (184)         $ 38,570
CBLI                                                                6                  0                     0               (110)            (104)
Total                                              $              (27)          $ 38,787               $     0        $      (294)         $ 38,466




Modifications and Reestimates, Direct Loans (in millions):
                                                                                    Interest Rate             Technical                           2009
Programs                                      Total Modifications                    Reestimates            Reestimates              Total Reestimates
AIFP                                                   $          (1,589)                   $    0           $ (10,610)                    $ (10,610)
CBLI                                                                    8                        0                (243)                         (243)
Total                                                      $     (1,581)                    $    0           $ (10,853)                   $ (10,853)




Total Subsidy Expense, Direct Loans (in millions):

Programs                                                       2009
AIFP                                                   26,371
CBLI                                                     (339)
Total                                            $ 26,032




                    Note 12. Credit Program Receivables, Direct Loans and Asset Guarantee, Net                                                           151
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Subsidy Rates by Program and Component, Direct Loans:
                                                                                                                                                                                                    Fees and Other                     2009
                                                                                                                     Programs                                    Interest Differential   Defaults      Collections        Other        Total
                                                                                                                     AIFP                                                     -0.05%     59.07%               0.00%     -0.28%       58.74%
                                                                                                                     CBLI                                                      5.87%      0.00%               0.00%   -110.10%     -104.23%




                                                                                                                     Schedule for Reconciling Subsidy Cost Allowance Balances (in millions):
                                                                                                                     DIRECT LOANS
                                                                                                                                                                                                                                         2009
                                                                                                                                                                                                            AIFP           CBLI         Totals
                                                                                                                     Beginning Balance of the subsidy cost allowance                                 $         0      $       0    $           0
                                                                                                                     Add: subsidy expense for disbursements
                                                                                                                         (a) Interest rate differential cost                                                 (33)             6            (27)
                                                                                                                         (b) Default costs (net of recoveries)                                            38,787              0         38,787
                                                                                                                         (c) Fees and other collections                                                        0              0                0
                                                                                                                         (d) Other subsidy costs                                                            (184)          (110)          (294)
                                                                                                                     Total of the above subsidy expense components                                   $ 38,570         $    (104)   $    38,466
                                                                                                                     Adjustments:
                                                                                                                         (a) Loan modifications                                                           (1,589)             8         (1,581)
                                                                                                                         (b) Fees received                                                                   261              0            261
                                                                                                                         (c) Foreclosed property acquired                                                      0              0                0
                                                                                                                         (d) Loans written off                                                                 0              0                0
                                                                                                                         (e) Subsidy allowance amortized                                                     323             (5)           318
                                                                                                                         (f) Other                                                                             0              0                0
                                                                                                                     Ending Balance subsidy cost allowance before reestimates                        $ 37,565         $    (101)   $    37,464
                                                                                                                     Add or subtract subsidy reestimates by component:
                                                                                                                         (a) Interest rate reestimate                                                          0              0                0
                                                                                                                         (b) Technical default reestimate                                                (10,610)          (243)       (10,853)
                                                                                                                     Total of the above reestimate components                                            (10,610)          (243)       (10,853)
                                                                                                                     Ending Balance of the subsidy cost allowance                                    $ 26,955         $    (344)   $    26,611




152                                                                                                                    Note 12. Credit Program Receivables, Direct Loans and Asset Guarantee, Net
                                                                                                                     PART 2 • ANNUAL FINANCIAL REPORT
HOME AFFORDABLE MODIFICATION PROGRAM (HAMP)
The Home Affordable Modification Program (HAMP) is designed to assist eligible homeowners who are experi-
encing financial hardships to remain in their homes by providing reductions in their monthly mortgage payments
for up to five years. The HAMP provides for one-time, monthly, and annual incentives to servicers, borrowers,
and investors who participate in the program. On an ongoing basis, beyond such incentive, the Treasury shares
equally in the cost of the reductions with the mortgage investors. Lastly, investors are paid a Home Price Decline
Protection payment to partially offset losses from home price declines.

For the HAMP, Fannie Mae provides direct programmatic support as a third party agent on behalf of Treasury,
Freddie Mac provides compliance oversight as a third party agent on behalf of Treasury, and the servicers work
directly with the borrowers to modify and service the borrowers’ loans.

As of September 30, 2009, the Treasury had entered into agreements with 63 servicers to provide up to ap-
proximately $27,100 million in payments and incentives to borrowers, servicers, and investors. It should be
noted that all HAMP payments are made to servicers either for themselves or for the benefit of borrowers and
investors. Furthermore, all payments are contingent on borrowers remaining current on their mortgage payments.
As of September 30, 2009, approximately $0.95 million in incentive payments had been paid to three servicers
in incentive payments for 743 borrowers who had completed official loan modifications. Servicers have until
December 31, 2012, to enter into mortgage modifications with borrowers.

The HAMP is not subject to the FCRA per ESSA. The liability for payments to servicers and investors, and
principal balance reduction payments for the account of borrowers under the HAMP are accounted for in ac-
cordance with SFFAS No. 5, Accounting for Liabilities of the Federal Government. Under SFFAS No. 5, the liability
is recognized in the period in which the exchange occurs. The exchange of consideration between the parties and
the Treasury occurs on a month to month basis. Executed contract and program documentation identifies servic-
ing requirements by the servicer, certain incentives for investors to participate in the modifications and/or not
assert any rights to object or dissent to the modification and the nature and timing of the actions the borrower
must agree to and take, in order for the Treasury to be liable for payment. A key requirement of program continu-
ance is the servicer’s ongoing responsibility under the servicing agreement to closely monitor and perform loss
mitigation when required to assist the borrowers to remain current on their payments. As of September 30, 2009,
the Treasury had accrued approximately $1.4 million of first lien incentive for modifications under the HAMP
program, and reported in other liabilities in the financial statements.




                     Note 12. Credit Program Receivables, Direct Loans and Asset Guarantee, Net                      153
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     13. LOANS AND INTEREST RECEIVABLE

                                                                                                                     Entity and Non-Entity Non-Federal:
                                                                                                                     As of September 30, 2009 and September 30, 2008, loans and interest receivable from non-federal entities
                                                                                                                     consisted of the following, excluding TARP Loans (in millions):

                                                                                                                                                                                           Non-      2009                  Non-      2008
                                                                                                                                                                               Entity      entity    Total       Entity    entity    Total
                                                                                                                     Direct Loans                                              $    61    $ 125     $ 186    $       62   $ 128     $ 190
                                                                                                                     Interest Receivable                                             0        2          2            0       2          2
                                                                                                                     Less: Allowance and Subsidy Cost                              (20)       0       (20)         (20)       0       (20)
                                                                                                                     Total Non-Federal Loans and Related Interest Receivable   $    41    $ 127     $ 168    $      42    $ 130     $ 172


                                                                                                                     Loans and Interest Receivable amounts include certain loans and credits issued by the United States to various
                                                                                                                     foreign governments and other entities. The agreements with each debtor government vary as to dates, interest
                                                                                                                     rates, method of payment, and billing procedures. All such loans and credits represent legally valid and outstand-
                                                                                                                     ing obligations of foreign governments, other entities, and the U.S. Government has not waived or renounced its
                                                                                                                     rights with respect to any of them. The loans are due and payable in U.S. denominations.




154                                                                                                                    Note 13. Loans and Interest Receivable
                                                                                                                                                                  PART 2 • ANNUAL FINANCIAL REPORT
14. RESERVE POSITION IN THE INTERNATIONAL MONETARY FUND
The United States participates in the IMF through a quota subscription. Quota subscriptions are paid partly
through the transfer of reserve assets, such as foreign currencies or SDR, which are international reserve currency
assets created by the IMF, and partly by making domestic currency available as needed through a non-interest-
bearing letter of credit. This letter of credit, issued by the Treasury Department and maintained by the FRBNY,
represents the bulk of the IMF’s holdings of dollars. Approximately one quarter of 1 percent of the U.S. quota is
maintained in cash balances in an IMF account at FRBNY.

While resources for transactions between the IMF and the United States are appropriated, they do not result in
net budgetary outlays. This is because U.S./IMF quota transactions constitute an exchange of monetary assets in
which the United States receives an equal offsetting claim on the IMF in the form of an increase in the U.S. re-
serve position in the IMF, which is interest-bearing and can be drawn at any time for balance of payments needs.
When the IMF draws dollars from the letter of credit to finance its operations and expenses, the drawing does
not represent a net budget outlay on the part of the United States because there is a commensurate increase in the
U.S. reserve position. When the IMF repays dollars to the United States, no net budget receipt results because the
U.S. reserve position declines concurrently in an equal amount.

As of September 30, 2009, the U.S. quota in the IMF was 37.1 billion SDR, valued at approximately $66.6
billion. (The quota as of September 30, 2008, was 37.1 billion SDR, valued at approximately $57.9 billion.) The
quota consisted of the following (in millions):

                                                                                                                     2009                               2008
Letter of Credit /1                                                                                            $ 53,056                           $   53,012
U.S. Dollars Held in Cash by the IMF /1                                                                                44                                    88
Reserve Position /2                                                                                                13,469                              4,750
U.S. Quota in the IMF                                                                                          $ 66,569                           $ 57,850
1/ This amount is included in entity appropriated funds under Note 2, Fund Balance with Treasury, and unexpended appropriations – Obligations/ Undelivered
   orders.
2/ This amount is included in the Cumulative Results of Operations.



On June 24, 2009, the Supplemental Appropriations Act, 2009 (Public Law 111-32) was enacted and it provides
authorization and appropriations for an increase in the United States quota share in the IMF by the dollar equiva-
lent of 4.97 billion SDRs which at the SDR/dollar exchange rate applicable September 30, 2009 is equivalent to
$7.9 billion. However, this increase in the United States quota share is not effective as of September 30, 2009 and
will not come into effect until other IMF member countries undertake certain actions with respect to the IMF.

The U.S. reserve position is denominated in SDR, as is the U.S. quota. Consequently, fluctuations in the value of
the dollar with respect to the SDR results in valuation changes in dollar terms for the U.S. reserve position in the
IMF as well as the IMF letter of credit. The Treasury Department periodically adjusts these balances to maintain
the SDR value of the U.S. quota and records the change as a deferred gain or loss in its cumulative results of
operations. These adjustments, known as maintenance of value adjustments, are settled annually after the close
of the IMF financial year on April 30. Such adjustments do not involve a flow of funds. At April 30, 2009, the
annual settlement with the IMF resulting from the appreciation of the dollar against the SDR since April 30,
2008, called for an downward adjustment of the U.S. quota by $4.3 billion and a corresponding increase to




                                                  Note 14. Reserve Position in the International Monetary Fund                                                    155
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Unexpended Appropriations on the Statement of Changes in Net Position (At April 30, 2008, the depreciation
                                                                                                                     of the dollar against the SDR since April 30, 2007, called for an upward adjustment of the U.S. quota by $3.4
                                                                                                                     billion and a corresponding increase to Unexpended Appropriations.) The dollar balances shown above for the
                                                                                                                     U.S. quota includes accrued valuation adjustments. At September 30, 2009, the Treasury Department recorded a
                                                                                                                     net deferred valuation gain in the amount of $498 million for deferred maintenance of value adjustments needed
                                                                                                                     at year end ($15.5 million loss at September 30, 2008).

                                                                                                                     The United States earns “remuneration” (interest) on its reserve position in the IMF except for the portion of
                                                                                                                     the reserve position originally paid in gold. Remuneration is paid quarterly and is calculated on the basis of the
                                                                                                                     SDR interest rate. The SDR interest rate is a market-based interest rate determined on the basis of a weighted
                                                                                                                     average of interest rates on short-term instruments in the markets of the currencies included in the SDR valuation
                                                                                                                     basket. Payment of a portion of this remuneration is deferred as part of a mechanism for creditors and debtors
                                                                                                                     to share the financial consequences of overdue obligations to the IMF, such as unpaid overdue interest, and to
                                                                                                                     similarly share the burden of establishing any contingency accounts deemed necessary to reflect the possibility
                                                                                                                     of non-repayment of relevant principal amounts. As overdue interest is paid, previously deferred remuneration
                                                                                                                     corresponding to the creditors’ share of the burden of earlier nonpayment is included in the next payment of
                                                                                                                     remuneration. The deferred remuneration corresponding to the creditors’ share of establishing the contingency
                                                                                                                     accounts is usually paid when there are no longer any relevant overdue obligations or when the IMF Executive
                                                                                                                     Board determines to pay the remuneration. There was no deduction in the remuneration paid by the IMF as a re-
                                                                                                                     sult of burden-sharing during fiscal years 2009 or 2008. For fiscal years 2009 and 2008, the Treasury Department
                                                                                                                     received $40 million and $59 million as remuneration, respectively. (See Note 6.)

                                                                                                                     In addition to quota subscriptions, the IMF maintains borrowing arrangements to supplement its resources in
                                                                                                                     times of crisis when IMF liquidity is low. The United States currently participates in two such arrangements – the
                                                                                                                     General Arrangements to Borrow (GAB) and the New Arrangements to Borrow (NAB). There were no U.S. loans
                                                                                                                     outstanding under these arrangements in fiscal year 2009 and fiscal year 2008. The dollar equivalent of SDR 6.7
                                                                                                                     billion has been appropriated to finance U.S. participation in the GAB and NAB; as of September 30, 2009 and
                                                                                                                     September 30, 2008, this amounted to $10.6 billion and $10.5 billion, respectively, in standing appropriations
                                                                                                                     available for lending through the GAB or NAB as needed. As is the case for the U.S. quota in the IMF, budgetary
                                                                                                                     treatment of U.S. participation in the GAB and NAB does not result in net budgetary outlays, since transactions
                                                                                                                     under the GAB or NAB result in concurrent adjustments to the U.S. reserve position in the IMF.

                                                                                                                     Public Law 111-32 also provided the authorization and appropriations for an increase in the United States partici-
                                                                                                                     pation in the NAB by the dollar equivalent of SDR 75 billion which at the SDR/dollar exchange rate applicable
                                                                                                                     on September 30, 2009 is equivalent to $119 billion. However, this increase in the United States participation in
                                                                                                                     the NAB is not effective as of September 30, 2009 and will not come into effect until all IMF member countries
                                                                                                                     participating in the NAB come to a final agreement on certain modifications to the decision governing the NAB.
                                                                                                                     Although $119 was appropriated under Public Law 111-32, the United States has publicly stated that it will limit
                                                                                                                     its commitment to $100 billion whenever a final decision is reached.




156                                                                                                                    Note 14. Reserve Position in the International Monetary Fund
                                                                                                                           PART 2 • ANNUAL FINANCIAL REPORT
15. TAX, OTHER, AND RELATED INTEREST RECEIVABLES, NET
Tax, other, and related interest receivables include receivables from tax assessments, excise taxes, fees, penalties,
and interest assessed and accrued that were not paid or abated, reduced by an estimate for uncollectible amounts.
In addition to amounts attributed to taxes, interest income due on monies deposited in Federal Reserve Banks is
also included in this line item.

As of September 30, 2009 and September 30, 2008, Tax, Other, and Related Interest Receivables, and Net,
consisted of the following (in millions):

 Non-Entity:                                                                              2009                    2008
 IRS Federal Tax Receivable, Gross                                                 $   128,115            $    112,067
 Less: Allowance on Taxes Receivable                                                   (99,027)                (83,046)
 Receivable, Deposit of Earnings, Federal Reserve Banks                                   1,254                   1,465
 Other Receivables and Interest                                                              33                       28
 Less: Allowance on Other and Related Interest Receivable                                   (15)                    (19)
 Total Tax, and Other Non-Entity Receivables, Net                                  $     30,360           $      30,495

 Entity:
 Miscellaneous Entity Receivables and Related Interest                                      48                     383
 Total Tax, Other, and Related Interest Receivables, Net                           $    30,408            $     30,878




IRS federal taxes receivable constitute the largest portion of the receivables. IRS federal taxes receivable consists
of tax assessments, penalties, and interest which were not paid or abated, and which were agreed to by either the
taxpayer and IRS, or the courts. An allowance for doubtful accounts is established for the difference between the
gross receivables and the portion deemed collectible. The portion of tax receivables estimated to be collectible and
the allowance for doubtful accounts are based on projections of collectability from a statistical sample of taxes
receivable. The Treasury Department does not establish an allowance for the receivable on deposits of Federal
Reserve Bank earnings.




                                                       NOte 15. Tax, Other, and Related Interest Receivables, Net          157
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     16. INVENTORY AND RELATED PROPERTY, NET
                                                                                                                     Inventory and related property includes inventory, operating materials and supplies, and forfeited property held
                                                                                                                     by Treasury Department. The Treasury Department’s operating materials and supplies are maintained for the
                                                                                                                     production of bureau products. The Treasury Department maintains inventory accounts or balances (e.g., metals,
                                                                                                                     paper, etc.) for use in manufacturing currency and coins. The cost of these items is included in inventory costs,
                                                                                                                     and is recorded as cost of goods sold upon delivery to customers. Inventory for check processing activities is also
                                                                                                                     maintained. As of September 30, 2009 and September 30, 2008, inventory and related property consisted of the
                                                                                                                     following (in millions):

                                                                                                                                                                                                         2009                       2008
                                                                                                                     Operating materials and supplies held for use                                   $    17                    $    16
                                                                                                                     Operating materials and supplies held in reserve for future use                      24                         24
                                                                                                                     Forfeited property                                                                   62                        100
                                                                                                                     Inventory – raw materials                                                           239                        355
                                                                                                                     Inventory – work in process                                                         128                         86
                                                                                                                     Inventory – finished goods                                                          142                        135
                                                                                                                     Allowance for inventories and related property                                      (14)                       (18)
                                                                                                                     Total Inventories and Related Property, Net                                     $   598                    $   698




158                                                                                                                    Note 16. Inventory and Related Property, Net
                                                                                                                        PART 2 • ANNUAL FINANCIAL REPORT
17. PROPERTY, PLANT, AND EQUIPMENT, NET
As of September 30, 2009 and September 30, 2008, property, plant, and equipment consisted of the following (in
millions):
                                                                                                             2009
                                        Depreciation                                    Accumulated      Net Book
                                            Method       Service Life        Cost       Depreciation        Value
Buildings, structures, and facilities           S/L      3 - 50 years   $     676        $     (308)     $       368
Furniture, fixtures, and equipment              S/L      2 - 20 years       3,048            (2,268)             780
Construction in progress                        N/A              N/A           38                  0              38
Land and land improvements                      N/A              N/A           12                  0              12
Internal use software                           S/L       2 -10 years       1,352              (807)             545
Internal use software in development            N/A              N/A          112                  0             112
Assets under capital lease                      S/L      2 - 25 years          25                (23)              2
Leasehold improvements                          S/L      2 - 25 years         482              (303)             179
Total                                                                   $   5,745        $   (3,709)     $      2,036


                                                                                                             2008
                                        Depreciation                                   Accumulated       Net Book
                                            Method       Service Life        Cost      Depreciation         Value
Buildings, structures, and facilities           S/L      3 - 50 years   $     669        $     (297)     $       372
Furniture, fixtures, and equipment              S/L      2 - 20 years       3,376            (2,608)             768
Construction in progress                        N/A              N/A           35                  0              35
Land and land improvements                      N/A              N/A           12                  0              12
Internal use software                           S/L       2-10 years        1,151              (664)             487
Internal use software in development            N/A              N/A          205                  0             205
Assets under capital lease                      S/L      2 - 25 years          30                (20)             10
Leasehold improvements                          S/L      2 - 25 years         580              (392)             188
Total                                                                   $   6,058        $   (3,981)     $      2,077



The service life ranges vary significantly due to the diverse nature of PP&E held by the Treasury Department.


HERITAGE ASSETS
The Treasury Department Complex (Main Treasury Building and Annex) was declared a national historical
landmark in 1972. The Treasury Department Complex is treated as a multi-use heritage asset and is expected to
be preserved indefinitely. The building housing the United States Mint in Denver, Colorado, is also considered a
multi-use heritage asset.




                                                           Note 17. Property, Plant, and Equipment, Net                 159
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     18. NON-ENTITY ASSETS
                                                                                                                     Non-entity assets are those that are held by the Treasury Department but are not available for use by the Treasury
                                                                                                                     Department. For example non-entity Fund Balance with Treasury represents unused balances of appropriations
                                                                                                                     received by various Treasury Department entities to conduct custodial operations such as the payment of interest on
                                                                                                                     the federal debt and refunds of taxes and fees. Non-entity loans and interest receivable represents loans managed by
                                                                                                                     the Treasury Department on behalf of the U.S. Government. These loans are provided to federal agencies, and the
                                                                                                                     Treasury Department is responsible for collecting these loans and transferring the proceeds to the General Fund of
                                                                                                                     the U.S. Government. Non-entity cash, foreign currency, and other monetary assets include the operating cash of
                                                                                                                     the U.S. Government, managed by the Treasury Department. It also includes foreign currency maintained by vari-
                                                                                                                     ous U.S. and military disbursing offices, as well as seized monetary instruments. Non-Entity Investments in GSEs
                                                                                                                     include the GSE senior preferred stock and warrants held by Treasury on behalf of the General Fund. As the stock
                                                                                                                     and warrants are liquidated all proceeds are returned to the General Fund.

                                                                                                                     As of September 30, 2009 and September 30, 2008, non-entity assets consisted of the following (in millions):

                                                                                                                                                                                                            2009                      2008
                                                                                                                     Intra-governmental Assets:
                                                                                                                         Fund Balance (Note 2)                                                     $         513             $         889
                                                                                                                         Loans and Interest Receivable (Note 3)                                          348,800                    226,194
                                                                                                                         Accounts Receivable and Related Interest (Note 5)                                   285                       372
                                                                                                                         Advances to the Black Lung Trust Fund (Note 1G)                                       0                     10,484
                                                                                                                         Advances to the Unemployment Trust Fund (Note 1H)                                  7,981                        0
                                                                                                                         Due from the General Fund (Note 4)                                            11,992,719                10,100,763
                                                                                                                     Total Non-Entity Intra-governmental Assets                                    $   12,350,298            $   10,338,702


                                                                                                                     Cash, Foreign Currency, and Other Monetary Assets (Note 6)                    $     269,579             $      364,941
                                                                                                                     Gold and Silver Reserves (Note 7)                                                    11,062                     11,062
                                                                                                                     Loans and Interest Receivable (Note 13)                                                 127                       130
                                                                                                                     Investments in GSEs (Note 9)                                                         64,679                      7,032
                                                                                                                     Tax, Other, and Related Interest Receivable, Net (Note 15)                           30,360                     30,495
                                                                                                                     Beneficial Interest in AIG Trust                                                     23,472                         0
                                                                                                                     Miscellaneous Assets                                                                      3                        12
                                                                                                                     Total Non-Entity Assets                                                       $ 12,749,580              $ 10,752,374
                                                                                                                     Total Entity Assets                                                               1,097,021                  364,664
                                                                                                                     Total Assets                                                                  $ 13,846,601              $   11,117,038




160                                                                                                                    Note 18. Non-Entity Assets
                                                                                                                         PART 2 • ANNUAL FINANCIAL REPORT
19. FEDERAL DEBT AND INTEREST PAYABLE
The Treasury Department is responsible for administering the federal debt on behalf of the U.S. Government. The
federal debt includes borrowings from the public as well as borrowings from federal agencies. The federal debt
managed by the Treasury Department does not include debt issued by other governmental agencies such as the
Tennessee Valley Authority or the Department of Housing and Urban Development.

The federal debt as of September 30, 2009 and September 30, 2008 was as follows (in millions):

Intra-governmental                                                                   2009                        2008
Beginning Balance                                                           $    4,179,570                $ 3,922,548
New Borrowings/Repayments                                                         140,322                     257,022
Subtotal at Par Value                                                       $    4,319,892                $ 4,179,570
Premium/(Discount)                                                                 33,779                      32,489
Interest Payable Covered by Budgetary Resources                                    49,409                      50,355
Total                                                                       $    4,403,080                $ 4,262,414


Owed to the Public                                                                   2009                        2008
Beginning Balance                                                           $    5,808,691                $ 5,049,305
New Borrowings/Repayments                                                        1,743,171                    759,386
Subtotal at Par Value                                                       $    7,551,862                $ 5,808,691
Premium/(Discount)                                                                (33,906)                    (36,124)
Interest Payable Covered by Budgetary Resources                                    41,349                      40,127
Total                                                                       $    7,559,305                $ 5,812,694



Debt held by the public approximates the U.S. Government’s competition with other sectors in the credit mar-
kets. In contrast, debt held by federal entities, primarily trust funds, represents the cumulative annual surpluses of
these funds (i.e., excess of receipts over disbursements plus accrued interest) that have been used to finance general
government operations.


FEDERAL DEBT HELD BY OTHER FEDERAL AGENCIES
Certain federal agencies are allowed to invest excess funds in debt securities issued by the Treasury Department on
behalf of the U.S. Government. The terms and the conditions of debt securities issued are designed to meet the
cash needs of the U.S. Government. The vast majority is non-marketable securities issued at par value, but some
are issued at market prices whose prices and interest rates reflect market terms. The average interest rate for debt
held by the federal entities in fiscal year 2009 was 4.3 percent (4.83 percent in fiscal year 2008).

The federal debt also includes intra-governmental marketable debt securities that certain agencies are permitted
to buy and sell on the open market. The debt, at par value (not including interest receivable), owed to federal
agencies as of September 30, 2009 and September 30, 2008 was as follows (in millions):




                                                               Note 19. Federal Debt and Interest Payable                161
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                                                                                                                     2009                 2008
                                                                                                                      Social Security Administration                                                          $ 2,504,248          $ 2,367,138
                                                                                                                      Office of Personnel Management                                                              828,952              797,107
                                                                                                                      Department of Defense Agencies                                                              375,519              335,672
                                                                                                                      Department of Health and Human Services                                                     376,512              380,540
                                                                                                                      All Other Federal Entities - Consolidated                                                   234,661              299,113
                                                                                                                      Total Federal Debt Held by Federal Entities                                             $ 4,319,892          $ 4,179,570

                                                                                                                     The above balances do not include premium/discount and interest payable.


                                                                                                                     FEDERAL DEBT HELD BY THE PUBLIC
                                                                                                                     As of September 30, 2009 and September 30, 2008, Federal Debt held by the Public consisted of the following:

                                                                                                                                                                                                                       Average
                                                                                                                      (at par value, in millions)                                                    Term        Interest Rates           2009
                                                                                                                      Marketable:
                                                                                                                          Treasury Bills                                                     1 Year or Less                 0.3%   $ 1,986,174
                                                                                                                          Treasury Notes                                                       2 - 10 Years                 3.0%     3,772,964
                                                                                                                          Treasury Bonds                                                     Over 10 Years                  6.5%       677,491
                                                                                                                          Treasury Inflation Protected Security (TIPS)                     5 Years or More                  2.1%       551,308
                                                                                                                      Total Marketable                                                                                             $ 6,987,937
                                                                                                                      Non-Marketable                                            On Demand to Over 10 Years                  3.7%       563,925
                                                                                                                      Total Federal Debt (Public)                                                                                  $ 7,551,862


                                                                                                                                                                                                                       Average
                                                                                                                      (at par value, in millions)                                                    Term        Interest Rates           2008
                                                                                                                      Marketable:
                                                                                                                          Treasury Bills                                                     1 Year or Less                 1.6%   $ 1,484,332
                                                                                                                          Treasury Notes                                                       2 - 10 Years                 4.1%     2,623,364
                                                                                                                          Treasury Bonds                                                     Over 10 Years                  7.1%       578,504
                                                                                                                          Treasury Inflation Protected Security (TIPS)                     5 Years or More                  2.0%       523,951
                                                                                                                      Total Marketable                                                                                             $ 5,210,151
                                                                                                                      Non-Marketable                                            On Demand to Over 10 Years                  4.1%       598,540
                                                                                                                      Total Federal Debt (Public)                                                                                  $ 5,808,691

                                                                                                                     The above balances do not include premium/discount and interest payable.

                                                                                                                     The Treasury Department issues marketable bills at a discount or at par and pays the par amount of the security
                                                                                                                     upon maturity. The average interest rate on Treasury bills represents the original issue effective yield on securities
                                                                                                                     outstanding as of September 30, 2009 and September 30, 2008, respectively. Treasury bills are issued with a term
                                                                                                                     of one year or less.

                                                                                                                     The Treasury Department issues marketable notes and bonds as long-term securities that pay semi-annual inter-
                                                                                                                     est based on the securities' stated interest rates. These securities are issued at either par value or at an amount
                                                                                                                     that reflects a discount or a premium. The average interest rate on marketable notes and bonds represents the




162                                                                                                                     Note 19. Federal Debt and Interest Payable
                                                                                                                        PART 2 • ANNUAL FINANCIAL REPORT
stated interest rate adjusted by any discount or premium on securities outstanding as of September 30, 2009 and
September 30, 2008. Treasury notes are issued with a term of 2 to 10 years and Treasury bonds are issued with a
term of more than 10 years. The Treasury Department also issues inflation–indexed securities (TIPS) that have
interest and redemption payments, which are tied to the Consumer Price Index, a widely used measurement
of inflation. TIPS are issued with a term of five years or more. At maturity, TIPS are redeemed at the inflation-
adjusted principal amount, or the original par value, whichever is greater. TIPS pay a semi-annual fixed rate of
interest applied to the inflation-adjusted principal.

Over the course of fiscal year 2009, changes in economic conditions, financial markets, and fiscal policy as well
as a reduction in nonmarketable debt issuance have caused an increase in Treasury’s marketable borrowing needs.
Financial market strains have impacted the real economy, and the nation has experienced lower economic growth,
lower receipts, and increased outlays. The Treasury Department has responded to the increase in marketable bor-
rowing requirements by increasing issuance sizes of regular bills, the frequency, terms, and issuance sizes of cash
management bills, and the issuance sizes of nominal coupon security offerings.

Federal Debt Held by the Public includes federal debt held outside of the U. S. Government by individuals,
corporations, Federal Reserve Banks (FRB), state and local governments, foreign governments and central banks.
As of September 30, 2009, the FRB had total holdings of $769 billion, with a very small amount lent to dealers
and not collateralized by other Treasury securities. As of September 30, 2008, the FRB owned $221 billion, net
of $256 billion in securities lent to dealers and not collateralized by other Treasury securities, for total holdings
of $477 billion. These securities are held in the FRB System Open Market Account (SOMA) for the purpose of
conducting monetary policy.

The amount of outstanding federal debt is limited by the statutory debt ceiling. Outstanding debt is projected
to reach the statutory debt ceiling in late December 2009. Congressional actions to increase the debt ceiling are
currently pending. In the event Congressional action is delayed, the Treasury Department has various options
available to it to issue additional debt to fund government operations until Congressional action is completed.




                                                               Note 19. Federal Debt and Interest Payable               163
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     20. OTHER DEBT AND INTEREST PAYABLE
                                                                                                                     Borrowings outstanding are with the Civil Service Retirement and Disability Fund (CSR&DF), which is adminis-
                                                                                                                     tered by the Office of Personnel Management (OPM). At September 30, 2009 and September 30, 2008, FFB had
                                                                                                                     borrowings of $11.9 billion and $14.0 billion and an associated unamortized premium of $229 million and $288
                                                                                                                     million, respectively. These borrowings are at stated interest rates ranging from 4.625 percent to 5.250 percent,
                                                                                                                     effective interest rate of 4.125 percent, and with maturity dates range from June 30, 2010 to June 30, 2019.




164                                                                                                                    Note 20. Other Debt and Interest Payable
                                                                                                                       PART 2 • ANNUAL FINANCIAL REPORT
21. D.C. PENSIONS AND JUDICIARY RETIREMENT ACTUARIAL LIABILITY
Pursuant to Title XI of the Balanced Budget Act of 1997, as amended (the Act), on October 1, 1997, Treasury
became responsible for certain District of Columbia retirement plans. The Act was intended to relieve the District
of Columbia government of the burden of unfunded pension liabilities transferred to the District by the U.S.
Government in 1979. To fulfill its responsibility, Treasury manages two funds — the D.C. Teachers’, Police
Officers’ and Firefighters’ Federal Pension Fund (the D.C. Federal Pension Fund) and the District of Columbia
Judicial Retirement and Survivors Annuity Fund (the Judicial Retirement Fund). The Treasury Department is re-
quired to make annual amortized payments from the General Fund of the U.S. Government to the D.C. Federal
Pension Fund and the Judicial Retirement Fund. The actuarial cost method used to determine costs for the
retirement plans is the Aggregate Entry Age Normal Actuarial Cost Method. The actuarial liability is based upon
long term assumptions selected by the Treasury Department. The pension benefit costs incurred by the plans are
included on the Consolidated Statements of Net Cost.


D.C. FEDERAL PENSION FUND
The purpose of the D.C. Federal Pension Fund is to make federal benefit payments and pay necessary administra-
tive expenses for the District of Columbia Police Officers', Firefighters', and Teachers' Retirement Plans for ben-
efits earned based upon service on or before June 30, 1997. The amount paid into the D.C. Federal Pension Fund
from the General Fund of the U.S. Government was $400.3 million for fiscal year 2009 ($340.2 million during
fiscal year 2008). As of September 30, 2009, the unobligated budgetary resources of the D.C. Federal Pension
Fund were approximately $3,557.8 million, and the pension actuarial liability was $8,892.5 million, resulting in
an unfunded liability of $5,334.7 million. (As of September 30, 2008, the unobligated budgetary resources of the
D.C. Federal Pension Fund were approximately $3,564.2 million, and the pension actuarial liability was $8,640.8
million, resulting in an unfunded liability of $5,076.6 million.) In fiscal year 2009, the assumption for the annual
rate of investment return in fiscal year 2010 was 4.5 percent for the D.C. Federal Pension Fund with a gradual
increase to 6.0 percent by fiscal year 2016; and the assumption for the future annual rate of inflation and future
cost-of-living adjustments was 3.5 percent. In fiscal year 2008, the assumption for the annual rate of investment
return in fiscal year 2009 was 4.7 percent for the D.C. Federal Pension Fund with a gradual increase to 6 percent
by fiscal year 2014; and the assumption for the future annual rate of inflation and future cost of-living adjust-
ments was 3.5 percent. In fiscal year 2009, the assumption for the future annual rate of salary increases ranged
from 3.5 percent to 6.5 percent for police officers and firefighters, based on years of service, and ranged from 3.5
percent to 5.5 percent for teachers, based on years of service. In fiscal year 2008, the assumption for the future
annual rate of salary increases was 6.5 percent for police officers and firefighters, and 5.5 percent for teachers.


JUDICIAL RETIREMENT FUND
The purpose of the Judicial Retirement Fund is to make federal benefit payments and pay necessary administrative
expenses for the Judges' Retirement Plans for all benefits earned. The amount paid into the Judicial Retirement
Fund from the General Fund of the U.S. Government was $7.04 million for fiscal year 2009 ($6.98 million dur-
ing fiscal year 2008). As of September 30, 2009, the unobligated budgetary resources of the Judicial Retirement
Fund were approximately $122.4 million, and the pension actuarial liability was $156.6 million, resulting in
an unfunded liability of $34.2 million. (As of September 30, 2008, the unobligated budgetary resources of the
Judicial Retirement Fund were approximately $118.5 million, and the pension actuarial liability was $161.6 mil-




                                 Note 21. D.C. Pensions and Judiciary Retirement Actuarial Liability                   165
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     lion, resulting in an unfunded liability of $43.1 million.) In fiscal year 2009, the assumption for the annual rate
                                                                                                                     of investment return in fiscal year 2010 was 5.2 percent for the Judicial Retirement Fund with a gradual increase
                                                                                                                     to 6 percent by fiscal year 2017; and the assumption for the future annual rate of inflation and future cost-of-
                                                                                                                     living adjustments was 3.5 percent. In fiscal year 2008, the assumption for the annual rate of investment return
                                                                                                                     in fiscal year 2009 was 5.2 percent for the Judicial Retirement Fund with a gradual increase to 6 percent by fiscal
                                                                                                                     year 2015; and the assumption for the future annual rate of inflation and future cost of-living adjustments was
                                                                                                                     3.5 percent. In fiscal year 2009, the assumption for the future annual rate of salary increases was 3.5 percent for
                                                                                                                     judges. This assumption was unchanged from fiscal year 2008.




166                                                                                                                    Note 21. D.C. Pensions and Judiciary Retirement Actuarial Liability
                                                                                                                                                          PART 2 • ANNUAL FINANCIAL REPORT
22. LIABILITIES
Liabilities Not Covered by Budgetary and Other Resources
As of September 30, 2009 and September 30, 2008, liabilities not covered by budgetary and other resources
consisted of the following (in millions):
                                                                                                                    2009                           2008
Intra-governmental Liabilities Not Covered by Budgetary and Other Resources:
     Federal Debt Principal, Premium/Discount (Note 19)                                              $          4,353,671              $    4,212,059
     Other Intra-governmental Liabilities                                                                            105                           105
 Total Intra-governmental Liabilities Not Covered by Budgetary and Other Resources                   $          4,353,776              $    4,212,164
 Federal Debt Principal, Premium/Discount (Note 19)                                                             7,517,956                   5,772,567
 Gold and Silver Reserves held by the U.S. Mint                                                                   10,494                         10,494
 D.C. Pensions Liability (Note 21)                                                                                 5,369                          5,120
 Liabilities to GSEs                                                                                              91,937                         13,800
 Other Liabilities                                                                                                 1,057                          1,085
 Total Liabilities Not Covered by Budgetary and Other Resources                                      $     11,980,589                  $   10,015,230
 Total Liabilities Covered by Budgetary and Other Resources                                                 1,437,956                        792,097
 Total Liabilities                                                                                   $     13,418,545                  $   10,807,327



Other Liabilities
Total “Other Liabilities” displayed on the Balance Sheets consists of both liabilities that are covered and not
covered by budgetary resources.

The amounts displayed of $3,331 million and $4,052 million, respectively, at September 30, 2009 and September
30, 2008 consisted of the following (in millions):

                                                                                                                                2009
                                                                                                     Current          Non-Current                 Total
Intra-governmental
Unfunded Federal Workers Compensation Program Liability (FECA)                                   $        46                $    57          $     103
Accounts Payable                                                                                          61                      0                 61
Accrued Interest Payable                                                                                  (3)                     0                 (3)
Other Accrued Liabilities                                                                                263                      1                264
Total Intra-governmental                                                                         $       367                $    58          $     425


 With the Public
 Actuarial Federal Workers Compensation Program Liability (FECA)                                           0                    533                533
 Liability for Deposit Funds (Held by the Federal Government for Others) and Suspense Accounts            71                      0                 71
 Accrued Funded Payroll and Benefits                                                                     488                      0                488
 Capital Lease Liabilities                                                                                 1                      0                  1
 Accounts Payable and Other Accrued Liabilities                                                      2,194                       44               2,238
 Total with the Public                                                                           $ 2,754                    $   577          $ 3,331




                                                                                                                     Note 22. Liabilities                 167
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                                                                                                                                            2008
                                                                                                                                                                                                                         Current     Non-Current       Total
                                                                                                                     Intra-governmental
                                                                                                                     Unfunded Federal Workers Compensation Program Liability (FECA)                                      $     45       $    57    $    102
                                                                                                                     Accounts Payable                                                                                          76             0          76
                                                                                                                     Other Accrued Liabilities                                                                                165             2         167
                                                                                                                     Total Intra-governmental                                                                            $    286       $    59    $    345


                                                                                                                     With the Public
                                                                                                                     Actuarial Federal Workers Compensation Program Liability (FECA)                                             0          594          594
                                                                                                                     Liability for Deposit Funds (Held by the Federal Government for Others) and Suspense Accounts             526            0          526
                                                                                                                     Accrued Funded Payroll and Benefits                                                                       424            0          424
                                                                                                                     Capital Lease Liabilities                                                                                   4            1            5
                                                                                                                     Accounts Payable and Other Accrued Liabilities                                                          2,460           43        2,503
                                                                                                                     Total with the Public                                                                               $ 3,414        $   638    $ 4,052




168                                                                                                                   Note 22. Liabilities
                                                                                                                      PART 2 • ANNUAL FINANCIAL REPORT
23. NET POSITION
Unexpended Appropriations represents the amount of spending authorized as of year-end that is unliquidated
or unobligated and has not lapsed, been rescinded, or withdrawn. No-year appropriations remain available for
obligation until expended. Annual appropriations remain available for upward or downward adjustment of
obligations until expired.

Cumulative Results of Operations represents the net results of operations since inception, and includes cumula-
tive amounts related to investments in capitalized assets and donations and transfers of assets in and out without
reimbursement. Also included as a reduction in Cumulative Results of Operations are accruals for which the
related expenses require funding from future appropriations and assessments. These future funding requirements
include, among others (a) accumulated annual leave earned but not taken, (b) accrued workers compensation, (c)
credit reform cost reestimates, and (d) expenses for contingent liabilities.

The amount reported as “appropriations received” are appropriated from the Treasury General Fund of the U.S.
Government receipts, such as income taxes, that are not earmarked by law for a specific purpose. This amount will
not necessarily agree with the “appropriation received” amount reported on the Statement of Budgetary Resources
(SBR) because of differences between proprietary and budgetary accounting concepts and reporting requirements.
For example, certain dedicated and earmarked receipts are recorded as “appropriations received” on the SBR,
but are recognized as exchange or non-exchange revenue (i.e., typically in special and non-revolving trust funds)
and reported on the Statement of Changes in Net Position in accordance with Statement of Federal Financial
Accounting Standards (SFFAS No. 7).


TRANSFERS TO THE GENERAL FUND AND OTHER
The amount reported as “Transfers to the General Fund and Other” on the Consolidated Statements of Changes
in Net Position under “Other Financing Sources” includes the credit reform downward reestimates to be collected
by the General Fund and current year negative subsidy transferred of $118,139 million and $7,220 million,
respectively, for the year ended September 30, 2009. Also included is $95,600 million in GSE General Fund
exchange revenue from the gross increase in value of the GSE preferred stock. In addition, these transfers also
include distribution of interest revenue to the General Fund of the U.S. Government of $30.1 billion and $13.5
billion, for the years ended September 30, 2009 and September 30, 2008, respectively. The interest revenue
is accrued on inter-agency loans held by the Treasury Department on behalf of the U.S. Government. A cor-
responding balance is reported on the Consolidated Statement of Net Cost under “Federal Costs: Less Interest
Revenue from Loans.” The amount reported on the Consolidated Statement of Net Cost is reduced by elimina-
tions with Treasury bureaus. Also included in “Transfers to the General Fund and Other” is $4,336 million (GSE
Dividends) and $7,032 million (initial GSE preferred stock) transferred to the general fund for the years ended
September 30, 2009 and September 30, 2008, respectively. In addition, $(37,953) million of GSE senior pre-
ferred stock valuation loss and other transfers of $238 million are included as of September 30, 2009.

The Treasury Department also includes seigniorage in “Transfers to the General Fund and Other.” Seigniorage is
the face value of newly minted circulating coins less the cost of production. The United States Mint is required to
distribute the seigniorage that it recognizes to the General Fund of the U.S. Government. The distribution is also
included in “Transfers to the General Fund and Other.” In any given year, the amount recognized as seigniorage
may differ for the amount distributed to the General Fund by an insignificant amount due to timing differences.




                                                                                        Note 23. Net Position         169
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Seigniorage in the amounts of $447.1 million and $728.6 million was recognized, respectively, for the years ended
                                                                                                                     September 30, 2009 and September 30, 2008. Total distributions from the Mint to the General Fund, including
                                                                                                                     seigniorage and numismatic profit, amounted to $ 475 million and $750 million, respectively, for the years ended
                                                                                                                     September 30, 2009 and September 30, 2008.

                                                                                                                     The transfers are summarized in the following table:

                                                                                                                                                                                                        2009               2008
                                                                                                                     Downward Reestimates of Credit Reform Subsidies                            $    118,139         $        0
                                                                                                                     Credit Reform Negative Subsidies                                                   7,220                 0
                                                                                                                     Interest Revenue                                                                  30,124            13,500
                                                                                                                     Increase in Liquidity Preference of GSE Preferred Stock                          95,600                  0
                                                                                                                     GSE Preferred Stock Dividends                                                      4,336                 0
                                                                                                                     GSE Warrants and Stock Valuation (net)                                          (37,953)                 0
                                                                                                                     GSE Warrants and Stock - Fee for SPPS Agreement                                        0             7,032
                                                                                                                     Other                                                                                238               256
                                                                                                                                                                                                $    217,704         $   20,788




170                                                                                                                    Note 23. Net Position
                                                                                                                      PART 2 • ANNUAL FINANCIAL REPORT
24. CONSOLIDATED STATEMENT OF NET COST AND NET COSTS
   OF TREASURY SUB-ORGANIZATIONS
The Treasury Department’s Consolidated Statement of Net Cost displays information on a consolidated basis.
The complexity of the Treasury Department’s organizational structure and operations requires that supporting
schedules for Net Cost be included in the notes to the financial statements. These supporting schedules provide
consolidating information, which fully displays the costs of each sub-organization (Departmental Offices and
each operating bureau).

The classification of sub-organizations has been determined in accordance with SFFAS No. 4, Managerial Cost
Accounting Concepts and Standards for the Federal Government which states that the predominant factor is the
reporting entity’s organization structure and existing responsibility components, such as bureaus, administrations,
offices, and divisions within a department.

Each sub-organization is responsible for accumulating costs. The assignment of the costs to Treasury-wide pro-
grams is the result of using the following cost assignment methods: (1) direct costs, (2) cause and effect, and (3)
cost allocation.

Intra-Departmental costs/revenues resulting from the provision of goods and/or services on a reimbursable basis
among Departmental sub-organizations are reported as costs by providing sub-organizations. Accordingly, such
costs/revenues are eliminated in the consolidation process.

To the extent practical or reasonable to do so, earned revenue is deducted from the gross costs of the programs
to determine their net cost. There are no precise guidelines to determine the degree to which earned revenue
can reasonably be attributed to programs. The attribution of earned revenues requires the exercise of managerial
judgment.

OMB Circular No. A-136, Financial Reporting Requirements, requires that the presentation of the Statements
of Net Cost align directly with the goals and outcomes identified in the Strategic Plan. Accordingly, Treasury
Department has presented the gross costs and earned revenues by the applicable strategic goals in its fiscal years
2007 - 2012 Strategic Plan. The majority of Treasury bureaus’ and reporting entities’ net cost information falls
within one strategic goal in the Statement of Net Cost. Two of Treasury’s components, TTB and DO allocate
costs to multiple programs using a net cost percentage calculation.

In the last quarter of 2008, the Treasury Department began incurring cost in association with the GSE Senior
Preferred Stock Purchase Program. The amount included in the SNC as economic program entity cost is $173,737
million for fiscal year 2009 and $13,800 million for fiscal year 2008. The 2009 amount represents the current year
liquidity payment of $81,800 million to the GSEs; fourth quarter liquidity payment accrual of $15,000 million
payable to Fannie Mae; and accrual of $76,937 million contingent liability for future liquidity payments to GSEs.
In addition, $43,931 million of preferred stock valuation loss (expense) and $5,978 million of common stock
valuation gain (revenue) are reported in the SNC as non-entity. Also, reported in the SNC as non-entity revenue
is $4,336 million in GSE dividends. The fiscal year 2008 amount represents the expense portion of the quarter
ended September 30, 2008 accrual of the payment to Freddie Mac, which was disbursed in December 2008. There
was no payment for Fannie Mae for fiscal year 2008. Nor was there a fiscal year 2009 year-end accrual to Freddie
Mac as of September 30, 2009. In fiscal year 2008, Treasury disclosed these GSE costs separately as a below the
line item on the SNC. However, Treasury concluded that the cost of this program helps accomplish the Treasury



  Note 24. Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations                             171
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     strategic goal of ensuring that the U.S. economy performs at its full economic potential. Thus, as of September 30,
                                                                                                                     2009 the cost of these investments in GSEs are aligned in the Economic Program section of the SNC. (See Note 9)

                                                                                                                     In fiscal year 2009, new program activity cost incurred by the OFS and SIGTARP are aligned in the Statement of
                                                                                                                     Net Cost as Economic cost and Management cost, respectively. The establishment of the OFS helps to ensure that
                                                                                                                     the U.S. economy performs at its full potential by stabilizing the financial system through implementation of the
                                                                                                                     Financial Stability Plan. SIGTARP’s objective is to promote and ensure management and organizational excel-
                                                                                                                     lence by providing accountability and transparency. Fiscal year 2009 OFS equity program costs were $15,650
                                                                                                                     million; direct loan program costs were $26,032 million. Details of these costs are provided in Notes 8 and 12,
                                                                                                                     respectively. These OFS program costs, and the GSE Senior Preferred Stock Purchase Program costs described
                                                                                                                     above, comprise the major portion of Economic Program costs in the Statement of Net Cost.

                                                                                                                     As of September 30, 2009 and September 30, 2008, the Economic Program gross cost consisted of the following
                                                                                                                     (in millions):

                                                                                                                     Economic Program Gross Cost                                                                     2009            2008
                                                                                                                     GSE SPSPA - Liquidity Payments                                                           $     81,800     $        -
                                                                                                                     GSE SPSPA - Year-End Accrual                                                                   15,000         13,800
                                                                                                                     GSE SPSPA - Contingent Commitments                                                             76,937              -
                                                                                                                     GSE SPSPA Gross Cost                                                                         173,737          13,800
                                                                                                                     GSE MBS Subsidy, Reestimates & Admin Cost                                                    (12,880)              -
                                                                                                                     GSE MBS - Other Intragovernmental Gross Cost                                                    5,569              -
                                                                                                                     Total GSE SPSPA & MBS Economic Gross Cost                                                $   166,426      $   13,800

                                                                                                                     DO Combined (exluding GSE)                                                                      4,187          2,202
                                                                                                                     BEP                                                                                               475             530
                                                                                                                     MNT                                                                                             2,453          2,036
                                                                                                                     OCC                                                                                               732             680
                                                                                                                     OFS                                                                                            47,994               -
                                                                                                                     OTS                                                                                               239             251
                                                                                                                     TTB                                                                                                50              49
                                                                                                                                                                                                                    56,130          5,748
                                                                                                                     Combined Economic Program Gross Cost                                                         222,556          19,548
                                                                                                                     Eliminations                                                                                 (12,066)           (409)
                                                                                                                     Consolidated Economic Program Gross Cost                                                 $   210,490      $   19,139

                                                                                                                     The Treasury Department’s SNC also presents interest expense on the Federal Debt and other federal costs in-
                                                                                                                     curred as a result of assets and liabilities managed on behalf of the U.S. Government. These costs are not reflected
                                                                                                                     as program costs related to the Treasury Department’s strategic plan missions. Such costs are eliminated in the
                                                                                                                     consolidation process to the extent that they involve transactions with Treasury Department sub-organizations.




172                                                                                                                    Note 24. Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations
                                                                                                                  PART 2 • ANNUAL FINANCIAL REPORT
Other federal costs for the years ended September 30, 2009 and September 30, 2008 consisted of the following
(in millions):
                                                                                 2009                     2008
Credit Reform Interest on Uninvested Funds (Intra-governmental)            $    6,534                $    5,043
Resolution Funding Corporation                                                  2,120                     1,393
Judgment Claims and Contract Disputes                                           2,305                       786
Corporation for Public Broadcasting                                               461                       448
Legal Services Corporation                                                        388                       347
All Other Payments                                                                323                       315
Total                                                                      $   12,131                 $   8,332




  Note 24. Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations                         173
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     24. Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations
                                                                                                                     (in millions):
                                                                                                                                                         Bureau of     Bureau                           Financial
                                                                                                                     For Year Ended September 30, 2009
                                                                                                                                                         Engraving      of the                            Crimes       Financial         Internal
                                                                                                                                                               and      Public     Departmental      Enforcement    Management          Revenue           U.S.
                                                                                                                     Program Costs:                        Printing      Debt            Offices         Network        Service          Service          Mint
                                                                                                                     Financial Program:
                                                                                                                     Intra-governmental Gross Costs        $      0    $    111       $     1,440        $     0        $    184    $      4,145    $        0
                                                                                                                     Less: Earned Revenue                         0         (22)           (1,948)             0            (167)            (55)            0
                                                                                                                     Intra-governmental Net Costs          $      0    $     89       $      (508)       $     0        $     17    $      4,090    $        0


                                                                                                                     Gross Costs with the public           $      0    $    221       $       829        $     0        $ 1,153     $      8,725    $        0
                                                                                                                     Less: Earned Revenue                         0          (8)               (1)             0               0            (313)            0
                                                                                                                     Net Costs with the public             $      0    $    213       $       828        $     0        $ 1,153            8,412    $        0
                                                                                                                         Net Cost: Financial Program       $      0    $    302       $       320        $     0        $ 1,170     $ 12,502        $        0
                                                                                                                     Economic Program:
                                                                                                                     Intra-governmental Gross Costs        $     83    $      0       $ 12,151           $     0        $      0    $          0    $       73
                                                                                                                     Less: Earned Revenue                        (3)          0            (6,146)             0               0               0           (10)
                                                                                                                     Intra-governmental Net Costs          $     80    $      0       $     6,005        $     0        $      0    $          0    $       63


                                                                                                                     Gross Costs with the public           $ 392       $      0       $ 206,456          $     0        $      0    $          0    $ 2,380
                                                                                                                     Less: Earned Revenue                      (481)          0           (10,824)             0               0               0        (2,456)
                                                                                                                     Net Costs with the public             $ (89)      $      0       $ 195,632          $     0        $      0    $          0    $      (76)
                                                                                                                         Net Cost: Economic Program        $     (9)   $      0       $ 201,637          $     0        $      0    $          0    $     (13)
                                                                                                                     Security Program:
                                                                                                                     Intra-governmental Gross Costs        $      0    $      0       $       121        $    68        $      0    $          0    $        0
                                                                                                                     Less: Earned Revenue                         0           0               (16)            (1)              0               0             0
                                                                                                                     Intra-governmental Net Costs          $      0    $      0       $       105         $   67        $      0    $          0    $        0


                                                                                                                     Gross Costs with the public           $      0    $      0       $       147         $   55        $      0    $          0    $        0
                                                                                                                     Less: Earned Revenue                         0           0                 0              0               0               0             0
                                                                                                                     Net Costs with the public             $      0    $      0       $       147         $   55        $      0    $          0    $        0
                                                                                                                         Net Cost: Security Program        $      0    $      0       $       252         $ 122         $      0    $          0    $        0
                                                                                                                     Management Program:
                                                                                                                     Intra-governmental Gross Costs        $      0    $     56       $       145         $    0        $      0    $          0    $        0
                                                                                                                     Less: Earned Revenue                         0        (159)             (222)             0               0               0             0
                                                                                                                     Intra-governmental Net Costs          $      0    $ (103)        $       (77)       $     0        $      0    $          0    $        0


                                                                                                                     Gross Costs with the public           $      0    $    104       $       329        $     0        $      0    $          0    $        0
                                                                                                                     Less: Earned Revenue                         0           0                 0              0               0               0             0
                                                                                                                     Net Costs with the public             $      0    $    104       $       329        $     0        $      0    $          0    $        0
                                                                                                                         Net Cost: Management Program      $      0    $      1       $       252        $     0        $      0    $          0    $        0
                                                                                                                     Net Cost of Operations                $     (9)   $    303       $ 202,461           $ 122         $ 1,170     $ 12,502        $     (13)




174                                                                                                                   Note 24. Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations
                                                                                                                                  PART 2 • ANNUAL FINANCIAL REPORT
24. Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations
(in millions):
                                    Office of the                       Alcohol,
For Year Ended September 30, 2009
                                    Comptroller        Office of    Tobacco Tax                   Eliminations
                                           of the          Thrift     and Trade    Combined                and       9/30/2009
Program Costs:                         Currency     Supervision          Bureau        Total      Adjustments     Consolidated
Financial Program:
Intra-governmental Gross Costs          $      0       $       0        $    14    $     5,894     $    (1,548)    $     4,346
Less: Earned Revenue                           0               0              0         (2,192)            258          (1,934)
Intra-governmental Net Costs            $      0       $       0        $    14    $     3,702      $ (1,290)      $     2,412


Gross Costs with the public             $      0       $       0        $    39    $ 10,967        $         0     $    10,967
Less: Earned Revenue                           0               0             (2)          (324)              0            (324)
Net Costs with the public               $      0       $       0        $    37    $ 10,643        $         0     $    10,643
    Net Cost: Financial Program         $      0       $       0        $    51    $ 14,345         $ (1,290)      $    13,055
Economic Program:
Intra-governmental Gross Costs          $    100       $      37        $    13    $ 12,457        $ (12,066)      $       391
Less: Earned Revenue                         (22)            (11)             0         (6,192)          6,166             (26)
Intra-governmental Net Costs            $     78       $      26        $    13    $     6,265     $    (5,900)    $       365


Gross Costs with the public             $    632       $     202        $    37    $ 210,099        $        0     $ 210,099
Less: Earned Revenue                        (752)           (245)            (0)       (14,758)             (1)        (14,759)
Net Costs with the public               $ (120)        $     (43)       $    37    $ 195,341        $       (1)    $ 195,340
    Net Cost: Economic Program         $    (42)        $   (17)        $    50    $ 201,606        $ (5,901)      $ 195,705
Security Program:
Intra-governmental Gross Costs          $      0       $       0        $     0    $       189      $      (66)    $       123
Less: Earned Revenue                           0               0              0            (17)             14              (3)
Intra-governmental Net Costs            $      0       $       0        $     0    $       172      $      (52)    $       120


Gross Costs with the public             $      0       $       0        $     0    $       202      $        0     $       202
Less: Earned Revenue                           0               0              0              0               0               0
Net Costs with the public               $      0       $       0        $     0    $       202      $        0     $       202
    Net Cost: Security Program          $      0       $       0        $     0    $       374      $     (52)     $       322
Management Program:
Intra-governmental Gross Costs          $      0       $       0        $     0    $       201      $      (65)    $       136
Less: Earned Revenue                           0               0              0           (381)            321             (60)
Intra-governmental Net Costs            $      0       $       0        $     0    $      (180)     $      256     $        76


Gross Costs with the public             $      0       $       0        $     0    $       433      $        0     $       433
Less: Earned Revenue                           0               0              0              0               0               0
Net Costs with the public               $      0       $       0        $     0    $       433      $        0     $       433
Net Cost: Management Program            $      0       $       0        $     0    $       253      $      256     $       509
Net Cost of Operations                  $   (42)        $   (17)        $   101    $ 216,578        $ (6,987)      $ 209,591




 Note 24. Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations                                          175
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     24. Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations
                                                                                                                     (in millions):
                                                                                                                                                            Bureau of     Bureau                             Financial
                                                                                                                     Fiscal Year Ended September 30, 2008
                                                                                                                                                            Engraving      of the                              Crimes       Financial      Internal
                                                                                                                                                                  and      Public     Departmental        Enforcement    Management       Revenue         U.S.
                                                                                                                     Program Costs:                           Printing      Debt            Offices           Network        Service       Service        Mint
                                                                                                                     Financial Program:
                                                                                                                     Intra-governmental Gross Costs           $      0    $     71       $       1,392        $     0        $     202    $ 4,107     $     0
                                                                                                                     Less: Earned Revenue                            0         (15)             (2,009)             0             (159)        (72)         0
                                                                                                                     Intra-governmental Net Costs             $      0    $     56       $       (617)        $     0        $      43    $ 4,035     $     0


                                                                                                                     Gross Costs with the public              $      0    $    256       $         373        $     0        $ 1,120      $ 8,441     $     0
                                                                                                                     Less: Earned Revenue                            0         (10)                 (1)             0                0        (287)         0
                                                                                                                     Net Costs with the public                $      0    $    246       $         372        $     0        $ 1,120      $ 8,154     $     0
                                                                                                                         Net Cost: Financial Program          $      0    $    302       $       (245)        $     0        $ 1,163      $ 12,189    $     0
                                                                                                                     Economic Program:
                                                                                                                     Intra-governmental Gross Costs           $     81    $      0      $       14,262        $     0         $      0    $      0    $    78
                                                                                                                     Less: Earned Revenue                           (8)          0               (811)              0                0           0        (10)
                                                                                                                     Intra-governmental Net Costs             $     73    $      0       $ 13,451             $     0         $      0    $      0    $    68


                                                                                                                     Gross Costs with the public              $    449    $      0       $       1,740        $     0         $      0    $      0    $ 1,958
                                                                                                                     Less: Earned Revenue                         (509)          0              (1,529)             0                0           0    (2,063)
                                                                                                                     Net Costs with the public                $    (60)   $      0          $      211        $     0         $      0    $      0    $ (105)
                                                                                                                         Net Cost: Economic Program           $     13    $      0       $ 13,662             $     0         $      0    $      0    $ (37)
                                                                                                                     Security Program:
                                                                                                                     Intra-governmental Gross Costs           $      0    $      0       $         139        $    58         $      0    $      0    $     0
                                                                                                                     Less: Earned Revenue                            0           0                 (18)            (2)               0           0          0
                                                                                                                     Intra-governmental Net Costs             $      0    $      0       $         121        $    56         $      0    $      0    $     0


                                                                                                                     Gross Costs with the public              $      0    $      0       $         171        $    52         $      0    $      0    $     0
                                                                                                                     Less: Earned Revenue                            0           0                   0              0                0           0          0
                                                                                                                     Net Costs with the public                $      0    $      0       $         171        $    52         $      0    $      0    $     0
                                                                                                                         Net Cost: Security Program           $      0    $      0       $         292        $   108         $      0    $      0    $     0
                                                                                                                     Management Program:
                                                                                                                     Intra-governmental Gross Costs           $      0    $     51       $         143        $     0         $      0    $      0    $     0
                                                                                                                     Less: Earned Revenue                            0        (237)              (224)              0                0           0          0
                                                                                                                     Intra-governmental Net Costs             $      0    $ (186)        $         (81)       $     0         $      0    $      0    $     0


                                                                                                                     Gross Costs with the public              $      0    $    207       $         300        $     0         $      0    $      0    $     0
                                                                                                                     Less: Earned Revenue                            0           0                   0              0                0           0          0
                                                                                                                     Net Costs with the public                $      0    $    207       $         300        $     0         $      0    $      0    $     0
                                                                                                                         Net Cost: Management Program         $      0    $     21       $         219        $     0         $      0    $      0    $     0
                                                                                                                     Net Cost of Treasury Operations          $     13    $    323       $ 13,928             $   108         $ 1,163     $ 12,189    $ (37)




176                                                                                                                   Note 24. Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations
                                                                                                                                       PART 2 • ANNUAL FINANCIAL REPORT
24. Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations
(in millions):
                                       Office of the                       Alcohol,
Fiscal Year Ended September 30, 2008
                                       Comptroller        Office of    Tobacco Tax                     Eliminations
                                              of the          Thrift     and Trade        Combined              and       9/30/2008
Program Costs:                            Currency     Supervision          Bureau            Total    Adjustments     Consolidated
Financial Program:
Intra-governmental Gross Costs             $      0        $      0       $     13    $       5,785     $    (1,442)    $     4,343
Less: Earned Revenue                              0               0              0           (2,255)            272          (1,983)
Intra-governmental Net Costs               $      0        $      0       $     13    $       3,530      $ (1,170)      $     2,360


Gross Costs with the public                $      0        $      0       $     36    $      10,226      $        0     $    10,226
Less: Earned Revenue                              0               0             (1)           (299)               0           (299)
Net Costs with the public                  $      0        $      0       $     35    $       9,927      $        0     $     9,927
    Net Cost: Financial Program            $      0        $      0       $     48    $      13,457      $ (1,170)      $    12,287
Economic Program:
Intra-governmental Gross Costs             $     96        $     34       $     13    $      14,564     $     (409)     $    14,155
Less: Earned Revenue                            (27)            (14)             0            (870)             845             (25)
Intra-governmental Net Costs               $     69        $     20       $     13    $      13,694      $      436     $    14,130


Gross Costs with the public                $    584        $    217       $     36    $       4,984      $        0     $     4,984
Less: Earned Revenue                           (710)           (254)            (1)          (5,066)              0          (5,066)
Net Costs with the public                  $ (126)         $    (37)      $     35    $         (82)     $        0     $       (82)
    Net Cost: Economic Program             $   (57)        $   (17)       $     48    $      13,612      $      436     $    14,048
Security Program:
Intra-governmental Gross Costs             $      0        $      0       $      0    $         197     $       (74)    $       123
Less: Earned Revenue                              0               0              0              (20)             16              (4)
Intra-governmental Net Costs               $      0        $      0       $      0    $         177     $       (58)    $       119


Gross Costs with the public                $      0        $      0       $      0    $         223      $        0     $       223
Less: Earned Revenue                              0               0              0                0               0               0
Net Costs with the public                  $      0        $      0       $      0    $         223      $        0     $       223
    Net Cost: Security Program             $      0        $      0       $      0    $         400      $     (58)     $       342
Management Program:
Intra-governmental Gross Costs             $      0        $      0       $      0    $         194      $      (70)     $      124
Less: Earned Revenue                              0               0              0            (461)             296      $    (165)
Intra-governmental Net Costs               $      0        $      0       $      0    $       (267)      $      226      $      (41)


Gross Costs with the public                $      0        $      0       $      0    $         507      $        0      $      507
Less: Earned Revenue                              0               0              0                0               0               0
Net Costs with the public                  $      0        $      0       $      0    $         507      $        0      $      507
    Net Cost: Management Program           $      0        $      0       $      0    $         240      $      226      $      466
Net Cost of Treasury Operations             $ (57)         $ (17)          $    96    $      27,709      $    (566)      $   27,143




 Note 24. Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations                                               177
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     25. ADDITIONAL INFORMATION RELATED TO THE COMBINED STATEMENTS
                                                                                                                        OF BUDGETARY RESOURCES
                                                                                                                     Federal agencies are required to disclose additional information related to the Combined Statements of Budgetary
                                                                                                                     Resources (per OMB Circular No. A-136). In accordance with SFFAS No. 7, the Department must report the
                                                                                                                     value of goods and services ordered and obligated which have not been received. This amount includes any orders
                                                                                                                     for which advance payment has been made but for which delivery or performance has not yet occurred. The
                                                                                                                     information for the fiscal years ended September 30, 2009 and September 30, 2008 was as follows (in millions):

                                                                                                                                                                                                        2009                      2008
                                                                                                                     Undelivered orders:
                                                                                                                        Paid                                                                    $        171                $     1,888
                                                                                                                        Unpaid                                                                       185,641                     55,625
                                                                                                                     Undelivered orders at the end of the year                                  $    185,812                $    57,513



                                                                                                                     Contributed Capital                                                        $         40                $       24



                                                                                                                     Apportionment Categories of Obligations Incurred:
                                                                                                                     Direct vs. Reimbursable Obligations
                                                                                                                                                                                                        2009                      2008
                                                                                                                     Obligations Incurred
                                                                                                                         Direct - Category A                                                    $      14,715               $     7,050
                                                                                                                         Direct - Category B                                                          977,506                    20,623
                                                                                                                         Direct - Exempt from Apportionment                                           390,305                   455,126
                                                                                                                     Total Direct                                                                   1,382,526                   482,799

                                                                                                                         Reimbursable - Category A                                                         1                          2
                                                                                                                         Reimbursable - Category B                                                     3,386                      3,287

                                                                                                                         Reimbursable - Exempt from Apportionment                                       1,282                   1,446
                                                                                                                     Total Reimbursable                                                                 4,669                   4,735
                                                                                                                     Total Direct and Reimbursable                                              $   1,387,195               $ 487,534




178                                                                                                                    Note 25. Additional Information Related to the Combined Statements of Budgetary Resources
                                                                                                                        PART 2 • ANNUAL FINANCIAL REPORT
TERMS OF BORROWING AUTHORITY USED
The GSE MBS Purchase and TARP equity investment programs (excluding HAMP) have authority to borrow
under the Federal Credit Reform Act of 1990 (FCRA), as amended. The FFB and IAP also have borrowing author-
ity. The FCRA provides indefinite borrowing authority to financing accounts to fund the unsubsidized portion of
direct loans and to satisfy obligations in the event the financing account’s resources are insufficient. Repayment
requirements are defined by OMB Circular A-11. Interest expense due is calculated based on the beginning
balance of borrowings outstanding and the borrowings/repayments activity that occurred during the fiscal year.
Undisbursed Treasury Department borrowings earn interest at the same rate as the financing account pays on
its debt owed to BPD. In the event that principal and interest collections exceed the interest expense due, the
excess will be repaid to the Treasury Department. If principal and interest do not exceed interest expense due, the
Treasury Department will borrow the difference. The Treasury Department makes periodic principal repayments
based on the analysis of cash balances and future disbursement needs. All interest on borrowing were due the last
day of the fiscal year, on September 30, 2009. Interest rates on FCRA borrowings range from 1.00% to 6.48%.

Available Borrowing, End of Year:
                                                                                      2009                      2008
 Beginning Balance                                                            $     29,810                $    5,716
 Current Authority                                                                 548,734                    34,308
 Decreases                                                                        (107,475)                   (4,767)
 Borrowing Authority Converted to Cash                                            (419,559)                   (5,447)
 Ending Balance                                                               $     51,510                $ 29,810




Reconciliation of the President’s Budget
The Budget of the United States (also known as the President’s Budget), with actual numbers for fiscal year 2009,
was not published at the time that these financial statements were issued. The President’s Budget is expected to be
published in 2010. It will be available from the United States Government Printing Office. The following chart
displays the differences between the Combined Statement of Budgetary Resources (SBR) in the fiscal year 2008
Performance and Accountability Report and the actual fiscal year 2008 balances included in the fiscal year 2010
President’s Budget (PB).




Note 25. Additional Information Related to the Combined Statements of Budgetary Resources                               179
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     RECONCILIATION OF FISCAL YEAR 2008 COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                                                                                     TO THE FISCAL YEAR 2010 PRESIDENT’S BUDGET (IN MILLIONS)

                                                                                                                                                                                                                      Outlays
                                                                                                                                                                                                                       (net of
                                                                                                                                                                                                Budgetary           offsetting         Offsetting                Net        Obligations
                                                                                                                                                                                                Resources         collections)          Receipts             Outlays          Incurred
                                                                                                                     Statement of Budgetary Resources Amounts                                  $ 772,164          $   479,079        $ (16,211)         $    462,868         $ 487,534

                                                                                                                     Included in the Treasury Department Chapter of the
                                                                                                                     President’s Budget (PB) but not in the Statement of
                                                                                                                     Budgetary Resources (SBR):
                                                                                                                     IRS non-entity tax credit payments (1)                                          94,505             94,506                (21)            94,485             94,506
                                                                                                                     Tax and Trade Bureau (TTB) non-entity collections for Puerto Rico                  373                373                   0               373                 373
                                                                                                                     Non-Treasury offsetting receipts included in Treasury chapter
                                                                                                                       of PB                                                                               0                  0               (35)               (35)                  0
                                                                                                                     Treasury offsetting receipts considered to be “General Fund”
                                                                                                                       transactions for reporting purposes (2)                                             0                  0              (214)              (214)                  0
                                                                                                                     Continued dumping subsidy – CBP                                                    396                265                   0               265                 265
                                                                                                                     Other                                                                                 2                (2)                  0                 (2)                 0
                                                                                                                     Subtotal                                                                        95,276             95,142               (270)            94,872             95,144

                                                                                                                     Included in the SBR but not in the Treasury Department
                                                                                                                     chapter of the PB:
                                                                                                                     Treasury resources shown in non-Treasury chapters of the PB,
                                                                                                                       included in SBR (3)                                                         (29,532)             (3,359)                  0            (3,359)            (3,018)
                                                                                                                     Offsetting collections net of collections shown in PB                           (8,246)                  0              (640)              (640)                  0
                                                                                                                     Treasury offsetting receipts shown in other chapters of PB, part
                                                                                                                       of which is in SBR                                                                  0                  0               147                147                   0
                                                                                                                     Unobligated balance carried forward, recoveries of prior year
                                                                                                                       funds and expired accounts                                                    (1,332)                  0                  0                  0                (19)
                                                                                                                     Exchange Stabilization Fund resources not shown in PB (4)                     (30,576)                   0                  0                  0              (247)
                                                                                                                     Treasury Financing Accounts (CDFI and ATSB)                                   (34,312)             (5,074)                  0            (5,074)            (5,415)
                                                                                                                     IRS user fees and 50% Transfer Accounts and Capital Transfers
                                                                                                                       to General Fund not included in PB                                             4,798                   0                  0                  0                  0
                                                                                                                     Other                                                                                 5                (1)                  0                 (1)                (3)
                                                                                                                     Subtotal                                                                      (99,195)            (8,434)               (493)            (8,927)            (8,702)
                                                                                                                     Trust Fund – Comptroller of the Currency (OCC)                                     (81)                81                   0                 81                  0
                                                                                                                     President’s Budget Amounts*                                               $ 768,164          $   565,868        $ (16,974)         $    548,894         $ 573,976
                                                                                                                      1.	 These are primarily Earned Income Tax Credit and Child Tax Credit payments that are reported with refunds as custodial activities in Treasury’s financial
                                                                                                                          statements and thus are not reported as budgetary resources.
                                                                                                                      2.	 These are receipt accounts that Treasury manages on behalf of other agencies and considered to be “General Fund” receipts rather than receipts of the
                                                                                                                          Treasury Department reporting entity.
                                                                                                                      3.	 The largest of these resources relate to Treasury’s International Assistance Programs.
                                                                                                                      4.	 Exchange Stabilization Fund (ESF) is a self-sustaining component that finances its operations with the buying and selling of foreign currencies to regulate the
                                                                                                                          fluctuations of the dollar. Because of the nature of the activities of the component, it does not receive appropriations, and therefore is excluded from the PB.
                                                                                                                      * Per President’s Budget for fiscal year 2010 – Budgetary Resources and Outlays are from the Analytical Perspective. Offsetting Receipts and Obligations
                                                                                                                          Incurred are from the Appendix.




180                                                                                                                    Note 25. Additional Information Related to the Combined Statements of Budgetary Resources
                                                                                                                         PART 2 • ANNUAL FINANCIAL REPORT
LEGAL ARRANGEMENTS AFFECTING USE OF UNOBLIGATED BALANCES
The use of unobligated balances is restricted based on annual legislation requirements or enabling authorities.
Funds are presumed to be available for only one fiscal year unless otherwise noted in the annual appropriation
language. Unobligated balances in unexpired fund symbols are available in the next fiscal year for new obligations
unless some restrictions had been placed on those funds by law. In those situations, the restricted funding will be
temporarily unavailable until such time as the reasons for the restriction have been satisfied or legislation has been
enacted to remove the restriction.

Amounts in expired fund symbols are not available for new obligations, but may be used to adjust obligations and
make disbursements that were recorded before the budgetary authority expired or to meet a bona fide need that
arose in the fiscal year for which the appropriation was made.




Note 25. Additional Information Related to the Combined Statements of Budgetary Resources                                181
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     26. COLLECTION AND DISPOSITION OF CUSTODIAL REVENUE
                                                                                                                     The Treasury Department collects the majority of federal revenue from income and excise taxes. Collection activ-
                                                                                                                     ity, by revenue type and tax year, was as follows for the years ended September 30, 2009 and September 30, 2008
                                                                                                                     (in millions):

                                                                                                                                                                                               Tax Year
                                                                                                                                                                                                                                              2009
                                                                                                                                                                               2009          2008              2007        Pre-2007    Collections
                                                                                                                     Individual Income and FICA Taxes                  $ 1,296,427     $ 702,557          $ 22,250     $     15,323   $ 2,036,557
                                                                                                                     Corporate Income Taxes                                138,144        69,016             1,692           16,630        225,482
                                                                                                                     Estate and Gift Taxes                                      92         3,979               796           19,810         24,677
                                                                                                                     Excise Taxes                                           54,502        12,512               102              132         67,248
                                                                                                                     Railroad Retirement Taxes                               3,559         1,148                 3                1          4,711
                                                                                                                     Unemployment Taxes                                      4,772         1,859                36               98          6,765
                                                                                                                     Federal Reserve Banks Earnings                         24,552         9,766                 0                0         34,318
                                                                                                                     Beneficial Interest in AIG Trust                       23,472             0                 0                0         23,472
                                                                                                                     Fines, Penalties, Interest, and Other Revenue           1,892            37                 0                0          1,929
                                                                                                                     Subtotal                                          $ 1,547,412     $ 800,874          $ 24,879     $     51,994   $ 2,425,159
                                                                                                                     Less Amounts Collected for Non-federal Entities                                                                          (487)
                                                                                                                     Total                                                                                                            $ 2,424,672


                                                                                                                                                                                               Tax Year
                                                                                                                                                                                                                                              2008
                                                                                                                                                                               2008          2007              2006        Pre-2006    Collections
                                                                                                                     Individual Income and FICA Taxes                  $   1,455,017   $   799,244        $   23,498   $     16,567   $ 2,294,326
                                                                                                                     Corporate Income Taxes                                  222,000       113,949             2,010         16,104       354,063
                                                                                                                     Estate and Gift Taxes                                        23        19,248             1,266          9,287        29,824
                                                                                                                     Excise Taxes                                             48,106        17,909               119            159        66,293
                                                                                                                     Railroad Retirement Taxes                                 3,769         1,164                 1              5         4,939
                                                                                                                     Unemployment Taxes                                        5,146         2,026                42            117         7,331
                                                                                                                     Federal Reserve Banks Earnings                           25,879         7,719                 0              0        33,598
                                                                                                                     Fines, Penalties, Interest, and Other Revenue             1,936           297                 0              0         2,233
                                                                                                                     Subtotal                                          $   1,761,876   $   961,556        $   26,936   $     42,239   $ 2,792,607
                                                                                                                     Less Amounts Collected for Non-federal Entities                                                                         (407)
                                                                                                                     Total                                                                                                            $ 2,792,200


                                                                                                                     Amounts reported for Corporate Income Taxes collected in fiscal year 2009 include corporate taxes of $9 billion
                                                                                                                     for tax year 2010 (similarly, amounts reported for Corporate Income Taxes collected in fiscal year 2008 include
                                                                                                                     corporate taxes of $10 billion for tax year 2009). Individual Income and FICA Taxes includes $83 billion in
                                                                                                                     payroll taxes collected from other federal agencies ($79 billion in fiscal year 2008).




182                                                                                                                    Note 26. Collection and Disposition of Custodial Revenue
                                                                                                                                               PART 2 • ANNUAL FINANCIAL REPORT
Amounts Provided to Fund the Federal Government
For the years ended September 30, 2009 and September 30, 2008, collections of custodial revenue transferred to other entities
were as follows (in millions):

                                                                                                   2009                                2008

 Department of the Interior                                                           $              487                   $             407
 General Fund                                                                                  1,963,228                           2,366,126
 Total                                                                                $        1,963,715                   $       2,366,533



Federal Tax Refunds Paid
Refund activity, broken out by revenue type and by tax year, was as follows for the years ended September 30,
2009 and September 30, 2008 (in millions):

                                                                                Tax Year
                                                                2009           2008                2007         Pre-2007   2009 Refunds
 Individual Income and FICA Taxes                          $   1,075      $ 293,971        $ 30,361         $ 14,222           $ 339,629
 Corporate Income Taxes                                        6,626         32,646          17,370           38,558              95,200
 Estate and Gift Taxes                                             0            324             566              358               1,248
 Excise Taxes                                                    535            541              81              626               1,783
 Railroad Retirement Taxes                                         0              2               0                1                   3
 Unemployment Taxes                                                1             66              13               29                 109
 Total                                                     $   8,237      $ 327,550        $ 48,391         $ 53,794           $ 437,972


                                                                                Tax Year
                                                                                                                                       2008
                                                                2008           2007                2006         Pre-2006            Refunds
 Individual Income and FICA Taxes                          $     935      $ 342,216        $ 19,217         $  6,980           $ 369,348
 Corporate Income Taxes                                        2,206         19,610          10,446           22,078              54,340
 Estate and Gift Taxes                                             0            343             428              251               1,022
 Excise Taxes                                                    439            497             107              208               1,251
 Railroad Retirement Taxes                                         0              1               1               (9)                 (7)
 Unemployment Taxes                                                1             65              14               39                 119
 Fines, Penalties, Interest, and Other Revenue                     1              0               0                 0                   1
 Total                                                     $   3,582      $ 362,732        $ 30,213         $ 29,547           $ 426,074




Federal Tax Refunds Payable
As of September 30, 2009 and September 30, 2008, refunds payable to taxpayers consisted of the following (in
millions):
                                                                                                     2009                              2008
 Alcohol, Tobacco Tax and Trade Bureau                                                     $            9                      $         12
 Internal Revenue Service                                                                           4,031                             3,064
 Total                                                                                     $        4,040                      $      3,076




                                                 Note 26. Collection and Disposition of Custodial Revenue                                      183
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     27. EARMARKED FUNDS
                                                                                                                     Earmarked funds are financed by specifically identified revenues, often supplemented by other financing sources,
                                                                                                                     which remain available over time. These specifically identified revenues and other financing sources are required
                                                                                                                     by statute to be used for designated activities or purposes. SFFAS No. 27, Identifying and Reporting Earmarked Funds, issued
                                                                                                                     by the FASAB defines the following three criteria for determining an earmarked fund: 1) A statute committing
                                                                                                                     the Federal Government to use specifically identified revenues and other financing sources only for designated
                                                                                                                     activities, benefits or purposes; 2) Explicit authority for the earmarked fund to retain revenues and other financing
                                                                                                                     sources not used in the current period for future use to finance the designated activities, benefits, or purposes; and
                                                                                                                     3) A requirement to account for and report on the receipt, use, and retention of the revenues and other financing
                                                                                                                     sources that distinguishes the earmarked fund from the government’s general revenues.

                                                                                                                     The majority of Treasury Department’s earmarked fund activities are attributed to the ESF and the pension and
                                                                                                                     retirement funds managed by the Office of DCP. In addition, several Treasury bureaus operate with “public
                                                                                                                     enterprise revolving funds” and receive no appropriations from the Congress. These bureaus are BEP, U.S. Mint,
                                                                                                                     OCC, and OTS. Other miscellaneous earmarked funds are managed by BPD, DO, FMS, IRS, and TFF.

                                                                                                                     The following is a list of earmarked funds and a brief description of the purpose, accounting, and uses of these
                                                                                                                     funds.

                                                                                                                     Exchange Stabilization Fund (ESF)
                                                                                                                     ESF             20X4274             ESF Money Market Guaranty Facility
                                                                                                                     ESF             20X4444             Exchange Stabilization Fund


                                                                                                                     D.C. Pensions
                                                                                                                     DCP             20X1713             Federal payment – D.C. Judicial Retirement
                                                                                                                     DCP             20X1714             Federal payment – D.C. Federal Pension Fund
                                                                                                                     DCP             20X5511             D.C. Federal Pension Fund
                                                                                                                     DCP             20X8212             D.C. Judicial Retirement and Survivor’s Annuity Fund


                                                                                                                     Public Enterprise Revolving Funds
                                                                                                                     BEP             20X4502             Bureau of Engraving and Printing Fund
                                                                                                                     MNT             20X4159             Public Enterprise Revolving Fund
                                                                                                                     OCC             20X8413             Assessment Funds
                                                                                                                     OTS             20X4108             Public Enterprise Revolving Fund
                                                                                                                     IRS             20X4413             Federal Tax Lien Revolving Fund


                                                                                                                     Other Earmarked Funds
                                                                                                                     BPD             20X5080             Gifts to Reduce Public Debt
                                                                                                                     DO              20X5407             Sallie Mae Assessments
                                                                                                                     DO              20X5816             Confiscated and Vested Iraqi Property and Assets
                                                                                                                     DO              20X8790             Gifts and Bequests Trust Fund
                                                                                                                     FMD             205445              Debt Collection
                                                                                                                     FMD             20X5081             Presidential Election Campaign
                                                                                                                     FMD             20X8902             Esther Cattell Schmitt Gift Fund




184                                                                                                                    Note 27. Earmarked Funds
                                                                                                                     PART 2 • ANNUAL FINANCIAL REPORT
FMS          203/45445          Debt Collection Special Fund
FMS          204/55445          Debt Collection Special Fund
FMS          205/65445          Debt Collection Special Fund
FMS          206/75445          Debt Collection Special Fund
FMS          207/85445          Debt Collection Special Fund
FMS          208/95445          Debt Collection Special Fund
FMS          209/05445          Debt Collection Special Fund
IRS          20X5510            Private Collection Agent Program
IRR          20x5433            Informant Reimbursement
TFF          20X5697            Treasury Forfeiture Fund



The ESF uses funds to purchase or sell foreign currencies, to hold U.S. foreign exchange and SDR assets, and
to provide financing to foreign governments. ESF accounts and reports its holdings to FMS on the SF224,
“Statement of Transactions,” as well as to the Congress and Treasury Department’s policy office. The Gold Reserve
Act of 1934, Bretton Woods Agreement Act of 1945, P.L. 95-147 and P.L. 94-564 established and authorized the
use of the Fund. SDR in the IMF, Investments in U.S. Securities (BPD), and Investments in Foreign Currency
Denominated Assets are the sources of revenues or other financing sources. ESF’s earnings and realized gains on
foreign currency denominated assets represent inflows of resources to the government, and the revenues earned
are the result of intra-governmental inflows.

D.C. Pension Funds provide annuity payments for retired D.C. teachers, police officers, judges, and firefighters.
The sources of revenues are through annual appropriations, employees’ contributions, and interest earnings from
investments. All proceeds are earmarked. Note 21 provides detailed information on various funds managed by
the Office of DCP.

Treasury Department’s four non-appropriated bureaus, BEP, Mint, OCC, and OTS, operate “public enterprise
funds” that account for the revenue and expenses related to the production and sale of numismatic products and
circulating bureaus coinage (Mint), the currency printing activities (BEP), and support of oversight functions of
banking (OCC) and thrift operations (OTS). 31 USC § 5142 established the revolving fund for BEP to account
for revenue and expenses related to the currency printing activities. Public Law 104-52 (31 USC § 5136) estab-
lished the Public Enterprise Fund for the Mint to account for all revenue and expenses related to the production
and sale of numismatic products and circulating coinage. Revenues and other financing sources at the Mint are
mainly from the sale of numismatic and bullion coins, and the sale of circulating coins to the Federal Reserve
Bank system. 12 USC § 481 established the Assessment Funds for OCC, and 103 Stat. 278 established the Public
Enterprise Revolving Fund for OTS. Revenue and financing sources are from the bank examination and assess-
ments for the oversight of the national banks, savings associations, and savings and loan holding companies. These
earmarked funds do not directly contribute to the inflows of resources to the government; however, revenues in
excess of costs are returned to the General Fund of the U.S. Government. There are minimal transactions with
other government agencies.

There are other earmarked funds at several Treasury bureaus, such as donations to the Presidential Election
Campaign Fund, funds related to the debt collection program, gifts to reduce the public debt, and other enforce-
ment related activities. Public laws, statutory laws, U.S. Code, and the Debt Collection Improvement Act estab-




                                                                                 Note 27. Earmarked Funds            185
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     lished and authorized the use of these funds. Sources of revenues and other financing sources include contribu-
                                                                                                                     tions, cash and property forfeited in enforcement activities, public donations, and debt collection.


                                                                                                                     INTRA-GOVERNMENTAL INVESTMENTS IN TREASURY SECURITIES
                                                                                                                     The Federal Government does not set aside assets to pay future benefits or other expenditures associated with
                                                                                                                     earmarked funds. Treasury Department bureaus and other federal agencies invest some of the earmarked funds
                                                                                                                     that they collect from the public. The funds are invested in securities issued by Treasury Department’s Bureau of
                                                                                                                     the Public Debt (BPD). The cash collected by BPD is deposited in the General Fund of the U.S. Government,
                                                                                                                     which uses the cash for general government purposes.

                                                                                                                     The investments provide Treasury Department bureaus and other federal agencies with authority to draw upon
                                                                                                                     the General Fund of the U.S. Government to make future benefit payments or other expenditures. When the
                                                                                                                     Treasury Department bureaus or other federal agencies require redemption of these securities to make expendi-
                                                                                                                     tures, the government finances those expenditures out of accumulated cash balances, by raising taxes or other
                                                                                                                     receipts, by borrowing from the public or repaying less debt, or by curtailing other expenditures. This is the same
                                                                                                                     way that the government finances all other expenditures.

                                                                                                                     The securities are an asset to the Treasury Department bureaus and other federal agencies and a liability of the
                                                                                                                     BPD. The General Fund of the U.S. Government is liable to BPD. Because the Treasury Department bureaus
                                                                                                                     and other federal agencies are parts of the U.S. Government, these assets and liabilities offset each other from the
                                                                                                                     standpoint of the government as a whole. For this reason, they do not represent an asset or a liability in the U.S.
                                                                                                                     Government-wide financial statements.

                                                                                                                     The balances related to the investments made by the Treasury Department bureaus are not displayed on the
                                                                                                                     Treasury Department’s financial statements because the bureaus are subcomponents of the Treasury Department.
                                                                                                                     However, the General Fund of the U.S. Government remains liable to BPD for the invested balances and BPD
                                                                                                                     remains liable to the investing Treasury Department bureaus (see Note 4).




186                                                                                                                    Note 27. Earmarked Funds
                                                                                                                                                                     PART 2 • ANNUAL FINANCIAL REPORT
Summary Information for Earmarked Funds as of and for the Year ended
September 30, 2009 (in millions):

                                                                                         Public
                                                 Exchange                            Enterprise       Other        Combined
                                               Stabilization                 D.C.    Revolving    Earmarked       Earmarked                           9/30/2009
                                                       Fund              Pensions        Funds        Funds           Funds       Eliminations*          Totals
Balance Sheet
ASSETS:
Fund Balance                                     $         0         $          0    $     573       $    312      $      885        $         0      $       885
Investments/Related Interest (Intra-
governmental)                                        19,816                 3,866        1,346            707          25,735            25,735                 0
Cash, Foreign Currency/Other Monetary
Assets                                              71,662                      0            0            18         71,680                   0         71,680
Investments and Related Interest                    13,537                      0            0             0         13,537                   0         13,537
Other Assets                                             0                     13        1,207           104          1,324                  10          1,314
Total Assets                                     $ 105,015       $         3, 879    $   3,126       $ 1,141      $ 113,161          $   25,745       $ 87,416

LIABILITIES:
Intra-governmental Liabilities                             0                    0           37            194             231                 28              203
Certificates Issued to Federal Reserve
Banks                                                 5,200                     0            0              0           5,200                  0           5,200
Allocation of Special Drawing Rights                 55,953                     0            0              0          55,953                  0          55,953
Other Liabilities                                        16                 9,104          623            181           9,924                  0           9,924
Total Liabilities                                    61,169                 9,104          660            375          71,308                 28          71,280

NET POSITION:
Unexpended Appropriations                              200                      0            0             0             200                   0            200
Cumulative Results of Operations                    43,646                 (5,225)       2,466           766          41,653                   0         41,653
Total Liabilities and Net Position               $ 105,015           $      3,879    $   3,126       $ 1,141       $ 113,161         $        28      $ 113,133

Statement of Net Cost
Gross Cost                                       $    1,117       $           785    $   3,899       $    214      $  6,015          $        60        $5,955
Less Earned Revenue                                 (4,951)                 (134)      (3,981)              0       (9,066)                (187)        (8,879)
Total Net Cost of Operations                      $ (3,834)       $           651    $    (82)       $    214     $ (3,051)         $      (127)      $ (2,924)

Cumulative Results of Operations
Beginning Balance, as adjusted                   $ 39,618         $        (4,982)   $   2,350       $    575      $ 37,561          $         0      $ 37,561

Budgetary Financing Sources                              194                 408             0            345             947                  1               946
Other Financing Sources                                    0                   0            34              60             94                (27)              121
Total Financing Sources                                  194                 408            34             405          1,041                (26)            1,067
Net Cost of Operations                                 3,834                (651)           82           (214)          3,051                127             2,924
Net Change                                             4,028                (243)          116             191          4,092                101             3,991
Total Cumulative Results
of Operations                                    $ 43,646            $ (5,225)       $   2,466       $    766      $ 41,653          $       101      $ 41,552
* The eliminations reported above include both inter and intra eliminations for the Earmarked Funds. The total eliminations amount will not agree with the
   eliminations reported in the Statement of Changes in Net Position, which include eliminations for Other Funds.




                                                                                                                  Note 27. Earmarked Funds                           187
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Summary Information for Earmarked Funds as of and for the Year ended
                                                                                                                     September 30, 2008 (in millions):
                                                                                                                                                                                                            Public
                                                                                                                                                                      Exchange                          Enterprise         Other        Combined
                                                                                                                                                                    Stabilization              D.C.     Revolving      Earmarked       Earmarked                              9/30/2008
                                                                                                                                                                            Fund           Pensions         Funds          Funds           Funds       Eliminations*             Totals
                                                                                                                     Balance Sheet
                                                                                                                     ASSETS:
                                                                                                                     Fund Balance                                     $        33      $          0       $     459        $    228     $      720          $        0    $        720
                                                                                                                     Investments/Related Interest Intra-
                                                                                                                     governmental                                           16,847            3,859           1,251             592         22,549              22,549               0
                                                                                                                     Cash, Foreign Currency/Other Monetary
                                                                                                                     Assets                                             22,221                    0             0             16          22,237                   0        22,237
                                                                                                                     Investments and Related Interest                   10,543                    0             0              0          10,543                   0        10,543
                                                                                                                     Other Assets                                          298                   16         1,292            133           1,739                   9         1,730
                                                                                                                     Total Assets                                     $ 49,942         $      3,875       $ 3,002          $ 69         $ 57,788            $ 22,558      $ 35,230

                                                                                                                     LIABILITIES:
                                                                                                                     Intra-governmental Liabilities                   $      0         $          0       $      37        $ 150        $    187            $      29     $    158
                                                                                                                     Certificates Issued to Federal Reserve              2,200                    0               0            0           2,200                    0        2,200
                                                                                                                     Allocation of Special Drawing Rights                7,630                    0               0            0           7,630                    0        7,630
                                                                                                                     Other Liabilities                                     330                8,856             617          182           9,985                    0        9,985
                                                                                                                     Total Liabilities                                $ 10,160        $       8,856       $     654        $ 332        $ 20,002            $      29     $ 19,973

                                                                                                                     NET POSITION:
                                                                                                                     Unexpended Appropriations                        $    200         $           0      $     0          $   0        $    200            $       0     $    200
                                                                                                                     Cumulative Results of Operations                   39,582               (4,981)        2,348            637          37,586                    0       37,586
                                                                                                                     Total Liabilities and Net Position               $ 49,942         $       3,875      $ 3,002          $ 969        $ 57,788            $      29     $ 57,759

                                                                                                                     Statement of Net Cost
                                                                                                                     Gross Cost                                       $     250        $        339       $ 3,496          $ 337        $  4,422            $    62       $      4,360
                                                                                                                     Less Earned Revenue                                (1,986)               (152)         (3,593)           (6)        (5,737)              (650)             (5,087)
                                                                                                                     Total Net Cost of Operations                     $ (1,736)        $        187       $ (97)           $ 331       $ (1,315)            $ (588)       $       (727)

                                                                                                                     Cumulative Results of Operations
                                                                                                                     Beginning Balance                                $ 37,846         $     (5,141)      $ 2,206          $ 474        $ 35,385            $        0    $ 35,385

                                                                                                                     Budgetary Financing Sources                                 0             347                0             442            789                 23               766
                                                                                                                     Other Financing Sources                                     0                0              45               52            97                (31)              128
                                                                                                                     Total Financing Sources                                     0              347              45             494            886                  (8)             894
                                                                                                                     Net Cost of Operations                                  1,736            (187)              97            (331)         1,315                588               727
                                                                                                                     Net Change                                              1,736             160              142              163         2,201                580             1,621
                                                                                                                     Total Cumulative Results
                                                                                                                     of Operations                                        $ 39,582     $ (4,981)          $ 2,348          $ 637        $ 37,586            $     580     $ 37,006
                                                                                                                     * The eliminations reported above include both inter and intra eliminations for the Earmarked Funds. The total eliminations amount will not agree with the
                                                                                                                        eliminations reported in the Statement of Changes in Net Position, which include eliminations for Other Funds.




188                                                                                                                    Note 27. Earmarked Funds
                                                                                                                                             PART 2 • ANNUAL FINANCIAL REPORT
28. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET
The Reconciliation of Net Cost of Operations to Budget explains the difference between the budgetary net
obligations and the proprietary net cost of operations. For fiscal years 2009 and 2008, OMB did not prescribe
a format for this reconciliation in OMB Circular No. A-136, Financial Reporting Requirements, as amended, so
that preparers might develop a more robust presentation tailored to their agency. As of September 30, 2009 and
September 30, 2008, the Reconciliation of Net Cost of Operations to Budget consisted of the following
(in millions):

                                                                                                                    2009            2008
RESOURCES USED TO FINANCE ACTIVITIES:
   Budgetary Resources Obligated:
   Obligations Incurred                                                                                     $ 1,387,195      $   487,534
   Less: Spending Authority from Offsetting Collections and Recoveries                                        (321,262)           (9,401)
   Obligations Net of Offsetting Collections and Recoveries                                                   1,065,933          478,133
   Less: Offsetting Receipts                                                                                    (44,614)         (16,211)
   Net Obligations                                                                                          $ 1,021,319      $   461,922
   Other Resources:
   Donations and Forfeiture of Property                                                                               127             112
   Financing Sources for Accrued and Discount on the Debt                                                           6,027         (3,870)
   Transfers In/Out Without Reimbursement                                                                             (36)            (21)
   Imputed Financing from Cost Absorbed by Others                                                                     793             729
   Transfers to the General Fund and Other (Note 23)                                                            (217,704)        (20,788)
   Net Other Resources Used to Finance Activities                                                               (210,793)        (23,838)
   Total Resources Used to Finance Activities (Note 1 AC)                                                   $     810,526    $   438,084

RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF OPERATIONS:
   Change in Budgetary Resources Obligated for Goods, Services, and Benefits Ordered but not yet Provided   $     49,063     $     1,229
   Credit Program Collections that Increase Liabilities for Loans Guarantees or Allowances for Subsidy                (6)             (5)
    Adjustment to Accrued Interest and Discount on the Debt                                                        8,687          (6,731)
    Other (primarily resources that finance the acquisition of assets or liquidation of liabilities)             320,755         (10,745)
    Total Resources Used to Finance Items Not Part of the Net Cost of Operations                                 378,499         (16,252)
    Total Resources Used to Finance the Net Cost of Operations (Note 1 AC)                                  $    432,027     $   454,336

    Total Components of Net Cost of Operations that will Require
    or Generate Resources in Future Periods (Note 1 AC)                                                           87,673          13,814

    Total Components of Net Cost of Operations that will not Require or Generate Resources                         3,232           1,201
    Total Components of Net Cost of Operations that will not Require or Generate Resources in the
    Current Period (Note 1 AC)                                                                                    90,905          15,015
Net Cost of Operations                                                                                      $    522,932     $   469,351




                                                     Note 28. Reconciliation of Net Cost of Operations to Budget                             189
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     29. FINANCIAL STABILITY AND STIMULUS ACTIVITIES

                                                                                                                     GOVERNMENT SPONSORED ENTERPRISES (GSEs)
                                                                                                                     The Federal National Mortgage Association (Fannie Mae) and the Federal Home Loan Mortgage Corporation
                                                                                                                     (Freddie Mac) are stockholder-owned GSEs. Congress established these GSEs to increase the supply of mortgage
                                                                                                                     loans and to reduce the accompanying costs. A key responsibility is to package purchased mortgages into securi-
                                                                                                                     ties. These securities are subsequently sold to investors. Proceeds from sales are used to buy additional mortgages
                                                                                                                     and keep money flowing through the mortgage markets.

                                                                                                                     Increasingly difficult conditions in the housing market challenged the soundness and profitability of GSEs,
                                                                                                                     thereby undermining the entire housing market. This led Congress to pass the Housing and Economic Recovery
                                                                                                                     Act of 2008 in July 2008 (HERA). This Act created the new Federal Housing Finance Agency (FHFA), with
                                                                                                                     enhanced regulatory authority over the GSEs, and provided the Secretary of the Treasury with certain authorities
                                                                                                                     intended to ensure the financial stability of the GSE, if necessary.

                                                                                                                     Due to deteriorating conditions in the housing mortgage markets and the resulting negative financial impact
                                                                                                                     on the GSEs, they were placed under FHFA conservatorship on September 7, 2008. This action was taken to
                                                                                                                     preserve GSE assets, ensure a sound and solvent financial condition, and mitigate systemic risks that contributed
                                                                                                                     to current market instability. The FHFA director will terminate the conservatorship once safe and solvent condi-
                                                                                                                     tions are established.

                                                                                                                     Pursuant to the authorities provided to the Secretary under the HERA, the Treasury Department, also on
                                                                                                                     September 7, 2008, took three additional steps to help ensure the liquidity of the GSEs. This included:

                                                                                                                     Senior Preferred Stock Purchase Agreements (Note 9)
                                                                                                                           The Secretary of the Treasury entered into a Senior Preferred Stock Purchase Agreements (SPSPA) with
                                                                                                                           Fannie Mae and Freddie Mac to provide substantial financial support to the enterprises; thereby minimiz-
                                                                                                                           ing potential systemic financial risks associated with the deteriorating financial condition of Fannie Mae
                                                                                                                           and Freddie Mac. The agreement provides for the Treasury Department to increase its investment in the
                                                                                                                           senior preferred stock of the GSEs if at the end of any quarter the FHFA, acting as the conservator, deter-
                                                                                                                           mines that the liabilities of either GSE, individually, exceed its respective assets. The gross amount available
                                                                                                                           for this purpose is $200 billion per GSE and these preferred stock agreements have no expiration date.

                                                                                                                     GSE Credit Facility (Note 12)
                                                                                                                           The Government Sponsored Enterprise Credit Facility (GSECF) was established to ensure credit availabil-
                                                                                                                           ity to the GSEs and the Federal Home Loan Banks. This lending facility will provide secured funding on an
                                                                                                                           as needed basis under terms and conditions established by the Secretary to protect taxpayers. The GSEs and
                                                                                                                           the Federal Home Loan Banks are eligible to borrow under this program. The GSECF provides liquidity, if
                                                                                                                           needed, until December 31, 2009.

                                                                                                                           Funding will be provided directly by the Treasury Department from its account held at the Federal Reserve
                                                                                                                           Bank of New York (FRBNY) in exchange for eligible collateral from the GSE which will be limited to guar-
                                                                                                                           anteed MBS issued by the GSE as well as advances made by the Federal Home Loan Banks. Loan requests
                                                                                                                           will require approval from the Treasury Department and verification by the FRBNY that adequate collateral



190                                                                                                                    Note 29. Financial Stability and Stimulus Activities
                                                                                                                      PART 2 • ANNUAL FINANCIAL REPORT
      has been pledged. Loans made through the GSECF are subject to the federal debt limit. Loans will be for
      short-term durations and are in general expected to be for less than one month but no shorter than one
      week. Loans will not be made with a maturity date beyond December 31, 2009. The rate on a loan request
      ordinarily will be based on the daily London Interbank Borrowing Rate (LIBOR) for a similar term loan
      plus 50 basis points. The rate is set at the discretion of the Secretary with the objective of protecting the
      taxpayer, and is subject to change. There is no stated limitation on loans provided through the GSECF.
      However, loans are limited to the amounts of available collateral. There were no loans made through the
      GSECF in fiscal year 2008 or 2009.

GSE Mortgage-Backed Securities (MBS) Purchase Program (Note 12)
      Under this program, the Treasury Department, via Asset Managers, purchases GSE MBS in the open
      market. The Asset Managers are also authorized to enter into other trade/sell transactions such as Pair
      Offs, Turns, Assignments, and Dollar Rolls. By purchasing these credit-guaranteed securities, the Treasury
      Department seeks to broaden access to mortgage funding for current and prospective homeowners and
      to promote stability in the mortgage market. The size and timing of the MBS purchases is subject to the
      discretion of the Secretary. The scale of the program will be based on developments in the capital and
      housing markets. As these securities are backed by individual mortgages, they are accounted for under the
      Federal Credit Reform Act of 1990.

The actions taken by the Department thus far are temporary, as defined by section 1117 of HERA, and are
intended to provide financial stability until Fannie Mae and Freddie Mac can return to normal operations or until
the Administration and Congress address how they should be structured going forward. As of September 30,
2009, there are no plans to bring these organizations into the government; rather, the purpose of these financial
arrangements is to maintain the solvency of the GSEs so they can continue to fulfill their vital roles in the home
mortgage market while the Administration and Congress deliberate what, if any, structural changes should be
made.


TEMPORARY GUARANTEE PROGRAM MONEY MARKET FUNDS
In September 2008, the Treasury Department established a Temporary Guarantee Program (Program) for Money
Market Funds. Under this Program the Treasury Department guaranteed to investors that they would receive the
stable share price (SSP) for shares held in participating money market funds up to the number of shares held as
of the close of business on September 19, 2008. To participate in the Program, eligible money market funds had
to submit an application and pay a premium of 1 basis point if the fund’s net asset value (NAV) is greater than or
equal to 99.75 percent of the SSP, or 1.5 basis points of the SSP if the fund’s NAV is less than 99.75 percent of
the SSP but greater than or equal to 99.50 percent of the SSP.

Under this program, any outlays would have been paid out initially from the ESF, and then under the provisions
of Section 131 of the Emergency Economic Stabilization Act of 2008. Such outlays would then be reimbursed
from funds available under the Troubled Asset Relief Program. The temporary guarantee program was extended
and continued to provide coverage through September 19, 2009 to shareholders up to amounts that they held
in participating money market funds as of the close of business on September 19, 2008. As of September 30,
2009, the program had expired. Treasury did not receive any claims for payment. As of September 30, 2009, the
Treasury Department had collected a total of approximately $1.2 billion in program participation payments. All
participant payments are invested into U.S. Government securities.



                                                   Note 29. Financial Stability and Stimulus Activities               191
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     HOME OWNERSHIP PRESERVATION ENTITY (HOPE BOND)
                                                                                                                     The Home Ownership Preservation Entity (HOPE) Fund for Homeowners Act of 2008, of the Housing and Recovery
                                                                                                                     Act of 2008, authorizes the Secretary of the Treasury to issue HOPE bonds without any limitations as to the pur-
                                                                                                                     chaser of the issuance. Due to the cost of issuing special purpose bonds to the public, the Secretary of the Treasury
                                                                                                                     has decided to issue the HOPE bonds to the Federal Financing Bank (FFB). The total outstanding HOPE bonds
                                                                                                                     may not exceed $300,000 million. The FFB’s purchase of HOPE bonds issued by the Secretary is consistent with
                                                                                                                     the core mission of the FFB. FFB purchased $462.5 million in bonds at par value in fiscal year 2009 and one
                                                                                                                     bond at par value of $29.5 million in fiscal year 2008, with floating interest rate to be reset quarterly. The interest
                                                                                                                     rate is 0.183 percent and 1.6 percent as of September 30, 2009 and September 30, 2008, respectively. The bonds
                                                                                                                     have 30 year maturity dates starting on August 27, 2038 and ending on July 15, 2039. The HOPE bonds are
                                                                                                                     reported as investments held-to-maturity and the related interest receivable is reported as accrued interest receiv-
                                                                                                                     able in FFB's stand-alone financial statements. The HOPE bond transactions are subsequently eliminated at the
                                                                                                                     Departmental level.


                                                                                                                     TROUBLED ASSET RELIEF PROGRAM (TARP)
                                                                                                                     The Emergency Economic Stabilization Act of 2008 (EESA) established the Troubled Asset Relief Program (TARP)
                                                                                                                     on October 3, 2008 to be administered by the Treasury Department and established the Office of Financial
                                                                                                                     Stability within the Department’s Office of Domestic Finance. The Act gave the Treasury Secretary broad and flex-
                                                                                                                     ible authority to purchase and insure mortgages and other troubled assets, as well as to inject capital into banks
                                                                                                                     and other commercial companies by taking equity positions in those entities, if needed, to stabilize the financial
                                                                                                                     markets or an industry. The TARP is intended to promote market stability and protect the U.S. economy by
                                                                                                                     authorizing Treasury Department to purchase and guarantee troubled mortgage-related assets and other financial
                                                                                                                     assets. EESA also provides for the purchase of any other financial instruments that the Secretary determines, after
                                                                                                                     consultation with the Federal Reserve Banks’ Board Chairman, is necessary in order to promote financial market
                                                                                                                     stability.

                                                                                                                     The EESA established certain criteria under which the TARP would operate, including provisions that impact the
                                                                                                                     budgeting, accounting, and reporting of troubled assets acquired under the Act. Section 101(a) of the EESA pro-
                                                                                                                     vided the authority for the Secretary to purchase troubled assets, and Section 101(a)(3) of the EESA established
                                                                                                                     the Office of Financial Stability (OFS) to implement the TARP. Section 102 of the EESA required the Secretary
                                                                                                                     to establish a program to guarantee troubled assets originated or issued prior to March 14, 2008, including
                                                                                                                     mortgage-backed securities. Section 115 of the EESA limits the authority of the Secretary to purchase troubled
                                                                                                                     assets to $700 billion10 outstanding at any one time, calculated at the aggregate purchase prices of all troubled
                                                                                                                     assets held. There was approximately $291 billion outstanding (the amount on the original investment that is due
                                                                                                                     to be repaid to Treasury) against the Section 115 authority as of September 30, 2009. Section 120 of the EESA
                                                                                                                     established that the authorities under Sections 101(a), excluding Section 101(a)(3) and Section 102 of the EESA
                                                                                                                     shall terminate on December 31, 2009. Section 120 of the EESA further establishes that the Secretary, upon
                                                                                                                     submission of a written certification to Congress, may extend the authority provided under the Act to expire no
                                                                                                                     later than 2 years from the date of the enactment of the Act (October 3, 2008).



                                                                                                                     10	 The Helping Families Save Their Homes Act of 2009 (PubL.No. 111-22, Div. A, 123 Stat., 1632 (2009), amended the act to reduce the
                                                                                                                         maximum allowable amount of outstanding troubled assets under the act by approximately $1.3 billion, from $700.0 billion to $698.7
                                                                                                                         billion.




192                                                                                                                    Note 29. Financial Stability and Stimulus Activities
                                                                                                                       PART 2 • ANNUAL FINANCIAL REPORT
TARP has engaged in purchases of equity including preferred stock and common stock Warrants from financial
institutions and insurance companies. In addition, the TARP has established a guarantee program for financial
institutions. TARP has made direct loans as well as equity investments in preferred stock to support the automo-
tive industry and to unfreeze secondary credit markets. TARP funds are being used to help families stay in their
homes. TARP also has funded an initiative to address the challenge of legacy assets in the financial marketplace.
Details concerning the specific TARP programs is provided in Notes 8 and 12.

Subsidy Reestimates
The purpose of reestimates is to update original program subsidy estimates to reflect actual cash flow experience
as well as changes in forecasts of future cash flows. Forecasts of future cash flows are updated based on actual
program performance to date, additional publicly available relevant historical market data on securities perfor-
mance, revised expectations for future economic conditions, and enhancements to cash flow projection methods.
Financial statement reestimates for all programs were performed using actual financial transaction data through
September 30, 2009. In accordance with credit reform guidance and to ensure the timely completion of the credit
reform reestimate process, market and security specific data publicly available as of September 30, 2009, was used
for the CPP, AGP, TIP, and direct loan AIFP, and data through August 31, 2009 was used for the equity portion
of AIFP, AIG, and TALF in the reestimate calculations. Treasury assessed the key inputs of the reestimates using
data publicly available as of September 30, 2009, and in its determination, there were no significant changes to
the key inputs for the three programs for which August 31, 2009 data was used that would require a revision to
the reestimates.

Downward reestimates for the fiscal year ended September 30, 2009, are as follows:

                                                                      Downward Reestimate Amounts
                                                                              (in millions)
Program                                                        Subsidy                    Interest             Total

AGP                                                        $    (1,097)               $       (77)      $    (1,174)

Direct Loan
    AIFP                                                   $    (9,039)               $ (1,571)         $   (10,610)
    CBLI/TALF                                                     (222)                     (21)               (243)
    Subtotal Direct                                        $    (9,261)               $ (1,592)         $   (10,853)

Equity Investment
    CPP                                                    $ (68,558)                 $ (3,861)         $  (72,419)
    TIP                                                       (20,366)                  (1,101)            (21,467)
    AIG                                                           (845)                   (280)              (1,125)
    AIIP                                                        (2,331)                   (379)              (2,710)
    Subtotal Equity                                        $ (92,100)                 $ (5,621)         $ (97,721)
Total                                                      $ (102,458)                $ (7,290)         $ (109,748)



Descriptions of the reestimates, by TARP Program, are as follows:

All of the approximately $1,174 million in downward reestimates for the AGP is due to improvements in market
conditions from when the guarantee was committed in January 2009. The improved market conditions resulted
in an increase in the projected AGP asset due to the net present value of the estimated cash inflows from the




                                                  Note 29. Financial Stability and Stimulus Activities                 193
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     preferred stock and warrants received by Treasury from Citigroup as a premium being greater than the estimated
                                                                                                                     value of future claim payments associated with the $5,000 million guarantee.

                                                                                                                     All of the approximately $10,610 million in downward reestimates for the Automotive Industry Direct Loan
                                                                                                                     Financing Programs (AIDLFP) direct loans is the result of the post bankruptcy improved financial position of one
                                                                                                                     of the major companies participating in the program. The $243 million in downward reestimates for the TALF is
                                                                                                                     entirely due to projected improved performance of the securities within the program versus the original estimate.

                                                                                                                     The approximately $70,718 million in repurchases during fiscal year 2009 accounts for approximately $9,700
                                                                                                                     million of the $72,419 million in downward reestimates in the CPP. Projected repurchases of approximately
                                                                                                                     $30,000 million in the next 12 months accounts for approximately $5,410 million, with the $57,309 million
                                                                                                                     balance in downward reestimates in the CPP due to improved market conditions from when the original estimate
                                                                                                                     was made in December 2008.

                                                                                                                     The $21,467 million in downward reestimates in the Targeted Investment Program (TIP) is mostly due to
                                                                                                                     improved market conditions from when the original estimates were made in December 2008 and January 2009.
                                                                                                                     Approximately $2,300 million is due to a $20,000 million repurchase forecast within 12 months following
                                                                                                                     September 30, 2009.

                                                                                                                     All of the $1,125 million in downward reestimates for the AIG Investment Program and $2,710 million in
                                                                                                                     downward reestimates for the AIIP equity programs are due to improvements in market conditions from when
                                                                                                                     the equities were purchased resulting in a reduction in the projected costs of the programs.


                                                                                                                     AMERICAN INTERNATIONAL GROUP (AIG)
                                                                                                                     As described in Note 8, in fiscal year 2009, the Department ultimately invested $42 billion in Series E perpetual,
                                                                                                                     non-cumulative 10% preferred shares of AIG through the Systemically Significant Failing Institutions Program.
                                                                                                                     And, to further assist the stability and restructuring of AIG, the Treasury Department agreed to make an ad-
                                                                                                                     ditional $29 billion available to AIG under the Treasury credit facility. In return, the Department received $29
                                                                                                                     billion of AIG series F perpetual, non-cumulative 10% preferred stock (300,000 shares) and a warrant to pur-
                                                                                                                     chase 3,000 shares of AIG common stock. The initial liquidation preference of the Series F preferred shares is zero
                                                                                                                     and increases pro rata by the amount of each drawdown by AIG. As of September 30, 2009, AIG had drawn $1.1
                                                                                                                     billion through the credit facility, leaving an outstanding commitment to AIG at September 30 of $27.9 billion.

                                                                                                                     Under the initial terms of the credit facility agreement with AIG and the Federal Reserve Bank of New York
                                                                                                                     (FRBNY), a 77.9% equity interest in AIG (in the form of Series C Convertible Participating Serial Preferred
                                                                                                                     Stock convertible into approximately 77.9% of the issued and outstanding shares of common stock) was issued
                                                                                                                     to a trust established by the FRBNY. Subsequent to the initial agreement, a reverse stock split of AIG’s common
                                                                                                                     stock increased this to 79.8%. The U.S. Government is the sole beneficiary of that trust, so that when the stock
                                                                                                                     is ultimately liquidated the proceeds will be deposited into the General Fund of the U.S. Government. The U.S.
                                                                                                                     Government will be the ultimate recipient of any dividends on the stock and any proceeds from the liquidation
                                                                                                                     of the stock. The accounting and reporting for any activities related to the government’s beneficial interest in the
                                                                                                                     stock held by the trust will be done by the Treasury Department. The trustees of the trust are independent of both
                                                                                                                     the Department and the FRBNY, and are not involved in day-to-day management of AIG.




194                                                                                                                    Note 29. Financial Stability and Stimulus Activities
                                                                                                                       PART 2 • ANNUAL FINANCIAL REPORT
As the U.S. Government is the sole beneficiary of the trust, and as it is anticipated that the U.S. Government
will ultimately realize an economic benefit from its beneficial interest in the trust, the Treasury Department has
recorded a non-entity asset of $23,472 million as of September 30, 2009, and corresponding custodial revenue
for the same amount. The value recorded is based on the market value of the trust’s AIG holdings at September
30, 2009; as the underlying AIG common stock is actively traded on the New York Stock Exchange, this repre-
sents the best independent valuation available for the government’s beneficial interest. The U.S. Government’s
proceeds will be received when AIG’s credit line with the FRBNY is terminated, AIG has redeemed the preferred
stock owned by the Treasury Department through TARP, and the trustees sell the stock held by the trust. The
Treasury Department will re-value its beneficial interest in the trust each year until the trust is liquidated. Like
any asset, future events may increase or decrease the value of the U.S. Government’s interest in the trust. The
amount ultimately realized by the U.S. Government upon liquidation of the trust is inherently subject to substan-
tial uncertainty regarding future economic events that could affect the future value of AIG common stock.

The Department’s participation in enhancing AIG’s capital and liquidity in order to facilitate an orderly restruc-
turing of the company are in addition to the FRBNY activities in this regard.


THE AMERICAN RECOVERY AND REINVESTMENT ACT OF 2009
(RECOVERY ACT)
President Obama signed the Recovery Act into law on February 17, 2009. The Recovery Act is an extraordinary
response to a crisis unlike any since the Great Depression, and includes measures to modernize the nation's
infrastructure, enhance energy independence, expand educational opportunities, preserve and improve affordable
health care, provide tax relief, and protect those in greatest need.

The Department of the Treasury has various responsibilities related to Recovery Act programs, including the im-
plementation of some sixty tax incentives for households and businesses; local and state government support; and
investments in renewable energy, low income housing, and health care. Treasury has taken a risk-based approach
and focused on balancing the requirements of speed, quality, and accountability to ensure Recovery Act funds are
distributed timely and accurately. To achieve these objectives, Treasury established a Recovery Act implementation
team housed within the purview of the Assistance Secretary for Management/Chief Financial Officer responsible
for working with the program offices across the Department. The Recovery Act team facilitates all Recovery Act
implementation department-wide and interfaces with the broader Recovery Act community. As part of this broad
responsibility, the team establishes internal processes, addresses external data requirements, manages risk inherent
in Recovery Act implementation, and coordinates Treasury Recovery Act audits.

Here are some of the Recovery Act programs implemented by Treasury during fiscal year 2009:
   •	   The Recovery Act provided $250 one-time Economic Recovery Payments to eligible retirees, veterans, and
        other high-need recipients. The Financial Management Service received $7 million to cover administrative
        expenses incurred in sending these payments, either via electronic funds transfer or by check, to millions
        of recipients of Social Security, Supplemental Security Insurance, Railroad Retirement, and Veterans
        Administration benefits.
   •	   The Community Development Financial Institutions (CDFI) Fund received $2 million to cover admin-
        istrative expenses related to implementing Recovery Act provisions that apply to two existing programs.
        These existing programs and related Recovery Act funding are the CDFI Program, which received $90




                                                    Note 29. Financial Stability and Stimulus Activities               195
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                           million in additional funds to make grants, loans, equity investments, deposits, and secondary capital
                                                                                                                           investments to certified CDFIs that deploy the funds in underserved, low-income communities, and to
                                                                                                                           targeted populations; and the Native American CDFI Assistance Program, which received $8 million in
                                                                                                                           additional funds under the Recovery Act to make grants, loans, equity investments, deposits, and secondary
                                                                                                                           capital investments to certified CDFIs that deploy the funds in Native American communities or to Native
                                                                                                                           American populations.
                                                                                                                      •	   The New Markets Tax Credit (NMTC) Program, which does not provide direct funding to CDFI because
                                                                                                                           it is a tax credit, was provided an additional $1.5 billion of allocation authority for 2009; NMTC facili-
                                                                                                                           tates investment in low-income communities by permitting taxpayers to receive a non-refundable credit
                                                                                                                           against federal income taxes for making Qualified Equity Investments in Treasury-certified Community
                                                                                                                           Development Entities (businesses and real estate developments) in low-income communities. The Recovery
                                                                                                                           Act authorizes the CDFI Fund to allocate $3 billion of tax credit authority to qualified Community
                                                                                                                           Development Entities (CDEs) under the New Markets Tax Credit (NMTC) Program, as follows: $1.5
                                                                                                                           billion to CDEs that applied for allocation authority under the 2008 NMTC allocation round, and $1.5
                                                                                                                           billion to CDEs that applied for allocation authority under the 2009 NMTC allocation round. This $3
                                                                                                                           billion in allocation authority is in addition to the $3.5 billion in non-Recovery Act funds that was already
                                                                                                                           allocated for the NMTC in 2009.
                                                                                                                      •	   The Cash Assistance for Specified Energy Property in Lieu of Tax Credits Program promotes renewable
                                                                                                                           energy. The Office of the Fiscal Assistant Secretary (OFAS) designed the program in conjunction with
                                                                                                                           the Department of Energy. Energy reviews the applications for completeness and initial approval. OFAS
                                                                                                                           then reviews the applications and either approves or denies the request. Payment is made by the Office of
                                                                                                                           Financial Management which follows its standard procedures for making payments. The energy program
                                                                                                                           payments are treated as an expense in the Treasury financial statements. This program provides an alterna-
                                                                                                                           tive means to attract financing for renewable energy projects by providing direct payment in lieu of tax
                                                                                                                           credits. The program began accepting applications on July 31, 2009, and by September 30, 2009, had
                                                                                                                           made awards for 37 projects totaling over $1 billion.
                                                                                                                      •	   The Cash Assistance to States for Low-Income Housing Projects in Lieu of Tax Credits Program allows construc-
                                                                                                                           tion or acquisition and rehabilitation of low-income housing projects to continue where developers were
                                                                                                                           unable to proceed due to insufficient financing. The program addresses the near-term goal of creating
                                                                                                                           and retaining jobs, as well as the long-term benefit of increasing the affordable housing supply. OFAS
                                                                                                                           administers this program. Funds are awarded to State Housing Credit Agencies to make sub-awards to fund
                                                                                                                           the construction and/or acquisition and rehabilitation of low-income housing projects, creating jobs and
                                                                                                                           increasing the supply of low-income housing. In lieu of tax credits, forty housing agencies had received
                                                                                                                           approval for over $2.5 billion as of September 30, 2009.
                                                                                                                      •	   In 2009, the Internal Revenue Service (IRS) implemented a number of Recovery Act tax provisions impact-
                                                                                                                           ing both individuals and businesses, including the Making Work Pay credit; the First-Time Home Buyer
                                                                                                                           credit; a new COBRA health insurance continuation premium subsidy; and several new bond programs.




196                                                                                                                  Note 29. Financial Stability and Stimulus Activities
                                                                                                                      PART 2 • ANNUAL FINANCIAL REPORT
30. SCHEDULE OF FIDUCIARY ACTIVITY
Fiduciary activities are the collection or receipt, and the management, protection, accounting, investment, and
disposition by the Federal Government of cash or other assets, in which non-Federal individuals or entities have
an ownership interest that the Federal Government must uphold.

Fiduciary cash and other assets are not assets of the Federal Government, and accordingly are not recognized on
the Balance Sheet.

The following funds have been identified by the Treasury Department as meeting the criteria for fiduciary activity.
Details of the funds, as well as fiduciary relationships, is provided below.

Bureau       Fund Code                Authority                     Fund Title
BEP          20X6513.013              31 USC 5119                   Mutilated Currency Claims Funds
BPD          20X6008                  31 USC 3513                   Payment Prin. & Interest Govt. Agencies
FMD          20X6045                  31 USC 3328                   Proceeds, Payments of Unpaid Checks
FMD          20X6048                  31 USC 3329, 3330             Proceed of Withheld Foreign Check
FMD          2015X6078                50 APP. USC 2012              War Claims FD, FCSC
FMD          20X6092                  31 USC 1321                   Debt Management Operations
FMD          20X6104                  22 USC 1627                   Albanian Claims Fund, Treasury
FMD          20X6133                  31 USC 1322                   Payment of Unclaimed Moneys
FMD          20X6309                  22 USC 1627(a)                Libyan Claims Settlement Fund
FMD          20X6311                  98 Stat. 1876                 Kennedy Center Revenue Bond
FMD          20X6312                  22 USC 1627                   Iranian Claims Settlement Fund
FMD          20X6314                  22 USC 1644g                  German Democrat Settlement Fund
FMD          20X6315                  22 USC 1645h                  Vietnam Claims Settlement Fund
FMD          20X6501.018              31 USC 3513                   Small Escrow Amounts
FMD          20X6720                  31 USC 3513                   SM DIF Account for Dep. & Check Adj.
FMD          20X6830                  104 Stat. 1061                Net Interest Payments to/from State
FMD          20X6999                  31 USC 3513                   Accounts Payable, Check Issue UNDDR
IRR          20X6737                  90 Stat. 269-270              Collections for Northern Mariana Islands
IRR          20X6738                  31 USC 3513                   Coverover Withholding-US Virgin Islands
IRR          20X6740                  31 USC 3515                   Coverover Withholdings-Guam
IRR          20X6741                  31 USC 3513                   Coverover Withhold Samoa
OAS          20X6317.001              22 USC 2431                   Belize Escrow, Debt Reduction
OAS          20X6501.018              31 USC 3513                   Small Escrow Amounts
OTS          20X6501.76               31 USC 3513                   Small Escrow Amounts



Unclaimed monies were authorized by 31 U.S.C. 5119, which authorized Financial Management Service,
Department of the Treasury, to collect unclaimed monies on behalf of the public. Other fiduciary activities by the
Department of the Treasury as listed above are included in All Other Fiduciary Funds




                                                                 Note 30. Schedule of Fiduciary Activity              197
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Schedule of Fiduciary Activity (in millions):
                                                                                                                                                                        Unclaimed           All Other          2009 Total
                                                                                                                                                                       Monies-FMD    Fiduciary Funds     Fiduciary Funds

                                                                                                                     Fiduciary Net Assets, Beginning of the Year         $    366            $     43          $     409

                                                                                                                     Increases
                                                                                                                     Contributions to Fiduciary Net Assets                     28                1,063             1,091
                                                                                                                     Investment earnings                                        0                    1                 1
                                                                                                                     Total Increases                                           28                1,064             1,092

                                                                                                                     Decreases
                                                                                                                     Disbursements to and on behalf of beneficiaries           (4)            (899)              (903)
                                                                                                                     Total Decreases                                           (4)            (899)              (903)
                                                                                                                     Net Increase (Decrease) in fiduciary assets               24               165                189
                                                                                                                     Fiduciary Net Assets, End of Year                   $    390            $ 208             $   598




                                                                                                                     Schedule of Fiduciary Net Assets (in millions):

                                                                                                                                                                        Unclaimed           All Other          2009 Total
                                                                                                                                                                       Monies-FMD    Fiduciary Funds     Fiduciary Funds

                                                                                                                     Fiduciary Assets
                                                                                                                     Cash and cash equivalents                           $    390            $ 193             $     583
                                                                                                                     Investments                                                0               15                    15
                                                                                                                     Total Fiduciary Assets                                   390              208                   598
                                                                                                                     Total Fiduciary Net Assets                          $    390            $ 208             $     598




198                                                                                                                    Note 30. Schedule of Fiduciary Activity
                                                                                                                         PART 2 • ANNUAL FINANCIAL REPORT
31. COMMITMENTS AND CONTINGENCIES

LEGAL CONTINGENCIES
The Treasury Department is a party in various administrative proceedings, legal actions, and claims, includ-
ing equal opportunity matters which may ultimately result in settlements or decisions adverse to the U.S.
Government. These contingent liabilities arise in the normal course of operations and their ultimate disposition
is unknown. Treasury Department has one contingent liability in fiscal year 2009 related to legal action taken in
the case, American Council of the Blind and Others, where losses are determined to be probable and amount of loss
can be estimated. The Treasury Department has disclosed contingent liabilities where the conditions for liability
recognition have not been met and the likelihood of unfavorable outcome is more than remote. The Treasury
Department does not accrue for possible losses related to cases where the potential loss cannot be estimated or the
likelihood of an unfavorable outcome is less than probable.

In some cases, a portion of any loss that may occur may be paid by the Treasury Department’s Judgment Fund,
which is separate from the operating resources of the Treasury Department. For cases related to the Contract
Disputes Act of 1978 and awards under federal anti-discrimination and whistleblower protection acts, the Treasury
Department must reimburse the Judgment Fund from future appropriations.

In the opinion of the Treasury Department’s management and legal counsel, based on information currently
available, the expected outcome of legal actions, individually or in the aggregate, will not have a materially adverse
effect on the Treasury Department’s financial statements, except for the legal actions described below.


PENDING LEGAL ACTIONS
    •	   The American Council of the Blind and Others, et. al. v. Paulson: Plaintiffs have filed suit against the
         Department under Section 504 of the Rehabilitation Act seeking the redesign of U.S. currency. In 2007, a
         judge ruled that the current U.S. currency design violates this Act and this ruling was appealed. In 2008,
         the United States Court of Appeals for the District of Columbia Circuit affirmed the District Court’s
         ruling. No monetary damages were awarded by the Court. However, the Treasury Department is required
         to provide meaningful access to United States currency for blind and other visually impaired persons. This
         may require changes to U.S. currency (excluding the one-dollar note.) The Court ordered such changes to
         be completed in connection with each denomination of currency, not later than the date when a redesign
         is next approved by the Secretary of the Treasury. Because the cost of implementing these changes will be
         incorporated into future currency redesign costs, no redesign costs have been accrued in the accompanying
         financial statements as of September 30, 2009 and September 30, 2008.

         The Court of Appeals in the above mentioned case ordered the parties to confer and attempt to negotiate
         attorney fees and costs to be awarded the plaintiffs. In December 2008, the parties filed a joint stipulation
         agreeing to $800 thousand in attorney fees and costs that was paid from the Judgment Fund in February
         2009.

    •	   Amidax Trading Group v. S.W.I.F.T. makes allegations that the Treasury Department’s Terrorist Finance
         Tracking Program has involved unlawful disclosure of information by the Society for Worldwide Interbank
         Financial Telecommunications (S.W.I.F.T.). Defendants include the Department of the Treasury as well as
         several Treasury officials. The case was dismissed on February 13, 2009, and the plaintiff has subsequently



                                                                 NOte 31. Commitments and Contingencies                  199
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                             appealed that ruling. The Treasury Department is unable to determine the likelihood of an unfavorable
                                                                                                                             outcome or an estimate of potential loss at this time.

                                                                                                                        •	   Cobell et al. v. Salazar et al. (formerly Cobell v. Kempthorne): Native Americans allege that the Department
                                                                                                                             of Interior and the Department of the Treasury have breached trust obligations with respect to the manage-
                                                                                                                             ment of the plaintiffs’ individual Indian monies. On August 7, 2008, the Federal District Court issued an
                                                                                                                             opinion awarding $455 million to the plaintiffs. This decision was overturned on appeal in July 2009. The
                                                                                                                             appellate court found that the government owes a cost-effective accounting, in scale with available funds.
                                                                                                                             The District Court is considering further proceedings. The Treasury Department is unable to determine the
                                                                                                                             likelihood of an unfavorable outcome or an estimate of potential loss at this time. (Please refer to Note 33,
                                                                                                                             Subsequent Events, for additional information.)

                                                                                                                        •	   Tribal Trust Fund Cases: Numerous cases have been filed in U.S. District Courts in which Native American
                                                                                                                             Tribes seek a declaration that the U.S. has not provided the tribes with a full and complete accounting of
                                                                                                                             their trust funds, and seek an order requiring the government to provide such an accounting. In addition,
                                                                                                                             there are a number of other related cases seeking damages in the United States Court of Federal Claims
                                                                                                                             which do not name the Department as a defendant. It is not possible at this time to determine the likeli-
                                                                                                                             hood of an unfavorable outcome or an estimate of the amount or range of any potential loss.

                                                                                                                        •	   Other Legal Actions: The Treasury Department is also involved in employment related legal actions (e.g.,
                                                                                                                             Discrimination, Equal Employment Opportunity Commission, Merit System Protection Board, etc.) for
                                                                                                                             which an unfavorable outcome is reasonably possible, but for which an estimate of potential loss cannot
                                                                                                                             be determined at this time. It is not expected that these cases will have a material effect on the Treasury
                                                                                                                             Department’s financial position or results.

                                                                                                                        •	   There are other legal actions pending for which the possibility of loss could not be determined, and where
                                                                                                                             the ultimate resolution of the legal actions may materially affect the Treasury Department’s financial
                                                                                                                             position or results. As of September 30, 2009, four legal claims amounting to approximately $113 million
                                                                                                                             existed for which the possibility of loss could not be determined.


                                                                                                                     OTHER COMMITMENTS AND CONTINGENCIES
                                                                                                                     Treaties and International Agreements
                                                                                                                     The Office of Management and Budget, Circular No. A-136, Financial Reporting Requirements and the Treasury
                                                                                                                     Financial Manual, Volume 1, Part 2-4700 require the recognition and disclosure of financial information related
                                                                                                                     to Treaties and International Agreements for fiscal year 2009 financial reporting. The focus of this require-
                                                                                                                     ment is to identify Departmental Treaties and International Agreements that commit and obligate the Federal
                                                                                                                     Government and may result in a possible exposure to loss. Any recognition and disclosure of Treaty and
                                                                                                                     International Agreement loss contingencies would be presented in accordance with SFFAS No. 5, Accounting for
                                                                                                                     Liabilities of the Federal Government. Any recognition would depend on the likelihood of the future event occur-
                                                                                                                     ring and the measurability of an amount or range of loss.

                                                                                                                     The Treasury Department does not have any treaties or international agreements to report for fiscal year 2009.




200                                                                                                                    NOte 31. Commitments and Contingencies
                                                                                                                         PART 2 • ANNUAL FINANCIAL REPORT
Multilateral Development Banks (MDB)
The Treasury Department has subscribed to capital for certain MDB, portions of which are callable under certain
limited circumstances to meet the obligations of the respective MDB. There has never been, nor is there antici-
pated, a call on the Treasury Department’s commitment for these subscriptions. As of September 30, 2009 and
September 30, 2008, U.S. callable capital in MDB was as follows (in millions):

                                                                                     2009                        2008
African Development Bank                                                        $    1,634                  $    1,634
Asian Development Bank                                                               5,911                       5,911
European Bank for Reconstruction and Development                                     1,805                       1,805
Inter-American Development Bank                                                     28,687                      28,687
International Bank for Reconstruction and Development                               22,641                      22,641
Multilateral Investment Guarantee Agency                                               301                         301
North American Development Bank                                                      1,275                       1,275
 Total                                                                          $   62,254                  $ 62,254




Terrorism Risk Insurance Program
The Terrorism Risk Insurance Act (TRIA or the Act) was signed into law on November 26, 2002. This law was
enacted to address market disruptions resulting from terrorist attacks on September 11, 2001. The Act helps to
ensure available and affordable commercial property and casualty insurance for terrorism risk, and simultaneously
allows private markets to stabilize. The Terrorism Risk Insurance Program is activated upon the certification of an
“act of terrorism” by the Secretary of the Treasury Department in concurrence with the Secretary of State and the
Attorney General. If a certified act of terrorism occurs, insurers may be eligible to receive reimbursement from the
U.S. Government for insured losses above a designated deductible amount. Insured losses above this amount will
be shared between insurance companies and the U.S. Government. The Act also gives the Treasury Department
authority to recoup federal payments made under the Program through policyholder surcharges under certain
circumstances and contains provisions designed to manage litigation arising from or relating to a certified act of
terrorism.

The original TRIA program was to expire on December 31, 2005, but the Program was extended through
December 31, 2007 by the Terrorism Risk Insurance Extension Act of 2005 (Extension Act). This law included the
following significant changes: it reduced the federal role in terrorism risk insurance markets by increasing insurer
deductibles and excluding certain types of previously covered insurance. The Extension Act also reduced the U.S.
Government’s share of insured losses and added a “Program Trigger” provision which precludes federal payments
unless insured losses from a certified act of terrorism exceed $100 million.

On December 26, 2007, the Terrorism Risk Insurance Program Reauthorization Act of 2007 (Reauthorization Act)
was enacted extending the Program through December 31, 2014. The Reauthorization Act, among other Program
changes, revised the definition of “Act of Terrorism” to remove the certification requirement that the act be com-
mitted by an individual acting on behalf of a foreign person or foreign interest; revised the provisions of the Act
with regard to the cap on annual liability for insured losses of $100 billion; and established deadlines by which
recoupment of federal payments made under the Program would have to be accomplished.




                                                               NOte 31. Commitments and Contingencies                    201
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     In 2008, the Treasury Department published interim guidance and an interim final rule conforming regulations
                                                                                                                     to statutory changes in the Reauthorization Act pertaining to the mandatory insurance availability and insurer
                                                                                                                     disclosure requirements of the Program as well as the addition of coverage for domestic acts of terrorism. On April
                                                                                                                     21, 2009, Treasury Department published the interim final rule as final.

                                                                                                                     In September 2008, the Treasury Department issued two notices of proposed rulemaking with requests for com-
                                                                                                                     ment. One proposed rule incorporates and clarifies statutory requirements of the Reauthorization Act for capping
                                                                                                                     the annual liability for insured losses at $100 billion. The proposed rule describes how the Treasury Department
                                                                                                                     will determine the pro rata share of insured losses to be paid by each insurer that incurs losses under the Program
                                                                                                                     when insured losses would otherwise exceed the cap and how the Federal share of compensation will be calculat-
                                                                                                                     ed. The Treasury Department expects to issue a final rule incorporating public comments early in fiscal year 2010.

                                                                                                                     The other proposed rule sets forth the requirements for recoupment of the Federal share of compensation for
                                                                                                                     insured losses. The rule describes how the Treasury Department will determine the amounts to be recouped and
                                                                                                                     the requirements for insurers to collect, report, and remit surcharges to the Treasury Department. The Treasury
                                                                                                                     Department expects to issue a final rule incorporating public comments early in fiscal year 2010. There were no
                                                                                                                     claims under TRIA as of September 30, 2008 and September 30, 2009.

                                                                                                                     Exchange Stabilization Agreement (ESA)
                                                                                                                     In April 1994, Treasury signed the North American Framework Agreement (NAFA), which includes the ESA
                                                                                                                     with Mexico. The Treasury Department has a standing swap line for $3 billion with Mexico under the NAFA and
                                                                                                                     its implementing ESA. The amounts and terms (including the assured source of repayment) of any borrowing
                                                                                                                     under NAFA and ESA will have to be negotiated and agreed to before any actual drawing can occur. The ESA
                                                                                                                     does provide sample clauses that state that transactions shall be exchange rate neutral for the ESF and shall bear
                                                                                                                     interest based on a then current rate tied to U.S. Treasury bills. There were no drawings outstanding on the ESF
                                                                                                                     swap line as of September 30, 2009 and 2008. On December 10, 2008, the Treasury renewed its participation in
                                                                                                                     the agreement until December 2010.

                                                                                                                     Contingent Liability to Government Sponsored Enterprises
                                                                                                                     The Treasury Department has recorded a contingent liability at September 30, 2009 (zero at September 30, 2008)
                                                                                                                     of $76.9 billion to the Government Sponsored Enterprises, Fannie Mae and Freddie Mac, based on probable
                                                                                                                     future liability under the Senior Preferred Stock Purchase Agreement between the Treasury Department and the
                                                                                                                     GSEs. Refer to Note 9 for a full description of the agreements and related contingent liability.




202                                                                                                                    NOte 31. Commitments and Contingencies
                                                                                                                    PART 2 • ANNUAL FINANCIAL REPORT
32. IMPUTED FINANCING COSTS
In accordance with SFFAS No. 30, Inter-Entity Cost Implementation Amending SFFAS 4, Managerial Cost
Accounting Standards and Concepts, the material Imputed Inter-departmental financing sources currently recog-
nized by the Department include the actual cost of future benefits for the federal pension plans that are paid by
other federal entities, the Federal Employees Health Benefits Program (FEHB), and any un-reimbursed payments
made from the Treasury Judgment Fund on behalf of the Department.

SFFAS No. 5, Accounting for Liabilities for the Federal Government, requires that employing agencies recognize
the cost of pensions and other retirement benefits during their employees’ active years of service. SFFAS No. 5
requires OPM to provide cost factors necessary to calculate cost. OPM actuaries calculate the value of pension
benefits expected to be paid in the future, and then determines the total funds to be contributed by and for
covered employees, such that the amount calculated would be sufficient to fund the projected pension benefits.
For employees covered by Civil Service Retirement System (CSRS), the cost factors are 25.8% of basic pay
for regular, 43.5% law enforcement officers, 20% regular offset, and 38% law enforcement officers offset. For
employees covered by Federal Employees Retirement System (FERS), the cost factors are 12.3% of basic pay for
regular and 26.7% for law enforcement officers. The information for the fiscal years ended September 30, 2009
and September 30, 2008 was as follows (in millions):

                                                             2009             2008
U.S. Treasury Judgment Fund                            $      0.8       $       6.5
Pension                                                     264.0             254.1
Health Insurance                                            501.1             449.8




                                                                       Note 32. Imputed Financing Costs             203
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     33. SUBSEQUENT EVENTS

                                                                                                                     Housing Finance Agency Initiative
                                                                                                                     Under the Housing and Economic Recovery Act of 2008 (HERA), the Treasury Department, together with the
                                                                                                                     Federal Housing Finance Agency, Fannie Mae, Freddie Mac, and the Department of Housing and Urban
                                                                                                                     Development announced in October 2009 an initiative to provide support to state and local housing finance
                                                                                                                     agencies (HFAs). HFAs have historically played a central role in providing a safe, sustainable path to homeown-
                                                                                                                     ership for working families in all 50 states and many localities across the country. This initiative will continue
                                                                                                                     to support low mortgage rates and expand resources for low and middle income borrowers to purchase or rent
                                                                                                                     homes, making them more affordable over the long term. The HFA Initiative includes two separate programs: (1)
                                                                                                                     the Temporary Credit and Liquidity Program (TCLP) and (2) the New Issue Bond Program (NIBP).

                                                                                                                     The Treasury Department has received preliminary apportionments in the amounts of $9 billion for the TCLP
                                                                                                                     and $19 billion for the NIBP. On December 4, 2009, Treasury entered into a participation interest under the
                                                                                                                     TCLP with the Pennsylvania Housing Finance Agency. As of this date, however, no bonds have been provided to
                                                                                                                     Fannie Mae or Freddie Mac requiring the Treasury Department to disburse funds. On December 9, 2009, under
                                                                                                                     the NIBP, the Treasury Department entered into an obligation of approximately $7 billion to purchase securities
                                                                                                                     of Fannie Mae and Freddie Mac which are backed by HFA revenue bonds and/or escrow funds.

                                                                                                                     Troubled Asset Relief Program
                                                                                                                     On December 9, 2009, the Secretary of the Treasury, pursuant to Section 120(b) of EESA, certified that he was
                                                                                                                     extending the spending authority provided under the Act to October 3, 2010. The spending authority was origi-
                                                                                                                     nally set to expire on December 31, 2009. This extension was necessary to assist American families and stabilize
                                                                                                                     financial markets because it will, among other things, enable the Treasury Department to continue to implement
                                                                                                                     programs that address housing markets and the needs of small businesses, and to maintain the capacity to respond
                                                                                                                     to unforeseen threats to the economy stemming from financial instability.

                                                                                                                     On December 9, 2009, Bank of America repaid all amounts received under the CPP and TIP totaling $45 billion
                                                                                                                     plus dividends accrued since November 15, 2009, thereby terminating its participation in TARP. The Treasury
                                                                                                                     Department still holds the warrants issued under these programs, but has no other investment in Bank of America.

                                                                                                                     On November 1, 2009, a CPP participant, CIT Group, filed for Chapter 11 Bankruptcy. The Treasury
                                                                                                                     Department had invested $2.3 billion in senior preferred shares of CIT Group and received a warrant for the
                                                                                                                     purchase of common shares. Treasury does not expect a significant recovery of its preferred stock investment. As
                                                                                                                     such, this investment has been reduced to zero. The ultimate amount received, if any, from this investment will
                                                                                                                     depend on the outcome of the bankruptcy proceedings.

                                                                                                                     On November 6, 2009, a CPP participant, United Commerce Bank, was closed by its regulators. The Treasury
                                                                                                                     Department had invested approximately $298.7 million in senior preferred stock and received a warrant for the
                                                                                                                     purchase of the common stock. The value of these shares, including the warrant, reflected in these financial state-
                                                                                                                     ments is approximately $22.5 million as of September 30, 2009. The ultimate amount received, if any, from this
                                                                                                                     investment will depend on the outcome of the receivership.

                                                                                                                     In November 2009, a CPP participant, Pacific Coast National Bank, was closed by its regulators. The Treasury
                                                                                                                     Department had invested approximately $4.1 million in senior preferred stock and received a warrant for pre-




204                                                                                                                    Note 33. Subsequent Events
                                                                                                                        PART 2 • ANNUAL FINANCIAL REPORT
ferred stock in the amount of $0.2 million. The value of these shares, including the warrant, reflected in these
financial statements is approximately $0.15 million as of September 30, 2009. The ultimate amount received, if
any, from this investment will depend on the outcome of the receivership.

On December 11, 2009, the Treasury Department announced that it priced a secondary public offering of
88,401,697 warrants to purchase common stock of JPMorgan Chase & Co. at $10.75 per warrant. The net
proceeds to the Treasury Department are expected to be approximately $936 million. These proceeds are in ad-
dition to the dividend payments received on the related preferred stock. Closing is expected to occur on or about
December 16, 2009.

Legal Contingency
Cobell, et al. v. Salazar
On December 8, 2009, a settlement was announced related to the claims raised in this lawsuit, as well as other
claims for the mismanagement of assets and land. The settlement is contingent on the passage of new legislation
to authorize the settlement terms and court approval, which would not occur until March 2010 at the earliest.
If Congress enacts authorizing legislation, the Government will pay $12 million immediately to fund notice to
the class. If the court approves the settlement after notice to the class, the government will pay an additional $1.4
billion from the Judgment Fund to settle the claims for an historical accounting and for mismanagement of assets
and land. The Government will also make available an additional sum of $2 billion from the Judgment Fund to
purchase numerous small interests in land from Native Americans, as well as for other purposes. It has not been
determined which federal agency will be assigned responsibility for the payment through the Judgment Fund.




                                                                                 Note 33. Subsequent Events             205
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     REQUIRED SUPPLEMENTAL INFORMATION (UNAUDITED)

                                                                                                                     INTRODUCTION
                                                                                                                     This section provides the Required Supplemental Information as prescribed by Office of Management and Budget
                                                                                                                     (OMB) Circular No. A-136, Financial Reporting Requirements.

                                                                                                                     Other Claims for Refunds
                                                                                                                     The Treasury Department has estimated that $11.0 billion may be payable as other claims for tax refunds. This
                                                                                                                     estimate represents amounts (principal and interest) that may be paid for claims pending judicial review by the
                                                                                                                     federal courts or internally. The total estimated payout (including principal and interest) for claims pending
                                                                                                                     judicial review by the federal courts is $4.7 billion and by appeals is $6.3 billion.

                                                                                                                     Federal Taxes Receivable, Net
                                                                                                                     In accordance with SFFAS No. 7, Accounting for Revenue and Other Financing Sources and Concepts for Reconciling
                                                                                                                     Budgetary and Financial Accounting, some unpaid tax assessments do not meet the criteria for financial statement
                                                                                                                     recognition as discussed in Note 1 to the financial statements. Although compliance assessments and write-offs
                                                                                                                     are not considered receivables under federal accounting standards, they represent legally enforceable claims of
                                                                                                                     the U.S. Government. There is, however, a significant difference in the collection potential between compliance
                                                                                                                     assessments and receivables.

                                                                                                                     The components of the total unpaid assessments at September 30, 2009, were as follows (in billions):

                                                                                                                     Total Unpaid Assessments                                    $ 308
                                                                                                                     Less: Compliance Assessments                                     (75)
                                                                                                                         Write Offs                                                  (105)
                                                                                                                     Gross Federal Taxes Receivable                              $ 128
                                                                                                                     Less: Allowance for Doubtful Accounts                            (99)
                                                                                                                     Federal Taxes Receivables, Net                              $     29



                                                                                                                     To eliminate double counting, the compliance assessments reported above exclude trust fund recovery penalties,
                                                                                                                     totaling $3 billion, assessed against officers and directors of businesses who were involved in the non-remittance
                                                                                                                     of federal taxes withheld from their employees. The related unpaid assessments of those businesses are reported as
                                                                                                                     taxes receivable or write-offs, but the Treasury Department may also recover portions of those businesses’ unpaid
                                                                                                                     assessments from any and all individual officers and directors against whom a trust fund recovery penalty is
                                                                                                                     assessed.

                                                                                                                     Internal Revenue Service (IRS)
                                                                                                                     The unpaid assessments balance represents assessments resulting from taxpayers filing returns without sufficient
                                                                                                                     payment, as well as from the IRS’s enforcement programs such as examination, under-reporter, substitute for
                                                                                                                     return, and combined annual wage reporting. A significant portion of this balance is not considered a receivable.
                                                                                                                     Also, a substantial portion of the amounts considered receivables is largely uncollectible.




206                                                                                                                    Required Supplemental Information (Unaudited)
                                                                                                                        PART 2 • ANNUAL FINANCIAL REPORT
Under federal accounting standards, unpaid assessments require taxpayer or court agreement to be considered
federal taxes receivable. Assessments not agreed to by taxpayers or the courts are considered compliance assess-
ments and are not considered federal taxes receivable. Due to the lack of agreement, these compliance assessments
are less likely to have future collection potential than those unpaid assessments that are considered federal taxes
receivable.

Assessments with little or no future collection potential are called write-offs. Write-offs principally consist of
amounts owed by deceased, bankrupt, or defunct taxpayers, including many failed financial institutions liquidat-
ed by the Federal Deposit Insurance Corporation (FDIC) and the former Resolution Trust Corporation (RTC).
As noted above, write-offs have little or no future collection potential, but statutory provisions require that these
assessments be maintained until the statute for collection expires.

Alcohol and Tobacco Tax and Trade Bureau (TTB)
As an agent of the Federal Government and as authorized by 26 U.S.C., the TTB collects excise taxes from
alcohol, tobacco, firearms, and ammunition industries. In addition, special occupational taxes are collected from
certain alcohol and tobacco businesses. During fiscal year 2009, TTB collected nearly $20.6 billion in taxes,
interest, and other revenues.

Substantially all of the taxes collected by TTB net of related refund disbursements are remitted to the General
Fund of the U.S. Government. The Department of Treasury further distributes this revenue to Federal agencies in
accordance with various laws and regulations. The firearms and ammunition excise taxes are an exception. Those
revenues are remitted to the Fish and Wildlife Restoration Fund under provisions of the Pittman-Robertson Act of
1937.

Deferred Maintenance
In fiscal year 2009, the Treasury Department had no material amounts of deferred maintenance costs to report on
vehicles, buildings, and structures owned by the Treasury Department.

Deferred maintenance applies to owned PP&E. Deferred maintenance is maintenance that was not performed
when it should have been, or was scheduled to be, and is put off or delayed for a future period. Maintenance
is defined as the act of keeping capitalized assets in an “acceptable condition” to serve their required mission. It
includes preventive maintenance, normal repairs, replacement of parts and structural components, and other
activities needed to preserve the asset so that it continues to provide acceptable services and achieves its expected
useful life. Maintenance excludes activities aimed at expanding the capacity or significantly upgrading the assets
to a different form than it was originally intended (i.e., activities related to capitalized improvements, moderniza-
tion, and/or restoration).

Logistic personnel use condition assessment surveys and/or the total life-cycle cost methods to determine deferred
maintenance and acceptable operating condition of an asset. Periodic condition assessments, physical inspec-
tions, and review of manufacturing and engineering specifications, work orders, and building and other structure
logistics reports can be used under these methodologies.




                                                      Required Supplemental Information (Unaudited)                     207
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Fiscal Year 2009 Statement of Budgetary Resources
                                                                                                                     Disaggregated by Sub-organization Accounts (in millions):
                                                                                                                                                                                                                             Fin. Crimes       Financial           Internal
                                                                                                                                                                           Engraving and    Bureau of the   Departmental    Enforcement     Management            Revenue
                                                                                                                     Budgetary Resources                                         Printing    Public Debt          Offices       Network          Service           Service
                                                                                                                     Unobligated balance brought forward                       $      96      $      175      $ 282,340        $     18      $        240     $       682
                                                                                                                     Recoveries prior year unpaid obligations                          0              81          7,841               2                14              95
                                                                                                                     Budget Authority:
                                                                                                                         Appropriations                                                0          463,484       450,242              92           26,417           11,851
                                                                                                                         Borrowing authority                                           0                0       548,735               0                0                0
                                                                                                                              Spending authority offsetting collections:
                                                                                                                         Earned: Collected                                           502             208        279,849              15               228             149
                                                                                                                              Change in receivable federal                           (18)            (14)             1               0                 5             (19)
                                                                                                                     Change in unfilled customer order:
                                                                                                                              Advance received                                         1               0            (16)              0             0                0
                                                                                                                              Without advance from federal sources                     0           (152)         28,939               1            (1)               5
                                                                                                                              Subtotal                                               485        463,526       1,307,750             108        26,649           11,986
                                                                                                                     Non-expenditure transfers, net                                    0              (3)          (149)              0           (21)             130
                                                                                                                     Temporarily not available                                         0              (5)              7              0              0               0
                                                                                                                     Permanently not available                                         0        (80,108)       (184,490)              0        (6,991)            (112)
                                                                                                                     Total Budgetary Resources                                 $     581      $ 383,666      $1,413,299        $    128      $ 19,891         $ 12,781
                                                                                                                     Status of Budgetary Resources
                                                                                                                     Obligations incurred
                                                                                                                         Direct                                                $       0      $ 383,379       $ 967,769        $     96      $ 19,390         $ 11,791
                                                                                                                         Reimbursable                                                535            195             355               7           228              114
                                                                                                                         Subtotal                                                    535        383,574         968,124             103        19,618           11,905
                                                                                                                     Unobligated Balance
                                                                                                                         Apportioned                                                  46             64         368,489              20           254              380
                                                                                                                         Exempt from apportionment                                     0             15          43,370               0             9                0
                                                                                                                         Subtotal                                                     46             79         411,859              20           263              380
                                                                                                                     Unobligated balance not available                                 0             13          33,316               5            10              496
                                                                                                                     Total Status of Budgetary Resources                       $     581      $ 383,666      $1,413,299        $    128      $ 19,891         $ 12,781
                                                                                                                     Relationship Obligations to Outlays
                                                                                                                     Obligated balance, net (Note 1)
                                                                                                                         Unpaid obligations brought forward                    $     103      $      159      $ 54,795         $     13      $        329     $     1,436
                                                                                                                         Uncollected customer payments Federal sources
                                                                                                                         brought forward                                            (47)           (189)             (16)            (3)             (33)             (47)
                                                                                                                     Total unpaid obligated balance, net                              56             (30)         54,779             10              296            1,389
                                                                                                                     Obligations incurred, net                                      535         383,574         968,123             103           19,618           11,905
                                                                                                                     Gross Outlays                                                 (523)       (383,578)       (830,165)           (100)         (19,594)         (11,625)
                                                                                                                     Recoveries prior year unpaid obligations                          0             (81)         (7,841)             (2)             (14)             (95)
                                                                                                                     Change uncollected customer payments                             18             166         (28,940)             (1)               (4)              14
                                                                                                                     Obligated balance net, end of period
                                                                                                                         Unpaid obligations                                          115              75        184,910               15              339           1,621
                                                                                                                         Uncollected customer payments federal                       (29)            (24)       (28,954)              (5)             (37)            (33)
                                                                                                                     Total unpaid obligated balance, net                               86              51       155,956               10              302           1,588
                                                                                                                     Net Outlays
                                                                                                                         Gross outlays                                            523           383,578         830,165             100        19,594           11,625
                                                                                                                         Offsetting collections                                  (503)             (208)       (277,552)            (15)         (228)            (149)
                                                                                                                         Distributed offsetting receipts                             0          (31,250)         (12,154)              0         (451)            (759)
                                                                                                                     Net Outlays                                               $    20        $ 352,120       $ 540,459        $     85      $ 18,915         $ 10,717




208                                                                                                                   Required Supplemental Information (Unaudited)
                                                                                                                                                            PART 2 • ANNUAL FINANCIAL REPORT
Fiscal Year 2009 Statement of Budgetary Resources
Disaggregated by Sub-organization Accounts (in millions):
                                                                                                             Alcohol                          9/30/2009
                                                                     Comptroller of   Office of Thrift      Tobacco         Budgetary    Non-Budgetary
Budgetary Resources                                     U.S. Mint     the Currency      Supervision      Tax & Trade            Total        Financing
Unobligated balance brought forward                 $         51         $     734         $     292        $      2    $ 260,173          $     24,457
Recoveries prior year unpaid obligations                      55                 0                 4               4        8,097                    (1)
Budget Authority:
    Appropriations                                             0                 0                  0            99          952,185                  0
    Borrowing authority                                        0                 0                  0             0              493            548,242
    Spending authority offsetting collections:
    Earned: Collected                                      2,467               775               253               3          11,681            272,768
         Change in receivable federal                          0                 0                 0               1             (44)                 0
    Change in unfilled customer order:
         Advance received                                    (10)              0                  (6)           0               (31)               0
         Without advance from federal sources                  0               0                    0           0              (134)          28,926
    Subtotal                                               2,457             775                 247          103           964,150          849,936
Non-expenditure transfers, net                                 0               0                    0           0                (43)              0
Temporarily not available                                       0              0                    0            0                  2               0
Permanently not available                                    (35)              0                    0          (1)          (92,001)        (179,736)
Total Budgetary Resources                           $      2,528         $ 1,509           $     543        $ 108       $ 1,140,378        $ 694,656
Status of Budgetary Resources
Obligations incurred
    Direct                                          $          0         $       0         $       0        $ 101       $ 729,697          $ 652,829
    Reimbursable                                           2,282               716               233            4           4,669                  0
    Subtotal                                               2,282               716               233          105         734,366            652.829
Unobligated Balance
    Apportioned                                              246               0                   0            2           349,889           19,612
    Exempt from apportionment                                  0             793                 310            0            44,497                0
    Subtotal                                                 246             793                 310            2           394,386           19,612
Unobligated balance not available                              0               0                   0            1            11,626           22,215
Total Status of Budgetary Resources                 $      2,528         $ 1,509           $     543        $ 108       $ 1,140,378        $ 694,656
Relationship Obligations to Outlays
Obligated balance, net (Note 1)
    Unpaid obligations brought forward              $        260         $     166         $      44        $    19     $     57,314       $          10
    Uncollected customer payments Federal sources
    brought forward                                           (7)               (4)                0               1             (346)                (1)
Total unpaid obligated balance, net                         253                162                44             18            56,968                   9
Obligations incurred, net                                 2,282                716               233            105           734,366            652,829
Gross Outlays                                            (2,296)             (704)             (232)            (99)        (675,286)          (573,630)
Recoveries prior year unpaid obligations                     (55)                 0               (4)             (4)          (8,097)                  1
Change uncollected customer payments                            0                 0                 0             (1)              178           (28,926)
Obligated balance net, end of period
    Unpaid obligations                                       191               178                41             21          108,297              79,209
    Uncollected customer payments federal                     (7)               (4)                0             (2)            (168)           (28,926)
Total unpaid obligated balance, net                          184               174                41             19          108,129             50,283
Net Outlays
    Gross outlays                                      2,296                 704               232               99       675,286              573,630
    Offsetting collections                            (2,457)              (775)             (247)               (3)       (9,369)           (272,768)
    Distributed offsetting receipts                        0                   0                 0                 0      (40,114)              (4,500)
Net Outlays                                         $ (161)              $ (71)            $ (15)           $    96     $ 625,803          $ 296,362




                                                                    Required Supplemental Information (Unaudited)                                           209
                                                                                     D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




210
Required Supplemental Information (Unaudited)
                                                This page left intentionally blank
Part 3
Other Accompanying Information




Appendix A — Other Accompanying Information (Unaudited)
Appendix B — Improper Payments Information Act and Recovery Auditing Act
Appendix C — Management and Performance Challenges and Responses
Appendix D — Material Weaknesses, Audit Follow-up, Financial Systems, and Recovery Act Risk Management
Appendix E — Glossary of Acronyms
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                                                                                             PART 3 • OTHER ACCOMPANYING INFORMATION
Appendix A:
Other Accompanying Information (Unaudited)
        This section provides Other Accompanying Information as prescribed by OMB Circular No. A-136,
        Financial Reporting Requirements.


 PROMPT PAYMENT
                                                                                           Percentage of Number of Invoices Paid Late

 The Prompt Payment Act requires Federal agencies to
                                                                                                       10.00%
 make timely payments to vendors for supplies and                                                               8.08%
 services, to pay interest penalties when payments are                                                 8.00%

 made after the due date, and to take cash discounts                                                   6.00%
                                                                                             Percent
 only when they are economically justified. Treasury                                                   4.00%
 bureaus report Prompt Payment data on a monthly
                                                                                                       2.00%             1.39%    1.05%
 basis to the Department, and periodic quality control                                                                                     0.84%
                                                                                                                                                    0.52%
 reviews are conducted by the bureaus to identify                                                      0.00%
                                                                                                                FY05     FY06      FY07     FY08     FY09
 potential problems.

  Total Dollar Amount of Invoices Paid (in millions)                                       Percentage of Dollar Amount of Interest Penalties Paid


                                     $6,000                                                            0.010%
    Dollar Amount of Invoices Paid




                                                                                                                0.009%
                                     $5,000                              $4,704   $4,773
                                                                $4,384                                 0.008%
                                                       $4,227
                                     $4,000
             (in millions)




                                              $3,499                                                   0.006%
                                                                                             Percent




                                     $3,000
                                                                                                       0.004%
                                     $2,000
                                                                                                                         0.002%
                                                                                                       0.002%
                                     $1,000                                                                                       0.001%   0.001%   0.001%

                                        $0                                                             0.000%
                                              FY05     FY06      FY07    FY08      FY09                         FY05     FY06      FY07     FY08     FY09




  Total Number of Invoices Paid (in thousands)                                             Percentage of Number of Interest Penalties Paid


                                       400                                                             4.00%
                                                                                   338
    Number of Invoices Paid




                                       300                                                             3.00%    2.88%
        (in thousands)




                                                                                             Percent




                                                                          191                          2.00%
                                       200                       166
                                               148      160

                                       100                                                             1.00%
                                                                                                                         0.38%    0.42%    0.28%    0.17%
                                         0                                                             0.00%
                                              FY05     FY06      FY07    FY08      FY09                         FY05     FY06      FY07     FY08     FY09



                                                                                           TAX GAP


                                                                           APPENDIX A — OTHER ACCOMPANYING INFORMATION (UNAUDITED)                           213
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     TAX GAP                                                     reported on timely filed returns (the underpayment
                                                                                                                                                                                 gap). Of these three components, only the underpay-
                                                                                                                     Reducing the tax gap is at the heart of IRS’ enforce-       ment gap is observed; the non-filing gap and the
                                                                                                                     ment programs. The tax gap is the difference between        underreporting gap must be estimated. Each instance
                                                                                                                     what taxpayers should pay and what they actually pay        of noncompliance by a taxpayer contributes to the tax
                                                                                                                     due to not filing tax returns, not paying their reported    gap, whether or not the IRS detects it, and whether or
                                                                                                                     tax liability on time, or failing to report their correct   not the taxpayer is even aware of the noncompliance.
                                                                                                                     tax liability. The tax gap, about $345 billion based        Obviously, some of the tax gap arises from intentional
                                                                                                                     on updated fiscal year 2001 estimates, represents           (willful) noncompliance, and some of it arises from
                                                                                                                     the amount of noncompliance with the tax laws.              unintentional mistakes.
                                                                                                                     Underreporting tax liability accounts for 82 percent        The collection gap is the cumulative amount of tax,
                                                                                                                     of the gap, with the remainder almost evenly divided        penalties, and interest that has been assessed over many
                                                                                                                     between non-filing (8 percent) and underpaying (10          years, but has not been paid by a certain point in time,
                                                                                                                     percent). The IRS remains committed to finding ways         and which the IRS expects to remain uncollectible.
                                                                                                                     to increase compliance and reduce the tax gap, while        In essence, it represents the difference between the
                                                                                                                     minimizing the burden on the vast majority of taxpay-       total balance of unpaid assessments and the net taxes
                                                                                                                     ers who pay their taxes accurately and on time.             receivable reported on the IRS’ balance sheet. The tax
                                                                                                                     The tax gap is the aggregate amount of tax (i.e., exclud-   gap and the collection gap are related and overlapping
                                                                                                                     ing interest and penalties) that is imposed by the tax      concepts, but they have significant differences. The
                                                                                                                     laws for any given tax year but is not paid voluntarily     collection gap is a cumulative balance sheet concept for
                                                                                                                     and timely. The tax gap arises from the three types of      a particular point in time, while the tax gap is like an
                                                                                                                     noncompliance: not filing required tax returns on time      income statement item for a single year. Moreover, the
                                                                                                                     or at all (the non-filing gap), underreporting the cor-     tax gap estimates include all noncompliance, while the
                                                                                                                     rect amount of tax on timely filed returns (the underre-    collection gap includes only amounts that have been
                                                                                                                     porting gap), and not paying on time the full amount        assessed (a small portion of all noncompliance).




214                                                                                                                    APPENDIX A — OTHER ACCOMPANYING INFORMATION (UNAUDITED)
                                                                                                                                                                                                                                         PART 3 • OTHER ACCOMPANYING INFORMATION
TAX BURDEN                                                                                                                             information illustrates, in percentage terms, the tax
                                                                                                                                       burden borne by varying AGI levels. For corporations,
The Internal Revenue Code provides for progressive                                                                                     the information illustrates, in percentage terms, the tax
rates of tax, whereby higher incomes are generally sub-                                                                                burden borne by these entities by various sizes of their
ject to higher rates of tax. The graphs below present the                                                                              total assets. The graphs are only representative of more
latest available information on income tax and adjusted                                                                                detailed data and analysis available from the Statistics
gross income (AGI) for individuals by AGI level and                                                                                    of Income (SOI) office.
for corporations by size of assets. For individuals, the


 Average Individual Income Tax Liability and Average Adjusted
                                                                                                                                        Individual Income Tax Liability as a Percentage of AGI Tax Year 2007
 Gross Income (AGI) Tax Year 2007
                            $800
                                                                                                                771,924




                            $700                                                                                                                     30%
   Dollars (in thousands)




                            $600
                                                                                                                                                                                                                     23%
                            $500
                                                                                                                                                     20%
                            $400
                                                                                                                                           Percent                                                          17%
                                                                                             222,027



                                                                                                                          176,162




                            $300                                                                                                                                                                   13%
                                                                                   133,240
                                                                     70,889




                            $200                                                                                                                     10%                                   9%
                                                                                                       37,838
                                                         39,082




                                                                              17,040
                                              22,162




                                                                                                                                                                                6%
                                   4,947




                                                       2,363


                                                                  6,119




                            $100
                                             735




                                                                                                                                                                      3%
                                   80




                              $0                                                                                                                             2%
                                    Under    $15,000   $30,000     $50,000 $100,000 $200,000 $250,000
                                   $15,000    under     under       under   under    under   or more                                                   0    Under    $15,000   $30,000    $50,000 $100,000 $200,000 $250,000
                                             $30,000   $50,000    $100,000 $200,000 $250,000
                                                                                                                                                           $15,000    under     under      under   under    under   or more
                                                                                                                                                                     $30,000   $50,000   $100,000 $200,000 $250,000
                                             Average AGI              Average Income Tax




 INDIVIDUAL INCOME TAX LIABILITY
 TAX YEAR 2007
                                                                   Number of                                                                Total               Average AGI              Average income tax             Income tax as
 Adjusted Gross Income                                       taxable returns                                             AGI         income tax                   per return                      per return             a percentage
 (AGI)                                                        (in thousands)                                    (in millions)       (in millions)          (in whole dollars)              (in whole dollars)                   of AGI
Under $15,000                                                                 37,597                                $186,000             $3,022                         $4,947                               $80                 1.6%
$15,000 under $30,000                                                         30,229                                      669,932        22,211                         22,162                               735                 3.3%
$30,000 under $50,000                                                         25,978                              1,015,283              61,396                         39,082                            2,363                  6.0%
$50,000 under $100,000                                                        31,260                              2,216,021             191,293                         70,890                            6,119                  8.6%
$100,000 under $200,000                                                       13,463                              1,793,835             229,415                        133,242                           17,040                12.8%
$200,000 under $250,000                                                        1,501                                      333,309        56,802                        222,058                           37,843                17.0%
$250,000 or more                                                               3,002                              2,317,016             528,770                        771,824                         176,139                 22.8%
Total                                                                    143,030                                  8,531,396           1,092,909




                                                                                                         APPENDIX A — OTHER ACCOMPANYING INFORMATION (UNAUDITED)                                                                         215
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Corporation Tax Liability as a Percentage of Taxable Income Tax Year 2006 Data


                                                                                                                                       40.0%
                                                                                                                                                                                   32.8%        33.1%       32.9%     32.8%      32.0%      31.7%
                                                                                                                                               30.9%                                                                                                    29.9%
                                                                                                                                                                          29.4%
                                                                                                                                                                                                                                                                     26.2%
                                                                                                                                                                24.1%
                                                                                                                             Percent




                                                                                                                                       20.0%            18.8%




                                                                                                                                       0.0%     Zero      $1     $500     $1,000   $5,000        $10,000    $25,000    $50,000   $100,000   $250,000    $500,000    $2,500,000
                                                                                                                                               Assets   under   under     under     under         under      under      under     under      under       under       or more
                                                                                                                                                         $500   $1,000    $5,000   $10,000       $25,000    $50,000   $100,000   $250,000   $500,000   $2,500,000




                                                                                                                     CORPORATION TAX LIABILITY
                                                                                                                     TAX YEAR 2006
                                                                                                                     Total Assets (in thousands)                         Income subject to tax             Total income tax after credits        Percentage of income tax after
                                                                                                                                                                                  (in millions)                              (in millions)            credits to taxable income
                                                                                                                     Zero Assets                                                         $17,500                                      $5,399                                     30.9%
                                                                                                                     $1 under $500                                                            9,519                                    1,787                                     18.8%
                                                                                                                     $500 under $1,000                                                        4,659                                    1,123                                     24.1%
                                                                                                                     $1,000 under $5,000                                                     16,790                                    4,933                                     29.4%
                                                                                                                     $5,000 under $10,000                                                    10,019                                    3,286                                     32.8%
                                                                                                                     $10,000 under $25,000                                                   16,070                                    5,321                                     33.1%
                                                                                                                     $25,000 under $50,000                                                   14,181                                    4,661                                     32.9%
                                                                                                                     $50,000 under $100,000                                                  16,626                                    5,457                                     32.8%
                                                                                                                     $100,000 under $250,000                                                 32,623                                   10,431                                     32.0%
                                                                                                                     $250,000 under $500,000                                                 36,396                                   11,531                                     31.7%
                                                                                                                     $500,000 under $2,500,000                                           181,767                                      54,367                                     29.9%
                                                                                                                     $2,500,000 or more                                                  935,281                                    244,788                                      26.2%
                                                                                                                     Total                                                          $1,291,431                                    $353,084                                       27.3%




216                                                                                                                   APPENDIX A — OTHER ACCOMPANYING INFORMATION (UNAUDITED)
                                                                                                                       PART 3 • OTHER ACCOMPANYING INFORMATION
Appendix B:
Improper Payments Information Act
and Recovery Auditing Act
 The Improper Payments Information Act of 2002 (IPIA) requires agencies to review their programs and activities
 annually to identify those susceptible to significant improper payments. According to the Office of Management
 and Budget (OMB) Circular A-123, Management’s Responsibility for Internal Control, Appendix C, Requirements
 for Effective Measurement and Remediation of Improper Payments (A-123, Appendix C), “significant” means
 that an estimated error rate and a dollar amount exceed the threshold of 2.5 percent and $10 million of total
 program funding. A-123, Appendix C also requires the agency to implement a corrective action plan that includes
 improper payment reduction targets.

 The government-wide Chief Financial Officers Council developed an alternative for meeting IPIA requirements
 for federal programs that are so complex that developing an annual error rate is not feasible. Agencies may estab-
 lish an annual estimate for a high-risk component of a complex program (e.g., a specific program population)
 with OMB approval. Agencies must also perform trend analyses to update the program’s baseline error rate in the
 interim years between detailed program studies. When development of a statistically valid error rate is possible,
 the reduction targets are revised and become the basis for future trend analyses.

 I. 	 DESCRIPTION OF THE DEPARTMENT’S RISK ASSESSMENT(S) PERFORMED SUBSEQUENT TO
      COMPILING ITS FULL PROGRAM INVENTORY AND RISK-SUSCEPTIBLE PROGRAMS.
 Each year, the Department develops a comprehensive inventory of the funding sources for all programs and
 activities and distributes it to the Treasury bureaus and offices. If program or activity funding is at least $10
 million, Risk Assessments are required at the payment type level (e.g., payroll, contracts, vendors, travel, etc.).
 For those payment types resulting in high risk assessments that comprise at least 2.5 percent and $10 million of a
 total funding source, (1) statistical sampling must be performed to determine the actual improper payment rate,
 and (2) a corrective action plan must be developed and submitted to the Department and OMB for approval.

 Responses to the Risk Assessments produce a score that falls into pre-determined categories of risk. The following
 table describes the actions required to be taken at each risk level:

  RISK LEVEL                                               REQUIRED ACTION(S)
  High Risk > 2.5% Error Rate & > $10 Million              Corrective Action Plan
  Medium Risk                                              Review Payment Controls for Improvement
  Low Risk                                                 No Further Action Required




 The Risk Assessments performed across the Department in fiscal year 2009 resulted in all programs and activities
 as low and medium risk susceptibility for improper payments except for the Internal Revenue Service’s (IRS)




                           APPENDIX B — IMPROPER PAYMENTS INFORMATION ACT AND RECOVERY AUDITING ACT                    217
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Earned Income Tax Credit (EITC) program. The EITC’s high-risk status is well-documented, having been previ-
                                                                                                                     ously identified in the former Section 57 of OMB Circular A-11, Preparation, Submission, and Execution of the
                                                                                                                     Budget, and has been deemed a complex program for the purposes of the IPIA.

                                                                                                                     II.	 DESCRIBE THE STATISTICAL SAMPLING PROCESS CONDUCTED TO ESTIMATE THE
                                                                                                                          IMPROPER PAYMENT RATE FOR EACH PROGRAM IDENTIFIED.

                                                                                                                     EARNED INCOME TAX CREDIT
                                                                                                                     The EITC is a refundable federal tax credit that offsets income taxes owed by low income workers and, if the
                                                                                                                     credit exceeds the amount of taxes owed, provides a lump-sum payment to those who qualify.

                                                                                                                     The next section explains how the IRS currently develops its erroneous payment projections. The most recent
                                                                                                                     projection is based on a tax year 2001 reporting compliance study that estimated the level of improper overclaims
                                                                                                                     for fiscal year 2009 to range between $11.2 - $13.3 billion and 23 percent (lower bound) to 28 percent (upper
                                                                                                                     bound) of approximately $48.1 billion in total program payments.


                                                                                                                     NATIONAL RESEARCH PROGRAM (NRP) ANALYSIS
                                                                                                                     The complexity of the EITC program, the nature of tax processing, and the expense of compliance studies
                                                                                                                     preclude statistical sampling on an annual basis to develop error rates for comparison to reduction targets. The
                                                                                                                     estimates are based primarily on information from the National Research Program (NRP) reporting compliance
                                                                                                                     study of individual income tax returns for tax year 2001—the most recent year for which compliance information
                                                                                                                     from a statistically valid, random sample of individual tax returns is available. The approach is nearly identical to
                                                                                                                     that used for earlier years. The difference is that the estimates make use of more recent EITC payment data from
                                                                                                                     the President’s fiscal year 2010 Budget.

                                                                                                                     Under the tax year 2001 NRP reporting compliance study, individual income tax returns filed during calendar
                                                                                                                     year 2002 for tax year 2001 were randomly selected for examination.1 This selection method allows the measures
                                                                                                                     for the individual income tax return filing population to be estimated from the results of the NRP sample returns.
                                                                                                                     Because one of the objectives of the NRP is to provide data for compliance measurement, NRP procedures and
                                                                                                                     data collection differed from those followed in standard examination programs. NRP classification and examina-
                                                                                                                     tion procedures were more comprehensive in scope and depth than those for standard examination programs.
                                                                                                                     These expanded procedures were designed to provide a more thorough determination of what taxpayers should
                                                                                                                     have reported on their returns.

                                                                                                                     The tax year 2001 NRP individual income tax return study covered filers of all types of individual income tax
                                                                                                                     returns. About 6,400 of the approximately 44,400 returns in the regular NRP sample were EITC claimants.2 The
                                                                                                                     NRP study results for this EITC claimant subset of NRP returns were the primary source of data for the improp-
                                                                                                                     er payments estimates. Other data and information sources used for the estimates included the IRS Enforcement
                                                                                                                     Revenue Information System (ERIS), which tracks assessments and collections from IRS enforcement-related
                                                                                                                     activities; Treasury Department estimates of the effect of the EITC provisions in the Economic Growth and Tax

                                                                                                                     1	    The NRP used a stratified, random sample design. Returns are grouped into predefined categories or “strata” and selected randomly within
                                                                                                                           each stratum.
                                                                                                                     2	    About 1,600 other returns (the “calibration sample”) were included in the tax year 2001 NRP Individual Income Tax Study. These returns
                                                                                                                           went through a somewhat different examination process and they were not used for these calculations.




218                                                                                                                       APPENDIX B — IMPROPER PAYMENTS INFORMATION ACT AND RECOVERY AUDITING ACT
                                                                                                                                               PART 3 • OTHER ACCOMPANYING INFORMATION
Relief Reconciliation Act of 2001 (EGTRRA) on erroneous EITC claims, and Treasury Department fiscal year
2010 EITC budget estimates.

Enacted in 2001, EGTRRA contains several provisions related to the EITC that became effective for tax year
2002. These provisions are believed to influence taxpayer behavior in a number of ways, among them increased
claims and improved compliance for EITC claimants.3 Since the improper payment rate is derived from pre-EG-
TRRA taxpayer behavior (tax year 2001), it must be adjusted to reflect the estimated impact of the EITC-related
EGTRRA provisions. Treasury Department economists conducted an analysis of the EITC-related EGTRRA
provisions, concluding that the provisions reduced EITC erroneous claims by about 13 percent and increased
claims by about 5 percent.4 To account for these effects, the NRP-based estimate of the improper payment rate
for tax year 2001 was adjusted by reducing the of the Amount of EITC Overclaimed by 13 percent and increasing
the Amount of EITC Claimed on all Returns by 5 percent.

The general approach for developing the fiscal year 2009 set of EITC improper payments estimates involved the
following steps: (1) estimating an improper payment rate for tax year 2001 using the NRP data, (2) adjusting
the tax year 2001 rate to reflect the estimated impact of the EITC-related EGTRRA provisions, (3) estimating
EITC claims for fiscal year 2009 through fiscal year 2012 by projecting tax year 2001 claims forward using the
growth rates implicit in Treasury Department budget outlay estimates, and (4) multiplying the adjusted improper
payment rate by the estimated claims to calculate estimated improper payments for each fiscal year.

The error rate estimate from the EITC component of the tax year 2006 NRP study will be completed during fis-
cal year 2010. The updated error estimate will help inform business decisions about program administration and
meets IPIA standards for measuring and reporting on improper payments.

III.	 DESCRIBE THE CORRECTIVE ACTION PLANS FOR REDUCING THE ESTIMATED RATE OF
      IMPROPER PAYMENTS FOR THE EITC PROGRAM.
The IRS uses a two-pronged approach to reduce erroneous EITC payments:
      1.	 Continually seek opportunities to increase program efficiency within existing resources – in other words,
          make the base program better; and
      2.	 Test potential business process enhancements to reduce error and then request implementation funding if
          the tests prove successful.


BASE PROGRAM
In 2009, the IRS prevented more than $3.0 billion from being paid in error. The prevention activity is primarily
focused in three areas:
      •	 Examinations – the IRS identifies tax returns for examination and holds the EITC portion of the
         refund until an audit can be conducted. This is the only ongoing IRS audit program where exams are



3	   For example, EGTRRA implemented a uniform definition of a “qualifying child” and simplified the rule for determining which taxpayer
     was eligible to claim the qualifying child in potentially ambiguous cases (the AGI tiebreaker rule). The simpler rules were expected to
     enhance compliance by reducing the number of claims arising from misinterpretation of the tax law and to increase the number of claims
     by those who were deterred by its complexity.
4	   The estimates were in 1999 dollars.




                        APPENDIX B — IMPROPER PAYMENTS INFORMATION ACT AND RECOVERY AUDITING ACT                                               219
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                                conducted before a refund is released. The examination closures and enforcement revenue protected in the
                                                                                                                                charts below do not include test initiatives.
                                                                                                                           •	 Math Error – this refers to an automated process in which the IRS identifies math or other statistical
                                                                                                                              irregularities and automatically prepares an adjusted return for a taxpayer. Congressional approval is
                                                                                                                              required for math error use.
                                                                                                                           •	 Document Matching – involves comparing income information provided by the taxpayer with matching
                                                                                                                              information (e.g., W-2s, 1099s) from employers to identify discrepancies.

                                                                                                                     The chart below shows significant results from fiscal year 2004 through fiscal year 2010. In fiscal year 2009 alone,
                                                                                                                     the IRS conducted over 500,000 examinations, issued 350,000 math error notices, and closed over 300,000 docu-
                                                                                                                     ment matching reviews.

                                                                                                                      COMPLIANCE ACTIVITIES
                                                                                                                      (THOUSANDS)
                                                                                                                                                                 FY04*          FY05*     FY06*      FY07     FY08*    FY09**    FY10***   FY04-FY10 Total
                                                                                                                      Examinations                             472,022         527,969   517,617   503,267   503,755   508,398   500,000        3,533,028
                                                                                                                      Math Error Notices**                     624,590         515,890   460,316   393,263   432,797   350,000   350,000        3,126,856
                                                                                                                      Document Matching                        300,000         324,419   364,020   394,217   377,327   314,469   325,000        2,399,452
                                                                                                                      Amended Returns                                                                         32,473    25,395    25,000           82,868
                                                                                                                     *Restated actual
                                                                                                                     **Preliminary estimates
                                                                                                                     ***Estimate based on fiscal year 2009 preliminary data


                                                                                                                     These activities had a significant effect. Treasury projects that continued enforcement efforts will protect a total of
                                                                                                                     $19 billion in revenue through fiscal year 2010.

                                                                                                                      ENFORCEMENT REVENUE PROTECTED
                                                                                                                      ($ BILLIONS)
                                                                                                                                                                   FY04         FY05*     FY06*     FY07*     FY08*    FY09**    FY10***   FY04-FY10 Total
                                                                                                                      Examinations                                 1.12           1.35      1.50      1.49      2.00      2.15      2.15            11.76
                                                                                                                      Math Error Notices**                         0.62           0.52      0.46      0.41      0.44      0.38      0.38             3.21
                                                                                                                      Document Matching                            0.25           0.53      0.60      0.73      0.74      0.63      0.65             4.13

                                                                                                                      Amended Returns                                                                           0.07      0.07      0.07             0.21

                                                                                                                      TOTAL                                        1.99           2.40      2.56      2.63      3.25      3.23      3.25            19.31
                                                                                                                      *Restated actual
                                                                                                                      **Preliminary estimates
                                                                                                                      ***Estimate based on fiscal year 2009 preliminary data




220                                                                                                                     APPENDIX B — IMPROPER PAYMENTS INFORMATION ACT AND RECOVERY AUDITING ACT
                                                                                                                                                               PART 3 • OTHER ACCOMPANYING INFORMATION
TESTING NEW BUSINESS PROCESSES
The IRS continues to build new solutions for existing business processes and to use other activities to combat
program error including:
      •	 Continuing the partnership with members from two key tax software associations to identify software
         enhancements and collaborative efforts that can help reduce EITC errors and assist preparers in meeting
         their EITC due diligence requirements
      •	 Implementing an on-line training module for paid preparers on EITC preparer due diligence require-
         ments and standards
      •	 Further refining and completing activities associated with a suite of EITC paid preparer treatments,
         based on risk-based selections, including due diligence audits, visits by revenue and criminal investigation
         agents, streamlined injunctions, first-time paid preparer treatments to influence the accuracy of EITC
         returns filed, and analyzing short-term outcomes, including penalties and accuracy of returns.

IV. 	 EITC IMPROPER PAYMENT REDUCTION OUTLOOK
The reduction outlook for EITC improper payments is as follows:

 IMPROPER PAYMENT (IP) REDUCTION OUTLOOK
 ($ IN BILLIONS)

                                                                         CY+1                         CY+2                         CY+3
                PY                           CY        CY                Est        CY+1     CY+1     Est        CY+2     CY+2     Est       CY+3     CY+3
Program         Outlays   PY %     PY $      Outlays   IP%      CY IP$   Outlays    IP%      IP$      Outlays    IP%      IP$      Outlays   IP%      IP$

 EITC Upper     $47.6      28%      $13.1    $48.1     28%      $13.3    $60.7      28%      $16.8    $58.5      28%      $16.2    $49.4      28%      $13.7
 Bound
 Estimate
 EITC Lower     $47.6      23%      $11.1    $48.1     23%      $11.2    $60.7      23%      $14.2    $58.5      23%      $13.6    $49.4     23%       $11.5
 Bound
 Estimate
Outlays: The amounts shown are projections of total payments for the EITC, estimated by the Office of Tax Analysis within the Department of the Treasury.
Following prior methodology, the amount shown is the total EITC claimed.
IP % and IP $: These estimates follow the prior approach which provided a range for improper payments.
Note: The Improper Payment percentage and Estimated Outlay columns reflect a constant error rate pending the development of an annual error rate
measurement.
CY+1 and CY+2 estimates include ARRA EITC provisions which expand EITC for families with three children and increase the beginning of the phaseout range for
couples filing a joint return.
CY: Current year; PY: Prior year




                          APPENDIX B — IMPROPER PAYMENTS INFORMATION ACT AND RECOVERY AUDITING ACT                                                             221
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     RECOVERY AUDITING ACT
                                                                                                                     V.	 TREASURY’S RECOVERY AUDITING PROGRAM
                                                                                                                     Section 831 of the Defense Authorization Act for fiscal year 2002 added a new subchapter to the U.S. Code (31
                                                                                                                     U.S.C 3561-3567), also known as the Recovery Auditing Act, that requires agencies that enter into contracts with
                                                                                                                     a total value in excess of $500 million in a fiscal year to carry out a cost-effective program for identifying errors
                                                                                                                     made in paying contractors and for recovering amounts erroneously paid to the contractors. A required element
                                                                                                                     of such a program is the use of recovery audits and recovery activities. In accordance with OMB Circular A-123,
                                                                                                                     Management’s Responsibility for Internal Control, Appendix C, reporting on recovery auditing is required annually.

                                                                                                                     In fiscal year 2009, Treasury issued contracts totaling $5.0 billion. The annual Improper Payments Information
                                                                                                                     Act Risk Assessment process includes a review of pre-payment controls that minimize the likelihood and occur-
                                                                                                                     rence of improper payments. For Recovery Auditing Act compliance, Treasury requires each bureau and office to
                                                                                                                     review their post-payment controls and report on recovery auditing activities, contracts issued, improper pay-
                                                                                                                     ments made, and recoveries achieved. Bureaus and offices may use recovery auditing firms to perform many of the
                                                                                                                     steps in their recovery auditing program and identify candidates for recovery action.

                                                                                                                     Treasury considers both pre-payment and post-payment reviews to identify payment errors a good management
                                                                                                                     practice that should be included among basic payment controls. All of Treasury’s bureaus use some form of
                                                                                                                     recovery auditing techniques to identify improper payments during post-payment reviews. At times, bureaus may
                                                                                                                     use the services of recovery auditors to help them identify payment anomalies and target areas for improvement.
                                                                                                                     However, Treasury has extensive contract payment controls that are applied at the time each payment is processed,
                                                                                                                     making recovery activity minimal. The low level of improper payments in 2009 did not require any Treasury
                                                                                                                     bureau to develop a management improvement program under Recovery Auditing Act guidance.


                                                                                                                      RECOVERY AUDITING INFORMATION FISCAL YEAR 2004 - FISCAL YEAR 2009
                                                                                                                                                                                  Amount                    Amount
                                                                                                                                        Amount                                    Identified                Identified               Cumulative         Cumulative
                                                                                                                                        Subject to           Actual Amount        for          Amount       for          Amount      Amts. Identified   Amts.
                                                                                                                                        Review for CY        Reviewed and         Recovery     Recovered    Recovery     Recovered   for Recovery       Recovered
                                                                                                                     Agency             Reporting            Reported CY          CY           CY*          PY           PY          (CY+PYs)           (CY+PYs)
                                                                                                                      Treasury          $5,254,751,759       $4,661,539,275       $1,475,232   $1,357,672   $825,279     $839,818    $6,733,805         $5,500,579


                                                                                                                     Note: CY: Current year; PY: Prior year
                                                                                                                     * Includes amounts identified for recovery in prior years.




                                                                                                                     For fiscal year 2009, the total number of contracts subject to review was 34,855; the total number reviewed was
                                                                                                                     32,311, for a total program cost of approximately $1.2 million dollars.




222                                                                                                                    APPENDIX B — IMPROPER PAYMENTS INFORMATION ACT AND RECOVERY AUDITING ACT
                                                                                                                   PART 3 • OTHER ACCOMPANYING INFORMATION
VI.	 MANAGEMENT ACCOUNTABILITY
The Secretary of the Treasury has delegated responsibility for improper payments to the Assistant Secretary for
Management/Chief Financial Officer (ASM/CFO). Improper payments fall under the Department’s management
and internal control program. A major component of the internal control program is risk assessments, which are
an extension of each bureau’s annual improper payment review process. Under Treasury Directive 40-04, Treasury
Internal (Management) Control Program, executives and other managers are required to have management control
responsibilities as part of their annual performance plans. With oversight mechanisms such as the Treasury CFO
Council and the IRS’s Financial and Management Controls Executive Steering Committee, managerial responsi-
bility and accountability in all management and internal control areas are visible and well documented.

Improper payments also have been monitored for improvement as a significant deficiency under the Federal
Managers’ Financial Integrity Act. Executives who are responsible and accountable for reducing the level of EITC
overclaims have been identified, while other senior and mid-level officials have responsibility for monitoring
progress in this area as bureau and program internal control officers.

VII.	 RESOURCES REQUESTED IN THE FISCAL YEAR 2010 BUDGET SUBMISSION TO CONGRESS
The IRS fiscal year 2010 President’s Budget submission included no new initiatives related directly to the EITC
program.

VIII.	LIMITING STATUTORY AND REGULATORY BARRIERS
A number of factors serve as barriers to reducing overclaims in the EITC program. These include:
     •	 Complexity of the tax law
     •	 Structure of the Earned Income Tax Credit
     •	 Confusion among eligible claimants
     •	 High turnover of eligible claimants
     •	 Unscrupulous return preparers
     •	 Fraud

No one of these factors can be considered the primary driver of program error. Furthermore, the interaction
among the factors makes addressing the credit’s erroneous claims rate, while balancing the need to ensure the
credit makes its way to taxpayers who are eligible, extremely difficult.




                    APPENDIX B — IMPROPER PAYMENTS INFORMATION ACT AND RECOVERY AUDITING ACT                       223
                                                                                                                D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




224
                                                                           This page left intentionally blank



APPENDIX B — IMPROPER PAYMENTS INFORMATION ACT AND RECOVERY AUDITING ACT
                                                                                                                          PART 3 • OTHER ACCOMPANYING INFORMATION
Appendix C:
Management and Performance Challenges and Responses
In accordance with the Reports Consolidation Act of 2000, the Inspectors General issue Semiannual Reports to Congress
that identify specific management and performance challenges facing the Department. At the end of each fiscal year, the
Treasury Office of Inspector General (OIG) and the Treasury Inspector General for Tax Administration (TIGTA) send an
update of these management challenges to the Secretary and cite any new challenges for the upcoming fiscal year.

This Appendix contains the incoming management and performance challenges letters from OIG and TIGTA and the
Secretary’s responses describing actions taken and planned to address the challenges.




                            APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES                              225
                                                                                                        D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




226
                                                                   This page left intentionally blank



APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                   PART 3 • OTHER ACCOMPANYING INFORMATION




APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES   227
                                                                   D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




228
APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                   PART 3 • OTHER ACCOMPANYING INFORMATION




APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                      229
                                                                   D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




230
APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                   PART 3 • OTHER ACCOMPANYING INFORMATION




APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES   231
                                                                   D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




232
APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                                                                           PART 3 • OTHER ACCOMPANYING INFORMATION
                                                DEPAR TMENT OF THE TREASURY
                                                             WA S H I NGTO N , D . C .


S E C R E TA R Y O F T H E T R E A S U R Y



                                                                     December 11, 2009

     MEMORANDUM FOR ERIC M. THORSON
     	              INSPECTOR GENERAL

     FROM:                                   Timothy F. Geithner

     SUBJECT:                                Management and Performance Challenges Facing the
                                             Department of the Treasury

     I am responding to your memorandum of October 29, 2009, describing your perspective on the most serious
     management and performance challenges facing the Department of the Treasury. The Department appreciates
     your independent assessment of progress in addressing these challenges.

     Fiscal year (FY) 2009 brought a new management challenge, Management of Recovery Act Programs. The
     Department has established effective control structures to monitor the implementation of our Recovery Act
     programs to ensure they achieve their intended purposes, as well as to provide unprecedented accountability and
     transparency.

     I want to thank you for recognizing our efforts in resolving Corporate Management and Information Security issues
     and for removing them from your listing of the Department’s management challenges. We have taken, and will
     continue to take, appropriate actions to address those and remaining management challenges.

     The Department is committed to remain vigilant about the risks associated with all of our programs and to adjust
     our strategies based on changing circumstances to achieve financial stability, economic security, and protection of
     the taxpayer. We look forward to working with you to further address these challenges.

     Challenge 1 – Treasury’s New Authorities Related to Distressed Financial Markets
     The financial system and the economy are showing signs of stability. The cost of borrowing has declined to pre-
     crisis levels for many businesses, states and local governments, the government sponsored enterprises (GSEs), and
     the banks. Housing markets have shown signs of stabilization, and home prices have ticked up in recent months,
     after three straight years of declines. The economy grew in the third quarter, and most private economists predict
     it will grow for the remainder of this year and next. That improvement in the economic and financial outlook
     since the spring reflects a broad and aggressive policy response that included the financial stability policies
     implemented under the Troubled Asset Relief Program (TARP), efforts to bolster confidence in the housing
     and mortgage markets under the Housing and Economic Reform Act (HERA), other financial stability policies
     implemented by the Federal Deposit Insurance Corporation and the Board of Governors of the Federal Reserve
     System (Federal Reserve), accommodative monetary policy, and the Obama Administration’s fiscal stimulus
     package implemented under the American Recovery and Reinvestment Act of 2009.

     Despite TARP’s positive record to date, and the improving financial and economic outlook, significant challenges
     remain for the financial sector and our economy. While the economy is growing again, jobs are still being lost




                                             APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES              233
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9
                                                                                                                                                                            Page 2




                                                                                                                     and credit losses in some parts of the financial system are still accelerating. The pace of bank failures, which tends
                                                                                                                     to lag economic cycles, remains elevated. Foreclosure rates also remain high. Bank lending continues to contract,
                                                                                                                     with credit standards tight and demand still down. Small businesses rely heavily on such lending, as they do not
                                                                                                                     have the ability to raise capital through debt issuance in securities markets. Further, commercial real estate losses
                                                                                                                     weigh heavily on many banks, especially those that are small, impairing their ability to extend new loans. While
                                                                                                                     a number of TARP initiatives have begun to wind down, Treasury continues to focus on stabilizing the housing
                                                                                                                     markets as well as improving access to credit for small businesses. Based on the need for continuing work in these
                                                                                                                     areas and also the need to ensure an orderly close out of the TARP Program, we have extended TARP authority
                                                                                                                     to October 3, 2010. Following is additional information on actions we have taken and continue to take in
                                                                                                                     addressing this challenge.

                                                                                                                     The Department of the Treasury’s Office of Debt Management (ODM) has purchased over $200 billion in
                                                                                                                     Mortgage Backed Securities (MBS) guaranteed by Fannie Mae and Freddie Mac through two expert asset
                                                                                                                     managers, Barclays Global Investors and State Street Global Advisors. The Housing and Economic Recovery Act
                                                                                                                     of 2008 granted Treasury the authority to make these purchases. That authority expires December 31, 2009.
                                                                                                                     For increased transparency, the Department publishes aggregate information on its holdings of Agency MBS on
                                                                                                                     FinancialStability.gov (http://www.financialstability.gov/roadtostability/homeowner.html). Treasury holds
                                                                                                                     monthly executive committee meetings chaired by the Acting Under Secretary for Domestic Finance to discuss
                                                                                                                     program implementation, and is actively seeking advanced risk management tools beyond those provided by the
                                                                                                                     asset managers for the maintenance stage of the program. These tools will be in place by January 1, 2010.

                                                                                                                     We have tested the Government Sponsored Enterprises Credit Facility (GSECF) in a development environment
                                                                                                                     and the Office of the Fiscal Assistant Secretary has established robust procedures for its use. The GSECF has not
                                                                                                                     been used to date, nor do we expect it to be before its December 31, 2009 expiration date.

                                                                                                                     In October 2008, the Emergency Economic Stabilization Act authorized a total of $700 billion for Treasury
                                                                                                                     to purchase or to insure troubled assets. Treasury used this authority to implement the Troubled Asset Relief
                                                                                                                     Program (TARP) to strengthen the U.S. financial system, restore credit markets for businesses and consumers,
                                                                                                                     and address foreclosures in the housing market. In fiscal year 2009, the Department rolled out eight programs:
                                                                                                                     Capital Purchase Program; Targeted Investment Program; American International Group Investment Program
                                                                                                                     (formerly known as the Systemically Significant Failing Institution Program); Automotive Industry Financing
                                                                                                                     Program (including the Auto Suppliers Support Program and the Auto Warranty Program); Asset Guarantee
                                                                                                                     Program; Term Asset-Backed Securities Loan Facility, as part of the Consumer and Business Lending Initiative;
                                                                                                                     Public-Private Investment Program; and the Home Affordable Modification Program. As of September 30, 2009,
                                                                                                                     over $521 billion had been designated for particular TARP programs. Of that amount, over $444 billion had
                                                                                                                     been obligated to specific institutions under signed agreements, with over $365 billion of those funds already
                                                                                                                     disbursed.

                                                                                                                     Treasury Departmental Offices and bureaus played a critical role in establishing a well-functioning Office of
                                                                                                                     Financial Stability (OFS) to implement these programs.  Over the past year, while aggressively implementing the
                                                                                                                     programs listed above, OFS has grown into an organization of 212 full-time employees who support the TARP.
                                                                                                                     Initially, several key Office of the Comptroller of the Currency (OCC) and Office of Thrift Supervision (OTS)
                                                                                                                     personnel were detailed to OFS positions to provide assistance in setting up accounting, finance, and reporting
                                                                                                                     systems.  They also assisted in developing information technology, procurement, and risk management processes.
                                                                                                                     The infrastructure put in place to support the TARP mitigates risk for the taxpayer. For each TARP operational



234                                                                                                                    APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                                                                     PART 3 • OTHER ACCOMPANYING INFORMATION
                                                      Page 3




program, sound controls and oversight have been properly designed, planned, and implemented for the longer
term.

TARP was designed as an emergency response to a major financial crisis. Because financial conditions have
begun to improve, Treasury has already started the process of exiting from some emergency programs. Although
Treasury and other government institutions have accomplished a great deal in a relatively short time, more work
lies ahead. As necessary, TARP will maintain capacity to address new developments until financial stability and
economic health have been fully restored.

Challenge 2 - Regulation of National Banks and Thrifts
Both the Administration and Congress are in the midst of reviewing numerous proposals for financial regulatory
reform. Treasury Departmental Offices, OCC, and OTS are working closely with other federal financial
regulators to ensure a smooth transition to a new regulatory structure. The Department also expects to devote
resources in 2010 toward implementing the recommendations of its working groups on the conduct of financial
supervision and regulation and on the regulatory capital regime.

Regulation of National Banks
In fiscal year 2009, 13 OCC-supervised and regulated national banks failed, with estimated losses to the deposit
insurance fund totaling approximately $3.7 billion.  All 13 are community banks and the majority of these
failures were the result of high concentrations in acquisition, development, and construction lending to the
residential construction industry. In addition to taking actions to address the recommendations contained in
the four Material Loss Review reports issued by your office during fiscal year 2009, the OCC conducted its
own reviews of the national bank failures.  Lessons learned included the need to reinforce adherence to OCC’s
policy on the timely use of and follow through on “Matters Requiring Attention,” and the need to ensure that
bank management and boards of directors provide effective oversight and adequate controls over risk. The OCC
reports that the results of these critical reviews were used to communicate areas of concern to examiners and to
adjust supervisory processes to better protect the safety and soundness of the national banking system.

During fiscal year 2009, the OCC introduced a program for its large national bank population that emphasized
more intensive, ongoing monitoring of bank liquidity, standardization of liquidity measures across institutions,
and evaluation of banks’ liquidity cushions and contingency plans in the regular course of their OCC supervision.

In June the federal banking agencies released for comment the proposed Interagency Guidance on Funding
and Liquidity Risk Management, which would effectively extend the features of the OCC’s program to all
domestic financial institutions.  In September the federal banking agencies also released for comment proposed
Interagency Guidance on Correspondent Concentration Risks. More broadly, the OCC worked with other financial
supervisors, both domestically and internationally, to identify areas where risk management practices at financial
institutions and supervisory expectations or requirements need to be strengthened.  In this regard, the OCC is
actively involved in efforts underway by the Basel Committee on Banking Supervision to strengthen and enhance
international capital standards and liquidity risk management.  The Comptroller continued to serve as co-
chairman of the Financial Stability Board’s working group on provisioning.

In the area of consumer regulation and protection, the OCC issued guidance to national banks on the Credit
Card Accountability Responsibility and Disclosure (CARD) Act of 2009; Final Rules and Guidelines to Promote




                           APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES                          235
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9
                                                                                                                                                                             Page 4




                                                                                                                     Accurate Reports about Consumers; and Final Rules and Guidelines Implementing Accuracy and Integrity
                                                                                                                     Provisions of the Fair and Accurate Credit Transactions Act.  The OCC also issued Consumer Advisories.

                                                                                                                     The OCC’s Bank Supervision Operating Plan describes several key objectives for 2010. Effective credit risk and
                                                                                                                     liquidity risk management, as well as the quality of capital and level of regulatory capital to absorb unexpected
                                                                                                                     losses are areas of focus. Supervisory attention will also focus on corporate governance and compliance functions,
                                                                                                                     the capability of bank management to manage risk, and the effective resolution of problem banks. The OCC
                                                                                                                     will also encourage banks to continue to meet the needs of credit worthy borrowers and comply with consumer
                                                                                                                     compliance laws and regulations.

                                                                                                                     Regulation of Thrifts
                                                                                                                     During fiscal year 2009, 14 OTS-regulated thrifts were placed in receivership with estimated losses to the deposit
                                                                                                                     insurance fund of approximately $11 billion. Many of these failures were the result of poor risk management
                                                                                                                     practices and excessive concentrations in high risk assets.

                                                                                                                     In addition to responding to Material Loss Review recommendations from your office, the OTS conducts
                                                                                                                     internal reviews following the receivership of failed thrifts. The objective of the internal assessment is to review
                                                                                                                     the chronology of events leading to the failure, identify the causes of the failure, evaluate OTS supervision
                                                                                                                     and enforcement activities, and provide recommendations for addressing the findings of the review. The
                                                                                                                     OTS completed seven such reviews in fiscal year 2009, and has made significant progress implementing the
                                                                                                                     recommendations from these reviews.

                                                                                                                     During 2009, the OTS supplemented and improved staff guidance to address concentration risks, enforcement
                                                                                                                     actions, capital contributions, downgraded securities, examination follow-up, and other key supervisory issues.
                                                                                                                     The OTS also emphasized the importance of comprehensive loan modification programs to provide solutions
                                                                                                                     for borrowers who cannot afford their current mortgage payments. In August, the OTS released Thrift Bulletin
                                                                                                                     85, Regulatory and Accounting Issues Related to Modifications and Troubled Debt Restructurings of 1-4 Residential
                                                                                                                     Mortgage Loans, to update thrift management on accounting and regulatory issues associated with loan
                                                                                                                     modification programs.

                                                                                                                     Also in 2009, the OTS issued a final rule prohibiting a series of unfair credit card practices under the Agency’s
                                                                                                                     authority to issue regulations under Section Five of the Federal Trade Commission Act banning unfair
                                                                                                                     and deceptive acts and practices. The economic downturn will continue to have a significant affect on the
                                                                                                                     performance of the thrift industry over the next several years.

                                                                                                                     To meet the challenges that will arise during fiscal year 2010, OTS has emphasized the following priorities in
                                                                                                                     thrift supervision. During each regular examination OTS staff will review each thrift’s operations to ensure it is
                                                                                                                     properly managing any concentration risk in its portfolio, has sufficient capital commensurate with its operations,
                                                                                                                     has appropriate and effective risk management controls, and has sufficient liquidity levels and contingency
                                                                                                                     liquidity plans. The OTS will continue to work on an inter-agency basis with the other federal banking regulators
                                                                                                                     to ensure fair and balanced regulation that includes appropriate counter-cyclical and systemic risk measures.

                                                                                                                     Reform efforts
                                                                                                                     As part of a comprehensive package of financial regulatory reform, Treasury has proposed legislation to overhaul
                                                                                                                     the structure of federal supervision and regulation, including consolidating the OCC and OTS into one



236                                                                                                                    APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                                                                       PART 3 • OTHER ACCOMPANYING INFORMATION
                                                       Page 5




agency. Treasury’s proposals would also make sure that all financial firms that own banks are subject to robust
consolidated supervision by closing gaps and loopholes in the Bank Holding Company Act and requiring thrift
holding companies to become bank holding companies. Other elements of the comprehensive reform include
requiring all firms whose failure could threaten financial stability to submit to strong prudential supervision
regardless of whether they own a bank; creating a Financial Services Oversight Council (FSOC) to monitor
emerging threats; establishing a new Consumer Financial Protection Agency; and creating a resolution regime
for large, highly interconnected financial firms to allow these firms to fail while protecting taxpayers and the
economy.

Treasury also continues to work with the OCC, OTS, and other federal financial agencies to analyze lessons
learned from the financial crisis and pursue appropriate reforms that do not require legislative action.  Following
on the release of the Treasury’s regulatory reform legislative proposals, Treasury is leading working groups on
regulatory capital and on the future of financial supervision and regulation. These working groups will make
further proposals for strengthening the conduct of supervision and addressing shortcomings in rules and
regulations.  The Treasury expects that implementing their recommendations will require the commitment of all
of these agencies in the next two years.

Challenge 3 – Management of Recovery Act Programs
Under the American Recovery and Reinvestment Act of 2009 (ARRA, or Recovery Act), Treasury administers
grants, cash assistance in lieu of tax credits, economic recovery payments, and some 60 tax relief provisions which
will deliver over $300 billion in relief to American families and businesses.

Treasury recognizes the immense challenges in managing its Recovery Act programs in a manner that ensures the
programs achieve their intended purpose, provide for unprecedented accountability and transparency, and are free
from fraud and abuse.

In implementing ARRA, the Department must ensure that we balance and meet the objectives of speed, quality
and accountability. To achieve these objectives, Treasury established a Recovery Act implementation team
responsible for working with the program offices across the Department. The Recovery Act team facilitates all
Recovery Act implementation Department-wide and interfaces with the broader Recovery Act community. As
part of this broad responsibility, the team establishes internal processes, addresses external data requirements,
manages risk inherent in Recovery Act implementation, and coordinates Treasury Recovery Act audits. The
team works closely with the Office of Management and Budget (OMB) and the Recovery Implementation
Office to document progress on Recovery Act implementation and assists in implementing OIG/TIGTA/GAO
recommendations.

Internally, the Recovery Act team developed detailed spend plans for its major programs and documents reporting
responsibility for executing those initiatives. Treasury monitors and reviews those spend plans with bureau
and Senior-accountable officials. This review focuses on items such as percent on-time performance for project
activities, obligations and outlays versus plan, acquisition competition and contract types, performance measure
actual values versus targets, and accountability metrics. Corrective and preventive actions, established as a result
of the reviews, are tracked for implementation. We also review risk assessments and the implementation of
mitigation plans to minimize the probability of fraud and abuse.




                           APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES                            237
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9
                                                                                                                                                                            Page 6




                                                                                                                     Treasury keeps the public informed through both agency and bureau websites and press releases, and monitors
                                                                                                                     timely submissions to both the Recovery.gov and Treas.gov Recovery Act web pages.

                                                                                                                     ARRA established a number of innovative new programs to ease the impact of the credit crunch on state and
                                                                                                                     local government budgets. One such program, which has been implemented very successfully by the Department
                                                                                                                     of the Treasury, is the Build America Bond program (BAB). BABs are taxable bonds issued by state and local
                                                                                                                     governments with a 35 percent interest subsidy paid directly to the issuer by the federal government. This bond
                                                                                                                     program has allowed states to raise capital needed for crucial infrastructure projects by attracting new investors to
                                                                                                                     the municipal bond market and reducing the issuer’s debt cost. $47 billion in Build America Bonds were issued
                                                                                                                     from the program’s inception in April 2009 through the end of October, representing 21 percent of all municipal
                                                                                                                     issuances in that time frame. A total of 42 states have participated in the program with over 500 separate issues.
                                                                                                                     In addition to giving issuers access to much needed capital, the program has succeeded in making municipal debt
                                                                                                                     attractive to new investors such as pension funds and foreign investors. By bringing in new investors, BABs have
                                                                                                                     relieved supply pressure and have helped reduce borrowing costs on traditional tax-exempt municipal debt.

                                                                                                                     You expressed concern that Treasury staffing for two of our Recovery Act programs (cash assistance to states for
                                                                                                                     low-income housing projects in lieu of tax credits and cash assistance for specified energy property in lieu of
                                                                                                                     tax credits) is not commensurate with the size of these programs. The Office of the Fiscal Assistant Secretary
                                                                                                                     assembled a core staff of five full-time employees to manage these programs. Although this is a small staff in
                                                                                                                     relation to the size of the programs, we are achieving success by ensuring that this staff has appropriate skill sets
                                                                                                                     and by leveraging the skills and expertise of others, both within and outside the Department.  Staff members from
                                                                                                                     several other offices within Treasury, including the IRS, are devoting time to these two programs.  Additionally,
                                                                                                                     we entered into an Interagency Agreement with the Department of Energy to provide necessary technical
                                                                                                                     expertise in implementing the energy cash assistance program. We successfully implemented both of these
                                                                                                                     programs in five months and have made awards to date in excess of $4 billion.

                                                                                                                     We recognize that staffing needs may change over the life of the programs, particularly as we move into the
                                                                                                                     post-award monitoring phase.  We therefore will continue to evaluate workforce needs and make adjustments as
                                                                                                                     necessary.

                                                                                                                     Challenge 4 - Management of Capital Investments
                                                                                                                     The Department takes investment management very seriously and remains committed to improving the
                                                                                                                     management of Information Technology (IT). In support of this commitment, the Department-level
                                                                                                                     Executive Investment Review Board (E-Board), chaired by the Deputy Secretary and the Assistant Secretary for
                                                                                                                     Management and Chief Financial Officer (ASM/CFO), met twice in fiscal year 2009. In support of the E-Board’s
                                                                                                                     efforts and to fulfill its IT Governance role, the Office of the Chief Information Officer (CIO) is actively engaged
                                                                                                                     in the following activities:

                                                                                                                     Infrastructure Optimization – In July 2009, the Treasury E-Board endorsed a multi-faceted strategy for reducing
                                                                                                                     the Department’s IT infrastructure costs. To support this strategy, the Treasury CIO Council is developing a
                                                                                                                     proposal of specific initiatives which will achieve cost savings by maximizing all infrastructure optimization and
                                                                                                                     consolidation opportunities.




238                                                                                                                    APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                                                                        PART 3 • OTHER ACCOMPANYING INFORMATION
                                                       Page 7




Monthly Evaluation of IT Investments – In July 2009, the Treasury CIO began monthly evaluations on the degree
to which major IT investments met cost, schedule, and other performance goals. This information is made
possible via a website hosted by OMB. The public transparency and increased frequency of assessments have
resulted in increased executive attention to IT investment management, which in turn results in more consistent
management of the Treasury IT budget.

Oversight of the Treasury Network (TNet) Transition – Recognizing the challenges associated with critical
infrastructure investments, the Office of the CIO is actively overseeing the transition to Treasury’s new
consolidated wide area network project, TNet, and making a concerted effort to stay on schedule.

Challenge 5 - Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act Enforcement
The Department does face unique challenges in carrying out its responsibilities under the Bank Secrecy Act
(BSA) and the USA PATRIOT Act to prevent and to detect money laundering and terrorist financing, and we
are focused on executing our mission as effectively as possible to protect the integrity of the financial system. The
Financial Crimes Enforcement Network (FinCEN) has overall authority for BSA enforcement and compliance.

In the last several years, FinCEN has focused on effective and efficient administration, outreach, and engagement
of existing industries covered by the BSA. The subsequent paragraphs highlight the actions FinCEN, in
coordination with other federal and state authorities, completed in fiscal year 2009 with regard to existing
industries. However, new payment systems and industries vulnerable to money laundering continually evolve,
such as stored value cards, non-bank mortgage lenders, and hedge funds. In fiscal year 2010 and beyond,
FinCEN will expand BSA regulations to new industry sectors, consistent with the Administration’s priorities.

In fiscal year 2009, FinCEN published a proposal simplifying the organizational structure of BSA requirements.
In addition, OCC, OTS, and FinCEN worked with other federal banking agencies to continue to enhance
the Federal Financial Institutions Examination Council’s Bank Secrecy Act/Anti-Money Laundering Examination
Manual, first issued in 2005, with revisions to be issued in fiscal year 2010. Following up on the success of
this manual, FinCEN worked with the IRS and state regulators to develop a Money Services Business (MSB)
examination manual, released in fiscal year 2009. FinCEN facilitated the development of training materials on
this manual, and fostered training for state examiners in fiscal year 2009, with further training scheduled in fiscal
year 2010. Additionally, FinCEN issued a final rule in fiscal year 2009 simplifying the appropriate exemption of
customers from currency transaction reporting requirements.

To enhance the efficiency and effectiveness of the BSA regulatory framework, FinCEN also initiated several
rulemaking proposals in fiscal year 2009, including issuing notices of proposed rulemaking to accomplish the
following:
    •	 help ensure suspicious activity reports (SARs) are subject to appropriate protection and simultaneously
       issued proposed guidance to expand the ability of financial institution to share SAR information within
       their organizational structures;
    •	 revise the regulatory definition of MSBs to make the determination of which businesses qualify as MSBs
       more straightforward; and
    •	 move to streamline mutual fund BSA requirements by allowing mutual funds to file currency transaction
       reports.




                           APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES                             239
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9
                                                                                                                                                                            Page 8




                                                                                                                     FinCEN also sought comment on a wide range of questions pertaining to the possible application of anti-money
                                                                                                                     laundering (AML) program and SAR rules to non-bank residential mortgage lenders and originators. In fiscal
                                                                                                                     year 2010, FinCEN will continue working on these proposals, as well as regulations regarding stored value, as
                                                                                                                     mandated by the CARD Act.

                                                                                                                     Outreach plays an important role in effectively administering the BSA. The Bank Secrecy Act Advisory Group
                                                                                                                     (BSAAG) serves as the principal forum to discuss BSA issues among regulators, law enforcement, and the
                                                                                                                     industry. FinCEN’s Data Management Council enables government users of the BSA database to have a more
                                                                                                                     direct role in providing advice about their information needs and helping FinCEN prioritize adjustments to the
                                                                                                                     database. In fiscal year 2009, FinCEN continued outreach to specific financial institutions, visiting several large
                                                                                                                     MSBs. We plan to conduct further outreach to additional industry segments in fiscal year 2010.

                                                                                                                     Active engagement with other regulators is also critical to meet our challenges. FinCEN established 55
                                                                                                                     memoranda of understanding (MOU) with federal and state regulators to enhance the sharing of information
                                                                                                                     derived from compliance examinations, and by signing a MOU with the Commodity Futures Trading
                                                                                                                     Commission (CFTC) in fiscal year 2009, FinCEN has now finalized MOUs with all federal functional regulators.
                                                                                                                     FinCEN shared analytic reports in the form of BSA data profiles with these federal and state regulators, and
                                                                                                                     surveyed its MOU partners to determine the impact of the information exchanged; 82 percent of respondents
                                                                                                                     indicated the information shared with them was valuable. As these MOUs mature, the information exchanged
                                                                                                                     will help FinCEN improve BSA examination consistency and compliance. In fiscal year 2010, FinCEN will
                                                                                                                     pursue MOUs with additional state regulators.

                                                                                                                     To enhance regulated financial industry understanding of and compliance with BSA requirements, in fiscal year
                                                                                                                     2009 FinCEN published a range of interpretive guidance, including guidance to financial institutions on filing
                                                                                                                     SARs regarding loan modification and foreclosure rescue scams; guidance on the scope of permissible information
                                                                                                                     sharing covered by Section 314(b) safe harbor of the USA PATRIOT Act, and an educational pamphlet on the
                                                                                                                     currency transaction reporting requirements. In fiscal year 2010, FinCEN will conduct strategic analytical studies
                                                                                                                     and publish reports promoting both greater awareness of emerging money laundering trends, vulnerabilities, and
                                                                                                                     avoidance of compliance expenditures that are not commensurate with actual risks. These initiatives will include
                                                                                                                     additional analysis on mortgage loan and loan modification fraud.

                                                                                                                     A primary strategy for meeting the goal of a safer, more transparent financial system includes effective
                                                                                                                     examination for any potential money laundering, terrorist financing, and BSA issues in OTS and OCC-
                                                                                                                     supervised institutions. OTS and OCC continue to examine compliance with BSA, USA PATRIOT Act, and
                                                                                                                     other anti-money laundering provisions through a process which consists of on-site examinations conducted
                                                                                                                     every 12-18 months, supplemented by off-site monitoring and follow-up to address identified supervisory
                                                                                                                     issues. Additionally, in fiscal year 2009 FinCEN and the IRS continued implementing a strategy for developing
                                                                                                                     and implementing a more effective BSA examination regime for non-bank financial institutions that the IRS
                                                                                                                     examines. Implementation of this strategy and other efforts, including enhancements to the non-compliance
                                                                                                                     referral process, will continue through fiscal year 2010.

                                                                                                                     Challenge 5 also refers to Office of Foreign Assets Control (OFAC) programs and discusses OFAC MOUs with
                                                                                                                     state and federal regulators.  It is true that financial institutions’ OFAC compliance programs are critical to the
                                                                                                                     implementation of sanctions, and OFAC will continue to work with regulators and the regulated community
                                                                                                                     to ensure attention to OFAC compliance is not lessened in the current environment.  Substantively, the MOUs



240                                                                                                                    APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                                                                     PART 3 • OTHER ACCOMPANYING INFORMATION
                                                      Page 9




with Federal and State regulators are working as intended.  OFAC keeps a financial institution’s regulator fully
informed about any apparent violation of OFAC regulations by that institution.  This information is used to help
the regulators develop the scope of the OFAC examination to which the institution should be subject.  OFAC
also requests and receives information from the regulators about the sufficiency of a financial institution’s OFAC
compliance program.  This information is used as a factor in determining what level of enforcement action to
take against a financial institution for an apparent violation of OFAC regulations.  In addition to these formal
requests, the regulators may contact OFAC if they have particular concerns about an institution.

cc: The Deputy Secretary
    Assistant Secretary for Management and Chief Financial Officer




                           APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES                          241
                                                                                                        D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




242
                                                                   This page left intentionally blank



APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                   PART 3 • OTHER ACCOMPANYING INFORMATION




APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES   243
                                                                   D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




244
APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                   PART 3 • OTHER ACCOMPANYING INFORMATION




APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES   245
                                                                   D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




246
APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                   PART 3 • OTHER ACCOMPANYING INFORMATION




APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES   247
                                                                   D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




248
APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                   PART 3 • OTHER ACCOMPANYING INFORMATION




APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES   249
                                                                   D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




250
APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                   PART 3 • OTHER ACCOMPANYING INFORMATION




APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES   251
                                                                   D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




252
APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                   PART 3 • OTHER ACCOMPANYING INFORMATION




APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES   253
                                                                   D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




254
APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                   PART 3 • OTHER ACCOMPANYING INFORMATION




APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES   255
                                                                                                        D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




256
                                                                   This page left intentionally blank



APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                                                                             PART 3 • OTHER ACCOMPANYING INFORMATION
                                                DEPAR TMENT OF THE TREASURY
                                                            WA S H I NGTO N , D . C .


S E C R E TA R Y O F T H E T R E A S U R Y



                                                                     December 11, 2009

     MEMORANDUM FOR J. RUSSELL GEORGE
     	              TREASURY INSPECTOR GENERAL FOR
     	              TAX ADMINISTRATION

     FROM:                                   Timothy F. Geithner

     SUBJECT:                                Response to Management and Performance Challenges Facing the
                                             Internal Revenue Service

     I am responding to your October 15, 2009, memorandum describing the most serious management and
     performance challenges facing the Internal Revenue Service (IRS). The Department appreciates your independent
     assessment of progress in addressing these challenges. This memorandum provides information on the actions
     completed in Fiscal Year (FY) 2009 and the actions planned for fiscal year 2010 to address these challenges.

     Challenge 1 - Modernization
     In fiscal year 2009, IRS continued to execute on its long-term plan to modernize the technological underpinnings
     of the nation’s tax system. The Customer Account Data Engine (CADE), Modernized e-File (MeF), and Account
     Management Services (AMS) modernization projects delivered the changes necessary for a successful tax filing
     season, supported implementation of the American Reinvestment and Recovery Act (ARRA) provisions, and
     provided audit trails to enhance the security posture of IRS systems.

     Also in fiscal year 2009, the IRS enhanced its strategy to accelerate completion of a consolidated taxpayer account
     database, in part based on feedback from TIGTA. Contingent upon funding, the IRS plans to implement the
     new taxpayer account database for the 2012 filing season. The new database will support daily processing and
     result in faster refunds for all individual refund filers. Daily updating of individual taxpayer accounts by 2012
     also will improve taxpayer service and accuracy, reduce interest paid on late refunds, improve data security, and
     create new tools to combat fraud and improve enforcement activities. Completion of the taxpayer account
     database is the prerequisite for other major initiatives, including significant expansion of online services and
     transactions and next generation of enforcement technologies.

     Challenge 2 - Security
     In fiscal year 2009, the IRS expanded its efforts to detect and prevent security threats. By securing infrastructure,
     data, and applications, the IRS protected access to taxpayer information. For example, every laptop at the IRS is
     equipped with sophisticated disk encryption software to protect against unauthorized use of sensitive data.

     The IRS also maintained an agency-wide information security program and made major enhancements to its
     Disaster Recovery Program to ensure the continuity and resiliency of IRS critical business processing systems. An
     Emergency Management and Preparedness Executive Steering Committee was established to direct an IRS-wide
     emergency management program, and the Physical Security and Emergency Preparedness office focuses on
     management of the IRS continuity planning program.



                                             APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES                257
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9
                                                                                                                                                                             Page 2




                                                                                                                     The IRS takes the issue of Identity Theft very seriously. In fiscal year 2009, to preserve and enhance public
                                                                                                                     confidence, the IRS established specialized units and dedicated toll-free telephone lines to provide guidance
                                                                                                                     and assistance to taxpayers affected by identify theft. In the first year, the IRS responded to more than 120,000
                                                                                                                     calls and opened nearly 34,000 cases of suspected identity theft for further investigation. The IRS also placed
                                                                                                                     markers on more than 231,300 taxpayer accounts to alert employees the account belongs to a substantiated
                                                                                                                     identity theft victim. In fiscal year 2009, the IRS sent nearly 79,600 letters to individuals to inform them their
                                                                                                                     personal information was used by another individual to file a return or may have been compromised through
                                                                                                                     phishing scams. The IRS also eliminated the use of Social Security Numbers (SSNs) on more than 8 million
                                                                                                                     forms, notices, and letters issued.  This is the first large-scale effort to eliminate and reduce the use of SSNs on
                                                                                                                     taxpayer correspondence. Over the next two to five years IRS will eliminate the use of SSNs on more than 90
                                                                                                                     million notices and forms sent to individual and business taxpayers.

                                                                                                                     To address the challenges of malicious code or software into the network, the Computer Security Incident
                                                                                                                     Response Center (CSIRC) provides the IRS with a team of capable “first responders” organized, trained, and
                                                                                                                     equipped to identify, contain, and eradicate cyber threats targeting IRS computing assets. In fiscal year 2009, the
                                                                                                                     IRS repelled more than 35 million unauthorized access attempts, with about one-third of this malicious activity
                                                                                                                     originating from outside the United States.

                                                                                                                     In fiscal year 2010, the IRS will continue to develop and update its business and continuity plans to protect
                                                                                                                     employees and to recover the critical business processes, data, and information technology systems. A test and
                                                                                                                     exercise program is in development that integrates all four business continuity plans used to prepare for, respond
                                                                                                                     to, and recover from a disaster or emergency incident.

                                                                                                                     Challenge 3 - Tax Compliance Initiatives
                                                                                                                     During fiscal year 2009, the IRS focused on targeting its enforcement efforts on high-risk categories of non-
                                                                                                                     compliance to support the overall goal of reducing the tax gap. In addition to the specific programs outlined
                                                                                                                     below, the IRS continued work on a reporting compliance study for individual taxpayers that will provide
                                                                                                                     updated and more accurate audit selection tools as the first of an ongoing series of individual studies using a
                                                                                                                     rolling multi-year methodology. Studies in subsequent tax years will allow the IRS to make more frequent
                                                                                                                     updates to its voluntary compliance estimates.

                                                                                                                     The IRS has a seven-part, multi-year strategy to address the Tax Gap as presented in the July 2009 Tax
                                                                                                                     Gap Report.  The strategy outlines a series of initiatives designed to reduce opportunities for tax evasion by
                                                                                                                     implementing more stringent reporting requirements, making a commitment to providing more useful, up-to-
                                                                                                                     date estimates of the tax gap, and continuing to make improvements in information technology to help make
                                                                                                                     early detection and intervention efforts more effective. Additional strategies include supporting a sustained focus
                                                                                                                     in the areas of greatest risk including international enforcement, improved compliance programs for business and
                                                                                                                     high-income individuals, and providing innovative on-line services and streamlined written communication to
                                                                                                                     enhance taxpayer services. Reform and simplification of the tax law includes the continuing effort to simplify tax
                                                                                                                     forms and publications and taxpayer burden reduction actions. The multi-pronged strategy also includes ensuring
                                                                                                                     ethical standards of conduct for tax preparers to improve taxpayer compliance.

                                                                                                                     IRS actions to address compliance by businesses and individuals in fiscal year 2009 included expanded
                                                                                                                     enforcement presence in the international field and continued pursuit of high net-worth noncompliant taxpayers.




258                                                                                                                    APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                                                                     PART 3 • OTHER ACCOMPANYING INFORMATION
                                                      Page 3




The IRS also developed a tax preparer strategy to identify recommendations to ensure consistent standards for tax
preparer qualifications, ethics and service. The recommendations will be developed from information obtained
from a large and diverse constituent community that included those licensed by state and federal authorities,
unlicensed tax preparers, software vendors, consumer groups and taxpayers. Over 450 taxpayers and tax
professionals along with 600 employees responded to the IRS request for comments to help better leverage the tax
return preparer community with the twin goals of increasing taxpayer compliance and ensuring uniform and high
ethical standards of conduct for tax preparers.

In fiscal year 2010 the IRS will significantly expand international enforcement, implement significant new
information reporting authorities into compliance programs, and move toward higher standards in the tax
practitioner community.

Challenge 4 – Implementing Tax Law Changes
The IRS is faced with implementing tax law changes each filing season. In response to recent revisions to the tax
laws, the IRS helped taxpayers file correct tax returns by providing education and outreach through automation,
face-to-face contact, and the media. In fiscal year 2009, taxpayers continued to use the IRS website, IRS.gov,
in record numbers to get current information. Passage of the First-Time Homebuyer Credit and ARRA, as well
as questions on the Recovery Rebate Credit resulted in the IRS providing real-time, updated information to
taxpayers as they filed their returns.

The IRS also delivered outreach and education to the tax professional community, industry partners, and small
business and self-employed taxpayers through a wide range of strategies, outreach products and communication
vehicles such as Webinars, tax practitioner institutes, and National Tax Forums. In addition, the IRS website was
expanded to include an online version of the Small Business Resource Guide and Small Business Tax Center; an
interactive Spanish application for “How much was my Stimulus Payment?”; and a Spanish Tax Practitioner Tool
Kit.

American Recovery and Reinvestment Act
The IRS expedited completion of tax products to address ARRA provisions. Before enactment, the IRS initiated
work on the tax-related provisions to ensure timely implementation, including releasing forms, schedules and
guidance three days after enactment; developing new publications to explain the tax provisions to individual and
business filers; and informing taxpayers of the tax credits they may be entitled to using multiple communication
channels including press releases, television commercials, and updated information on the irs.gov website. For the
first time, the IRS launched a YouTube video site and an ITunes podcast site to provide information on ARRA,
tax tips, and how-to videos. This comprehensive approach to administering the provisions of ARRA allowed the
IRS to meet taxpayer and stakeholder expectations for these important tax law changes.

Other Tax Law Changes
Other recent legislation contained tax law changes, including the Housing and Economic Recovery Act of 2008;
the Emergency Economic Stabilization Act of 2008; the Economic Stimulus Act of 2008; and the Worker,
Retiree, and Employer Recovery Act of 2008. The IRS delivered a successful 2009 filing season despite the
substantial number of legislative actions (500 actions affecting 203 tax products) required from these Acts.




                           APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES                          259
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9
                                                                                                                                                                             Page 4




                                                                                                                     Although resources were strained, 95 percent of the critical individual filing season products and over 96 percent
                                                                                                                     of the tax-exempt and business tax products were delivered timely.

                                                                                                                     The IRS provided taxpayers with online access to tax law information, including tax law changes, in an easily
                                                                                                                     understandable format on IRS.gov. In fiscal year 2009, taxpayers used the site to find out about the Rebate
                                                                                                                     Recovery Credit. More than 54 million taxpayers used the “Where’s My Refund?” calculator to check on the
                                                                                                                     status of their tax refund, an increase of 38 percent, and over 430,000 taxpayers used the Spanish version. Over
                                                                                                                     650,000 taxpayers who did not receive a stimulus payment in 2008 used the new Recovery Rebate Credit
                                                                                                                     calculator to help them determine if they were eligible for the credit, and if so, how much they could claim.

                                                                                                                     In fiscal year 2010, the IRS will continue to monitor proposed changes to the tax laws, including Alternative
                                                                                                                     Minimum Tax relief and the proposed health-care legislation, and prepare accordingly to ensure taxpayers have
                                                                                                                     the necessary forms and information for the filing season.

                                                                                                                     Challenge 5 - Providing Quality Taxpayer Service Operations
                                                                                                                     In fiscal year 2009, the IRS continued the implementation of Taxpayer Assistance Blueprint (TAB) service
                                                                                                                     improvements. A new group was created to identify and coordinate enterprise-wide service improvements from
                                                                                                                     the taxpayer’s perspective. The initiatives included the implementation of an online tool which provides taxpayers
                                                                                                                     with tax- law information in an easily navigable format, the creation of 332 “talking Tax Forms” for visually
                                                                                                                     impaired taxpayers, and the launch of Spanish versions of the Free File Program.

                                                                                                                     The IRS provided extensive media coverage and expanded electronic outreach activities to make taxpayers aware
                                                                                                                     of new credits, deductions, and exclusions for which they qualified. A second “Super Saturday” event was held
                                                                                                                     in fiscal year 2009, and the IRS provided over 11,000 taxpayers with tax assistance and return preparation. The
                                                                                                                     event was the largest one-day outreach service event in IRS history.

                                                                                                                     The IRS also provided assistance to millions of taxpayers by expanding partnerships with nonprofit and
                                                                                                                     community organizations, opening more than 12,100 free tax preparation sites nationwide. Volunteers at these
                                                                                                                     sites prepared over 3.0 million returns for low-income and elderly taxpayers. The IRS also served 6.2 million
                                                                                                                     taxpayers at the Taxpayer Assistance Centers (TACs).

                                                                                                                     In fiscal year 2010, the IRS will continue to provide quality taxpayer service by implementing additional
                                                                                                                     improvements outlined in the TAB, including greater access to available services on non-workdays through events
                                                                                                                     like “Super Saturday.” The IRS also will improve the taxpayer’s filing experience by implementing new quality
                                                                                                                     standards at the TACs and volunteer return preparation sites through reviews of selected prepared returns to
                                                                                                                     determine accuracy.

                                                                                                                     Challenge 6 - Human Capital
                                                                                                                     In fiscal year 2009, the IRS engaged in an extensive enforcement hiring initiative, resulting in an enforcement
                                                                                                                     staffing increase of more than 3,000 employees. To ensure coordination at all levels, the IRS established a
                                                                                                                     governance structure to provide oversight of the hiring initiative and created a centralized office to coordinate all
                                                                                                                     recruiting efforts. For the first time, candidates who applied for multiple jobs in different locations were ranked
                                                                                                                     and interviewed only once, and competing organizations collaborated on selections to ensure the best-skilled




260                                                                                                                    APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                                                                     PART 3 • OTHER ACCOMPANYING INFORMATION
                                                      Page 5




individual was hired for each position. The IRS also increased its veteran hiring by 85 percent from 901 in fiscal
year 2006 to 1,669 in fiscal year 2009 with targeted recruitment efforts.

The report of the IRS Workforce of Tomorrow (WOT) Task Force was released in August 2009. The report
included initiatives to improve the hiring process to ensure continued success in filling critical enforcement
positions. Highlights included creation of a detailed workforce planning model that can be embedded into the
existing planning processes, a centralized recruiting organization and corporate recruiting strategy that ensures
consistent brand messaging and engagement of local leaders, an enhanced hiring process implemented in phases
that can cut hiring time by 50 percent,  reduction of managerial burden initiatives, enhanced training and
support for managers, and a leadership development process to identify and develop leaders across the IRS.

In fiscal year 2010, the IRS will implement additional WOT recommendations, implement streamlined hiring,
and pilot an accelerated leadership program for high potential candidates.

Challenge 7 - Erroneous and Improper Credits and Payments
The IRS has a balanced and comprehensive plan, including compliance activities and systemic changes, to reduce
improper payments.

Refundable Credits
In fiscal year 2009, the IRS protected over $3.2 billion in revenue through EITC enforcement efforts, including
examination of over 500,000 returns and 25,000 amended returns claiming EITC, 314,000 document matching
reviews, and 300,000 math error process corrections. The IRS also identified more than 123,000 fraudulent
returns claiming over $361 million in refunds and stopped over $90 million in fraudulent claims using the
Electronic Fraud Detection System (EFDS).

The IRS also completed activities associated with the EITC Return Preparer Study, including analyzing short-
term outcomes from due diligence visits, developing new education and compliance notices, making phone calls
to first-time EITC preparers to make sure they understand the program guidelines, and adjusting the timing of
EITC paid preparer due diligence visits to clarify procedures. These improvements resulted in a 5 percent increase
in due diligence visits over 2008 and proposed penalties of $462,500. Additionally, the IRS continued to identify
and investigate high-impact EITC fraud and tax scheme promoters and identified research-based approaches to
improve EITC participation and minimize taxpayer errors.

The manner and means by which individuals deploy fraudulent refund schemes are constantly evolving and
are becoming more complex and sophisticated. The Questionable Refund Program (QRP), a nationwide
multifunctional program designed to identify fraudulent returns and to stop payment of fraudulent refunds,
continued to show positive results. In fiscal year 2009, the IRS identified over 414,000 potentially fraudulent
returns claiming over $2.7 billion in total refunds and initiated 418 investigations with an 86.6 percent
conviction rate, a 78.8 percent incarceration rate, and an 87.2 percent publicity rate on adjudicated cases.

In fiscal year 2010, the IRS will continue to identify and investigate EITC tax scheme promoters and preparers
through improved data matching, while utilizing automated under-reporter data to identify outreach and
education opportunities for identified patterns of noncompliance. In addition, the IRS will improve the




                           APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES                          261
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9
                                                                                                                                                                             Page 6




                                                                                                                     accuracy of EITC returns by refining the due diligence audit process, conducting visits by revenue and criminal
                                                                                                                     investigation agents, streamlined injunctions, and notice and phone contact treatments.

                                                                                                                     Contract and Other Payments
                                                                                                                     To properly account for contract spending, the IRS developed templates for documenting contract type decisions
                                                                                                                     and rationale when Performance-Based Acquisition methods are not used. In addition, a module entitled, “Types
                                                                                                                     of Work Statements, Appropriate Contract Types and Risk,” will be included in the annual Advance Acquisition
                                                                                                                     Planning conference to emphasize the importance of the acquisition team selecting the appropriate contract
                                                                                                                     type. The IRS will continue to utilize the Contract Review Board established in fiscal year 2008 to review all
                                                                                                                     information technology acquisitions meeting established dollar thresholds.

                                                                                                                     Challenge 8 - Globalization
                                                                                                                     International compliance is a key challenge as reflected by its recent enforcement initiatives, as well as its
                                                                                                                     prominence in the IRS Strategic Plan.

                                                                                                                     The IRS has placed unprecedented focus on detecting and bringing to justice those who hide assets overseas
                                                                                                                     to avoid paying tax. As part of an overall IRS strategy to improve offshore compliance, new initiatives were
                                                                                                                     implemented to identify US taxpayers that engaged in offshore tax evasion schemes.

                                                                                                                     The IRS established an Offshore Voluntary Disclosures/Penalty Framework for taxpayers to voluntarily disclose
                                                                                                                     their offshore activities. The framework provides taxpayers the opportunity to calculate the total cost of resolving
                                                                                                                     all offshore tax issues; become compliant with U.S. tax laws; make voluntary disclosures that will be used to
                                                                                                                     further the IRS understanding of how foreign accounts and foreign entities are promoted to U.S. taxpayers
                                                                                                                     as ways to avoid or evade tax; and provide data to be used in developing additional IRS strategies to inhibit
                                                                                                                     promoters and facilitators from soliciting new clients. Thousands of taxpayers with offshore accounts voluntarily
                                                                                                                     came forward to disclose information as a result of this initiative.

                                                                                                                     In fiscal year 2010, the IRS will continue its focus on international tax enforcement. In addition, the IRS will use
                                                                                                                     audit results and intelligence from ongoing offshore initiatives to refine case identification and selection methods
                                                                                                                     and to identify promoters, facilitators and participants in abusive offshore arrangements. The IRS will also
                                                                                                                     improve the way compliance risks are identified and addressed in large, complex global businesses and high wealth
                                                                                                                     individuals.

                                                                                                                     Challenge 9 - Taxpayer Protection and Rights
                                                                                                                     Taxpayer protection is a top priority for the IRS. In fiscal year 2009, the IRS continued to monitor compliance
                                                                                                                     with the taxpayer rights provisions of the IRS Restructuring and Reform Act of 1998 (RRA 98), including
                                                                                                                     quarterly managerial certifications and annual independent reviews of the RRA 98 Section 1204 provisions.
                                                                                                                     The certification process serves to ensure management does not use enforcement statistics to evaluate employees
                                                                                                                     and drive behavior in conflict with taxpayer rights. As TIGTA indicated in its report, the IRS has shown
                                                                                                                     improvement over prior years that taxpayers were informed of their rights.

                                                                                                                     In fiscal year 2009, the IRS also completed an oversight review/approval process for preparer penalties to ensure
                                                                                                                     uniform and consistent application of penalties; continued efforts to remove or redact Social Security Numbers




262                                                                                                                    APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                                                                        PART 3 • OTHER ACCOMPANYING INFORMATION
                                                       Page 7




from outgoing correspondence; and completed an analysis of excluding all Social Security Administration (SSA)
recipients below certain income levels from the Federal Payment Levy Program.

Actions planned for fiscal year 2010 and beyond include the implementation of a low-income filter that
will exclude taxpayers that are more likely to experience a hardship if included in the Federal Payment Levy
Program. The IRS also will identify parameters for contractors regarding the protection of taxpayer Personally
Identifiable Information (PII) for inclusion in all publishing contracts. Additionally, adoption of a broad set of
recommendations around regulation of tax preparers will be at the forefront of IRS efforts.

Challenge 10 – Leveraging Data to Improve Program Effectiveness and Reduce Costs
In fiscal year 2009, the IRS continued to make significant progress in financial management, particularly in the
development and provision of cost information across multiple business units. As a result, in its audit of the fiscal
year 2009 IRS financial statements, GAO determined that the remaining issues regarding Financial Reporting
no longer constituted a material weakness and that the remaining issues regarding Tax Revenue and Refunds no
longer constituted a significant deficiency.

In fiscal year 2010, the IRS will continue its use of the managerial cost accounting system to conduct cost-benefit
analyses that provide timely, accurate, and useful data for decision making by the major business units.




                           APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES                             263
                                                                                                        D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




264
                                                                   This page left intentionally blank



APPENDIX C — MANAGEMENT AND PERFORMANCE CHALLENGES AND RESPONSES
                                                                                                                     PART 3 • OTHER ACCOMPANYING INFORMATION
Appendix D:
Material Weaknesses, Audit Follow-Up,
Financial Systems, and Recovery Act Risk Management
    This section consists of detailed descriptions of Treasury’s material weakness inventory, including a sum-
    mary of actions taken and planned to resolve the weaknesses; tracking and follow-up activities related to
    Treasury’s GAO, OIG, TIGTA, and the Special Inspector General for the Troubled Asset Relief Program
    audit inventory; an analysis of potential monetary benefits arising from audits performed by Treasury’s
    Inspectors General; an update on Treasury’s financial systems framework; and an overview of Treasury’s
    risk management activities for the implementation of the American Recovery and Reinvestment Act of 2009
    (Recovery Act or ARRA).



 TREASURY’S MATERIAL WEAKNESSES

 Management may declare audit findings or internal situations as a material weakness whenever a condition exists
 that may jeopardize the Treasury mission or continued operations. Reporting on material weaknesses is required
 in these instances by the Federal Managers’ Financial Integrity Act of 1982 (FMFIA) and the Federal Financial
 Management Improvement Act of 1996 (FFMIA).


 FEDERAL MANAGERS’ FINANCIAL INTEGRITY ACT OF 1982 (FMFIA)
 The FMFIA requires agencies to establish and maintain internal control. The Secretary must annually evaluate
 and report on the controls (FMFIA Section 2) and financial systems (FMFIA Section 4 and FFMIA) that protect
 the integrity of federal programs. The requirements of the FMFIA serve as an umbrella under which other re-
 views, evaluations, and audits should be coordinated and considered to support management’s assertion about the
 effectiveness of internal control over operations, financial reporting, and compliance with laws and regulations.

 As of September 30, 2009, Treasury has five material weaknesses under Section 2 of the FMFIA, summarized as
 follows:

  SUMMARY OF FMFIA AND FFMIA MATERIAL WEAKNESSES                SECTION 2        SECTION 4         TOTAL
 Balance at the Beginning of FY 2009                                   4                0                  4
 Closures/Downgrades during FY 2009                                    0                0                  0
 Reassessed during FY 2009                                             0                0                  0
 New MW declared during FY 2009                                        1                0                  1
 Balance at the End of FY 2009                                         5                0                  5




                                                   APPENDIX D — MATERIAL WEAKNESSES, AUDIT FOLLOW-UP,
                                                FINANCIAL SYSTEMS, AND RECOVERY ACT RISK MANAGEMENT
                                                                                                                     265
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Below are detailed descriptions of Treasury’s five material weaknesses:

                                                                                                                      MATERIAL WEAKNESS DESCRIPTION
                                                                                                                      Internal Revenue Service - Improve Modernization Management Controls and Processes

                                                                                                                      The IRS needs to improve its Business Systems Modernization program. Key elements:
                                                                                                                         •	 Assess the recommendations from the Special Studies and Reviews of the Business Modernization program and projects
                                                                                                                         •	 Implement and institutionalize procedures for validating contractor-developed costs and schedules
                                                                                                                         •	 Establish effective contract management practices
                                                                                                                         •	 Complete a human capital strategy
                                                                                                                         •	 Improve configuration management practices

                                                                                                                      Actions Completed                                                                What Remains to be Done
                                                                                                                        ✓✓ Deployed Release 4.2 of the Customer Account Data Engine (CADE)              ❍❍ Allow assessment time to observe long-term effect of actions
                                                                                                                           in January 2009. CADE added capabilities to process prior-year and              completed and demonstrate sustained improved performance
                                                                                                                           decedent returns, remittances, estimated tax payments, requests              ❍❍ Targeted Downgrade/Closure: FY 2011
                                                                                                                           for extensions, and surname changes
                                                                                                                        ✓✓ Deployed Modernized e-File (MeF) release 5.5 that included the
                                                                                                                           redesigned Form 990 (Return of Organization Exempt from Income
                                                                                                                           Tax) in time for the filing season
                                                                                                                        ✓✓ Completed the 2009 releases of Account Management Services
                                                                                                                           (AMS) providing additional real-time changes to CADE


                                                                                                                      MATERIAL WEAKNESS DESCRIPTION
                                                                                                                      Internal Revenue Service - Computer Security

                                                                                                                      The IRS has various computer security controls that need improvement. Key elements:
                                                                                                                         •	 Adequately restrict electronic access to and within computer network operational components
                                                                                                                         •	 Adequately ensure that access to key computer application and systems is limited to authorized persons for authorized purposes
                                                                                                                         •	 Adequately configure system software to ensure the security and integrity of system programs, files, and data
                                                                                                                         •	 Appropriately delineate security roles and responsibilities within functional business operating and program units, as required by the Federal
                                                                                                                            Information Security Management Act
                                                                                                                         •	 Appropriately segregate system administration and security administration responsibilities
                                                                                                                         •	 Sufficiently plan or test the activities required to restore certain critical business systems where unexpected events occur
                                                                                                                         •	 Effectively monitor key networks and systems to identify unauthorized activities and inappropriate system configurations
                                                                                                                         •	 Provide sufficient technical, security-related training to key personnel
                                                                                                                         •	 Certify and accredit 90 percent of all systems

                                                                                                                      Actions Completed                                                                What Remains to be Done
                                                                                                                        ✓✓ Security roles and responsibilities                                          ❍❍ Network access controls
                                                                                                                        ✓✓ Security/System Administration segregation of duties                         ❍❍ Systems/Application controls
                                                                                                                        ✓✓ Security training                                                            ❍❍ Systems software configuration access controls
                                                                                                                        ✓✓ Certification and Accreditation                                              ❍❍ Contingency planning
                                                                                                                                                                                                        ❍❍ Audit trails
                                                                                                                                                                                                        ❍❍ Targeted Downgrade/Closure: FY 2012




266                                                                                                                    APPENDIX D — MATERIAL WEAKNESSES, AUDIT FOLLOW-UP,
                                                                                                                       FINANCIAL SYSTEMS, AND RECOVERY ACT RISK MANAGEMENT
                                                                                                                                                    PART 3 • OTHER ACCOMPANYING INFORMATION
MATERIAL WEAKNESS DESCRIPTION
Internal Revenue Service - Financial Accounting of Revenue – Custodial

The IRS needs to have detail data to support custodial financial reporting of revenue. Key elements:
   •	 Inability to provide detailed support for large types of revenue for employment and excise taxes
   •	 Lack of effective custodial supporting systems/subsidiary detail
   •	 Subsidiary ledger does not track and report one Trust Fund Recovery Penalty (TFRP) balance
   •	 Untimely posting of TFRP assessments and untimely review of TFRP accounts
   •	 Lack of a single, integrated general ledger to account for tax collection activities and the costs of conducting those activities
   •	 IRS’s general ledger for its custodial activities does not use the standard federal accounting classification structure

Actions Completed                                                             What Remains to be Done
  ✓✓ Masterfile Custodial Detail Database (CDDB) Trace ID in production         ❍❍ Completion of CDDB Releases to provide a single, integrated
     and the production of mismatch reports for the reconciliation                 subsidiary ledger using standard federal accounting
     process put in place                                                          classification structure
  ✓✓ Completion of CDDB release to load frozen credits                          ❍❍ Targeted Downgrade/Closure: FY 2010
  ✓✓ Proper crediting of payments to all associated parties on TFRP
     accounts created since October 2001


MATERIAL WEAKNESS DESCRIPTION
Financial Management Service - Consolidated Government-wide Financial Statements

The Federal Government does not have adequate systems, controls, and procedures to properly prepare the Consolidated Government-wide
Financial Statements. Key elements:
•	 The government lacks a process to obtain information to effectively reconcile the reported excess of net costs over revenue with the budget
   deficit, and when applicable, a reported excess of revenue over net costs with a budget surplus
•	 Weaknesses in financial reporting procedures in internal control over the process for preparing the Consolidated Financial Statements



Actions Completed                                                             What Remains to be Done
  ✓✓ Partially reconciled FY 2008 operating revenues with budget                ❍❍ Complete reconciliation of operating revenues to budget
     receipts                                                                      receipts
  ✓✓ Developed a model to provide analysis of unreconciled transactions         ❍❍ Complete reciprocal category for the Treasury General Fund
     that affect the change in net position.                                    ❍❍ Implement changes identified by the Office of the Fiscal
  ✓✓ Accounted for intra-governmental differences through formal                   Assistant Secretary as a result of its review of the Reporting
     consolidating and elimination accounting entries using all                    Entity definitions per the Financial Accounting Standards
     reciprocal fund categories including the General Fund                      ❍❍ Include all disclosures as appropriate
  ✓✓ Federal agencies submit complete closing packages to GAO                   ❍❍ Include all loss contingencies as appropriate
  ✓✓ Established traceability from agency footnotes to the Consolidated         ❍❍ Targeted Downgrade/Closure: FY 2012
     Financial Statements for completeness




                                                                   APPENDIX D — MATERIAL WEAKNESSES, AUDIT FOLLOW-UP,
                                                                FINANCIAL SYSTEMS, AND RECOVERY ACT RISK MANAGEMENT
                                                                                                                                                    267
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     MATERIAL WEAKNESS DESCRIPTION
                                                                                                                     Treasury Departmental Offices - Financial Management Practices

                                                                                                                     The Office of Accounting and Internal Control (AIC) has not fully developed sufficient internal control over the underlying financial data included in the
                                                                                                                     consolidated balance sheet to ensure it is complete and accurate. This is due in part because the financial infrastructure for the financial reporting
                                                                                                                     responsibilities of the Treasury Department is inadequately staffed for such a large and complex Executive Agency. Key elements:
                                                                                                                        •	 AIC has not developed clear, step-by-step procedures for performance of the financial statements analyses or clearly explained and presented the
                                                                                                                           methodogy used for preparation of these analyses.
                                                                                                                        •	 AIC has not clearly documented procedure manuals or process flow documentation.
                                                                                                                        •	 Key senior financial management and budget staff positions were vacant during critical time periods
                                                                                                                        •	 Lack of continuity with historical knowledge and experience caused significant delays in audit deliverables as well as in addressing accounting
                                                                                                                           issues.

                                                                                                                     Actions Completed                                                              What Remains to be Done
                                                                                                                       ✓✓ Initiated development of standard operating procedures and cross-           ❍❍ Study existing analytical and review processes, then develop/revise
                                                                                                                          training of staff on financial statement process                               policy and procedures
                                                                                                                       ✓✓ Filled AIC credit reform accountant and two senior accounting               ❍❍ Fill two new AIC accountant positions
                                                                                                                          positions                                                                   ❍❍ Review current funding, staffing, skill competencies, contract
                                                                                                                       ✓✓ Obtained authorization for two additional staff accountant positions           support, and training, and determine proper levels needed to fully
                                                                                                                          in AIC                                                                         perform daily operations
                                                                                                                       ✓✓ Filled three staff positions in the Office of Financial Management          ❍❍ Based on results of review, hire additional staff, establish additional
                                                                                                                       ✓✓ Filled two Budget Execution positions                                          contract service support, and/or establish agreements with Treasury
                                                                                                                                                                                                         bureaus for detailees
                                                                                                                       ✓✓ Brought contractors aboard to assist with GSE transactions
                                                                                                                                                                                                      ❍❍ Provide additional training and guidance to staff
                                                                                                                                                                                                      ❍❍ Targeted Downgrade/Closure: FY 2010




268                                                                                                                   APPENDIX D — MATERIAL WEAKNESSES, AUDIT FOLLOW-UP,
                                                                                                                      FINANCIAL SYSTEMS, AND RECOVERY ACT RISK MANAGEMENT
                                                                                                                        PART 3 • OTHER ACCOMPANYING INFORMATION
AUDIT FOLLOW-UP ACTIVITIES
During fiscal year 2009, Treasury placed renewed emphasis on both the general administration of internal control
issues throughout the Department and the timely resolution of findings and recommendations identified by the
Office of the Inspector General (OIG), the Treasury Inspector General for Tax Administration (TIGTA), the
Special Inspector General for the Troubled Asset Relief Program (SIG TARP), the Government Accountability
Office, and external auditors. During the year, Treasury continued to implement enhancements to the track-
ing system called the “Joint Audit Management Enterprise System” (JAMES). JAMES is a Department-wide,
interactive, web-based system accessible to the OIG, TIGTA, SIG TARP, bureau management, Departmental
management, and others. The system tracks information on audit reports from issuance through completion of all
corrective actions required to address findings and recommendations contained in an audit report. JAMES is the
official system of record for Treasury’s internal control program.


POTENTIAL MONETARY BENEFITS
The Inspector General Act Amendments of 1988, Public Law 101-504, require the Inspectors General and the
Secretaries of Executive Agencies and Departments to submit semiannual reports to the Congress on actions
taken on audit reports issued that identify potential monetary benefits. The Department consolidates and ana-
lyzes all relevant information for inclusion in this report. The information contained in this section represents a
consolidation of information provided separately by the OIG, TIGTA, and Department management.

In the course of their audits, the Inspectors General periodically identify questioned costs, make recommenda-
tions that funds be put to better use, and identify measures that demonstrate the value of audit recommendations
to tax administration and business operations. “Questioned costs” include:
 •	 a cost that is questioned because of an alleged violation of a provision of a law, regulation, contract, or other
    requirement governing the expenditure of funds
 •	 a finding, at the time of the audit, that such costs are not supported by adequate documentation (i.e., an
    unsupported cost)
 •	 a finding that expenditure of funds for the intended purpose is unnecessary or unreasonable

The Department regularly reviews progress made by the bureaus in realizing potential monetary benefits identified
in audit reports, and coordinates with the auditors as necessary to ensure the consistency and integrity of informa-
tion on monetary benefit recommendations being tracked.

The statistical data in the following summary table and charts represent audit report activity for the period from
October 1, 2008 through September 30, 2009. The data reflect information on reports that identified potential
monetary benefits issued by the OIG and TIGTA.




                                                   APPENDIX D — MATERIAL WEAKNESSES, AUDIT FOLLOW-UP,
                                                FINANCIAL SYSTEMS, AND RECOVERY ACT RISK MANAGEMENT
                                                                                                                        269
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                      AUDIT REPORT ACTIVITY WITH POTENTIAL MONETARY BENEFITS FOR WHICH MANAGEMENT HAS IDENTIFIED
                                                                                                                      CORRECTIVE ACTIONS (OIG AND TIGTA)
                                                                                                                      OCTOBER 1, 2008 THROUGH SEPTEMBER 30, 2009
                                                                                                                      (DOLLARS IN MILLIONS)

                                                                                                                                                          Disallowed Costs              Better Used Funds                    Revenue Enhancements                               Totals
                                                                                                                                                          Reports          Dollars       Reports              Dollars            Reports             Dollars       Report Total          Total Dollars
                                                                                                                     Beginning Balance                          11     $     35.1               41       $     17.21                 10      $         753.2                25         $        805.5
                                                                                                                     New Reports                                 9             2.9              5            9,058.9                 11             2,766.2                 25                 11,828
                                                                                                                     Total                                     20            38.0               9            9,076.1                 21             3,519.4                 50                12,633.5
                                                                                                                     Reports Closed                            10              1.1              3            8,917.0                 10                983.1                23                 9,901.2
                                                                                                                     a. Realized or Actual                       6              .7              1                  .1                 3                 12.2                10                   13.0
                                                                                                                     b. Unrealized - Written off                 5              .4              2            8,916.9   2
                                                                                                                                                                                                                                      7                970.9   3
                                                                                                                                                                                                                                                                            14                 9,888.2
                                                                                                                     Ending Balance                             10     $     36.9               6       $      159.1                 11      $      2,536.3                 27         $       2,732.3
                                                                                                                     1
                                                                                                                         The beginning balances for better used funds were adjusted to reflect TIGTA’s removal of one report for $3.7 million.
                                                                                                                     2
                                                                                                                         This category includes two reports, with $8,916.9 million written off, for which IRS management did not concur with TIGTA’s projected benefits.
                                                                                                                     3
                                                                                                                         This category includes four reports, with $939.3 million written off, for which IRS management was undecided or did not concur with TIGTA’s projected
                                                                                                                         benefits.


                                                                                                                     The following table provides a snapshot of OIG and TIGTA audit reports with significant recommendations
                                                                                                                     reported in previous semiannual reports for which corrective actions had not been completed as of September 30,
                                                                                                                     2008, and September 30, 2009, respectively. OIG and TIGTA define as “significant” any recommendation open
                                                                                                                     for more then one year. There were no “Undecided Audit Recommendations” during the same periods.

                                                                                                                      SIGNIFICANT UNIMPLEMENTED RECOMMENDATIONS
                                                                                                                                                                                                       9/30/2008                                                    9/30/2009
                                                                                                                                                                                          OIG                              TIGTA                        OIG                         TIGTA
                                                                                                                                                                                     No. of Reports                No. of Reports                  No. of Reports               No. of Reports
                                                                                                                     Unimplemented                                                         6                                40                           8                               26


                                                                                                                     The following table presents a summary of OIG and TIGTA audit reports that were open for more than a year
                                                                                                                     with potential monetary benefits at the end of fiscal years 2007, 2008, and 2009.

                                                                                                                      NUMBER OF REPORTS WITH POTENTIAL MONETARY BENEFITS OPEN FOR MORE THAN ONE YEAR
                                                                                                                                                             AFR Report Year                         9/30/2007                             9/30/2008                         9/30/2009
                                                                                                                     OIG                                      No. of Reports                            1                                     1                                    0
                                                                                                                                                           $ Projected Benefits                 $29.4 million                          $29.4 million                         $0 million
                                                                                                                     TIGTA                                    No. of Reports                            10                                    12                                   10
                                                                                                                                                           $ Projected Benefits                 $ 66.5 million                         $661.5 million                      $673.8 million




                                                                                                                     The following tables present a summary of TIGTA audit reports, broken out by year of report issuance, on which
                                                                                                                     management decisions were made on or before September 30, 2008, but the final actions had not been taken as
                                                                                                                     of September 30, 2009. (Note: There are no OIG audit reports for this category.)



270                                                                                                                      APPENDIX D — MATERIAL WEAKNESSES, AUDIT FOLLOW-UP,
                                                                                                                         FINANCIAL SYSTEMS, AND RECOVERY ACT RISK MANAGEMENT
                                                                                                                                              PART 3 • OTHER ACCOMPANYING INFORMATION
DETAILS OF THE AUDIT REPORTS WITH POTENTIAL MONETARY BENEFITS ON WHICH MANAGEMENT DECISIONS WERE
MADE ON OR BEFORE SEPTEMBER 30, 2008, BUT FINAL ACTIONS HAVE NOT BEEN TAKEN AS OF SEPTEMBER 30, 2009
(DOLLARS IN THOUSANDS)
                                                                                           Funds
                                                                                           Put to    Revenue
            Report          Report Issue                                     Disallowed    Better    Enhance-
 Bureau     Number             Date              Brief Description              Costs       Use        ment       Total         Due Date
IRS       2004-20-142       8/26/2004      The IRS should ensure the                         200.0                  200.0 Due
                                           Storage Strategy Study                                                         12/31/2010
                                           addresses the data storage
                                           capacity deficiency and
                                           recommends a cost-effective
                                           virtual tape system solution to
                                           reduce maintenance and tape
                                           shipping costs.
FY 2004                 1                                                                    200.0                  200.0
IRS       2006-1c-142       9/25/2006      The IRS Contracting Officer          32,373.8                          32,373.8 Delayed to
                                           (CO) should use the results of                                                  9/30/2010
                                           the Defense Contract Auditing
                                           Agency (DCAA) report to fulfill
                                           his/her duties in awarding and
                                           administering contracts.
FY 2006                 1                                                       32,373.8                          32,373.8
IRS       2007-1c-040       3/8/2007       The IRS CO will work with               103.6                            103.6 Due
                                           DCAA and the contractor to                                                     2/15/2010
                                           resolve the questioned costs
                                           applicable to IRS contracts.
IRS       2007-1c-041       3/8/2007       The IRS CO will work with             2,247.0                           2,247.0 Due
                                           DCAA and the contractor to                                                      3/15/2010
                                           resolve the questioned costs
                                           applicable to IRS contracts.
IRS       2007-30-062       3/30/2007      Ensure the revised Form 4137                              541,124.0   541,124.0 Delayed to
                                           is used effectively to identify                                                 1/15/2010
                                           and assess the employer’s
                                           share of Social Security and
                                           Medicare taxes on unreported
                                           tip income.
IRS       2007-1c-149       9/24/2007      The IRS CO will work with                62.2                              62.2 Due
                                           DCAA and the contractor to                                                      9/15/2010
                                           resolve the questioned costs
                                           applicable to IRS contracts.
IRS       2007-1c-154       9/24/2007      The IRS CO will work with                 1.2                                  1.2 Due
                                           DCAA and the contractor to                                                         9/15/2010
                                           resolve the questioned costs
                                           applicable to IRS contracts.
FY 2007                 5                                                        2,414.0             541,124.0   543,538.0
IRS       2008-30-155       8/22/2008      The IRS should revise                              36.2                    36.2 Due
                                           computer programming to                                                         1/15/2010
                                           automatically reissue an
                                           undelivered refund check when
                                           an address change is reflected
                                           on a taxpayer’s account.
                                                                                                                     Continued on next page




                                                             APPENDIX D — MATERIAL WEAKNESSES, AUDIT FOLLOW-UP,
                                                          FINANCIAL SYSTEMS, AND RECOVERY ACT RISK MANAGEMENT
                                                                                                                                              271
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     DETAILS OF THE AUDIT REPORTS WITH POTENTIAL MONETARY BENEFITS ON WHICH MANAGEMENT DECISIONS WERE
                                                                                                                     MADE ON OR BEFORE SEPTEMBER 30, 2008, BUT FINAL ACTIONS HAVE NOT BEEN TAKEN AS OF SEPTEMBER 30, 2009
                                                                                                                     (DOLLARS IN THOUSANDS)
                                                                                                                                                                                                              Funds
                                                                                                                                                                                                              Put to    Revenue
                                                                                                                                 Report          Report Issue                                   Disallowed    Better    Enhance-
                                                                                                                      Bureau     Number             Date              Brief Description            Costs       Use        ment       Total      Due Date
                                                                                                                     IRS       2008-40-087       3/28/2008      The IRS should develop and                               52,100.0    52,100.0 Due
                                                                                                                                                                implement strategies to bring                                                 1/15/2010
                                                                                                                                                                noncompliant taxpayers back
                                                                                                                                                                into compliance.
                                                                                                                                                                The IRS should consider using                                94.4        94.4 Due
                                                                                                                                                                the indicator shown on Form                                                   1/15/2010
                                                                                                                                                                5498 to identify taxpayers
                                                                                                                                                                who are subject to required
                                                                                                                                                                minimum distributions.
                                                                                                                     IRS       2008-40-167       8/29/2008      The IRS should develop a                                 45,500.0    45,500.0 Due
                                                                                                                                                                process to identify those                                                     12/15/2009
                                                                                                                                                                employers that do not
                                                                                                                                                                adequately withhold taxes
                                                                                                                                                                from their employees after
                                                                                                                                                                receiving a lock-in letter.
                                                                                                                     FY 2008                 3                                                                   36.2    97,694.4    97,730.6
                                                                                                                     TOTAL                10                                                       34,787.8     236.2   638,818.4   673,842.4




272                                                                                                                   APPENDIX D — MATERIAL WEAKNESSES, AUDIT FOLLOW-UP,
                                                                                                                      FINANCIAL SYSTEMS, AND RECOVERY ACT RISK MANAGEMENT
                                                                                                                    PART 3 • OTHER ACCOMPANYING INFORMATION
FINANCIAL MANAGEMENT SYSTEMS FRAMEWORK

Overview
The Department of the Treasury’s financial management systems structure consists of financial and mixed systems
maintained by the Treasury bureaus and the Department-wide Financial Analysis and Reporting System (FARS).
The bureau systems process and record the detailed financial transactions and submit summary-level data to FARS
on a scheduled basis. FARS maintains the key financial data necessary for consolidated financial reporting. In
addition, the FARS modules maintain data on performance management and the status of audit-based correc-
tive actions. Under this systems structure, the bureaus are able to maintain financial management systems that
meet their specific business requirements. On a scheduled basis, the required financial and performance data are
submitted to FARS to meet Departmental analysis and reporting requirements. The Department uses FARS to
produce its periodic financial and performance reports as well as the annual Agency Financial Report (AFR) and
the Annual Performance Report (APR). This structured financial systems environment enables Treasury to receive
an unqualified audit opinion and supports its required financial management reporting and analysis requirements.

The FARS structure consists of the following components:
 •	 Bureau core and financial management systems - process and record detailed financial transactions
 •	 Treasury Information Executive Repository (TIER) - consolidates bureau financial data
 •	 CFO Vision - produces monthly financial statements and performs financial analysis
 •	 Joint Audit Management Enterprise System (JAMES) - tracks information on audit findings, recommenda-
    tions, and planned corrective actions
 •	 Performance Reporting System (PRS) - tracks the status of key performance measures

Bureaus submit summary-level financial data to TIER on a monthly basis, within three business days of the
month-end. These data are then used by CFO Vision to generate financial statements and reports on both a
Department-wide and bureau-level basis. This structure enables the Department to produce its audited annual
financial statements and monthly management reports. During fiscal year 2009, Treasury continued to upgrade
its FARS applications to take advantage of improvements in system technology. This included completing the roll-
out of CFO Vision to Treasury bureaus. CFO Vision provides the bureaus with direct system access for enhanced
reporting capabilities and financial analysis.

The Department continues to eliminate redundant and outdated financial management systems with the goal of
consolidating financial management activities to improve productivity. As of September 30, 2009, the number of
financial management systems decreased to 55, down from 60 at the end of fiscal year 2008. This reduction is due
in part to bureaus migrating to the Bureau of the Public Debt Administrative Resource Center (BPD ARC) for
these services.

As part of the Department’s enhancement effort, 14 Treasury bureaus and reporting entities are cross-serviced for
core financial systems by BPD ARC. Cross-servicing enables these bureaus to have access to core financial systems
without having to maintain the necessary technical and systems architectures. In an effort to continue to stream-
line its financial systems environment, Treasury will work with the remaining bureaus to develop plans to migrate
to Treasury’s Shared Service Provider for core financial systems in accordance with the Financial Management




                                                 APPENDIX D — MATERIAL WEAKNESSES, AUDIT FOLLOW-UP,
                                              FINANCIAL SYSTEMS, AND RECOVERY ACT RISK MANAGEMENT
                                                                                                                    273
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     Line of Business requirements. In addition, as part of the Department’s implementation of the e-Travel initiative,
                                                                                                                     bureaus have eliminated their legacy travel systems.

                                                                                                                     In fiscal year 2009, to improve management’s decision making process concerning the FARS applications projects,
                                                                                                                     Treasury enhanced its risk management controls. Treasury identifies and monitors the risks and the potential
                                                                                                                     threats to the FARS applications, surveys FARS customers to measure application satisfaction, and identifies areas
                                                                                                                     needing improvement. The Department continues to modernize the capabilities of the FARS applications by
                                                                                                                     implementing solutions to provide timely and useful financial and program data. FARS applications have been
                                                                                                                     expanded to support new organizations and new functionality as the Department has assumed new responsibili-
                                                                                                                     ties resulting from the recent economic conditions. For example, Treasury expanded the JAMES to support
                                                                                                                     the initiatives of the Office of the Special Inspector General for Trouble Asset Relief Program (SIGTARP), the
                                                                                                                     Internal Revenue Service/Taxpayer Advocate Service, and the Office of Financial Stability (OFS). To support
                                                                                                                     OFS’s financial reporting needs, the FARS application CFO Vision was modified to produce stand-alone finan-
                                                                                                                     cial statements for OFS. This expanded use of CFO Vision, combined with OFS’s use of a cross-serviced core
                                                                                                                     financial system provided by BPD ARC, reduces the need for OFS to develop or purchase its own core financial
                                                                                                                     system.

                                                                                                                     Continued Improvement
                                                                                                                     Treasury’s target financial management systems structure continues to build upon the current FARS foundation.
                                                                                                                     Over the years, FARS has been enhanced to support new financial and performance requirements. FARS continues
                                                                                                                     to provide management with the appropriate tools needed to align with the Department’s goals and objectives.

                                                                                                                     Treasury completed the rollout of CFO Vision to the bureaus, modified FARS to support the requirements of
                                                                                                                     the new Troubled Asset Relief Program (TARP), enhanced TIER to support the month-end financial close and
                                                                                                                     preparation of the monthly financial statements and reports, and established a disaster recovery site for the FARS
                                                                                                                     applications to provide business continuity in case of an emergency or disaster.

                                                                                                                     The Internal Revenue Service (IRS) continued work on the Integrated Financial System (IFS). IFS is the IRS’s
                                                                                                                     administrative financial management system. It accounts for $11.5 billion in IRS funding and provides timely
                                                                                                                     financial statements for budgeting, analysis, and government-wide reporting. Fiscal year 2009 IFS accomplish-
                                                                                                                     ments include:
                                                                                                                      •	 Interfaced with GovTrip, the Department’s automated travel system
                                                                                                                      •	 Significantly reduced user access to the mainframe by migrating legacy system reports to the business ware-
                                                                                                                         house, retired legacy processes, and trained users on reporting capabilities
                                                                                                                      •	 Implemented automated tax withholding for employee tuition assistance, created employee invoices, and
                                                                                                                         automatically posted all payments received through pay.gov (Treasury’s secure electronic payments system to
                                                                                                                         federal agencies)
                                                                                                                      •	 Updated contingency plans, and completed penetration and disaster recovery testing
                                                                                                                      •	 Exceeded the average system uptime target of 97 percent.

                                                                                                                     The IRS successfully deployed the Customer Account Data Engine (CADE), Release 4.2 in January 2009. CADE
                                                                                                                     is used to electronically process tax returns. With the implementation of Release 4.2, capabilities were added
                                                                                                                     to process prior year and decedent returns, remittances, estimated tax payments, requests for extensions, and




274                                                                                                                    APPENDIX D — MATERIAL WEAKNESSES, AUDIT FOLLOW-UP,
                                                                                                                       FINANCIAL SYSTEMS, AND RECOVERY ACT RISK MANAGEMENT
                                                                                                                          PART 3 • OTHER ACCOMPANYING INFORMATION
surname changes. In fiscal year 2009, CADE processed over 40 million returns, issued more than 34.9 million
refunds using a modernized account database, and processed over 7 million payments totaling $58.6 billion. The
IRS developed a comprehensive Audit Trail Plan and requirements for CADE, which are necessary to account for
assets and processes across the IRS.

As previously indicated, BPD ARC cross-services 14 Treasury bureaus and reporting entities for core financial
systems. In addition to the cross-servicing for core financial systems, Treasury bureaus are also cross-serviced for
other financial management services, such as electronic travel and human resource processing. This cross-servicing
has resulted in a reduction in the number of financial management systems maintained by the Department. In
fiscal year 2009, BPD ARC’s accomplishments include:
 •	 Selected by OMB as one of four government Shared Service Centers to perform information technology sys-
    tem Certification and Accreditation work under the Information Systems Security Line of Business (ISSLOB)
    initiative
 •	 Provided system and processing support to 14 of Treasury’s bureaus for human resource management and
    travel management
 •	 Utilized information technology services to implement best practices for managing IT operations and
    improving quality and support in a cost effective manner
 •	 Conducted a customer satisfaction survey - two-thirds of the customer agencies responded and the results
    showed an overall customer satisfaction score of 89 percent
 •	 Enhanced GovTrip, Treasury’s electronic travel system, to improve audit and expense descriptions and added
    new functionality to support user needs and improve security
 •	 Participated in the Department of the Treasury’s annual continuity exercise to assess BPD ARC’s ability to
    perform essential functions during various emergency scenarios, and identified areas for improvement


FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT (FFMIA)
COMPLIANCE
As of September 30, 2009, the Department of the Treasury’s financial management systems were not in sub-
stantial compliance with FFMIA due to deficiencies with the IRS’s financial management systems. The IRS has
a remediation plan in place to correct the deficiencies. For each FFMIA recommendation, the remediation plan
identifies specific remedies, target dates, responsible officials, and resource estimates required for completion. This
plan is reviewed and updated quarterly.

The IRS made significant progress in fiscal year 2009 toward the financial management systems being in FFMIA
compliance by implementing the final release of the Custodial Detail Database (CDDB). CDDB contains detailed
records of IRS revenue, refunds, and unpaid assessments. It addresses an IRS material weakness by providing detail
data to support custodial financial reporting and was used by GAO during the fiscal year 2009 financial statements
audit.

The IRS developed and tested a replacement revenue accounting system that is planned for implementation in
fiscal year 2010. This system was designed to incorporate the United States Standard General Ledger (USSGL);
and add traceability between the revenue, refunds, and unpaid assessments summary record and the IRS process-
ing system’s detail records.




                                                    APPENDIX D — MATERIAL WEAKNESSES, AUDIT FOLLOW-UP,
                                                 FINANCIAL SYSTEMS, AND RECOVERY ACT RISK MANAGEMENT
                                                                                                                          275
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     RECOVERY ACT RISK MANAGEMENT ACTIVITIES

                                                                                                                     Upon the enactment of the Recovery Act in February 2009, just weeks after the new Administration took office,
                                                                                                                     Treasury quickly designed and implemented a robust risk management program to support the Department’s
                                                                                                                     implementation of the Act. Following OMB’s Recovery Act implementation guidance, Treasury required the
                                                                                                                     programs’ senior accountable officials in the bureaus to certify that they had taken the following actions for each
                                                                                                                     Recovery Act program:
                                                                                                                      •	 Identified and documented program-specific risks
                                                                                                                      •	 Identified and documented applicable current process internal controls
                                                                                                                      •	 Determined the risk level (high, medium, or low) by using Treasury’s Recovery Act risk and impact assess-
                                                                                                                         ment questionnaire
                                                                                                                      •	 Determined additional controls needed, if any
                                                                                                                      •	 Developed (or updated existing) and implemented a risk mitigation plan for each program with a risk level of
                                                                                                                         medium or high
                                                                                                                      •	 Performed ongoing monitoring and testing

                                                                                                                     Treasury created a Recovery Act Risk Management Council that meets monthly to discuss the progress and status
                                                                                                                     of each bureau’s Recovery Act risk management activities.




276                                                                                                                    APPENDIX D — MATERIAL WEAKNESSES, AUDIT FOLLOW-UP,
                                                                                                                       FINANCIAL SYSTEMS, AND RECOVERY ACT RISK MANAGEMENT
                                                                                                                         PART 3 • OTHER ACCOMPANYING INFORMATION
Appendix E
Glossary of Acronyms
 GLOSSARY OF ACRONYMS
 ABS            Asset-Backed Securities
 AFR            Agency Financial Report
 AGP            Asset Guarantee Program
 AIFP           Automotive Industry Financing Program
 AIG            American International Group
 AIIP           Automotive Industry Investment Program
 APR            Annual Performance Report
 ARC            Administrative Resource Center
 ASC            Accounting Standards Codification
 ASM/CFO        Assistant Secretary for Management & Chief Financial Officer
 BEP            Bureau of Engraving and Printing
 BPD            Bureau of the Public Debt
 BSA            Bank Secrecy Act
 BSM            Business Systems Modernization
 CADE           Customer Account Data Engine
 CAP            Competitiveness Assessment Process
 CAP            Capital Assessment Program
 CBLI           Consumer and Business Lending Initiative
 CDDB           Custodial Detail Database
 CDE            Community Development Entities
 CDFI           Community Development Financial Institutions
 CDS            Credit Default Swaps
 CFPA           Consumer Financial Protection Agency
 CFO            Chief Financial Officer
 CFS            Consolidated Financial Statements
 CFTC           Commodities Futures Trading Commission
 CMBS           Commercial Mortgage Backed Securities
 CO             Contracting Officer
 COP            Congressional Oversight Panel
 CPP            Capital Purchase Program
 CSRS           Civil Service Retirement System
 CTF            Clean Technology Fund
                                                                                                           (continued)




                                                                               APPENDIX E — GLOSSARY OF ACRONYMS         277
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     GLOSSARY OF ACRONYMS
                                                                                                                     DASHR/CHCO     Office of the Deputy Assistant Secretary for Human Resources/Chief Human Capital Officer
                                                                                                                     DCAA           Defense Contract Auditing Agency
                                                                                                                     DCP            Office of D.C. Pensions
                                                                                                                     DIP            Debtor-in-Possession
                                                                                                                     DO             Departmental Offices
                                                                                                                     DHS            Department of Homeland Security
                                                                                                                     EESA           Emergency Economic Stability Act of 2008
                                                                                                                     EFTPS          Electronic Federal Tax Payment System
                                                                                                                     EGTRRA         Economic Growth and Tax Relief Reconciliation Act
                                                                                                                     EITC           Earned Income Tax Credit
                                                                                                                     ESF            Exchange Stabilization Fund
                                                                                                                     Fannie Mae     Federal National Mortgage Association
                                                                                                                     FARS           Financial Analysis and Reporting System
                                                                                                                     FASAB          Federal Accounting Standards Advisory Board
                                                                                                                     FATF           Financial Action Task Force
                                                                                                                     FCDA           Foreign Currency Denominated Assets
                                                                                                                     FCRA           Federal Credit Reform Act
                                                                                                                     FDIC           Federal Deposit Insurance Corporation
                                                                                                                     FECA           Federal Employees’ Compensation Act
                                                                                                                     FERS           Federal Employees’ Retirement System
                                                                                                                     FEGLI          Federal Employees Group Life Insurance
                                                                                                                     FEHBP          Federal Employees Health Benefits Program
                                                                                                                     FFB            Federal Financing Bank
                                                                                                                     FFMIA          Federal Financial Management Improvement Act
                                                                                                                     FHFA           Federal Housing Finance Agency
                                                                                                                     FHLB           Federal Home Loan Bank
                                                                                                                     FinCEN         Financial Crimes Enforcement Network
                                                                                                                     FMFIA          Federal Managers’ Financial Integrity Act
                                                                                                                     FMIS           Financial Management Information System
                                                                                                                     FMS            Financial Management Service
                                                                                                                     FRB            Federal Reserve Bank
                                                                                                                     FRBNY          Federal Reserve Bank of New York
                                                                                                                     Freddie Mac    Federal Home Loan Mortgage Corporation
                                                                                                                     FTO            Fine Troy Ounce
                                                                                                                     FY             Fiscal Year
                                                                                                                     G-7            Group of Seven
                                                                                                                                                                                                                               (continued)




278                                                                                                                   APPENDIX E — GLOSSARY OF ACRONYMS
                                                                                                               PART 3 • OTHER ACCOMPANYING INFORMATION
GLOSSARY OF ACRONYMS
G-20           Group of Twenty
GAAP           Generally Accepted Accounting Principles
GAB            General Arrangement to Borrow
GAO            Government Accountability Office
GFRA           General Fund Receipt Account
GM             General Motors
GMAC           General Motors Acceptance Corporation
GSA            General Services Administration
GSE            Government Sponsored Enterprises
GSECF          Government Sponsored Enterprise Credit Facility
HAMP           Home Affordable Modification Program
HCTC           Health Coverage Tax Credit
HERA           Housing and Economic Recovery Act
HUD            Department of Housing and Urban Development
IAP            International Assistance Programs
IFS            Integrated Financial System
IMF            International Monetary Fund
IPIA           Improper Payments Information Act
IRACS          Interim Revenue Accounting Control System
IRS            Internal Revenue Service
IT             Information Technology
JAMES          Joint Audit Management Enterprise System
LIBOR-OIS      London Inter-Bank Offered Rate-Overnight Index Swap
MBS            Mortgage-Backed Securities
MDB            Multilateral Development Banks
MeF            Modernized Electronic File
MINT           U.S. Mint
MRADR          Market Risk Adjusted Discount Rate
MV&S           Modernization, Vision, and Strategy
NAB            New Arrangement to Borrow
NACA           Native American CDFI Assistance
NMTC           New Markets Tax Credit
NRC            National Revenue Center
NRP            National Research Program
OCC            Office of the Comptroller of the Currency
OFS            Office of Financial Stability
                                                                                                 (continued)




                                                                     APPENDIX E — GLOSSARY OF ACRONYMS         279
D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




                                                                                                                     GLOSSARY OF ACRONYMS
                                                                                                                     OIG            Office of Inspector General
                                                                                                                     OMB            Office of Management and Budget
                                                                                                                     ONI            Office of National Insurance
                                                                                                                     OPEB           Other Post Employment Benefits
                                                                                                                     OPM            Office of Personnel Management
                                                                                                                     ORB            Other Retirement Benefits
                                                                                                                     OTC            Over-the-Counter
                                                                                                                     OTS            Office of Thrift Supervision
                                                                                                                     PB             President’s Budget
                                                                                                                     PCA            Planned Corrective Actions
                                                                                                                     PP&E           Property, Plant, and Equipment
                                                                                                                     PPIF           Public-Private Investment Fund
                                                                                                                     PPIP           Public-Private Investment Program
                                                                                                                     PSPA           Preferred Stock Purchase Agreements
                                                                                                                     QEO            Qualified Equity Offering
                                                                                                                     QFI            Qualified Financial Institution
                                                                                                                     RRACS          Redesign Revenue Accounting Control System
                                                                                                                     SAR            Suspicious Activity Report
                                                                                                                     SBA            Small Business Administration
                                                                                                                     SBR            Statement of Budgetary Resources
                                                                                                                     SCAP           Supervisory Capital Assessment Program
                                                                                                                     SDR            Special Drawing Rights
                                                                                                                     SEC            Securities and Exchange Commission
                                                                                                                     SED            Strategic Economic Dialogue
                                                                                                                     SFFAS          Statement of Federal Financial Accounting Standards
                                                                                                                     SFP            Supplementary Financing Program
                                                                                                                     SIGTARP        Special Inspector General for TARP
                                                                                                                     SOMA           System Open Market Account
                                                                                                                     SPSPA          Senior Preferred Stock Purchase Agreements
                                                                                                                     SPV            Special Purpose Vehicle
                                                                                                                     SSP            Shared Service Provider
                                                                                                                     SSP            Stable Share Price
                                                                                                                     TAIFF          Troubled Assets Insurance Financing Fund
                                                                                                                     TALF           Term Asset-Backed Securities Loan Facilities
                                                                                                                     TARP           Troubled Asset Relief Program
                                                                                                                     TFF            Treasury Forfeiture Fund
                                                                                                                                                                                          (continued)




280                                                                                                                   APPENDIX E — GLOSSARY OF ACRONYMS
                                                                                                           PART 3 • OTHER ACCOMPANYING INFORMATION
    GLOSSARY OF ACRONYMS
    TIER           Treasury Information Executive Repository
    TIGTA          Treasury Inspector General for Tax Administration
    TIP            Targeted Investment Program
    TIPS           Treasury Inflation-Protected Securities
    TRES           Treasury Retail E-Services
    TRIA           Terrorism Risk Insurance Act
    TTB            Alcohol and Tobacco Tax and Trade Bureau
    USSGL          United States Standard General Ledger
    VITA           Volunteer Income Tax Assistance

	




                                                                       APPENDIX E — GLOSSARY OF ACRONYMS   281
                                                                         D E PA RT M E N T O F T H E T R E A S U RY • AG E N C Y F I N A N C I A L R E P O RT • F I S C A L Y E A R 2 0 0 9




282
APPENDIX E — GLOSSARY OF ACRONYMS
                                    This page left intentionally blank
Website Information
Treasury On-line                 www.treas.gov

Alcohol and Tobacco Tax
and Trade Bureau                 www.ttb.gov

Community Development
Financial Institutions Fund      www.treas.gov/cdfi

Comptroller of the Currency      www.occ.treas.gov

Bureau of Engraving & Printing   www.bep.treas.gov

Financial Crimes
Enforcement Network              www.treas.gov/fincen

Financial Management Service     www.fms.treas.gov

Internal Revenue Service         www.irs.gov

U.S. Mint                        www.usmint.gov

Bureau of the Public Debt        www.publicdebt.treas.gov

Office of Thrift Supervision     www.ots.treas.gov

The Financial Stability Plan     www.financialstability.gov

Help for America’s Homeowners    www.makinghomeaffordable.gov

Recovery Act Spending            www.recovery.gov




                                                                283
www.treas.gov
